No. ____________
IN THE

MARTIN JAMES KIPP,
Petitioner,
v.
RON BROOMFIELD, ACTING WARDEN,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI

CUAUHTEMOC ORTEGA
Federal Public Defender
MARK R. DROZDOWSKI*
CELESTE BACCHI
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org
Attorneys for Petitioner
*Counsel of Record

INDEX TO APPENDIX

1.

Order by Ninth Circuit denying petition for
rehearing and rehearing en banc in
case no. 15-99020, entered 12/21/20 ............................Pet. App. 1

2.

Opinion by Ninth Circuit affirming judgment on
appeal in case no. 15-99020, entered 8/19/20 ............. Pet. App. 2

3.

Judgment in C.D. Cal. case no.
CV 03-8571 PSG, entered 12/2/15 .............................. Pet. App. 35

4.

Order Denying First Amended Petition
for Writ of Habeas Corpus and Motion To
Amend in C.D. Cal. case no. CV 03-8571 PSG,
entered 12/2/15 ............................................................. Pet. App. 36

5.

Order Denying Petitioner’s Motion for
Evidentiary Hearing and Order for Merits
Briefing in C.D. Cal. case no. CV 03-8571 PSG,
entered 4/30/14 ............................................................. Pet. App. 82

6.

Order denying habeas corpus petition in
In re Kipp, California Supreme Court case
no. S129115, filed 6/28/06 ............................................ Pet. App. 175

7.

Order denying habeas corpus petition in
In re Kipp, California Supreme Court
case no. S093369, filed 11/12/03 ...................................Pet. App.176

8.

Opinion in People v. Kipp, California Supreme
Court case no. S009169, affirming judgment on
direct appeal, filed 11/1/01 .......................................... Pet. App.177

9.

Portions of juror questionnaires from
Kipp’s capital trial in Los Angeles County
Superior Court case no. A028286, filed in
C.D. Cal. case no. CV 03-8571 PSG on 8/8/07 ........... Pet. App. 219

i

10.

Declaration of Alan Clow filed in C.D. Cal.
case no. CV 03-8571 PSG on 8/8/07
(signed 8/2/07) .............................................................. Pet. App. 233

11.

Declaration of Algertha Rivers filed in
C.D. Cal. case no. CV 03-8571 PSG on
11/8/04 (signed 4/3/00) ................................................. Pet. App. 236

12.

Prosecution’s closing arguments at the
penalty-phase of Kipp’s capital
trial in Los Angeles County Superior
Court case no. A028286 trial, 1/24/89 ......................... Pet. App. 240

13.

Portion of the jury instructions given at the
penalty-phase of Kipp’s capital trial in
Los Angeles County Superior
Court case no. A no. A028286 trial, 1/24/89 .............. Pet. App. 288

14.

Prosecution Exhibits 43B and 68B admitted
at Kipp’s capital trial in Los Angeles County
Superior Court case no. A028286 on 12/14/88
and 1/23/89, respectively (letters by Kipp dated
9/9/87 and 9/15/87) ....................................................... Pet. App. 292

ii

Case: 15-99020, 12/21/2020, ID: 11934468, DktEntry: 81, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
DEC 21 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MARTIN JAMES KIPP,
Petitioner-Appellant,
v.
RONALD DAVIS, Warden, California State
Prison at San Quentin,

No.

15-99020

D.C. No. 2:03-cv-08571-PSG
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before: PAEZ, MURGUIA, and NGUYEN, Circuit Judges.
The panel has voted to deny the petition for rehearing and rehearing en banc.
The full court has been advised of the petition for rehearing en banc, and no judge
has requested a vote on whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition is DENIED.

Pet. App. 1

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 1 of 33

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MARTIN JAMES KIPP,
Petitioner-Appellant,
v.

No. 15-99020
D.C. No.
2:03-cv-08571PSG

RON DAVIS, Warden, California
State Prison at San Quentin,
Respondent-Appellee.

OPINION

Appeal from the United States District Court
for the Central District of California
Philip S. Gutierrez, District Judge, Presiding
Argued and Submitted March 28, 2019
San Francisco, California
Filed August 19, 2020
Before: Richard A. Paez, Mary H. Murguia, and
Jacqueline H. Nguyen, Circuit Judges.
Opinion by Judge Nguyen

Pet. App. 2

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 2 of 33

2

KIPP V. DAVIS
SUMMARY *

Habeas Corpus / Death Penalty
The panel affirmed the district court’s denial of Martin
James Kipp’s habeas corpus petition challenging his
conviction and death sentence for first-degree murder,
forcible rape, and robbery.
The district court granted a certificate of appealability for
two of Kipp’s claims: (1) that the admission of his
references to Satan in two letters violated his First
Amendment rights; and (2) that his counsel was ineffective
for failing to adequately litigate the admissibility of those
references. The panel expanded the COA as to two
additional claims: (1) that the jury’s use of the Bible during
deliberations violated Kipp’s right to a fair trial; and (2) that
Kipp’s counsel was ineffective by failing to adequately
investigate and present mitigating evidence during the
penalty phase.
Kipp contended that as in Dawson v. Delaware, 503 U.S
159 (1992), the evidence of his references to Satan was not
connected in any way to his crime, and thus its sole relevance
was to show that his beliefs were morally reprehensible,
thereby violating his First Amendment rights. The panel
affirmed the denial of relief on this claim because any
constitutional error was harmless at both the guilt and
penalty phases.

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

Pet. App. 3

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 3 of 33

KIPP V. DAVIS

3

The panel reviewed Kipp’s ineffective-assistance-ofcounsel claims under AEDPA deference. The panel wrote
that because the admission of the Satan references could not
have had substantial and injurious effect or influence in
determining the jury’s verdict, Kipp cannot meet the higher
Strickland standard of prejudice. The panel therefore
affirmed the denial of habeas relief on Kipp’s claim that
counsel was ineffective by failing to competently litigate the
admissibility of the references to Satan. As to Kipp’s claim
that his trial counsel was ineffective during the penalty phase
by failing to adequately investigate and present mitigating
evidence regarding his life, the panel held that the state court
could have reasonably rejected the claim for failing to
adequately establish deficient performance, and could
reasonably have concluded that any deficiency in counsel’s
performance did not prejudice the result.
Applying AEDPA deference, the panel found it
unnecessary to decide whether the use of Bible verses during
jury deliberation constitutes misconduct because the state
court could have reasonably concluded that any error did not
prejudice the jury’s verdict.

COUNSEL
Mark R. Drozdowski (argued), Celeste Bacchi, and Jennifer
Hope Turner, Deputy Public Defenders; Hilary Potashner,
Federal Public Defender; Office of the Federal Public
Defender, Los Angeles, California; for Petitioner-Appellant.
Randall D. Einhorn (argued) and Ronald A. Jakob, Deputy
Attorneys General; Holly D. Wilkens, Supervising Deputy
Attorney General; Julie L. Garland, Senior Assistant
Attorney General; Xavier Becerra, Attorney General; Office

Pet. App. 4

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 4 of 33

4

KIPP V. DAVIS

of the Attorney General, San Diego, California; RespondentAppellee.

OPINION
NGUYEN, Circuit Judge:
Martin James Kipp was sentenced to death following his
conviction for the first-degree murder, forcible rape, and
robbery of 18-year-old Tiffany Frizzell in Long Beach,
California, in September 1983. 1 Kipp appeals the district
court’s denial of his petition for writ of habeas corpus. We
affirm.
I. BACKGROUND 2
A. The Guilt Phase
Tiffany Frizzell was an 18-year-old who had recently left
her home in Indianola, Washington to begin her college
studies at Brooks College. Because her dormitory had not
yet opened to students, she stayed nearby at a Ramada Inn
along the Pacific Coast Highway in Long Beach, California.
Frizzell’s body was discovered on the morning of
Saturday, September 17, 1983, by the housekeeping staff at
1

Kipp was also separately sentenced to death for the murder of
Antaya Yvette Howard in Orange County in December 1983. Kipp’s
federal habeas petition for that conviction and sentence is addressed in a
separate opinion (No. 16-99004).
2
These facts are taken largely from the California Supreme Court’s
opinion in Kipp’s direct appeal, People v. Kipp, 26 Cal. 4th 1100,
33 P.3d 450 (2001).

Pet. App. 5

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 5 of 33

KIPP V. DAVIS

5

the Ramada. Her body was on the neatly made bed, on top
of the sheets and blanket but under the bedspread. She was
naked from the waist down, and a cloth belt had been pulled
tight around her neck. She was also wearing a blouse but no
bra, although a small hook (likely from her missing bra) was
found embedded in the skin of her back. There were no signs
of forced entry into the hotel room and no signs that a
struggle had occurred, but one of her fingernails was broken.
Frizzell’s purse, driver’s license, and around $130 in cash
were found in a dresser in the room. Kipp’s fingerprint was
found on the telephone in the room.
A criminalist found semen and sperm in Frizzell’s vagina
and on her external genital area, but not in her mouth or
rectal area. During her autopsy, the medical examiner
removed the belt from her neck and revealed a deep ligature
mark and scratches consistent with fingernails. There was
also bruising on her abdomen, thigh, and shoulder, as well
as a small abrasion on the back of her left hand, all of which
appeared to have occurred in the 48 hours before her death.
While there was no trauma to the external vaginal or anal
areas, there were indications of sexual intercourse. The
medical examiner found the cause of death to be
asphyxiation due to ligature strangulation.
Two days after her body was found, a gardener in Long
Beach found a bag in some bushes next to an alley, about a
half-mile from the Ramada Inn. The bag contained
Frizzell’s personal items, including a torn bra with a missing
fastener, and a book with Frizzell’s name inside the cover.
Frizzell’s mother identified the items as Frizzell’s, and both
Frizzell’s and Kipp’s fingerprints were found on the book.
About a month after her death, Kipp sold to a pawn shop in
Westminster a stereo and cassette player that Frizzell’s
mother identified at trial as belonging to Frizzell.

Pet. App. 6

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 6 of 33

6

KIPP V. DAVIS

In addition to the above evidence, the prosecution also
introduced evidence to show consciousness of guilt.
Specifically, the jury heard that, after his arrest, Kipp twice
attempted to escape, once from an Orange County jail and
then from a Los Angeles County jail. The first attempt was
planned by Kipp’s then-wife, Linda Anne Kipp, with an
undercover investigator. Linda intended to have her son
climb into the air conditioning ducts and guide Kipp out
through a public restroom. Linda was arrested on April 18,
1987, after she paid $500 to the investigator to assist in the
planned escape. During the second attempt, Kipp was found
in the ceiling of his cell, where he had begun to escape
through a hole. Guards had to pull Kipp out by his legs and
subdue him.
The prosecution also introduced a handwritten letter
postmarked on September 15, 1987 (the “September 15
letter”) that Kipp wrote to his wife Linda, after she was
arrested and jailed for attempting to help him escape. In the
letter, Kipp mostly adulates Linda and their relationship, but
he also referred to the crimes for which he was being tried:
“I killed, raped, sodomized, beat, swore and laughed at those
fucking no good bitches! Yeah! It felt great, because neither
deserved to live anymore.” Kipp also twice referred to
Satan: “Well, ‘Satan’s’ licking both those bitch’s [sic] up
now and laughing. Just like I laughed at my trial the whole
time. . . . We are coming Home Satan!” During closing
argument, the prosecution successfully admitted the letter
into evidence and read aloud a portion of the letter.
The defense called no witnesses and presented no
exhibits at the guilt phase.
The jury found Kipp guilty of robbery, rape, and firstdegree murder. The jury also found true the special
circumstance allegation that the murder occurred in the

Pet. App. 7

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 7 of 33

KIPP V. DAVIS

7

course of a rape. The jury was unable to reach a verdict on
a second special circumstance allegation that the murder
occurred during a robbery.
B. The Penalty Phase
1. Prosecution’s Case in Aggravation
The prosecution’s aggravation case included evidence of
Kipp’s extensive history of violence against women,
including the murder of another young woman, Antaya
Yvette Howard.
The jury first learned that three years before Frizzell’s
murder, Kipp had choked and raped June Martinez, whom
he had met at a bar in Long Beach. Kipp lured her to his
truck, turned on the stereo, and had her shut the door. As she
did so, Kipp drove off, hitting a car on his way out, and
stopped in a residential area. Martinez asked to be taken
back, but he refused, at which point she noticed that there
was no inside door handle on the passenger side. Kipp
pushed her into the back of the truck, which had been
covered with a windowless shell, and started to remove her
clothes. After she began to scream, he put his hand in her
mouth. Kipp began to strangle her when she bit him. He
finished removing her clothes and raped her. Her body had
gone limp and she was unable to breathe. Kipp demanded
that she orally copulate him, and she said she would if he
gave her some fresh air. As soon as he opened the door, she
ran out, flagged down a motorist, and reported the incident
to the police. Martinez had severe bruises on her neck and
wore a neck brace for two weeks after the attack. Kipp was
convicted of felony rape.
In November 1983, shortly after Frizzell’s murder, Kipp
had violently assaulted and threatened to kill his then-

Pet. App. 8

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 8 of 33

8

KIPP V. DAVIS

girlfriend Loveda Newman. During an argument one
morning in the motel room where they had been staying,
Newman had refused to have sex with Kipp; he responded
by punching her in the head and choking her. She told him
she needed to go to the bathroom because she was going to
vomit. When she got to the bathroom, she locked the door
and climbed through the window, although Kipp kicked
down the door as she was escaping. Kipp was later arrested,
but Newman did not press charges because Kipp threatened
to kill her and her son if she did.
Finally, in December 1983, just three months after he
raped and murdered Frizzell, Kipp sexually assaulted and
murdered Antaya Yvette Howard. Howard, who was
19 years old, was seen drinking champagne with Kipp at a
restaurant in Newport Beach, California. A few days later,
a woman called the police because a foul odor was emitting
from a car that had been parked in an alleyway for several
days. The police arrived and found Howard’s badly
decomposed body covered by a blanket in the back of the
car. Her blouse was open and missing two buttons, and her
bra had been rolled up, exposing her breasts. Kipp’s
fingerprints were found on the window of the car’s front
doors, and on a beer can in the front passenger floorboard.
Howard died of asphyxiation due to strangulation, with
trauma to the head contributing to her death. Kipp denied
having known Howard but could not explain the presence of
his fingerprints.
In addition to evidence of Kipp’s violence, the jury heard
that he tried to escape through a hole in the ceiling of the Los
Angeles County jail in January 1988. Upon being detained,
he threatened to kill a sheriff’s sergeant. An officer testified
that Kipp “swore to me and his savior, Satan, [the sergeant]
would be killed in a very big way and a very humiliating

Pet. App. 9

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 9 of 33

KIPP V. DAVIS

9

way. Humiliating to him and his family.” In the ceiling area,
investigators found sharpened objects that could be used as
tools or weapons.
The prosecution also presented expert testimony to
explain the term “dim mak,” which Kipp had used in the
September 15th letter to explain how he killed Howard. The
expert explained that the term “dim mak” literally means
“death touch,” referring to strikes at pressure points to cause
unconsciousness or death.
2. Defense’s Case in Mitigation
The defense presented a substantial mitigation case
during the penalty phase, including dozens of witnesses to
testify to Kipp’s difficult upbringing and expert testimony
regarding the history of the Blackfeet Tribe, of which Kipp
is a member. The defense also called a psychologist to
provide an expert opinion on how challenging aspects of his
life impacted his development.
The jury heard evidence of the Blackfeet Tribe’s bloody
history in the U.S. In the late 1700’s, the Tribe was a
nomadic people who hunted buffalo and lived in teepees.
After Americans began settling and taking over the fur trade,
disease and alcohol spread across the Tribe. Although their
territory was defined by treaty with the United States as of
1855, a gold rush in Montana resulted in invasions and
encroachments on their land. In response to Blackfeet
resistance, a group of soldiers massacred a peaceful
encampment of Blackfeet.
Joe Kipp, a part-Native
American scout who assisted the soldiers during the attack,
tried to stop the attack after realizing at the last minute that
the group was peaceful. The tribe’s chief was killed in the
massacre, and Joe Kipp adopted one of the chief’s sons, who

Pet. App. 10

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 10 of 33

10

KIPP V. DAVIS

would become the grandfather to John Kipp, Martin Kipp’s
adoptive father.
After buffalo began to disappear from Blackfeet lands,
the Tribe suffered starvation and at least 600 died during the
winter of 1882–1883, leaving a small population of around
2,500. The Tribe’s reservation in Montana was reduced in
size, and the Bureau of Indian Affairs began to adopt harsh
regulations aimed at assimilating Native Americans into
White society. When the tribes were allowed to decide
whether to allow the sale of alcohol on their lands, the
Blackfeet opted to permit alcohol, exacerbating the
alcoholism that had developed among their members
returning from World War II. By the time of Kipp’s trial in
1989, 6,000 Blackfeet lived on the Montana reservation,
with an unemployment rate of 60 to 70 percent and an annual
family income of $5,000 per year (less than a third of the
statewide average of $18,000). Members who left the
reservations often experienced low esteem and lost the
support of their communities.
Kipp was born on the Blackfeet Reservation in 1958.
His birth mother, Mary Still Smoking, was a “nervous” and
“paranoid” alcoholic, who was “out drinking most of the
time.” Kipp first lived with his maternal grandmother,
where 12 to 14 children all shared a filthy, two-room house.
The children were neglected, and inebriation and fighting
were common in the house. A psychologist testified that
these conditions caused Kipp to view the world as an
insecure and threatening place and to develop distrust, fear
of people, and sensitivity to rejection or abandonment.
When Kipp was 23 months old, child welfare workers
removed him from the house and placed him with John and
Mildred (also known as Bobbie) Kipp, who were also
members of the Blackfeet Tribe. They lived on a family

Pet. App. 11

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 11 of 33

KIPP V. DAVIS

11

ranch within the reservation that was isolated from the rest
of the community. John Kipp was a large and muscular man,
and a decorated United States Marine Corps serviceman
during World War II. John Kipp was a demanding
perfectionist who always wanted things done his way. When
Kipp arrived, he was small and malnourished, his head had
been shaved off because he had lice, and he had a skin
disease called impetigo. John Kipp at first was unwilling to
accept Kipp into his family, but, after six months, he began
to treat Kipp as his son. Kipp idolized his adoptive father
and tried to live up to his expectations. The psychologist
testified that Kipp was not given the freedom needed to
develop internal controls on his behavior. As a result, Kipp
had difficulty distinguishing his own wants and values from
John’s.
Still, up through his teenage years, Kipp was seen as
“friendly and well mannered,” and an honest, hard worker.
He attended high school in Montana on the Blackfeet
reservation, where he was viewed as gentle, shy with girls,
and a “warm, loving, and respectful young man.” He
competed in cross-country, and his coach described him as
being courteous, trustworthy, and an “all-around good kid to
coach.” John also trained Kipp in boxing.
In 1973, when Kipp was in a car with his uncle and 11year-old cousin Billy, the car crashed and Billy was killed.
John Kipp was fond of Billy and took the incident hard; he
felt responsible because he had sent them to get seed grain
when the accident occurred. John began to drink whiskey
excessively and suffered a stroke. John’s alcoholism also
led his family relationships to deteriorate. John physically
abused Bobbie and Kipp; he broke two of Bobbie’s fingers
when he slammed a door shut on her hand. He became
aggressive and rough, spent his time in bars, and started an

Pet. App. 12

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 12 of 33

12

KIPP V. DAVIS

affair. Bobbie eventually moved away and divorced John,
who remarried.
The psychologist testified that Kipp’s sense of identity
was rooted in his relationship with John.
John’s
deterioration was profoundly frightening to Kipp and
resurfaced his fears and insecurities. Kipp was in a constant
state of emotional turmoil and “lost heart,” leading him to
give up boxing. Kipp moved to his uncle’s house in
Spokane, Washington during his senior year of high school.
When he was 19, he received news that John had died. Kipp
left immediately and drove all night to the ranch. Following
John’s death, a dispute arose over the division of assets
between John’s family and John’s widow. Kipp was caught
in this conflict and unprepared to deal with it. Bobbie ended
up with nothing, and Kipp received $13,000.
Kipp enlisted in the United States Marine Corps, where
the discipline and high standards paralleled his relationship
with John. Although Kipp was considered an outstanding
recruit during boot camp, his performance plummeted when
he was assigned a desk job in Okinawa. Kipp developed an
attitude problem, stole some items, and spent time in the
brig. He also began to abuse alcohol, cocaine, and
methamphetamine. He was transferred to California, where
he raped June Martinez in June 1981. In the following
month, he left his military post without leave and returned to
the Blackfeet reservation in Montana. He began to date a
woman who testified that Kipp was a “gentleman” who was
“really good to her.”
Kipp was arrested for raping Martinez in August 1981.
While in custody awaiting trial, he was sexually assaulted by
other inmates. The experience was profoundly frightening
to Kipp, and he coped by hiding his weakness and
vulnerability.
Still, Kipp adjusted well during his

Pet. App. 13

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 13 of 33

KIPP V. DAVIS

13

incarceration, and Bobbie visited him during that time. But
when he was released in 1983, Kipp continued to lack
direction or identity, and he felt that he had no one with
whom he could discuss his problems. He continued to abuse
alcohol, cocaine, and methamphetamine. The defense
presented an expert psychopharmacologist who testified that
chronic use of these drugs can result in paranoia and is also
associated with violence and suicide.
By the time of the penalty phase of the trial, the defense
psychologist had interviewed Kipp five times between 1984
and 1989. Kipp had admitted to killing Frizzell and Howard,
and he expressed shame, sorrow, and regret for his actions.
Kipp explained to the psychologist that, when he wrote the
September 15th letter to his wife denying that he had any
remorse, he was upset and angry about what had happened
during his trial for the murder of Howard.
The defense called a number of additional witnesses—
Kipp’s family and friends—who expressed their love for
Kipp and urged the jury to spare his life. Another expert
witness testified about the California prison system and
described how individuals sentenced to life without parole
are confined in small modules, where they are constantly
surveilled and escape is virtually impossible. The expert
also testified that individuals sentenced to life terms tend to
be model prisoners, especially after the age of 40.

Pet. App. 14

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 14 of 33

14

KIPP V. DAVIS
3. Prosecution’s Rebuttal

The prosecution introduced a letter from Kipp to his wife
from September 9, 1987 (the “September 9 letter”) 3, in
which he described his machinations for violence and rape
against the female deputies and the district attorneys and
their families. The letter had several references to Satan,
including that Satan had helped rejuvenate his energy to
carry out his intentions.
The jury deliberated for about three days and returned a
death verdict. The trial court denied Kipp’s motion for a new
trial and imposed a death sentence.
C. Post-Trial Proceedings
On automatic direct appeal, the California Supreme
Court affirmed Kipp’s conviction and sentence in a reasoned
opinion, issued on November 1, 2001. People v. Kipp,
26 Cal. 4th 1100, 33 P.3d 450 (2001). The U.S. Supreme
Court denied certiorari. Kipp v. California, 537 U.S. 846
(2002).
Kipp filed his first state habeas petition on December 4,
2000, which the California Supreme Court summarily
denied on November 12, 2003. He filed a second state
habeas petition on November 5, 2004, and three days later
filed a habeas petition in federal court, which the district
court stayed pending the state court’s disposition. On
June 28, 2006, the California Supreme Court issued another
summary denial. He filed an amended federal habeas
petition and moved for an evidentiary hearing. The district
3
Throughout the record, this letter is variously referred to as the
September 7 or September 9 letter. We refer to the letter as the
September 9 letter for consistency.

Pet. App. 15

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 15 of 33

KIPP V. DAVIS

15

court denied the evidentiary hearing and denied Kipp’s
petition. The court granted a certificate of appealability
(“COA”) as to two of Kipp’s claims. Kipp timely appealed.
II. JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction under 28 U.S.C. § 2253, and we
review de novo the district court’s denial of habeas relief.
Godoy v. Spearman, 861 F.3d 956, 961–62 (9th Cir. 2017)
(en banc). Kipp’s federal habeas petition is subject to the
Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”) because it was filed after April 24, 1996. See
White v. Ryan, 895 F.3d 641, 665 (9th Cir. 2018). Under
AEDPA, we may not grant relief on any claim adjudicated
by the state court on the merits unless the decision was
“contrary to, or involved an unreasonable application of,
clearly established Federal law,” 28 U.S.C. § 2254(d)(1), or
“based on an unreasonable determination of the facts in light
of the evidence presented in the State court proceeding,” id.
§ 2254(d)(2). Where a state court summarily denies a claim
without reasoning, we must “determine what arguments or
theories supported or . . . could have supported[] the state
court’s decision[.]” Harrington v. Richter, 562 U.S. 86, 102
(2011). Relief is warranted when the state’s adjudication
was “so lacking in justification that there was an error well
understood and comprehended in existing law beyond any
possibility for fairminded disagreement.” Id. at 103.
The district court granted a COA for two of Kipp’s
claims: (1) that the admission of Kipp’s references to Satan
in two letters violated his First Amendment rights, 4 and
4

The district court did not grant a COA for another reference to
Satan during the penalty phase. A deputy testified that Kipp swore “to
[the deputy] and his savior, Satan,” that he would kill a sergeant “in a

Pet. App. 16

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 16 of 33

16

KIPP V. DAVIS

(2) that his counsel was ineffective for failing to adequately
litigate the admissibility of those references. We treat
Kipp’s opening brief, which addresses several uncertified
issues, as an application to expand the COA, see Fed. R.
App. P. 22(b)(2) and Ninth Cir. R. 22-1(e), and grant the
application as to two additional claims: (1) that the jury’s use
of the Bible during deliberations violated his right to a fair
trial and (2) that Kipp’s counsel was ineffective by failing to
adequately investigate and present mitigating evidence
during the penalty phase. See 28 U.S.C. § 2253(c)(2). We
decline to grant a COA as to the remaining claims.
III.

Discussion
A. First Amendment Claim

Kipp argues that the state’s admission of his references
to “Satan” violated his First Amendment rights, as set forth
by the Supreme Court in Dawson v. Delaware, 503 U.S. 159
(1992). Because we find that any constitutional error was
harmless, we affirm the district court’s denial of habeas
relief on this claim.
1.
Kipp’s First Amendment claim encompasses both the
guilt and penalty phase. During the guilt phase closing
argument, the prosecutor referred to the September 15 letter
that Kipp wrote to his then-wife as a “significant piece of
circumstantial evidence,” and he read an excerpt to the jury:

very big way.” Because “the admissibility of this brief reference to Satan
is not preserved for [state] appellate review[,]” Kipp, 26 Cal. 4th at 1135,
he is procedurally barred from raising it here, and we decline to grant a
COA.

Pet. App. 17

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 17 of 33

KIPP V. DAVIS

17

Page 7 reads in part: “I killed, raped,
sodomized, beat, swore, and laughed at those
fucking no-good bitches. Yeah, it felt great,
because neither deserved to live anymore. . . .
The other little tramp played it off as a
college sweetheart. Hell, she was anything
but that, and a loose fuck to boot. Well,
Satan’s licking both those bitches up now and
laughing.”
The prosecutor then argued:
Ladies and gentlemen, that constitutes an
admission, a rather chilling admission. Part
of that statement that I just read to you alludes
to an act that the defendant may or may not
have committed elsewhere. . . . [Y]ou can
accept that as an admission, a chilling
admission of what occurred in Room 162, the
Ramada Inn, on September 17, 1983.
The next day, after adjourning for the evening, the
prosecutor resumed his argument by referencing the “rather
indelible impression of the looks in [the jury’s] eyes as [he]
read that letter.” He apologized for reading the “distressing”
language from the letter but reminded the jury that it was
Kipp’s “unpleasant” language, not his own. A redacted copy
of the letter was ultimately admitted into evidence,
containing one additional reference: “In our next world we
will celebrate and be on top, first in line to persecute and
execute those would be heaven goers! (We are coming
Home Satan!)”
During the penalty phase, the prosecutor again used the
September 15 letter to cross-examine the defense expert.

Pet. App. 18

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 18 of 33

18

KIPP V. DAVIS

The court also admitted the September 9 letter over the
objection of Kipp’s counsel, allowing certain portions to be
redacted but leaving intact the Satan references. In his
sentencing closing argument, the prosecutor said that he
would not recite the September 15 letter again “because the
language was rough, to say the least,” but argued that it
undermined Kipp’s claims of remorse. He then read a
portion of the September 9 letter to the jury:
“I’d rape and sodomize every woman bitch
deputy and gouge their eyes out. But I would
let them live as invalids. Yeah, Satan will
lick them all up in a tredge [sic] of horror.
They better not ever give[] me the
opportunity to escape, because I’ll associate
myself with a terrorist group and really go on
a spree. I’d kill every DA and his family,
deputies, men and women alike, and I’d
gouge every one of their . . . fucking eyes out.
After I got to 400 to 500 killings of this type,
I’d also incorporate some ninja-type murders
by poison. Yeah, I don’t believe in God
anymore, because their [sic] isn’t one who
has ever helped me. But Satan has helped me
rejuvenate my energy in a working manner.
Don’t ever underestimate my intentions,
babe, that’s all I can say.”
He argued:
. . . When you consider these two letters with
the language the defendant used in
conjunction with that one 1988 escape
attempt, you have a pretty consistent notion

Pet. App. 19

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 19 of 33

KIPP V. DAVIS

19

of what is going on in the defendant’s mind
with regard to remorse.
The prosecutor concluded, “This defendant, this real Martin
Kipp, has murder in his heart, has Satan [in] his soul. And
he had the life’s blood of Tiffany Frizzell and Antaya
Howard on his hands.”
The defense attempted to contextualize the letters by
urging that Kipp had lost all hope, explaining that when Kipp
wrote, “Yeah, I don’t believe in God anymore because there
isn’t one who has ever helped me,” it exemplified how he
was “a man who is down as low as you can go.”
2.
The Supreme Court in Dawson v. Delaware held that the
admission of a defendant’s beliefs and associations at
sentencing violates the First Amendment where it has “no
relevance to the sentencing proceeding.” 503 U.S. at 166.
In Dawson, the prosecution introduced evidence at
sentencing of the petitioner’s affiliation with the Aryan
Brotherhood, as well as evidence suggesting his belief in
Satan. Id. at 162. To supplement the Aryan Brotherhood
evidence, the parties agreed to a stipulation that read: “The
Aryan Brotherhood refers to a white racist prison gang that
began in the 1960’s in California in response to other gangs
of racial minorities. Separate gangs calling themselves the
Aryan Brotherhood now exist in many state prisons
including Delaware.” Id.
The Court held that the evidence was inadmissible
because it “was not tied in any way to the murder,”
especially where “the prosecution did not prove that the
Aryan Brotherhood had committed [or endorsed] any
unlawful or violent acts” such that it would be relevant to

Pet. App. 20

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 20 of 33

20

KIPP V. DAVIS

any aggravating circumstance. Id. at 166. In so holding, the
Court rejected application of a “principle of broad rebuttal”
in this case that would allow introduction of the evidence
solely because Dawson put his character at issue in
mitigation. Id. at 167–68. “[B]ecause the evidence proved
nothing more than Dawson’s abstract beliefs,” and because
it “was employed simply because the jury would find these
beliefs morally reprehensible,” its introduction violated
Dawson’s constitutional rights. Id. at 167.
Kipp contends that, as in Dawson, the evidence of his
references to Satan was not connected in any way to his
crime, and thus its sole relevance was to show that his beliefs
were morally reprehensible. As such, he argues, the
admission of the evidence violated his First Amendment
rights and his conviction must be reversed.
As a preliminary matter, the parties disagree as to the
standard of review that we must apply. Kipp contends that
our review must be de novo because the state court either
unreasonably applied Dawson, see 28 U.S.C. § 2254(d)(1),
or unreasonably determined the facts by assuming that a
belief in Satan represents an “abhorrent value system” that
is unsupported by evidence in the record, see id.
§ 2254(d)(2). The state, on the other hand, argues that
AEDPA deference applies. We need not resolve this issue
because we find that, even on de novo review, Kipp’s claim
fails. We affirm the denial of habeas relief because, even
assuming that the state’s admission of Kipp’s references to
Satan violated his First Amendment rights, the error did not
have a “substantial and injurious effect or influence in

Pet. App. 21

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 21 of 33

KIPP V. DAVIS

21

determining the jury’s verdict.” Brecht v. Abrahamson,
507 U.S. 619, 638 (1993). 5
During the guilt phase, the Satan references were brief
and minor. The prosecutor read aloud a brief portion of
Kipp’s September 15th letter that included “Well, Satan’s
licking both those bitches up now and laughing.” The
prosecutor later reminded the jury of “the rather indelible
impression of the looks in your eyes as I read that letter.”
But there is no indication that the jury’s reaction was to the
brief mention of Satan rather than to the contents of the
letter, which included Kipp’s gruesome and deeply
disturbing descriptions of violence. Moreover, while
discussing how distressing the language was, the prosecutor
focused on the crime rather than any religious implication of
the Satan references: “[M]urder is an unpleasant thing by it’s
very nature. . . . There’s nothing pretty about it.” In the
totality of the prosecutor’s lengthy closing, the references to
Satan comprised a relatively short section that went to
Kipp’s consciousness of guilt.
On the other hand, the evidence supporting Kipp’s
conviction was overwhelming. Kipp’s fingerprints were
found on a telephone in the room where Frizzell’s body was
discovered and on a book owned by her that was later
discovered. Kipp, 26 Cal. 4th at 1110–11. Kipp also pawned
5

We reject Kipp’s contention that a Dawson violation is “structural”
and thus not subject to harmless error review. Kipp cites no supporting
authority, and we are unpersuaded that this type of constitutional
violation satisfies the rationales for a structural error discussed by the
Supreme Court in Weaver v. Massachusetts, 137 S. Ct. 1899, 1907
(2017) (quoting Arizona v. Fulminante, 499 U.S. 279, 310 (1991))
(explaining that “the defining feature of a structural error is that it
‘affect[s] the framework within which the trial proceeds,’ rather than
being ‘simply an error in the trial process itself’”).

Pet. App. 22

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 22 of 33

22

KIPP V. DAVIS

a personal stereo and a cassette player that Frizzell’s mother
identified as her daughter’s. Id. at 1111. Finally, the
prosecutor had Kipp’s own admissions in the September
15th letter that detailed how he “killed, raped, sodomized,
beat, swore and laughed at” the victims. Id. The defense
called no witnesses and offered no exhibits during the guiltphase trial. Kipp, 26 Cal. 4th at 1112. Accordingly, the two
references to Satan introduced during the guilt phase are
wholly inadequate to show a “substantial and injurious
effect” on the jury’s guilty verdict.
The penalty phase likewise involved an insurmountable
sum of aggravating evidence. Kipp argues that the centrality
of the statements in the closing arguments both highlights
their importance and exacerbated their impact. Certainly,
the penalty phase presents a closer question than the guilt
phase. The September 9th letter was introduced for the first
time during closing argument and the prosecutor used the
letters to argue that “this real Martin Kipp, has murder in his
heart, [and] has Satan in his soul.” The jury specifically
requested to see the September 15th letter during the penalty
phase deliberations. And the trial court did not take steps to
ameliorate any impermissible inferences that the jurors
might have drawn from the Satan references. See, e.g.,
United States v. Fell, 531 F.3d 197, 230–31 (2d Cir. 2008)
(finding no prejudice where the trial judge gave a jury
instruction to ignore the defendant’s religious beliefs and
required each juror to certify on the special verdict form that
they had followed that instruction).
Yet, on the other hand, the aggravating circumstances
were overwhelming, and the prosecutor’s methodical
recounting of Kipp’s continuous history of violence was
particularly devastating. The prosecutor recalled the incourt testimony of Martinez, who had survived after Kipp

Pet. App. 23

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 23 of 33

KIPP V. DAVIS

23

kidnapped, raped, and choked her in 1981. Martinez
testified that Kipp had strangled her “to the point that her
body began to go limp, her eyes started to roll back in her
head, and she had one remaining thought which was ‘Dear
God, please don’t let me die like this.’” The prosecution’s
narrative continued with Kipp’s violent assault and
attempted rape of Newman in 1983, whom Kipp had also
choked, but who managed to escape through police
intervention. The prosecutor reminded the jury that
Newman was afraid to press charges because Kipp had
threatened to kill her and her son. The prosecutor then
described Kipp’s brutal murder of Howard, merely three
months after he killed Frizzell, and reminded the jury of a
photograph showing her decomposing body in the car. He
also described the violent way in which Kipp beat Howard
before strangling her to death. Finally, the prosecutor
described Kipp’s attempted escapes from jail, and Kipp’s
assertion that they were lucky he was caught because he was
out to kill. The letters themselves, separate and apart from
the Satan references, paint a picture of a killer who not only
showed no remorse, but who threatened to commit other
depraved acts of violence and torture in the future. In short,
the references to Satan are too minor in light of the other
evidence to have “had substantial and injurious effect or
influence in determining the jury’s verdict.” See Brecht,
507 U.S. at 638. We thus affirm the district court’s denial of
habeas relief for this claim.
B. Ineffective Assistance of Counsel
Kipp argues that his Sixth Amendment right to counsel
was violated because his counsel performed deficiently in a
way that prejudiced him. See Strickland v. Washington,
466 U.S. 668, 687 (1984). Because the state court
adjudicated his ineffective assistance of counsel (“IAC”)

Pet. App. 24

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 24 of 33

24

KIPP V. DAVIS

claim “on the merits for failure to state a prima facie case,”
we review under AEDPA deference. See 28 U.S.C.
§ 2254(d). Our examination of counsel’s performance
“must be highly deferential,” Strickland, 466 U.S. at 689,
and, when conducted through AEDPA’s lens, our review is
“doubly deferential,” Cheney v. Washington, 614 F.3d 987,
995 (9th Cir. 2010) (quoting Yarborough v. Gentry, 540 U.S.
1, 5–6 (2003) (per curiam)). Because the state issued
summary denials as to Kipp’s IAC claims, we must first
“determine what arguments or theories supported or . . .
could have supported[] the state court’s decision,” and then
“ask whether it is possible fairminded jurists could disagree
that those arguments or theories are inconsistent with the
holding in a prior decision of this Court.” Richter, 562 U.S.
at 102.
1.
Kipp contends that his trial counsel “failed to
competently litigate the admissibility of Kipp’s oral and
written references to Satan.” Specifically, Kipp argues that
counsel erred by objecting to the admission of the references
to Satan on evidentiary rather than constitutional grounds.
But because Dawson had not yet been decided, it is
questionable whether any objection on constitutional
grounds would have been successful. See Strickland,
466 U.S. at 688 (holding that deficient performance means
that “counsel’s representation fell below an objective
standard of reasonableness” as measured by “prevailing
professional norms”). Regardless, we need not decide
whether counsel’s performance was deficient because any
error was clearly harmless. As we explained above, the
admission of the Satan references could not have “had
substantial and injurious effect or influence in determining
the jury’s verdict.”
See Brecht, 507 U.S. at 638.

Pet. App. 25

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 25 of 33

KIPP V. DAVIS

25

Accordingly, Kipp cannot meet the higher Strickland
standard of prejudice, requiring a “reasonable probability
that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” 466 U.S. at 694; see
Kyles v. Whitley, 514 U.S. 419, 435–36 (1995) (explaining
that the Strickland test for prejudice imposes a “higher
burden” on the defendant than the Brecht standard). We
therefore affirm denial of habeas relief on this claim.
2.
Kipp also alleges that his trial counsel was ineffective
during the penalty phase by failing to adequately investigate
and present mitigating evidence regarding his life. He
argues that a more thorough investigation would have
uncovered “critical information about Kipp’s history of
prenatal exposure to alcohol, neglect as an infant, severe
physical and emotional abuse and exposure to domestic
violence . . . and escalating reliance on drugs and alcohol.”
We affirm the district court’s denial of this claim because the
California Supreme Court could have reasonably found that
trial counsel’s performance was neither deficient nor
prejudicial to Kipp’s case. See Strickland, 466 U.S. at 687.
As for deficiency, Kipp argues that trial counsel failed to
timely conduct a mitigation investigation, which led to the
defense missing important witnesses and to inadequate
preparation of the witnesses that were put on the stand.
Kipp’s original counsel James Egar declared a conflict on
January 15, 1986. Thereafter, when John Yzurdiaga and
Jeffrey Brodey were appointed to take over, they inherited
an incomplete investigation and considered Laurie Poore,
the original mitigation investigation specialist, to be “in
charge” of the mitigation investigation. However, they did
not contact Poore until almost three years after Egar had
been removed and after jury selection had already begun.

Pet. App. 26

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 26 of 33

26

KIPP V. DAVIS

Poore stated in a declaration that she was “greatly disturbed”
that counsel had waited so long to contact her, and that “it
became apparent . . . that no one had done any work on the
penalty phase investigation” since they were appointed as
counsel. Similarly, the social historian, Craig Haney, who
had interviewed potential witnesses in 1985 and 1986, did
not resume work until after the attorneys contacted him in
1988. Thus, Kipp argues, counsel’s “neglect of the
mitigation investigation until Kipp’s trial had begun” was
deficient performance.
Kipp’s framing of this delay, however, paints an
incomplete picture of the totality of the mitigation
investigation and evidence that was presented to the jury at
the penalty phase. As an initial matter, Kipp had a hand in
creating the “conflict” that arose with Egar by becoming
romantically involved with Egar’s paralegal and
necessitating a transition midstream to Yzurdiaga and
Brodey. 6 Thereafter, while the new attorneys waited a long
time to begin the penalty phase, Poore acknowledged that a
significant amount of work and investigation had already
been conducted. Egar had previously “directed the penalty
phase investigation and took an active role supervising” the
investigators. The new attorneys had Egar’s files and were
in frequent contact with him during their preparation.
This case thus presents facts far different from the cases
cited by Kipp. For example, in Williams v. Taylor, 529 U.S.
362, 395 (2000), the Court found that counsel’s performance
6

As Poore explains it, she began to catch on that a paralegal on the
case “had become romantically involved” with Kipp, in part because the
paralegal began to dress “like what she thought Native Americans looked
like.” Egar fired the paralegal over the improper relationship, and Kipp
may have been persuaded by the paralegal to replace Egar.

Pet. App. 27

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 27 of 33

KIPP V. DAVIS

27

was deficient where preparation for sentencing did not begin
at all until a week beforehand. In In re Lucas, the California
Supreme Court held that counsel was deficient because they
entirely failed to follow-up with witnesses that had
suggested alternative theories of mitigation. 33 Cal. 4th 682,
725 (2004). By contrast, here, the asserted “delay” did not
impede counsel from presenting a substantial case in
mitigation at the penalty phase. Poore was able to
reestablish contact with her witnesses, to persuade twentyone lay witnesses to travel to California and testify, and
(despite some friction with the new attorneys) “conduct[] the
[in-person] interviews with all of the remaining witnesses as
[she] had planned.”
Kipp cites Bemore v. Chappell, 788 F.3d 1151 (9th Cir.
2015), to argue that counsel may still be deficient even if a
substantial case in mitigation was presented at trial. In
Bemore, we held that counsel was deficient despite having
presented over forty witnesses at trial. However, counsel
had been aware of a potential mental impairment theory
suggested by a forensic psychologist but had “truncated” the
inquiry and “put his report in the back of a drawer.” Id.
at 1171–72. By contrast, and as discussed in more detail
below, the allegedly overlooked evidence in this case was
largely duplicative of theories of mitigation that were in fact
presented at trial, detailing the drug and alcohol use, poverty,
and abuse rampant in Kipp’s childhood into his adulthood.
Counsel here did not completely overlook a new, different
theory of mitigation. Accordingly, the state court could have
reasonably rejected Kipp’s IAC claim for failing to
adequately establish deficient performance.
Additionally, the California Supreme Court could have
reasonably concluded that any deficiency in counsel’s
performance did not prejudice the result. To determine

Pet. App. 28

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 28 of 33

28

KIPP V. DAVIS

whether the failure to investigate and present mitigating
evidence prejudiced the defendant, “it is essential to
compare the evidence that actually was presented to the jury
with the evidence that might have been presented had
counsel acted differently.” Bonin v. Calderon, 59 F.3d 815,
834 (9th Cir. 1995). “The standards created by Strickland
and § 2254(d) are both ‘highly deferential,’ and when the
two apply in tandem, review is ‘doubly’ so.” Richter,
562 U.S. at 105 (internal citations omitted).
Here, the defense put forth a substantial case in
mitigation that focused on the tragic circumstances of Kipp’s
personal history. Kipp’s proffered “new” evidence is not
meaningfully different in kind, but rather in detail, and we
hold that any deficiency did not “undermine[] the reliability
of the result.” See Strickland, 466 U.S. at 693.
First, Kipp points to witnesses who could have more
clearly demonstrated that his biological mother, Mary Still
Smoking, drank alcohol while pregnant with him. This
evidence is not meaningfully different from the extensive
evidence of her drinking and alcoholism that was in fact
presented.
Second, Kipp argues that the attorneys failed to
accurately paint a picture of his childhood abuse. Contrary
to the testimony presented at trial that John did not
physically abuse Kipp as a child, Kipp notes that witnesses
could have detailed specific instances of abuse during his
childhood. However, Mildred, John’s wife, denied that John
hit Kipp, and her new declaration only acknowledges that he
“switched from beating [her] to beating” Kipp before he
started high school. At the very least, the additional
evidence from extended family and friends would have
contradicted the testimony of Mildred herself at trial. And,
as the district court noted, the jury did in fact hear about

Pet. App. 29

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 29 of 33

KIPP V. DAVIS

29

several incidents of disturbing and violent physical abuse by
John, such as when he “choked [Petitioner] into
unconsciousness for ten to twenty seconds,” or when, two
days later, he caused Kipp “occipital head trauma because
John hit Petitioner’s head against a nail on a wall.”
Kipp also argues that the attorneys could have presented
much more detailed evidence regarding his drug and alcohol
abuse during his teenage years and escalating through his
military service. This testimony would have merely
duplicated the ample testimony that was already presented
regarding Kipp’s extensive drug and alcohol abuse.
Moreover, as the state argues, not all juries would view this
detailed evidence of drug and alcohol abuse to be mitigating.
In sum, the evidence that Kipp puts forth on habeas
review largely duplicates the evidence that was in fact
presented at trial, while any new information does too little
to counteract the considerable case in aggravation. Because
“fairminded jurists could disagree” whether the addition of
this information would have a “reasonable probability” of
changing the outcome, the district court properly denied this
claim under AEDPA deference. See Richter, 562 U.S. at
102; Strickland, 466 U.S. at 695.
C. Juror Misconduct During the Penalty Phase
Kipp alleges that one of the jurors brought a Bible into
the jury room and discussed various passages with the other
jurors during the penalty phase deliberations. Kipp relies on

Pet. App. 30

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 30 of 33

30

KIPP V. DAVIS

the declaration 7 of juror Algertha Rivers, who stated, in
relevant part:
I recall that during penalty phase
deliberations a female juror with dark,
shoulder-length hair brought in a Bible and
read it to us. She talked about several verses
in the Bible, which she told us would help us
in making a decision. The jurors talked about
standing in judgment of another human
being. There was also discussion of the
verses which state, ‘an eye for an eye’ and
‘judge not lest ye be judged.’ A little over half
of the jurors had a religious background and
strong religious beliefs.
Kipp argues that injecting Bible verses into the jury room
constitutes juror misconduct because the jury improperly
considered “extraneous evidence,” and that the state failed
to show the misconduct was harmless. Because the state
court denied this claim “on the merits for failure to state a
prima facie case for relief,” AEDPA deference applies to our
review of this issue.
The Mattox-Remmer framework set forth by the
Supreme Court governs juror misconduct claims involving
consideration of extraneous evidence during deliberations:
At step one, the court asks whether the
contact was “possibly prejudicial,” meaning
7
We agree with Kipp that the declaration is admissible under Rule
606(b) of the Federal Rules of Evidence, which permits juror testimony
about the consideration of extraneous evidence during deliberations but
not about the effect of such evidence on the verdict.

Pet. App. 31

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 31 of 33

KIPP V. DAVIS

31

it had a “tendency” to be “injurious to the
defendant.” If so, the contact is “deemed
presumptively prejudicial” and the court
proceeds to step two, where the “burden rests
heavily upon the [state] to establish” the
contact was, in fact, “harmless.”
Godoy, 861 F.3d at 959 (quoting Mattox v. United States,
146 U.S. 140, 150 (1892); Remmer v. United States,
347 U.S. 227, 229 (1954)).
This two-step analysis
recognizes “the practical impossibility of shielding jurors
from all contact with the outside world, and also that not all
such contacts risk influencing the verdict.” Id. at 967.
Kipp relies on cases that have applied the Mattox
presumption of prejudice at the second step of the inquiry,
but those cases involve extraneous influences that were
wholly different in kind. For example, in Godoy, a juror had
“‘kept continuous communication’ with the ‘judge friend’
‘about the case’ and passed the judge’s responses on to the
rest of the jury.” Id. at 958. The other cases he cites involve
extraneous influences that are also easily distinguishable
from the Bible verses here. See, e.g., Parker v. Gladden,
385 U.S. 363, 364 (1966) (per curiam) (bailiff’s statement to
jurors); Turner v. Louisiana, 379 U.S. 466, 468–70 (1965)
(government witnesses interacting with jurors); Remmer,
347 U.S. at 228–30 (efforts to bribe juror); Mattox, 146 U.S.
at 150–53 (exposure to newspaper article).
Whether the introduction of the Bible is an
impermissible contact—the first step of the Mattox-Remmer
framework—is still an open question, at least in our circuit.
And circuits that have addressed this question are split.
Compare Oliver v. Quarterman, 541 F.3d 329, 339–40 (5th
Cir. 2008) (citing the Eleventh, First, and Sixth Circuits as

Pet. App. 32

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 32 of 33

32

KIPP V. DAVIS

support that “[m]ost circuits have ruled that when a Bible
itself enters the jury room, the jury has been exposed to an
external influence”) with Robinson v. Polk, 438 F.3d 350,
363–64 (4th Cir. 2006) (holding that the Bible is
distinguishable from other types of external influences
because “reading the Bible is analogous to the situation
where a juror quotes the Bible from memory, which
assuredly would not be considered an improper influence”).
Our circuit has previously opted to resolve juror misconduct
claims involving use of the Bible on prejudice grounds. See,
e.g., Fields v. Brown, 503 F.3d 755, 781 (9th Cir. 2007) (en
banc); Crittenden v. Ayers, 624 F.3d 943, 973 (9th Cir.
2010). Here, we again find it unnecessary to decide the
question of whether use of Bible verses during deliberation
constitutes misconduct because the state court could have
reasonably concluded that any error did not prejudice the
jury’s verdict.
To prevail on his claim in federal habeas review, Kipp
acknowledges that any juror misconduct must have had a
“substantial and injurious effect on the verdict.” See Fields,
503 F.3d at 781; Sassounian v. Roe, 230 F.3d 1097, 1108
(9th Cir. 2000). Applying this standard, we have previously
found harmless error in other cases with even more troubling
use of Bible passages. In Crittenden, the court rejected a
misconduct claim based on a juror’s introduction of the
passage “[w]ho so sheddeth man’s blood by man shall his
blood be shed.” 624 F.3d at 973. In Fields, the juror cited
the same passage, as well as “He that smiteth a man, so that
he dies, shall surely be put to death.” 503 F.3d at 777, n.15.
The Fields court found no prejudice, in part, because there
were Biblical verses in support as well as against imposition
of the death penalty. Id. at 781. Here, the same logic applies:
the verses mentioned in Rivers’s declaration included both
“an eye for an eye” and “judge not lest ye be judged,” verses

Pet. App. 33

Case: 15-99020, 08/19/2020, ID: 11794325, DktEntry: 71-1, Page 33 of 33

KIPP V. DAVIS

33

tending to support opposing views. And, in Fields, “[m]ore
importantly, the jury was instructed to base its decision on
the facts and the law as stated by the judge, regardless of
whether a juror agreed with it. We presume that jurors
follow the instructions.” Fields, 503 F.3d at 781–82. The
jury received similar instructions here.
Moreover, the jury’s sentence of death was supported by
overwhelming aggravation evidence. As discussed above,
the evidence of the extent of Kipp’s violence against women
was devastating, including raping and choking Martinez,
violently assaulting and threatening to kill Newman, and
brutally raping and killing Frizzell and Howard. Kipp twice
tried to escape from jail, showed an utter lack of remorse,
and threatened to commit violent atrocities again in the
future.
Weighing the overwhelming weight of this
aggravating evidence against the purported juror
misconduct, we conclude that any misconduct was harmless.
AFFIRMED.

Pet. App. 34

Case 2:03-cv-08571-PSG Document 178 Filed 12/02/15 Page 1 of 1 Page ID #:27093

1
2
E-FILED 12/2/15
JS-6

3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12

MARTIN JAMES KIPP,
Petitioner,

13

v.

14

RON DAVIS, Warden of California
State Prison at San Quentin,

15

Respondent.

16

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. CV 03-8571 PSG

DEATH PENALTY CASE
JUDGMENT

17
18

Pursuant to the Order Denying First Amended Petition for Writ of Habeas

19

Corpus and Motion to Amend issued simultaneously with this Judgment, IT IS

20

HEREBY ORDERED AND ADJUDGED that the Petition is denied with prejudice

21

and judgment is entered in favor of Respondent and against Petitioner. The Order

22

constitutes final disposition of the Petition by the Court.

23

The Clerk is ordered to enter this judgment.

24
25

Dated: December 2, 2015.

26
27
28

PHILIP S. GUTIERREZ
United States District Judge

Pet. App. 35

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 1 of 46 Page ID #:27047

1
2

E-FILED 12/2/15

3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12

MARTIN JAMES KIPP,
Petitioner,

13

v.

14

RON DAVIS, Warden of California
State Prison at San Quentin,

15

Respondent.

16

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. CV 03-8571 PSG

DEATH PENALTY CASE
ORDER DENYING FIRST
AMENDED PETITION FOR
WRIT OF HABEAS CORPUS
AND MOTION TO AMEND

17
18

Petitioner Martin Kipp was convicted in December 1988 of the first degree

19

murder, forcible rape, and robbery of Tiffany Frizzell in September 1983, with a

20

special circumstance finding that the murder was committed in the course of the

21

rape. At the penalty phase of trial, the prosecution introduced evidence that

22

Petitioner sexually assaulted and murdered Antaya Howard in December 1983,

23

assaulted and raped June Martinez in June 1981, assaulted and threatened to kill

24

Loveda Newman in November 1983, and threatened to kill a sheriff’s sergeant

25

after an unsuccessful attempt to escape from the Los Angeles County jail in

26

January 1988. The jury returned a penalty verdict of death. The California

27

Supreme Court affirmed Petitioner’s conviction and capital sentence. People v.

28

Kipp, 26 Cal. 4th 1100 (2001).

Pet. App. 36

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 2 of 46 Page ID #:27048

1

Petitioner filed state petitions for writs of habeas corpus on December 4,

2

2000 and November 5, 2004, which the California Supreme Court summarily

3

denied on November 12, 2003 and June 28, 2006, respectively. In re Kipp, Case

4

Nos. S093369, S129115. He filed a federal petition for writ of habeas corpus in

5

the instant proceedings on November 8, 2004. Petitioner filed the operative First

6

Amended Petition for Writ of Habeas Corpus on July 5, 2006 (“Pet.”).

7

Petitioner filed a Motion for Evidentiary Hearing on August 8, 2007. In its

8

Order Denying Petitioner’s Motion for Evidentiary Hearing and Order for Further

9

Merits Briefing, the Court denied relief on Claims 1, 3, 14, 18-23, 26, 28(G), 34,

10

and 36, the portion of Claim 15 regarding Forensic Science Services, and the

11

portion of Claim 35 alleging a violation of international law. (Order Denying

12

Petr.’s Mot. for Evid. Hr’g and Order for Merits Briefing, Apr. 30, 2014 (“Order

13

on Mot. for Evid. Hr’g”).) The Court dismissed without prejudice Claim 31 and

14

the portion of Claim 35 alleging that California’s lethal injection procedure

15

violates the United States Constitution. (Id.)

16

The Court ordered the parties to proceed to brief the merits of Petitioner’s

17

remaining claims for relief under 28 U.S.C. § 2254(d). (Id.) The parties

18

completed their briefing on October 19, 2015.

19

During the course of that briefing, a decision in Jones v. Chappell, CV

20

09-2158 CJC, 31 F. Supp. 3d 1050 (C.D. Cal. 2014) held California’s death

21

penalty system to be unconstitutional. On September 19, 2014, Petitioner filed a

22

Motion for Leave to Amend His Petition for Writ of Habeas Corpus, seeking to

23

replace Claim 37 in the Amended Petition with an “updated” version alleging that

24

California’s death penalty system is unconstitutional and citing Jones. (Mot. at 1,

25

3-4.)

26

On November 12, 2015, the Court of Appeals reversed the District Court’s

27

decision in Jones. Jones v. Davis, No. 14-56373, ___ F.3d ___, 2015 WL 6994287

28

(9th Cir. 2015). In light of that decision, the Court denies Petitioner’s Motion to
2
Pet. App. 37

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 3 of 46 Page ID #:27049

1

Amend and his currently pleaded Claim 37. In addition, for the reasons set forth

2

below, the Court denies Petitioner’s remaining claims for relief.

3

I.

Claim 2: Profound Mental Illness and Cruel and Unusual Punishment

4

A.

Allegations

5

In Claim 2, Petitioner alleges that the death penalty would be cruel and

6

unusual punishment under the Eighth and Fourteenth Amendments in light of his

7

“profound mental illness.” (Pet. at 87-89.) Petitioner argues that:

8
9
10
11
12

[t]he rationales that the Supreme Court relied upon to support its
holding in Atkins [v. Virginia, 536 U.S. 304 (2002)] . . . apply equally
well to cases in which the defendant suffers from profound mental
illness. Such reduced mental capacity similarly undermines the social
purposes of the death penalty and increases the likelihood that the
defendants will be sentenced to death in spite of factors which may
call for a less severe penalty.

13
14

(Petr.’s Opening Br. on the Merits of His Remaining Claims, Dec. 23, 2014

15

(“Opening Br.”), at 10 (internal quotation omitted).) Petitioner points to the

16

Supreme Court’s determination that capital punishment is unconstitutional unless it

17

measurably contributes to one or both of the goals of retribution and deterrence.

18

(See id. at 9 (citing Atkins, 536 U.S. at 319).) He contends that “[t]he imposition of

19

the death penalty in this case serves no more valid purpose than in the case of a

20

mentally retarded individual.” (Id. at 11.)

21

To establish the profound mental illness he alleges, Petitioner cites the

22

expert declarations of Drs. Judith Becker, Pablo Stewart, and Hilary Weaver,

23

although he discusses only the opinion of Dr. Stewart. (See Opening Br. at 10-11.)

24

Petitioner relies upon Dr. Stewart’s conclusions that:

25
26
27
28

‘because of his prenatal exposure to neurotoxins, Martin began life
cognitively impaired.’ . . . The cognitive impairments that Kipp began
life with were then ‘exacerbated by various environmental factors he
experienced throughout his life.’ Dr. Stewart concluded that Kipp,
including at the time for the crimes [sic] for which he received the
3
Pet. App. 38

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 4 of 46 Page ID #:27050

1
2
3

death penalty in this case, suffered from ‘profound cognitive deficits
as a result of his in utero exposure to neurotoxins; attention
deficit/hyperactivity disorder [“AD/HD”]; impulse control disorder;
and complex post-traumatic stress disorder.’

4
5

(Id. at 11 (quoting Pet. Ex. 278 ¶¶ 4, 7, 8, 48).)

6

B.

Analysis

7

Dr. Stewart provides little explanation regarding the nature or extent of the

8

cognitive impairments Petitioner suffered as a result of his in utero neurotoxin

9

exposure. He states merely that the exposure contributed to the formation of

10

AD/HD and Impulse Control Disorder and that “[p]ersons exposed to neurotoxins

11

prenatally often act impulsively and erratically, and their ability to understand or

12

explain their actions can be quite limited.” (Pet. Ex. 278 ¶¶ 7, 37.) Dr. Stewart

13

ultimately concluded:

14
15
16
17
18
19
20
21
22
23

Given Martin’s genetic predisposition to substance abuse, his chronic
psychiatric symptomatology and heavy drug abuse around the time of
the crimes for which he is convicted, it is my professional opinion,
which I hold to a reasonable degree of medical certainty, that there is
a strong probability that Martin was incapable of acting with
premeditation and deliberation on the dates of the charged offenses in
September and December 1983. While it is impossible to state with
absolute certainty what Mr. Kipp’s exact mental state was on
particular dates seventeen years ago, I can say that Martin’s severely
debilitating psychiatric symptoms are lifelong and had some
diminishing impact upon his mental capacity in September and
December 1983. This prevailing symptomatology amounts to
important mitigating evidence that anyone attempting to assess Mr.
Kipp’s true culpability for the crimes would want to consider.

24
25
26

Id. ¶ 49 (emphasis added).
As to Dr. Weaver’s opinion, the Court explained in its prior Order that Dr.

27

Weaver “noted that Petitioner ‘may’ have inherited mental illness, was ‘at risk’ for

28

impairment, ‘probably’ showed impairment in his self-descriptions, and may have
4
Pet. App. 39

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 5 of 46 Page ID #:27051

1

had some kind of mental disturbance prior to incarceration.” (Order on Mot. for

2

Evid. Hr’g at 47 (quoting Pet. Ex. 329 ¶¶ 24, 125, 137, 170).) The Court held that

3

“the California Supreme Court may have reasonably disregarded [the opinions

4

offered by Dr. Weaver] as speculative.” (Id.)

5

Finally, Dr. Becker generally echoed the language Dr. Stewart used in his

6

conclusion. (See Pet. Ex. 229 ¶ 54.) Instead of a “strong probability” that

7

Petitioner was not capable of acting with premeditation and deliberation, as Dr.

8

Stewart expressed, she found a “probability” that Petitioner was not capable. (Id.)

9

In place of “severely debilitating psychiatric symptoms” that were “lifelong,” Dr.

10

Becker found “disorders” that “existed through his adulthood.” (Id.) Most

11

significantly, she concluded that Petitioner’s disorders only “may” have had some

12

diminishing impact on his mental capacity. (Id.) Dr. Becker diagnosed Petitioner

13

as suffering from, as an adult, paraphilias (“classified by recurrent, intense sexually

14

arousing fantasies, sexual urges or behaviors generally involving 1) non-human

15

objects, 2) the suffering or humiliation of one’s self or one’s partner or 3) children

16

or other non-consenting persons that occur over a period of at least six months”),

17

Polysubstance Dependence, and Dysthmic Disorder. (Id. ¶ 52.)

18

The California Supreme Court may have reasonably concluded that the

19

expert opinions did not show Petitioner’s limitations to be as significant as those of

20

intellectual disability. In Moormann v. Schriro, 672 F.3d 644, 48-49 (9th Cir.

21

2012), for example, Petitioner presented an expert opinion that he was unable to

22

know or appreciate the nature and consequences of his conduct, and suffered from

23

possible organic delusional syndrome, pedophilia, schizoid personality disorder,

24

and antisocial personality disorder. See Moormann v. Schriro, No. CV 91-1121

25

PHX, 2008 WL 2705146 (D. Ariz. July 8, 2008), at *6-7. Notwithstanding that

26

evidence, the Ninth Circuit held that the state court’s rejection of his Atkins claim

27

was not contrary to, or an unreasonable application of, clearly established federal

28

law. See Moormann, 672 F.3d at 649 (so holding on the basis that “[t]here is no
5
Pet. App. 40

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 6 of 46 Page ID #:27052

1

clearly established federal law that a person who was not mentally retarded at the

2

time of the crime or the trial may nevertheless be exempted from the death penalty

3

pursuant to Atkins, because of subsequent mental deterioration”). The California

4

Supreme Court may have decided that Petitioner’s cognitive impairments, AD/HD,

5

impulse control disorder, complex PTSD, paraphilias, Polysubstance Dependence,

6

and Dysthmic Disorder did not show him to be “categorically less culpable than

7

the average criminal” in the way that intellectually disabled persons are. Atkins,

8

536 U.S. at 316; cf. Franklin v. Johnson, 290 F.3d 1223, 1234 (9th Cir. 2002)

9

(“Jurors may well . . . look skeptically at a claim that someone who is

10

psychologically prone to sexually abuse [others] should not be found guilty of a

11

crime when he does commit such abuse.”). The state court may have also

12

reasonably held that Petitioner failed to show “the required objective indicia of

13

consensus that evolving standards of decency now prohibit the execution” of

14

persons with his degree of limitation. Allen v. Ornoski, 435 F.3d 946, 952 (9th Cir.

15

2006) (finding no such consensus as to the execution of elderly and infirm persons)

16

(internal quotation marks omitted).
Similarly, Petitioner has not shown his claim to be supported by clearly

17
18

established Supreme Court precedent, as required to merit federal habeas relief.

19

He presents no authority to show that Atkins, or the principles applied in Atkins,

20

should be extended to a person with his nature of impairment. To apply Atkins or

21

its underlying precedent to Petitioner’s circumstances would be to “announce[] a

22

new rule . . . .” Allen, 435 F.3d at 955 (internal quotation omitted).
Claim 2 is, therefore, DENIED.

23
24
25

II.

Claims 5 and 6: Rape Conviction and Special Circumstance Finding
In Claim 5, Petitioner alleges that the conviction and special circumstance

26

finding of rape are not supported by sufficient evidence. (Pet. at 93-94.) In Claim

27

6, Petitioner claims actual innocence as to the rape conviction and special

28

circumstance finding. (Id. at 94-96.)
6
Pet. App. 41

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 7 of 46 Page ID #:27053

1
2

A.

Sufficiency of the Evidence
1.

Application of § 2254(d)

3

Petitioner presented the sufficiency of the evidence claim to the California

4

Supreme Court for the first time in his December 4, 2000 state habeas petition, as

5

claim V. The California Supreme Court held, in relevant part:

6
7
8
9
10
11
12
13

Each claim except claim XV is denied on the merits for failure to state
a prima facie case for relief. . . .
Except insofar as [it] allege[s] ineffective assistance of counsel,
claim[] . . . V . . . [is] barred because, being based entirely on facts in
the appellate record, [it] could have been, but w[as] not, raised on
appeal. . . .
Claim[] . . . V, alleging insufficiency of the evidence, [is] not
cognizable on habeas corpus. In re Lindley, 29 Cal. 2d 709, 723
(1947).

14

In re Kipp, Case No. S093369 (Cal. Nov. 12, 2003) (internal citations omitted and

15

edited). As Petitioner notes, the court used similar language when denying the

16

claim a second time, after Petitioner raised it again in his November 5, 2004 state

17

habeas petition. (See Opening Br. at 13 n.3; In re Kipp, Case No. S129115 (Cal.

18

Jun. 28, 2006) (claim B).)

19

Petitioner acknowledges that “[i]t is not uncommon for the California

20

Supreme Court to both impose a procedural bar and purport to reach a decision as

21

to the merits of the barred claim.” (Opening Br. at 14.) Petitioner argues that:

22
23
24
25
26
27
28

[i]n this instance, however, the court did not merely find that the claim
was barred; it found the claim was not cognizable. This is a term of
art, and its meaning is incompatible with the court also having reached
the merits of the claim. In relevant part, Black’s Law Dictionary
defines ‘cognizable’ as ‘1. Capable of being known or recognized . . .
3. Capable of being judicially tried or examined before a designated
tribunal; within the court’s jurisdiction.’ Thus, a claim that is not
cognizable is a claim that the court cannot recognize, a claim that the
court cannot judicially examine, a claim outside the court’s
jurisdiction. That such a claim should be adjudicated on the merits is
7
Pet. App. 42

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 8 of 46 Page ID #:27054

1

a legal impossibility.

2

(Id. (emphasis in original).)

3

Petitioner’s argument is unavailing. A court’s determination that a claim is

4

not cognizable does not foreclose the possibility of an alternate decision on the

5

merits of that claim. See, e.g., United States v. Allen, 157 F.3d 661, 667 (9th Cir.

6

1998) (denying claim on the merits even though “habeas claims that are not raised

7

in the petition before the district court are not cognizable on appeal,” based on “an

8

exception to this rule . . . [where] the issue has been briefed fully on the merits so

9

that the government will not be prejudiced if we consider it” (internal quotations

10

and alterations omitted)); King v. Rowland, 977 F.2d 1354, 1357 (9th Cir. 1992)

11

(“Because [petitioner] did not raise this claim in the district court, it is not

12

cognizable on appeal. In any event, [the alleged violation] . . . does not give rise to

13

an issue of constitutional proportions.” (internal citation omitted)).

14

The California Supreme Court’s decision expressly states that the claim was

15

adjudicated on the merits in state court proceedings. See 28 U.S.C. § 2254(d).

16

Review of the claim is governed by § 2254(d).

17
18

2.

Merits Review

“In reviewing the sufficiency of evidence, [a court] may grant habeas relief

19

only if ‘no rational trier of fact could have found proof of guilt beyond a

20

reasonable doubt.’” Ngo v. Giurbino, 651 F.3d 1112, 1115 (9th Cir. 2011)

21

(quoting Jackson v. Virginia, 443 U.S. 307, 324 (1979)). The reviewing court

22

must “look[] at the elements of the offense under state law,” Emery v. Clark, 643

23

F.3d 1210, 1214 (9th Cir. 2011) (citing Jackson, 443 U.S. at 324 n.16), and must:

24
25
26
27
28

review the evidence in the light most favorable to the prosecution.
Expressed more fully, this means a reviewing court faced with a
record of historical facts that supports conflicting inferences must
presume – even if it does not affirmatively appear in the record – that
the trier of fact resolved any such conflicts in favor of the prosecution,
and must defer to that resolution.
8
Pet. App. 43

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 9 of 46 Page ID #:27055

1

McDaniel v. Brown, 558 U.S. 120, 133 (2010). “Furthermore, after AEDPA, we

2

apply the standards of Jackson with an additional layer of deference to state court

3

findings.” Ngo, 651 F.3d at 1115 (applying § 2254(d)) (internal quotation

4

omitted).

5

The jury was instructed, pursuant to California law, that in order to find

6

Petitioner guilty of rape, jt must find that: (1) two persons engaged in an act of

7

sexual intercourse; (2) the two persons were not married to each other; (3) the act

8

of intercourse was against the will of one of the persons; and (4) the act was

9

accomplished by means of force or fear of immediate and unlawful bodily injury to

10

such person. (RT 3828-29; see also CT 1340-41.) The jury was instructed that if

11

those elements were established, any sexual penetration, however slight, was

12

sufficient; that proof of emission was not necessary; and that if the victim was not

13

alive at the time sexual intercourse took place, the jury must return a verdict of not

14

guilty. (RT 3829; see also CT 1342-43.) The jury was further instructed, in

15

relevant part, that to find the rape-murder special circumstance true, it must find

16

that the murder was committed while the defendant was engaged in the

17

commission of rape. (RT 3823.)

18

Petitioner identifies alleged “gaps” in the prosecution’s presentation of

19

evidence to support his argument that the rape conviction and special circumstance

20

finding were not supported by sufficient evidence. (Opening Br. at 17.) He asserts

21

that the prosecution did not introduce evidence linking the presence of semen in

22

Frizzell’s vaginal sample to Petitioner or establishing when the semen was

23

deposited relative to her time of death. (Id. at 16.) Petitioner points to testimony

24

that semen and/or sperm would remain detectable for an “extended length of time,”

25

a period of less than 72 hours, and argues that if it were deposited prior to

26

Frizzell’s death, she may have had consensual intercourse with her killer or with

27

another person. (RT 3596; see Opening Br. at 16.) Petitioner further asserts that

28

the semen may have been deposited after her death. (Opening Br. at 16 (citing an
9
Pet. App. 44

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 10 of 46 Page ID #:27056

1

expert declaration prepared after trial, Pet. Ex. 229, diagnosing Petitioner with

2

necrophilia, among other paraphiliae).) He adds that although Frizzell was

3

partially undressed when her body was found, “a homicide victim’s unclothed or

4

partially clothed status is insufficient to support a finding of either rape or

5

attempted rape under California law.” (Id. at 17 (citing People v. Johnson, 6 Cal.

6

4th 1, 39-42 (1993), overruled on other grounds by People v. Rogers, 39 Cal. 4th

7

826, 879 (2006)).) Petitioner emphasizes that there was no evidence of bruising or

8

tearing of her vaginal or anal area. (Id.)

9

Finally, Petitioner attacks the factual reliability of a letter the prosecution

10

introduced at trial. Petitioner wrote the letter to his then-wife on September 15,

11

1987, while they were both in the custody of the Orange County Jail. (Pet. at 76.)

12

As the Court explained in its Order on Petitioner’s Motion for Evidentiary

13

Hearing:

14
15
16
17
18
19
20
21

[t]he portion of the letter at issue read:
‘I killed, raped, sodomized, beat, swore, and laughed at
those fucking no-good bitches. Yeah, it felt great,
because neither deserved to live anymore. One was a
black prostitute who liked to rob people and play
games. . . . The other little tramp played it off as a
college sweetheart. Hell, she was anything but that, and
a loose fuck to boot. Well, Satan’s licking both those
bitches up now and laughing.’
(RT 3853.) . . .

22
23
24
25
26
27
28

The prosecution introduced evidence that Frizzell lived in Washington
and had flown to Long Beach the day before her murder to attend
Brooks College. (Id. at 3375-79.) She stayed in a hotel that night
because the college dormitories were not open for registration until
the next day. (Id. at 3378-79); see also Kipp, 26 Cal. 4th at 1110. She
was found on the bed in her hotel room unclothed from the waist
down, with a small hook embedded in her back that appeared to be
from a missing bra, and semen and sperm were present in her vagina
and on her external genital area. Kipp, 26 Cal. 4th at 1110.
10
Pet. App. 45

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 11 of 46 Page ID #:27057

1
2
3
4
5
6
7

Petitioner’s fingerprint was found on the telephone in the room. Id. It
was a reasonable inference from that evidence that it was Frizzell
Petitioner discussed as ‘play[ing] it off as a college sweetheart.’
The trial court observed [outside the presence of the jury] that the
letter ‘certainly seems to be an admission. A very substantial issue to
what was heretofore a circumstan[t]ial case.’ (Id. at 3714.) The jury
could have drawn the same permissible inference from Petitioner’s
statements.

8

(Order on Mot. for Evid. Hr’g at 11-12 (internal quotations edited).) Petitioner

9

argues instead that the letter was “so plainly inaccurate” that no rational juror

10

would have relied on it without more corroborating evidence than was presented at

11

trial, because its statements regarding sodomy and beating were “inconsistent with

12

the physical evidence recovered from Frizzell.” (Opening Br. at 17.)

13

The jury may have reasoned, as the California Supreme Court did, that the

14

probative value of the admissions was not substantially weakened by this alleged

15

inconsistency. See Kipp, 26 Cal. 4th at 1122. As the California Supreme Court

16

noted, the evidence presented did not eliminate the possibility that Frizzell was

17

sodomized and, “even if we assume the defendant did not sodomize [the] victim,

18

defendant’s false statements to the contrary could be attributed to exaggeration or

19

embellishment without substantially detracting from defendant’s admission that he,

20

and not someone else, sexually assaulted and killed” the victim. Id. As this Court

21

has held, the jury could reasonably infer from the evidence that Petitioner was

22

referring to Frizzell.

23

In addition to evidence of the letter, the prosecution presented testimony at

24

trial that Frizzell had bruising on her left thigh and her stomach, scratches and

25

unusual bruising on her throat, and a wound on her left hand consistent with a

26

defense wound. (RT 3430-31, 3607, 3615-17.) The injuries appeared to be

27

antemortem. (Id. at 3618-21.) There was redness and erosion of the cervix, which

28

was consistent with sexual intercourse. (Id. at 3623, 3631.) The state of undress of
11
Pet. App. 46

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 12 of 46 Page ID #:27058

1

her body, paired with physical evidence connecting Petitioner to the scene,

2

supported a finding that the defendant partially unclothed the victim “for the

3

purpose of sexual intercourse” under California law. People v. Cain, 10 Cal. 4th 1,

4

45-46 (1995).

5

The California Supreme Court reasonably determined that each element of

6

the offense was supported by the evidence. Petitioner’s statements and the

7

physical evidence supported a finding that Petitioner engaged in sexual intercourse

8

with Frizzell, that she did not consent, that Petitioner used force or fear, and that

9

Frizzell was alive at the time. The jury’s finding that Petitioner murdered Frizzell

10

while engaged in the commission of rape was likewise supported by the evidence.

11

Accordingly, Claim 5 is DENIED.

12

B.

Actual Innocence

13

Petitioner makes the same arguments discussed above in support of his

14

actual innocence claim. He adds the allegations that none of the victim’s jewelry

15

was broken and that there were “no signs of . . . a struggle within her hotel.” (Pet.

16

at 95.)

17

The standard for assessing a claim of “actual innocence” brought after trial

18

in a federal habeas corpus proceeding is “extraordinarily high,” and Kipp must

19

make a “truly persuasive” showing that he is innocent. Herrera v. Collins, 506

20

U.S. 390, 417 (1993) (assuming, “for the sake of argument . . . , that in a capital

21

case a truly persuasive demonstration of ‘actual innocence’ . . . would render the

22

execution of a defendant unconstitutional, and warrant federal habeas relief if there

23

were no state avenue open to process such a claim”). At a minimum, “a habeas

24

petitioner asserting a freestanding innocence claim must go beyond demonstrating

25

doubt about his guilt, and must affirmatively prove that he is probably innocent.”

26

Carriger v. Stewart, 132 F.3d 463, 476 (9th Cir. 1997) (en banc). “[A] claim based

27

on factual innocence . . . ‘ha[s] to fail unless the federal habeas court is itself

28

convinced that th[e] new facts unquestionably establish [petitioner’s] innocence.’”
12
Pet. App. 47

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 13 of 46 Page ID #:27059

1

Morales v. Ornoski, 439 F.3d 529, 533 (9th Cir. 2006) (quoting Schlup v. Delo,

2

513 U.S. 298, 327 (1995)).

3

Petitioner does not go beyond attempting to demonstrate doubt about his

4

guilt and does not affirmatively prove that he is probably innocent of rape or the

5

rape-murder special circumstance. Claim 6 is DENIED.

6

III.

7

Claims 7, 8, 9, 16, 17, and 25: Admission of Evidence
In Claims 7, 8, 9, 16, 17, and 25, Petitioner alleges that the admission of a

8

number of items of evidence violated his due process rights. In its Order on

9

Petitioner’s Motion for Evidentiary Hearing, the Court addressed the constitutional

10

admissibility of those same items of evidence, in deciding Petitioner’s related

11

ineffective assistance of counsel claims. (See Order on Mot. for Evid. Hr’g at 10-

12

19.)1 For the sake of brevity, the Court merely references, and does not repeat, that

13

analysis here.
As set forth in the Order, a defendant suffers a constitutional violation from

14
15

the admission of evidence only if it is “of such quality as necessarily prevents a fair

16

trial” and “there are no permissible inferences the jury can draw from the evidence

17

in question . . . .” Hovey v. Ayers, 458 F.3d 892, 923 (9th Cir. 2006) (internal

18

quotation omitted); see also Jammal v. Van de Kamp, 926 F.2d 918, 920 (9th Cir.

19

1991) (“Only if there are no permissible inferences the jury may draw from the

20

evidence can its admission violate due process” (emphasis in original)). As to each

21

item of evidence, the Court held that because there were permissible inferences the

22

jury could draw, Petitioner did not show prejudice from any ineffective assistance

23
24
1

25
26
27
28

Claims 7 and 1(F) address Petitioner’s September 15, 1987 letter to his then-wife. (See
Order on Mot. for Evid. Hr’g at 11-13.) Claims 8 and 1(G) address the explanation for
Frizzell’s presence at a Long Beach hotel. (See id. at 13-14.) Claims 9 and 1(H) address
Petitioner’s escape attempts. (See id. at 14-15.) Claims 16 and 14(G) address Petitioner’s
September 9, 1987 letter to his then-wife. (See id. at 15-17.) Claims 17 and 14(H) address
Petitioner’s threat to a sheriff’s sergeant. (See id. at 17-18.) Claims 25 and 14(J) address a
postmortem photograph of Howard. (See id. at 19.)

13
Pet. App. 48

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 14 of 46 Page ID #:27060

1

of counsel in failing to object to its admission on constitutional grounds.

2

Petitioner emphasizes that the California Supreme Court did not reach the

3

merits of certain constitutional claims on direct appeal, because it found that

4

counsel’s lack of objection on that basis failed to preserve the issues for appeal.

5

(See Opening Br. at 21, 23; cf. id. at 24-26); see generally Kipp, 26 Cal. 4th at

6

1120-27, 1132-34, 1135-36. He argues that § 2254(d) does not apply to those

7

claims as a result. Even reviewing the claims de novo, however, the same results

8

obtain: because there were permissible inferences the jury could draw from each

9

item of evidence, the admission of the evidence did not violate Petitioner’s due

10

process rights.

11
12

Claims 7, 8, 9, 16, 17, and 25 are, therefore, DENIED.
IV.

13

Claims 4 and 10: Robbery Conviction and Felony Murder Verdict
In Claim 10, Petitioner alleges that there was “insufficient evidence upon

14

which to convict Petitioner of the offenses of robbery and robbery felony-murder.”

15

(Pet. at 113.) Petitioner explains that he raised a “nearly identical claim as Claim

16

4” and that “[b]ecause Claim 4 is duplicative of Claim 10, Kipp hereby withdraws

17

Claim 4.” (Petr.’s Br. at 34 n.7.)

18

A.

Robbery Felony Murder Theory of First Degree Murder

19

First, as to his first degree murder conviction, Petitioner asserts that the

20

prosecution “rested the murder charge on alternate theories,” including robbery

21

felony murder, rape felony murder, and murder with premeditation and

22

deliberation. (Pet. at 118.) Petitioner argues that “[b]ecause it is impossible to

23

know whether the jury based its conviction on the invalid felony-murder theory,

24

Kipp’s first-degree murder conviction must be vacated.” (Opening Br. at 39.)

25

//

26

Where “alternative legal theor[ies] of liability” are presented to the jury, and

27

the evidence is sufficient to support one but not another, the insufficiency as to one

28

alternative “does not provide an independent basis for reversing an otherwise valid
14
Pet. App. 49

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 15 of 46 Page ID #:27061

1

conviction.” Griffin v. United States, 502 U.S. 46, 60 (1991). Jurors are “well

2

equipped to analyze the evidence” to decline “the option of relying upon a

3

factually inadequate theory . . . .” Id. at 59. Petitioner does not challenge the

4

sufficiency of the evidence of premeditated murder. In light of Griffin, Petitioner’s

5

challenge to his first degree murder conviction based on the alleged insufficiency

6

of robbery felony murder fails. The state court’s denial of the claim on direct

7

appeal was not contrary to, or an unreasonable application of, federal law. See

8

Kipp, 26 Cal. 4th at 1128-29.

9
10
11
12
13
14
15

B.

Robbery Conviction

As to the charge of robbery, Petitioner’s jury was instructed at trial, in
relevant part:
If you find that the defendant took the property of Tiffany Frizzell
with the specific intent to permanently deprive her of that property,
but you have a reasonable doubt whether the specific intent was
formed before or after the homicide, then you must find the defendant
not guilty of robbery and guilty of theft.

16

(RT 3831.) The California Supreme Court explained on direct appeal that

17

Petitioner “argues that there was no substantial evidence that he formed the intent

18

to steal before or during, rather than after, he applied force to the victim, Tiffany

19

Frizzell.” Kipp, 26 Cal. 4th at 1128.

20

As stated above, when evaluating a sufficiency of the evidence claim, the

21

Court must consider the elements of the offense under state law. Emery, 643 F.3d

22

at 1214. The California Supreme Court explained that under California law:

23

when presented with evidence that the defendant killed another and
took substantial property from the victim at the time of the killing, a
jury ordinarily may reasonably infer that the defendant killed for the
purpose of robbery. People v. Turner, 50 Cal. 4th 668, 688 (1990).
We have recognized that a jury may reasonably draw this inference
when the evidence shows that the defendant also raped or attempted to
rape the victim at the time of the killing. People v. Kelly, 1 Cal. 4th
495, 529 (1992). In that situation, a jury may infer that the defendant

24
25
26
27
28

15
Pet. App. 50

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 16 of 46 Page ID #:27062

1

killed for purposes of both rape and robbery. Id.

2

Kipp, 26 Cal. 4th at 1128 (internal citations edited). Applying that law to the

3

evidence presented at Petitioner’s trial, the court held:

4

Here, there was evidence that when defendant strangled Tiffany
Frizzell, he took her personal stereo and her cassette player, both of
which he later sold to a secondhand goods dealer for $70. From this
evidence, the jury could reasonably infer that at least one reason
defendant killed Frizzell was to accomplish the taking of these items.

5
6
7
8

Id.

9

“[I]t is not the province of a federal habeas court to reexamine state-court

10

determinations on state-law questions.” Estelle v. McGuire, 502 U.S. 62, 67-68

11

(1991); see also Lopez v. Schriro, 491 F.3d 1029, 1043 (9th Cir. 2007) (“[S]tate

12

courts are presumed to know and correctly apply state law.”). Although Petitioner

13

attempts to distinguish his case from that in Turner by arguing that Petitioner’s

14

jury, unlike Turner’s, was convinced “that the purpose of the killing was the

15

commission of a rape” (Opening Br. at 37), Petitioner fails to address the

16

California Supreme Court’s decision in Kelly, 1 Cal. 4th at 529. Petitioner has not

17

rebutted the presumption that the California Supreme Court knew and correctly

18

applied California law when evaluating his sufficiency of the evidence claim. The

19

facts on which the state court relied are supported by the record. (See RT 3380-81,

20

3488-91.) The California Supreme Court’s rejection of Petitioners’ challenge to

21

the robbery conviction was not objectively unreasonable.

22

Accordingly, Claims 4 and 10 are DENIED.

23

//

24

//

25

//

26

V.

27
28

Claims 11 and 15: Prosecutorial Misconduct
A.

Guilt Phase Argument
1.

Allegations and Decision on Direct Appeal
16
Pet. App. 51

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 17 of 46 Page ID #:27063

1

In Claim 11, Petitioner alleges the prosecutor improperly appealed to the

2

jury’s passion and sympathy in his guilt phase closing argument by stating:

3

6

So when you think about the elements of the offense of murder, as
you will when you go back to deliberate, and as we, perhaps in
somewhat of a legal abstract sense, the element satisfied a human
being was killed. [¶] If you would, think for a moment about what it
means. A living, breathing human being had all of that taken away.

7

(RT 3877 (emphasis added); Pet. at 121.) Petitioner’s trial counsel objected to the

8

remark, and the prosecutor moved to another topic. (See id. at 3877-79.)

4
5

The California Supreme Court on direct appeal held that the remark was

9
10

improper but did not infect the trial with such unfairness as to violate Petitioner’s

11

due process rights or render the verdict unreliable. See Kipp, 26 Cal. 4th at 1129-

12

30. The state court observed that the remark was “brief, mild, and not repeated,”

13

and that the evidence that Petitioner raped and murdered Frizzell was “very strong

14

and generally uncontradicted.” Id. at 1130.
2.

15

Legal Standard and Analysis

“[A] criminal conviction is not to be lightly overturned on the basis of a

16
17

prosecutor’s comments standing alone, for the statements or conduct must be

18

viewed in context; only by so doing can it be determined whether the prosecutor’s

19

conduct affected the fairness of the trial.” United States v. Young, 470 U.S. 1, 11

20

(1985). “[I]t is not enough that the prosecutor[’s] remarks were undesirable or

21

even universally condemned. The relevant question is whether the prosecutor[’s]

22

comments so infected the trial with unfairness as to make the resulting conviction a

23

denial of due process.” Darden v. Wainwright, 477 U.S. 168, 181 (1986) (internal

24

quotations omitted).

25

//

26

The California Supreme Court’s determination that the remarks did not deny

27

Petitioner due process was reasonable. While comments “designed to appeal to the

28

passions, fears, and vulnerabilities of the jury” are improper, they are only
17
Pet. App. 52

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 18 of 46 Page ID #:27064

1

prejudicial in light of such factors as “the weakness of the prosecution’s case, the

2

prosecutor’s disingenuity as to the whereabouts of [critical evidence], and the

3

Government’s resort to coercion to obtain evidence.” Comer v. Schriro, 463 F.3d

4

934, 961 (9th Cir. 2006) (internal quotations omitted); see also Allen v. Woodford,

5

395 F.3d 979, 1016 (9th Cir. 2004) (holding that prosecutor’s improper comment

6

about witness retaliation, calculated to arouse passions or prejudices of the jury,

7

was not unconstitutionally prejudicial given overwhelming evidence against

8

defendant and trial court’s instruction that statements of counsel are not evidence).

9

Here, the prosecution’s case was strong, the government did not mishandle

10

evidence, and the challenged remarks were, indeed, brief and mild. The California

11

Supreme Court reasonably rejected Petitioner’s claim.

12

B.

Testimony of David Sugiyama

13

Petitioner sets forth several instances of alleged prosecutorial misconduct in

14

Claim 15. First, Petitioner faults the prosecution’s use of expert witness David

15

Sugiyama. (Pet. at 182.) Petitioner alleges that the prosecution “knew or should

16

have known [that Sugiyama] had worked on Petitioner’s behalf in the very same

17

case and had access to the files of a company retained by Petitioner (Forensic

18

Science Services) to provide forensic analysis regarding the Frizzell and Howard

19

crimes.” (Id. (incorporating by reference Claim 23).)
Petitioner acknowledges that the Court has rejected Petitioner’s underlying

20
21

conflict of interest claim, Claim 23, and this portion of Claim 15 for lack of

22

prejudice. (See Opening Br. at 40 n.8; Order on Mot. for Evid. Hr’g at 83-87.)

23

Petitioner states that he “continues to rely on this aspect of Claim 15, however, to

24

establish . . . the cumulative effect of the many instances of prosecutorial

25

//

26

misconduct in this case . . . .” (See Opening Br. at 40 n.8.) The Court considers

27

any impact of Sugiyama’s testimony in that capacity, below. (See infra p. 24.)

28
18
Pet. App. 53

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 19 of 46 Page ID #:27065

Delivery of September 9, 19872 Letter to Defense

1

C.

2

Next, Petitioner claims that the prosecution failed to provide defense counsel

3

with the September 9, 1987 letter in a timely manner. Petitioner argues that

4

“[a]lthough authorities intercepted the letter shortly after it was sent, . . . the

5

prosecution did not provide counsel with a copy of the letter until approximately

6

one year later, on or about September 28, 1988, the first day of jury selection.”

7

(Pet. at 182.) Petitioner maintains that the defense was prejudiced in its “counter

8

or rebut[tal]” of the letter at trial. (Id.) Incorporating the allegations he made in

9

Claim 14(G), Petitioner adds that defense counsel performed deficiently in

10

countering or rebutting the letter. (Id. (referring to Claim 14(J) in apparent

11

typographical error).)

12

Claim 14(G) alleged that counsel performed deficiently by failing to object

13

to the admission of the letter on constitutional grounds. The Court denied the

14

claim in its Order on Petitioner’s Motion for Evidentiary Hearing. (See Order at

15

15-17.) Petitioner makes no specific, additional allegations in Claim 15 to explain

16

what actions adequate counsel would have taken to counter or rebut the letter.

17

Petitioner’s ineffective assistance of counsel claim fails on that basis.

18

At the time of trial, defense counsel acknowledged that the prosecution

19

disclosed the letter to the defense on December 7, 1988 (later than Petitioner now

20

alleges). (See RT 4179, 4184, 4935, 4945.) The trial court ruled on January 20,

21

1989 that the letter would be admissible as rebuttal evidence, for which no advance

22

notice to the defense was required. (Id. at 4945, 4950-52; cf. id. at 5003.) The

23

California Supreme Court may have reasonably concluded that, in light of the trial

24

court’s ruling admitting the letter on rebuttal, Petitioner failed to show any

25
26
2

27
28

As the Court noted in its Order on Petitioner’s Motion for Evidentiary Hearing, the
parties inconsistently refer to this undated letter as the September 7, 1987 or September 9,
1987 letter. (Order at 15 n.3.) The Court uses the date of September 9, 1987 for the sake
of consistency. (Id.)

19
Pet. App. 54

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 20 of 46 Page ID #:27066

1

prosecutorial misconduct in not disclosing the letter earlier.

2

D.

Statement Regarding Attempted Rape Special Circumstance

3

Petitioner further alleges that the prosecutor committed misconduct in his

4

guilt phase opening statement by telling the jury that Petitioner was charged with a

5

special circumstance allegation that the victim’s murder occurred during the

6

attempted commission of rape. (Pet. at 183 (citing RT 3365).) Petitioner alleges

7

that “no such charge had been made,” and that the prosecutor’s statement

8

“prejudiced Petitioner by lowering the bar in the jury’s mind on the rape charge, on

9

which the jury ultimately ruled against Petitioner.” (Id. (citing CT 992-95, 997).)

10

Petitioner adds that counsel was ineffective for failing to object to or correct the

11

misstatement. (Id.)

12

The prosecutor told the jury that Petitioner was charged with a special

13

circumstance allegation of a murder occurring during the commission of rape or

14

attempted rape. (RT 3365.) Petitioner was, indeed, charged with a special

15

circumstance including alleged rape. (CT 997; see also, e.g., RT 3822-23

16

(instructing jury that “[t] o find that the special circumstance referred to in these

17

instructions as the commission of rape is true, it must be proven . . . that the murder

18

was committed while the defendant was engaged in the commission or attempted

19

commission of a rape,” even though it must also find that the murder was

20

committed in order to carry out, advance the commission of, or escape or avoid

21

detection of “the crime of rape”).) The jury was instructed that it could convict

22

Petitioner of attempted rape as a lesser included offense of rape. (RT 3823-33; see

23

also id. at 3783-84, 3943-44.)

24

In view of the explicit charge of a murder occurring during the commission

25

of rape or attempted rape, the California Supreme Court may have reasonably

26

//

27

concluded that there was no misconduct in the prosecutor’s statement to the jury,

28

and that counsel was not deficient for not objecting to it.
20
Pet. App. 55

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 21 of 46 Page ID #:27067

1

E.

Penalty Phase Closing Argument

2

Finally, Petitioner alleges that the prosecutor committed misconduct in his

3

penalty phase closing argument by: remarking that Petitioner “has murder in his

4

heart, has Satan in his soul” (Pet. at 183 (citing RT 5196 (“has murder in his heart,

5

has Satan this his sole [sic]” (emphasis added)))); comparing Petitioner to a

6

predatory animal, a Bengal tiger (id. (citing RT 5193-94)); telling the jurors that by

7

their verdict, they “will be sending a message back to the community of what you

8

feel the appropriate verdict is in this case” (RT 5195; see Pet. at 183); and showing

9

the jury a postmortem photograph of Howard, the victim in Petitioner’s Orange

10

County prosecution (Pet. at 183; see RT 5170-72). Petitioner alleges that each of

11

these actions by the prosecutor constitutes an improper appeal to the passions of

12

the jury. (Pet. at 183.)
The California Supreme Court may have reasonably found harmless any

13
14

misconduct in the prosecutor’s penalty phase argument. In so holding, the court

15

may have reasoned that the prosecutor did not resort to coercion and was not

16

disingenuous as to critical evidence, and that the penalty phase evidence against

17

Petitioner was strong. See Comer, 463 F.3d at 961; see also Allen, 395 F.3d at

18

1016.

19

First, as to the prosecutor’s remark that Petitioner had murder in his heart

20

and Satan in his soul, the comment reflected Petitioner’s statements, admitted into

21

evidence, referring to his “savior Satan” and his intention to kill a prison guard.

22

(see RT 4245-46, 5174, 5191; see also Order on Mot. for Evid. Hr’g at 57-68.)

23

The California Supreme Court may have reasonably determined that the use of this

24

language did not cause Petitioner’s trial to be fundamentally unfair. See United

25

States v. Tucker, 641 F.3d 1110, 1120 (9th Cir. 2011) (“Prosecutors can argue

26

reasonable inferences based on the record and have considerable leeway to strike

27

‘hard blows’ based on the evidence and all reasonable inferences from the

28

evidence” (internal quotation and citation omitted)); United States v. Sullivan, 522
21
Pet. App. 56

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 22 of 46 Page ID #:27068

1

F.3d 967, 982 (9th Cir. 2008) (“While the prosecutor’s comments qualify as ‘hard

2

blows,’ they were a fair inference from [the] facts”); see also Comer, 463 F.3d at

3

960 (prosecutor’s remarks did not render trial fundamentally unfair where the

4

prosecutor “once called [petitioner] a ‘reincarnation of the devil’”).

5

Second, as to the comparison of Petitioner to a Bengal tiger, the prosecutor’s

6

“parable” suggested that “the real Martin Kipp” was apparent only in the context of

7

an attack. (RT 5194.) The prosecutor’s story told of a man first viewing a listless

8

Bengal tiger in a zoo, and then being taken to see a Bengal tiger in a jungle. (Id. at

9

5193-94.) The prosecutor portrayed the animal with bulging muscles, burning

10

eyes, distended claws, and bared fangs in the jungle as the “real” Bengal tiger, just

11

as “the real Martin Kipp [is] the Martin Kipp who rapes, who kills.” (Id. at 5194.)

12

The California Supreme Court may have reasonably determined that although the

13

remarks were improper, they did not deprive Petitioner of a fair trial. See Darden,

14

477 U.S. at 180 (holding prosecutor’s numerous improper remarks, including one

15

“incorporat[ing] the defense’s use of the word ‘animal’” to refer to petitioner, did

16

not render trial fundamentally unfair); see also Comer, 463 F.3d at 960 (so holding

17

where the prosecutor “repeatedly referred to [petitioner] as a ‘monster’ [and]

18

analogized his crimes to a horror movie”).

19

Third, the California Supreme Court may have reasonably concluded that the

20

prosecutor’s statement that the jurors would be sending a message back to the

21

community was cured by the trial court’s admonishment. The court told the jurors:

22

[T]here was an objection when [the prosecutor] talked about taking a
message to the community. In that regard, even though you are
representative members of the community, you are not representatives
in that you’re not to think, ‘Well, what will the community expect me
to do.’ [¶] You will do this on your own. . . . You have to be guided
by your own personal beliefs and what you heard in this courtroom.
[¶] You all took an oath to do that and that is what is expected of you.

23
24
25
26
27
28

(RT 5245.) The California Supreme Court was not objectively unreasonable in
22
Pet. App. 57

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 23 of 46 Page ID #:27069

1

finding the remarks to have cured any impropriety. See United States v. Polizzi,

2

801 F.2d 1543, 1558 (9th Cir. 1986) (holding that prejudice from prosecutor’s

3

request to the jury to “finish the job that the F.B.I. started” was adequately cured

4

because the prosecutor made “only this single statement,” and the court instructed

5

that guilt or innocence must be determined from the evidence and statements and

6

arguments of counsel are not evidence); see also United States v. Nobari, 574 F.3d

7

1065, 1077, 1082 (9th Cir. 2009) (concluding that prosecutorial misconduct in

8

presenting testimony and argument employing ethnic generalizations, asking

9

improper questions to co-defendant, and appealing to passions and fears of the jury

10

by urging them to “not let [their] City [] down” was harmless in light of

11

overwhelming evidence presented against defendants); United States v. Williams,

12

989 F.2d 1061, 1072 (9th Cir. 1993) (holding that prosecutorial remarks attempting

13

to capitalize on parochial inclinations did not affect jury’s ability to judge the

14

evidence fairly because remarks were isolated and jury was instructed not to

15

consider statements and arguments of counsel as evidence).

16

Fourth, as to the postmortem photograph of Howard, the Court has held that

17

the admission of the photograph did not violate Petitioner’s constitutional rights.

18

(Order on Mot. for Evid. Hr’g at 19.) Petitioner presents no authority to show that

19

a prosecutor’s presentation of properly admitted evidence during closing argument

20

can constitute misconduct. The California Supreme Court may have reasonably

21

rejected Petitioner’s claim on that basis.

22

//

23

//

24

F.

Cumulative Prosecutorial Misconduct

25

Considering the cumulative effect of the prosecutorial misconduct Petitioner

26

alleges, the Court “first analyze[s] the prosecutorial misconduct challenges

27

[regarding arguments made to the jury] to assess whether they alone so infected the

28

trial with unfairness as to make the resulting conviction a denial of due process. If
23
Pet. App. 58

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 24 of 46 Page ID #:27070

1

the prosecution’s comments alone do not meet this standard, [the Court] analyze[s]

2

them together” with any prosecutorial misconduct in failing to disclose evidence to

3

the defense and in presenting false testimony, “to determine whether there is a

4

reasonable probability that without those violations the result of the proceeding

5

would have been different.” Hein v. Sullivan, 601 F.3d 897, 915 (9th Cir. 2010);

6

see also Jackson v. Brown, 513 F.3d 1057, 1076 (9th Cir. 2008) (“[I]f the Napue

7

errors are not material standing alone, we consider all of the Napue and Brady

8

violations collectively and ask whether there is a reasonable probability that, but

9

for [the] errors, the result of the proceeding would have been different” (internal

10

quotation omitted, emphasis in original)).

11

The California Supreme Court may have reasonably determined that the

12

prosecutorial misconduct alleged in Claims 11 and 15 in arguing to the jury,

13

disclosing evidence, and presenting testimony, even when considered

14

cumulatively, does not show a denial of due process or a reasonable probability of

15

a different result absent the alleged misconduct. The court was not objectively

16

unreasonable in concluding that the cumulative sum of all prosecutorial

17

misconduct alleged in the Petition as a whole was harmless.

18
19
20

Claims 11 and 15 are DENIED.
VI.

Claim 12: Instruction on Felony Murder
In Claim 12, Petitioner alleges that the trial court erred in instructing the jury

21

on felony murder. (Pet. at 123-40.) Petitioner asserts that the codification of first

22

degree murder in California separates “malice murder,” under California Penal

23

Code § 187, from felony murder, under California Penal Code § 189. (Opening Br.

24

at 45-46.) Petitioner alleges that although he was charged only under § 187, the

25

court nevertheless instructed the jury on felony murder. (Id. (citing CT 997-99,

26

1319-25).) He alleges that:

27
28

instructing the jury on felony murder violated Kipp’s constitutional
rights because (1) the trial court lacked jurisdiction to try Kipp for an
24
Pet. App. 59

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 25 of 46 Page ID #:27071

1
2
3

uncharged crime; [and] (2) the instructions on an uncharged crime
violated Kipp’s rights to notice of the charges against him, to have all
elements of the charged crime proved beyond a reasonable doubt, and
to a unanimous verdict.

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(Id. at 46.)
Petitioner and Respondent agree that “this Court’s ability to grant relief on
this claim appears to be foreclosed by Sullivan v. Borg, 1 F.3d 926 (9th Cir.
1993).” (Opening Br. at 46; see also Respt.’s Opp. to Kipp’s Opening Br. on the
Merits of His Remaining Claims, June 22, 2015 (“Opp.”), at 56 n.31.) The Ninth
Circuit observed in Sullivan that “[w]hile Cal. Penal Code § 187 defines murder as
‘the unlawful killing of a human being . . . with malice aforethought,’ section 189
is almost identical to Arizona’s statute [approved of in Schad v. Arizona, 501 U.S.
624 (1991)] in encompassing felony murder and premeditated murder as
alternative grounds for establishing first-degree murder.” Sullivan, 1 F.3d at 928
(ellipsis in original). The court determined that even though “California codifies
premeditated and felony murder in separate statutes,” applying Schad, “a general
first-degree murder verdict under the circumstances is permissible.” Sullivan, 1
F.3d at 928. “Thus California . . . characterize[s] first-degree murder as ‘a single
crime as to which a verdict need not be limited to any one statutory alternative.’”
Id. at 929 (quoting Schad, 501 U.S. at 630-31). Petitioner “submits that Sullivan
was wrongly decided and makes this argument to preserve this claim for appeal.”
(Opening Br. at 47.)
Based on the Ninth Circuit’s holding in Sullivan that first degree murder
under California Penal Code §§ 187 and 189 is “a single crime,” there was no
uncharged crime, as Petitioner alleges, on which he was tried or convicted.
Accordingly, Claim 12 is DENIED.
VII. Claim 24: Change of Venue
In Claim 24, Petitioner alleges that he was unable to be tried fairly in the

25
Pet. App. 60

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 26 of 46 Page ID #:27072

1

venue of his trial as a result of the publicity surrounding his case. (Pet. at 218-21.)

2

He asserts that trial counsel was ineffective for failing to move for a change of

3

venue. (Id. at 218, 220.)

4

A.

Legal Standard

5

To establish entitlement to a change of venue, Petitioner must show that

6

“extraordinary local prejudice [would] prevent a fair trial – a basic requirement of

7

due process.” Skilling v. United States, 561 U.S. 358, 378 (2010) (internal

8

quotation omitted). “When a trial court is unable to seat an impartial jury because

9

of prejudicial pretrial publicity or an inflamed community atmosphere, due process

10

requires that the trial court grant defendant’s motion for a change of venue.”

11

Hayes v. Ayers, 632 F.3d 500, 507-08 (9th Cir. 2011) (internal quotation and

12

alterations omitted). Counsel may show “two different types of prejudice in

13

support of a motion to transfer venue: presumed or actual.” Id. at 508 (internal

14

quotation omitted).

15

“A presumption of prejudice,” the United States Supreme Court has held,

16

“attends only the extreme case.” Skilling, 561 U.S. at 381. “Prejudice is presumed

17

in the circumstances under which the trials in Rideau, Estes, and Sheppard were

18

held[,] . . . entirely lacking in the solemnity and sobriety to which a defendant is

19

entitled in a system that subscribes to any notion of fairness and rejects the verdict

20

of a mob.” Murphy v. Florida, 421 U.S. 794, 798-99 (1975) (discussing Rideau v.

21

Louisiana, 373 U.S. 723 (1963) (where “the real trial had occurred when tens of

22

thousands of people, in a community of 150,000, had seen and heard the defendant

23

admit his guilt before the cameras”); Estes v. Texas, 381 U.S. 532 (1965) (where

24

the trial was “conducted in a circus atmosphere . . . overrun . . . with television

25

equipment”); and Sheppard v. Maxwell, 384 U.S. 333 (1966) (where the

26

“courthouse [was] given over to accommodate the public appetite for carnival”)).

27

The Court has explained that its decisions in Rideau, Estes, and Sheppard “cannot

28

be made to stand for the proposition that juror exposure to . . . news accounts of the
26
Pet. App. 61

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 27 of 46 Page ID #:27073

1

crime with which he is charged alone presumptively deprives the defendant of due

2

process.” Murphy, 421 U.S. at 799; see also Skilling, 561 U.S. at 380, 380 n.12.

3

“Prominence does not necessarily produce prejudice, and juror impartiality, we

4

have reiterated, does not require ignorance.” Skilling, id. at 381 (emphasis in

5

original).

6

In distinguishing those circumstances in which pretrial publicity warranted a

7

presumption of prejudice, the Supreme Court in Skilling considered: (1) “the size

8

and characteristics of the community in which the crime occurred;” (2) whether the

9

media reports contained a “confession or other blatantly prejudicial information of

10

the type readers or viewers could not reasonably be expected to shut from sight;”

11

(3) the lapse of time between the crime and trial, and whether “the decibel level of

12

media attention diminished” during that time; and (4) whether “the jury’s verdict . .

13

. undermine[s] in any way the supposition of juror bias,” as through acquittals on

14

certain counts, for example. Id. at 382-84.

15

Where juror prejudice is not presumed, the court must consider whether

16

actual prejudice infected the jury. Jurors “need not enter the box with empty heads

17

in order to determine the facts impartially. ‘It is sufficient if the jurors can lay

18

aside their impressions or opinions and render a verdict based on the evidence

19

presented in court.’” Id. at 398-99 (quoting Irvin v. Dowd, 366 U.S. 717, 723

20

(1961); internal alterations omitted). Thus, in addition to the adequacy of voir dire,

21

the reviewing court should consider the trial court’s instructions to the jury to

22

decide the issues based solely on in-court evidence. See Skilling, 561 U.S. at 388

23

n.21, 399 n.34.

24

//

25

The Court in Skilling found no actual prejudice where two jurors who

26

attended to pretrial news coverage “indicated that nothing in the news influenced

27

their opinions” about the defendant. Id. at 390-91. The trial court:

28
27
Pet. App. 62

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 28 of 46 Page ID #:27074

1
2
3
4
5
6
7
8
9
10
11

did not simply take venire members who proclaimed their impartiality
at their word. As noted, all of [defendant’s] jurors had already
affirmed on their questionnaires that they would have no trouble
basing a verdict only on the evidence at trial. Nevertheless, the court
followed up with each individually to uncover concealed bias. This
face-to-face opportunity to gauge demeanor and credibility, coupled
with information from the questionnaires regarding jurors’
backgrounds, opinions, and sources of news, gave the court a sturdy
foundation to assess fitness for jury service.
Id. at 394-95 (footnote omitted).
B.

Analysis
1.

Presumption of Prejudice

Petitioner argues that the news articles at issue contained inflammatory

12

language describing him as a “Parole Rapist” and “Ex-Con,” and quoting his

13

Orange County trial judge’s statement, “I don’t believe there is any place in

14

civilized society, including any Indian society, for the likes of Mr. Kipp.”

15

(Opening Br. at 49 (internal quotations omitted).) Petitioner adds that the articles

16

included “the most sensational and bizarre aspects of the case, including Kipp’s

17

alleged plans to escape from jail.” (Id.) He contends that of the news articles on

18

which he relies, “some . . . are dated from 1983 and 1984 . . . [and] some are dated

19

from 1987, much closer in time to Kipp’s trial.” (Petr.’s Reply Br. on the Merits of

20

His Remaining Claims, Oct. 19, 2015 (“Reply”), at 21.)

21

The California Supreme Court may have reasonably concluded that no

22

prejudice should be presumed. The populous and diverse nature of the Los

23

Angeles community in which the crime occurred stand contrary to a presumption

24

of prejudice. The jury’s verdicts also undermine the supposition of bias, as the

25

jury was unable to reach a verdict on the robbery-murder special circumstance

26

allegation. See Skilling, 561 U.S. at 383-34; Kipp, 26 Cal. 4th at 1112. The

27

California Supreme Court would not have been unreasonable in determining that

28

the decibel level of media attention had diminished toward the time of trial and that
28
Pet. App. 63

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 29 of 46 Page ID #:27075

1

the reports were not so blatantly prejudicial that jurors could not reasonably be

2

expected to put them out of mind.

3

2.

Actual Prejudice

4

Petitioner identifies only three panel members who were familiar with

5

publicity of his case and who were seated on his jury: Jurors R.J., C.N., and A.R.

6

(See Pet. at 219 (citing RT 1291 (voir dire of Juror R.J.), 2089 (voir dire of Juror

7

C.N.)); Opening Br. at 49 (citing RT 1597-98 (voir dire of Juror A.R.)); CT 1261

8

(identifying seated jurors).) The trial court found no cause for concern in the

9

jurors’ exposure to information about Petitioner’s pending cases and said that it

10

was “impressed” with the jurors’ statements on voir dire. (RT 2740 (denying

11

defense motion to excuse for cause jurors with knowledge of details of Orange

12

County case); cf. id. at 3221-24 (defense counsel’s acceptance of the jury with

13

peremptory challenges remaining).)

14

The California Supreme Court was not unreasonable in finding no actual

15

prejudice resulting from jurors’ exposure to media reports. The court may have

16

reasonably determined that the voir dire of each juror sufficiently showed his or

17

her ability to be impartial.

18
19

a.

Juror R.J.

Juror R.J. disclosed on voir dire that he had recently read an article about

20

Petitioner’s case. (RT 1291.) When questioned by the trial judge, R.J. stated that

21

he recalled “not much” about what he read, only Petitioner’s and the victim’s

22

names and that the case was going to trial. (Id. at 1292.) When asked if it was “the

23

article where they said there was another death penalty case going on in Long

24

Beach at the same time,” R.J. said that it was. (Id.) He was positive that he

25

recalled “[n]othing at all” about Petitioner’s background or any other offenses, and

26

he had not gotten any other information from anyone else about Petitioner or the

27

case. (Id.) When later asked by defense counsel whether he could be a fair and

28
29
Pet. App. 64

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 30 of 46 Page ID #:27076

1

impartial juror and whether he had any preconceived notions or opinions, he said

2

that he could and he did not. (Id. at 2907-08.)

3
4

b.

Juror C.N.

Juror C.N. stated that he believed he had read some newspaper articles about

5

the incident, perhaps around the time it occurred. (Id. at 2089.) He said he might

6

“remember something about the hotel, I think, Brooks College, I believe.” (Id. at

7

2090.) He had not gotten any background information about Petitioner from

8

anyone. (Id.) When asked later by defense counsel if there was any reason he

9

could not be fair and impartial to both sides, he said there was not. (Id. at 2814.)

10
11

c.

Juror A.R.

Juror A.R. was “not sure” if she had read about the case, but thought she

12

had, around the time the crime took place. (Id. at 1598.) She asked if the victim

13

was a college student. (Id.) When told by the trial judge that the victim was to

14

start school at Brooks College, A.R. responded, “I thought it was Long Beach

15

State. [¶] Maybe it’s two different things. But I think it was – this girl I was

16

thinking about was at Long Beach State, I think.” (Id. at 1599.) She did not recall

17

anything else about Petitioner or his background, and no one else had ever

18

discussed anything with her. (Id.) When asked later by the trial judge and by

19

defense counsel whether she thought she could be fair to both sides and be a fair

20

and impartial juror, she said she could. (Id. at 3213, 3217.)

21
22

d.

Conclusion

As discussed above, the California Supreme Court was not unreasonable in

23

finding no actual prejudice resulting from the jurors’ exposure to media reports.

24

Each juror sufficiently showed his or her ability to be impartial on voir dire,

25

notwithstanding the juror’s encounter(s) with media coverage of the events. The

26

trial court’s instructions to the jury to decide the case based only on the evidence

27

presented in the courtroom support the California Supreme Court’s conclusion that

28
30
Pet. App. 65

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 31 of 46 Page ID #:27077

1

Petitioner’s right to a fair trial was not violated. (See, e.g., RT 3795, 5109-10,

2

5245); see also Skilling, 561 U.S. at 388 n.21, 399 n.34.

3

The California Supreme Court may have reasonably concluded that because

4

Petitioner has not shown prejudice from the absence of a change of venue, he

5

likewise has not shown prejudice from any ineffective assistance of counsel in

6

failing to bring a motion to change venue.

7

Accordingly, Claim 24 is DENIED.

8
9

VIII. Claims 27, 28(F), and 33: Instructions on Penalty Phase Adjudication
A.

Allegations

10

In Claims 27, 28(F), and 33, Petitioner alleges that deficiencies in the

11

instructions given to the jury at the penalty phase of trial violated his constitutional

12

rights. (Pet. at 241-49, 256-60, 274-85.)

13

In Claim 28(F), Petitioner challenges the absence of an instruction that the

14

jury must return a life sentence if it finds that aggravating factors do not outweigh

15

mitigating factors, and may return a life sentence even if it finds that they do so.

16

(Id. at 256, 259.)

17

In Claims 27 and 33, Petitioner challenges the lack of instructions on the

18

burdens and standards of proof in the jury’s sentencing determination, the required

19

unanimity in the jury’s decision, and the “presumption of life.” (Pet. at 241-49,

20

274-85.) Specifically, Petitioner claims that the jurors should have been instructed

21

that they could return a sentence of death “only if they [were] persuaded beyond a

22

reasonable doubt as to each and every aggravating factor, that the aggravating

23

factors outweigh mitigating factors, and that death is the appropriate penalty.” (Id.

24

at 243.) He contends that the jury was required to reach a unanimous agreement on

25

the supporting circumstances in aggravation. (Id. at 245-47.) He also contends

26

that a “presumption of life” should apply in the penalty phase as a “corollary of the

27

presumption of innocence” at the guilt phase, and that the jury should have been

28

instructed accordingly. (Id. at 248.)
31
Pet. App. 66

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 32 of 46 Page ID #:27078

1

The California Supreme Court considered and rejected Claim 27 on direct

2

appeal. See Kipp, 26 Cal. 4th at 1137. Petitioner explains that he presented the

3

first issue raised in Claim 27, regarding the burdens and standards of proof, again

4

on habeas review with citations to more recent Supreme Court cases, including

5

Apprendi v. New Jersey, 530 U.S. 466 (2000), Ring v. Arizona, 536 U.S. 584

6

(2002), and Blakely v. Washington, 542 U.S. 296 (2004). (Opening Br. at 52.) He

7

pleads that updated claim in the instant proceedings as Claim 33. (See id.; see also

8

id. at 74-77; Pet. at 274-85.)

9
10

B.

Analysis

In Apprendi, the Supreme Court held that “[i]f a State makes an increase in a

11

defendant’s authorized punishment contingent on the finding of a fact, that fact –

12

no matter how the State labels it – must be found by a jury beyond a reasonable

13

doubt.” Ring, 536 U.S. at 602 (discussing Apprendi). The Court applied Apprendi

14

in Ring to hold that a state cannot “allow[] a sentencing judge, sitting without a

15

jury, to find an aggravating circumstance necessary for imposition of the death

16

penalty. Because Arizona’s enumerated aggravating factors operate as ‘the

17

functional equivalent of an element of a greater offense,’ the Sixth Amendment

18

requires that they be found by a jury.” Ring, 536 U.S. at 609 (quoting Apprendi,

19

530 U.S. at 494 n.19; internal citation omitted). The Court distinguished

20

California’s death penalty statute from Arizona’s, observing that California

21

commits sentencing decisions to juries, while Arizona was one of only four states

22

to “commit both capital sentencing factfinding and the ultimate sentencing decision

23

entirely to judges.” Id. at 608 n.6.

24

California’s “[s]pecial circumstances . . . make a criminal defendant eligible

25

for the death penalty [and] operate as ‘the functional equivalent of an element of a

26

greater offense.’” Webster v. Woodford, 369 F.3d 1062, 1068 (2004) (quoting

27

Ring, 536 U.S. at 609). Once the jury has found a special circumstance to be true,

28

unanimously and beyond a reasonable doubt, death is an authorized punishment.
32
Pet. App. 67

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 33 of 46 Page ID #:27079

1

The jury need not make any additional findings of fact, beyond a reasonable doubt

2

or under any other standard of proof or burden, to return a sentence of death.

3

The Ninth Circuit’s decision in United States v. Mitchell, 502 F.3d 931 (9th

4

Cir. 2007), denying a defendant’s challenge to his death sentence under the Federal

5

Death Penalty Act, is instructive. In Mitchell, defendant claimed that the jury was

6

required to find “that aggravating factors sufficiently outweigh mitigating factors

7

beyond a reasonable doubt.” Id. at 993. The Circuit distinguished the finding of a

8

death eligibility factor, made by the jury unanimously and beyond a reasonable

9

doubt, from the weighing of aggravating and mitigating factors. The court

10
11
12
13
14
15
16
17
18

explained that at the latter stage:
the jury’s task is no longer to find whether factors exist; rather, each
juror is to consider the [eligibility] factors already found and to make
an individualized judgment whether a death sentence is justified.
Thus, the weighing step is an ‘equation’ that ‘merely channels a jury’s
discretion by providing it with criteria by which it may determine
whether a sentence of life or death is appropriate.’ See Kansas v.
Marsh, 548 U.S. 163, 177 (2006). [Defendant] does not suggest how
a beyond-reasonable-doubt standard could sensibly be superimposed
upon this process, or why it must be in order to comport with due
process, or to make his death sentence reliable, or to comply with the
Sixth Amendment.

19
20
21

Id. (internal quotation omitted; internal citation edited).
Petitioner presents no authority to show that a presumption in favor of a life

22

sentence is constitutionally required. (See Pet. at 248 (arguing only that the

23

California Supreme Court’s decision to the contrary in People v. Arias, 13 Cal. 4th

24

92, 190 (1996), was in error).) The United States Supreme Court has not held that

25

a sentencing jury’s discretion must be channeled by a presumption in favor of a life

26

sentence. Cf. Delo v. Lashley, 507 U.S. 272, 278 (1993) (“Once the defendant has

27

been convicted fairly in the guilt phase of the trial, the presumption of innocence

28

disappears.”). Similarly, just as death is an authorized punishment once the jury
33
Pet. App. 68

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 34 of 46 Page ID #:27080

1

has found a special circumstance to be true, there is no constitutional requirement

2

that the jury be instructed that it must return a life sentence if it finds that

3

aggravating factors do not outweigh mitigating factors, or that it may return a life

4

sentence in any event. Cf. Williams v. Calderon, 52 F.3d 1465, 1481-82 (9th Cir.

5

1995) (holding that instruction to the jury that it was “not required to weigh

6

aggravating and mitigating factors, and was not under obligation to find for life or

7

death based upon which factors predominated . . . violates no right” of the

8

petitioner). Petitioner’s jury was, nevertheless, instructed that it was “free to reject

9

death as inappropriate under the circumstances, even if [it] believe[d] that the

10

aggravating evidence predominate[d] over the mitigating.” (RT 5133.)

11

The California Supreme Court was not objectively unreasonable in holding

12

that Petitioner has shown no violation of his constitutional rights in the adequacy

13

of the penalty phase instructions given to the jury. Claims 27, 28(F), and 33 are

14

DENIED.

15

IX.

Claims 28(B),3 (C), (D), and (E): Errors in Sentencing Process

16

Within Claim 28, Petitioner challenges the constitutionality of:

17

(B) California Penal Code § 190.3 factor (a), “the circumstances of the crime

18

. . . and the existence of any special circumstance;”
(C) California Penal Code § 190.3 factor (b), unadjudicated prior criminal

19
20

activity;
(D) the inclusion of the term “extreme” and the phrase “at the time of the

21
22

offense” in California Penal Code § 190.3 factors (d), (g),4 and (h); and
(E) the inclusion of inapplicable sentencing factors in the jury instructions.

23
24
25

3

Section (A) of Claim 28 contains an introduction and does not plead an independent
claim for relief. (Pet. at 249-50.)

26
4

27
28

The parties disagree on whether Petitioner pleaded a challenge to factor (g) in these
proceedings and exhausted such a claim in state court. (See Opening Br. at 55 n.11; Opp.
at 67 n.35; Reply at 26.) Because the Court finds that the claim fails on the merits in any
event, the Court does not reach these issues.

34
Pet. App. 69

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 35 of 46 Page ID #:27081

1

(See Pet. at 251-56.)

2

Petitioner’s jury was instructed:

3

In determining which penalty is to be imposed on the defendant, you
shall . . . consider, take into account and be guided by the following
factors, if applicable:

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

A. The circumstances of the crime of which the defendant was
convicted in the present proceeding and the existence of any special
circumstance found to be true;
B. The presence or absence of criminal activity by the defendant
other than the crime for which the defendant has been tried in the
present proceeding which involved the use or attempted use of force
or violence or the express or implied threat to use force or
violence; . . .
D. Whether or not the offense was committed while the defendant
was under the influence of extreme mental or emotional
disturbance; . . .
G. Whether or not the defendant acted under extreme duress or under
the substantial domination of another person;
H. Whether or not at the time of the offense the capacity of the
defendant to appreciate the criminality of his conduct or to conform
his conduct to the requirements of law was impaired as a result of
mental disease or defect or the effects of intoxication; . . .
K. Any other circumstance which extenuates the gravity of the crime,
even though it is not a legal excuse for the crime, and any sympathetic
or other aspect of the defendant’s character or record that the
defendant offers as a basis for a sentence less than death, whether or
not related to the offense for which he is on trial.
(RT 5128-31; see also CT 1416-17.)

25

A.

Claim 28(B): Factor (a)

26

In Claim 28(B), Petitioner alleges that as it was used in his case, factor (a)

27

“licensed the indiscriminate imposition of the death penalty upon no other basis

28

than the particular set of facts surrounding the murder.” (Opening Br. at 58
35
Pet. App. 70

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 36 of 46 Page ID #:27082

1

(internal quotation omitted).) Petitioner maintains that factor (a) permitted

2

the jury to “double count” the conduct that constituted the crime and special

3

circumstances in this case in determining whether he should be sentenced to death.

4

(Id.) He argues that the factor fails to provide sufficient limitation or guidance to

5

the jury, and allows the jury to “weigh the presence of any special circumstance

6

findings – a factor that necessarily is present in every case –” in favor of the death

7

penalty. (Id. at 59.)

8

As the United States Supreme court held in Tuilaepa v. California, however:

9

Petitioners’ challenge to factor (a) is at some odds with settled
principles, for our capital jurisprudence has established that the
sentencer should consider the circumstances of the crime in deciding
whether to impose the death penalty. We would be hard pressed to
invalidate a jury instruction that implements what we have said the
law requires. In any event, this California factor instructs the jury to
consider a relevant subject matter and does so in understandable
terms. The circumstances of the crime are a traditional subject for
consideration by the sentencer, and an instruction to consider the
circumstances is neither vague nor otherwise improper under our
Eighth Amendment jurisprudence.

10
11
12
13
14
15
16
17
18

512 U.S. 967, 976 (1994) (internal citation omitted).

19

The Supreme Court has also held that the effect “that the jury would count

20

the nature of the crime twice if it were instructed to consider both the facts of the

21

crime and the eligibility [or special] circumstances . . . cannot fairly be regarded as

22

a constitutional defect in the sentencing process.” Brown v. Sanders, 546 U.S. 212,

23

222 n.8 (2006) (discussing Zant v. Stephens, 462 U.S. 862, 894 (1983)) (internal

24

quotations omitted). The Supreme Court confirmed in Sanders that such an

25

instruction under California Penal Code § 190.3(a) does not unconstitutionally lead

26

the jury to give greater weight to the facts underlying the special circumstances.

27

Id.

28
36
Pet. App. 71

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 37 of 46 Page ID #:27083

1
2

The California Supreme Court’s rejection of Claim 28(B) was not, therefore,
contrary to or an unreasonable application of clearly established federal law.

3

B.

Claim 28(C): Factor (b)

4

Next, Petitioner argues that the use of unadjudicated criminal activities

5

under factor (b) violated his constitutional rights, because “allegations of

6

unadjudicated acts, by definition, have never been properly tested for reliability in

7

a court of law.” (Opening Br. at 60.)

8
9

The Ninth Circuit has held otherwise, and Petitioner presents no authority to
the contrary. “[C]onsideration of unadjudicated criminal conduct for purposes of

10

sentencing does not violate [a] defendant’s constitutional due process rights” at the

11

penalty phase of a capital trial. Belmontes v. Ayers, 529 F.3d 834, 876 (9th Cir.

12

2008), rev’d on other grounds by Wong v. Belmontes, 558 U.S. 15 (2009); see also

13

McDowell v. Calderon, 107 F.3d 1351, 1366 (9th Cir. 1997) (holding that

14

introduction at penalty phase of California trial of evidence of unadjudicated rape

15

occurring in Florida was not unconstitutional), opinion on reh’g, 130 F.3d 833, 835

16

(9th Cir. 1997) (“leaving in tact those parts [of the court’s prior decision] . . .

17

deciding other issues” beyond supplemental jury instruction), overruled on other

18

grounds as stated in Morris v. Woodford, 273 F.3d 826, 839 n.4 (9th Cir. 2001).

19

The California Supreme Court’s rejection of Petitioner’s claim was not contrary to,

20

or an unreasonable application of, clearly established federal law.

21

//

22

//

23

//

24

C.

25

In Claim 28(D), Petitioner argues:

26

By including [in factors (d) and (g)] the adjective ‘extreme’ to modify
‘mental or emotional disturbance’ and ‘duress,’ [the court] sent the
message to the jury that it should not, for example, consider Kipp’s
mental and emotional disturbance unless it was ‘extreme,’ even if the

27
28

Claim 28(D) : Factors (d), (g), and (h)

37
Pet. App. 72

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 38 of 46 Page ID #:27084

1

4

disturbance he was experiencing was significant. . . . [T]here is also a
strong likelihood that the jury understood from the instructions that
the temporal language in factors (d) and (h) – e.g., ‘at the time of the
offense’ – to mean that evidence relating to such factors could not be
considered mitigating unless related directly to the crime.

5

(Opening Br. at 61-62 (emphasis in original).) Petitioner maintains that factor (k),

6

which instructed the jury to consider “[a]ny other circumstance which extenuates

7

the gravity of the crime,” did “not cure the error[, because it] . . . would not appear

8

to a reasonable juror to permit consideration of the kinds of mitigation that fall

9

within the ambit of one of the specifically enumerated circumstances, but are

2
3

10

excluded from consideration under them by their explicit limitations . . . .” (Id. at

11

62.)

12

The Supreme Court has rejected this argument as to factors (d) and (g). The

13

Court held in Blystone v. Pennsylvania that an instruction allowing the jury to

14

consider whether the defendant was affected by an “extreme” mental or emotional

15

disturbance or duress does not “preclude[] the jury’s consideration of lesser

16

degrees of disturbance, impairment, or duress,” where the jury is instructed that it

17

is “entitled to consider ‘any other mitigating matter concerning the character or

18

record of the defendant, or the circumstances of his offense.’” Blystone, 494 U.S.

19

299, 308 (1990); see also Hendricks v. Vasquez, 974 F.2d 1099, 1109 (9th Cir.

20

1992) (applying Blystone to California statute and holding same). Petitioner cites

21

no authority to suggest that the use of the temporal words “at the time of the

22

//

23

//

24
25
26
27
28
38
Pet. App. 73

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 39 of 46 Page ID #:27085

1

offense” and “while” in factors (d) and (h)5 should receive a different analysis.

2

Petitioner’s jury was instructed that it could consider “any sympathetic or other

3

aspect of the defendant’s character or record that the defendant offers as a basis for

4

a sentence less than death, whether or not related to the offense for which he is on

5

trial.” (RT 5131-32.) The California Supreme Court’s conclusion that the factor

6

(d), (g), and (h) instructions were constitutionally adequate is not objectively

7

unreasonable.

8

D.

9

In Claim 28(E), Petitioner asserts that “the trial court’s failure to delete from

10

the jury instructions those factors that were inapplicable to his case was a source of

11

confusion, caprice, and unreliability in the jury’s penalty determination.”

12

(Opening Br. at 63.)

13

Claim 28(E): Inapplicable Sentencing Factors

The Ninth Circuit has found no constitutional error in instructing the jury on

14

“the entire list of factors the state considered relevant to the sentencing decision,

15

even when some did not apply.” Williams, 52 F.3d at 1481 (noting that “the jury

16

instructions expressly indicated that the jury was to consider each factor only ‘if

17

applicable,’ and that “[t]he reading of the complete list gave the jury more

18

guidance, not less”); see also Bonin v. Calderon, 59 F.3d 815, 848 (9th Cir. 1995)

19

(rejecting petitioner’s argument that the inclusion of inapplicable mitigating factors

20

allowed the jury “to consider the absence of numerous possible mitigating

21

circumstances to be aggravating circumstances,” where the jury was “warned . . .

22

that not all of the factors would be relevant and that the absence of a factor made it

23

inapplicable rather than an aggravating factor”). Petitioner’s jury was instructed

24

that it should “consider, take into account and be guided by the following factors

25
26
27
28

5

“D. Whether or not the offense was committed while the defendant was under the
influence of extreme mental or emotional disturbance; . . . H. Whether or not at the time
of the offense the capacity of the defendant to appreciate the criminality of his conduct or
to conform his conduct to the requirements of law was impaired as a result of mental
disease or defect or the effects of intoxication . . . .” (RT 5129, 5131.)

39
Pet. App. 74

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 40 of 46 Page ID #:27086

1

[provided to the jury], if applicable.” (RT 5128-29 (emphasis added).) The

2

California Supreme Court may have reasonably found no constitutional violation

3

in the trial court’s instructions.

4
5

Claim 28 is, therefore, DENIED.
X.

6

Claim 29: Capital Appellate Review Process
In Claim 29, Petitioner alleges that California’s process of capital appellate

7

review is unconstitutional (a) because it lacks proportionality review and

8

(b) because Petitioner, like other capital defendants in California, was represented

9

by the same counsel in his appellate and state habeas proceedings. (Pet. at 262-66;

10

Opening Br. at 64-69.)

11

A.

Proportionality Review

12

The California Supreme Court considered Petitioner’s claim on direct

13

appeal, stating that California’s appellate review process “is not constitutionally

14

defective in failing to provide for comparative or intercase proportionality review.

15

Although a death sentence is subject to intracase proportionality review, defendant

16

makes no claim that his sentence is grossly disproportionate to his moral

17

culpability for the crimes he committed, and we conclude that it is not.” Kipp, 26

18

Cal. 4th at 1139 (internal citations omitted).

19

Petitioner’s claim to intercase proportionality review lacks support in clearly

20

established federal law. The Ninth Circuit has found “no merit” in the claim,

21

raised by a petitioner sentenced to death under the 1978 California death penalty

22

statute (as Kipp was), that the lack of intercase proportionality review violates

23

equal protection requirements. See Allen, 395 F.3d at 1018 (“[Petitioner’s] due

24

process argument is foreclosed by the Supreme Court’s holding in Pulley v. Harris,

25

465 U.S. 37, 43-46 (1984), that neither the Eighth Amendment nor due process

26

requires comparative proportionality review in imposing the death penalty”

27

(internal citation edited)).

28

//
40
Pet. App. 75

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 41 of 46 Page ID #:27087

1

A review of Petitioner’s briefing on direct appeal confirms the California

2

Supreme Court’s determination that Petitioner made no claim there that his

3

sentence was grossly disproportionate to his crimes, even under state law. (See

4

Lodgment 4, Appellant’s Opening Br., at 169-70; Pet. at 263; Opening Br. at 64

5

(stating that the claim was raised only on direct appeal as claim XV).) Whether

6

Petitioner has exhausted such a claim under federal law is doubtful. Regardless,

7

Petitioner has failed to show that his capital sentence is “greatly disproportionate to

8

the offenses charged” or “grossly disproportionate and excessive punishment for

9

the crime . . . .” Enmund v. Florida, 458 U.S. 782, 788 (1982) (internal quotations

10

omitted).

11

B.

12

Petitioner argues that his habeas counsel labored under a conflict of interest

Representation in Appellate and Habeas Proceedings

13

in raising claims of ineffective assistance of appellate counsel, because the same

14

counsel represented Petitioner in appellate and habeas proceedings. (Pet. at 264-

15

66; Opening Br. at 67-69.) The California Supreme Court rejected the claim on

16

appeal. See Kipp, 26 Cal. 4th at 1139-40.

17

Even if Petitioner were constitutionally entitled to effective assistance of

18

counsel in habeas proceedings, he makes no specific allegations of prejudice to

19

show how the alleged conflict interfered with counsel’s presentation of potentially

20

meritorious claim(s). See Cuyler v. Sullivan, 446 U.S. 335, 350 (1980) (“[T]o

21

demonstrate a violation of his Sixth Amendment rights, a defendant must establish

22

that an actual conflict of interest adversely affected his lawyer’s performance.”).

23
24
25

Accordingly, Claim 29 is DENIED.
XI.

Claim 30: Political Considerations in Appellate Review
Petitioner alleges in Claim 30 that “political considerations dominate the

26

process of the State of California’s appellate review in capital cases.” (Pet. at 266-

27

67.) Petitioner refers to a 1986 retention election in which three justices of the

28

California Supreme Court were purportedly removed from the bench “primarily
41
Pet. App. 76

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 42 of 46 Page ID #:27088

1

because of the Court’s reversal rate in death penalty cases.” (Id. at 268 (citing

2

People v. Cox, 53 Cal. 3d 618, 696 (1991), disapproved on other grounds by

3

People v. Doolin, 45 Cal. 4th 390 (2009)).) Petitioner alleges that between 1979

4

and 1986, the California Supreme Court reversed 95% of the capital cases it

5

reviewed. (Id. at 269.) By contrast, he alleges, the court affirmed 84% of capital

6

cases between July 1987 and December 1994, and 94% between the years 1990

7

and 1994 of that period. (Id.) Petitioner asserts that former Governor Peter Wilson

8

and former Attorney General Dan Lungren added political pressures. (Id.) The

9

California Supreme Court rejected Petitioner’s claim in a reasoned decision on

10
11

direct appeal. Kipp, 26 Cal. 4th at 1140-41.
There is a “general presumption that judges are unbiased and honest.” Ortiz

12

v. Stewart, 149 F.3d 923, 938 (9th Cir. 1998) (citing Withrow v. Larkin, 421 U.S.

13

35, 47 (1975)). Nothing in Petitioner’s allegations about the process of the

14

“internal decision-making of the California Supreme Court” suffices to overcome

15

that general presumption. (Pet. at 245.) Petitioner fails to allege with specificity

16

any support in the record of his own case to show judicial bias. He has not

17

demonstrated that the justices who considered his case were in any manner

18

influenced by a concern about a future retention election, a bias toward affirming

19

capital convictions and sentences, or political pressure. Petitioner makes no

20

specific allegation in Claim 30 of any observable impact on his own appellate or

21

habeas proceedings. Because Petitioner has failed to demonstrate that the

22

California Supreme Court’s rejection of the claim was objectively unreasonable, he

23

is not entitled to habeas relief on this basis. Claim 30 is DENIED.

24

XII. Claim 32: Discriminatory Application of Death Penalty Statute

25

In Claim 32, Petitioner alleges that California’s death penalty statute “is

26

applied in a manner that discriminates against poor, young male defendants.” (Pet.

27

at 273.) He alleges that “California’s death row is overwhelmingly comprised of

28

young indigent men. The application of the death penalty statute in California
42
Pet. App. 77

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 43 of 46 Page ID #:27089

1

results in the denial of equal protection to persons who are singled out for

2

prosecution that is ‘deliberately based upon an unjustifiable standard, such as race,

3

religion or other arbitrary classification.’” (Id. (quoting Oyler v. Boles, 368 U.S.

4

448, 456 (1962)).)

5

A petitioner alleging a violation of the Equal Protection Clause:

6

has the burden of proving the existence of purposeful discrimination.
A corollary to this principle is that a criminal defendant must prove
that the purposeful discrimination had a discriminatory effect on him.
Thus, to prevail under the Equal Protection Clause, [the petitioner]
must prove that the decisionmakers in his case acted with
discriminatory purpose.

7
8
9
10
11

McCleskey v. Kemp, 481 U.S. 279, 292-93 (1987) (internal quotations and

12

footnotes omitted); see also id. at 292 n.8 (quoting Oyler, 368 U.S. at 456).

13

Petitioner McCleskey “offer[ed] no evidence specific to his own case that would

14

support an inference that [discriminatory] considerations played a part in his

15

sentence,” but relied solely on statistical data. Id. at 292-93. The Supreme Court,

16

noting that petitioner’s “statistical proffer must be viewed in the context of his

17

challenge,” held that it would “demand exceptionally clear proof before [it] would

18

infer” that any of the decisionmakers involved acted with a discriminatory purpose.

19

Id. at 297. The Court held petitioner’s proffered evidence to be “clearly

20

insufficient.” Id.; see also Harris v. Pulley, 885 F.2d 1354, 1372-75 (9th Cir.

21

1988) (applying McCleskey in rejecting petitioner’s challenge to application of

22

California death penalty based on statistical data that, inter alia, “a male between

23

the ages of 25 to 34 stands a significantly greater chance than other defendants of

24

receiving the sentence of death”).

25

Here, Petitioner offers no statistical evidence and no evidence specific to his

26

case that discriminatory considerations played a part in his sentence. Petitioner’s

27

allegations are conclusory. See Jones v. Gomez, 66 F.3d 199, 205 (9th Cir. 1995)

28

(“[Petitioner’s] conclusory suggestions . . . fall far short of stating a valid claim of
43
Pet. App. 78

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 44 of 46 Page ID #:27090

1

constitutional violation.”); James v. Borg, 24 F.3d 20, 26 (9th Cir. 1994)

2

(“Conclusory allegations which are not supported by a statement of specific facts

3

do not warrant habeas relief.”). The California Supreme Court may have

4

reasonably determined that Petitioner failed to meet his burden of proving the

5

existence of purposeful discrimination. Claim 32 is DENIED.

6

XIII. Claim 37 and Motion to Amend

7

In Claim 37, Petitioner alleges that “the absence of legitimate justifications

8

for the unnecessary taking of Petitioner’s life and the haphazard and arbitrary

9

methods that the State has employed to implement the death penalty upon

10

Petitioner renders the imposition of the death penalty upon him cruel and unusual

11

punishment.” (Pet. at 308.) Petitioner explains in his Motion to Amend that the

12

“updated version” of Claim 37 he seeks to file “does not introduce a new theory

13

of relief” from the current Claim 37. (Mot. to Amend at 9 (“With this motion,

14

Kipp is simply seeking to support his claim with facts and circumstances that

15

developed since his 2006 petition was filed.”).) Both versions, he explains, plead

16

“the same claim that was recently raised in the Jones case.” (Id.)

17

The Ninth Circuit held on November 12, 2015 that Teague v. Lane, 489 U.S.

18

288 (1989) bars relief on petitioner Jones’s claim. Jones, 2015 WL 6994287, at

19

*1, 7-12. It would, therefore, be futile for Petitioner to amend Claim 37 to reflect

20

the facts and arguments presented in Jones. Petitioner’s Motion to Amend is

21

DENIED on that basis. See Bonin v. Calderon, 59 F.3d 815, 845 (9th Cir. 1995)

22

(“Futility of amendment can, by itself, justify the denial of a motion for leave to

23

amend.”). Relief on Petitioner’s currently pleaded Claim 37 is likewise barred by

24

Teague. See Jones, 2015 WL 6994287, at *7-12. Claim 37 is DENIED.

25

XIV. Claims 13, 38, and 39: Cumulative Error

26

In Claims 13, 38, and 39, Petitioner challenges the cumulative effects of the

27

alleged errors at trial. In Claim 13, Petitioner challenges the cumulative guilt

28

phase error; in Claim 39, the cumulative penalty phase error; and in Claim 38, the
44
Pet. App. 79

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 45 of 46 Page ID #:27091

1
2

cumulative guilt and penalty phase errors. (Pet. at 140-41, 312-22.)
“[P]rejudice may result from the cumulative impact of multiple

3

deficiencies.” Harris v. Wood, 64 F.3d 1432, 1438-39 (9th Cir. 1995) (finding that

4

cumulative prejudice from counsel’s performance that was “deficient in eleven

5

ways, eight of them undisputed,” “obviate[d] the need to analyze the individual

6

prejudicial effect of each deficiency,” but noting that “some of the deficiencies

7

[may be] individually prejudicial” (internal citation and quotation omitted)).

8

“[W]here the government’s case is weak, a defendant is more likely to be

9

prejudiced by the effect of cumulative errors. This is simply the logical corollary

10

of the harmless error doctrine which requires us to affirm a conviction if there is

11

overwhelming evidence of guilt.” United States v. Frederick, 78 F.3d 1370, 1381

12

(9th Cir. 1996) (internal citation and quotation omitted); United States v. Nadler,

13

698 F.2d 995, 1002 (9th Cir. 1983) (holding same). “[W]hile a defendant is

14

entitled to a fair trial, he is not entitled to a perfect trial, ‘for there are no perfect

15

trials.’” United States v. Payne, 944 F.2d 1458, 1477 (9th Cir. 1991) (rejecting

16

cumulative error claim based upon trial court errors) (quoting Brown v. United

17

States, 411 U.S. 223, 231-32 (1973)).

18

The Court concluded above that the state court may have reasonably found

19

the cumulative effect of any prosecutorial misconduct to be harmless. (See supra

20

p. 24.) In addition, considering the entirety of Petitioner’s allegations of

21

ineffective assistance of counsel cumulatively under Strickland, the Court finds

22

reasonable the California Supreme Court’s determination that Petitioner was not

23

prejudiced by any deficient performance. The California Supreme Court was not

24

objectively unreasonable in concluding that any ineffective assistance in

25

Petitioner’s representation by the same counsel in appellate and habeas

26

proceedings (see supra p. 41) and in counsel’s failure, for example, to move for a

27

change of venue (see supra p. 31), to object to the admission of evidence on

28

constitutional grounds (see Order on Mot. for Evid. Hr’g at 13-19, 65, 68), to
45
Pet. App. 80

Case 2:03-cv-08571-PSG Document 177 Filed 12/02/15 Page 46 of 46 Page ID #:27092

1

investigate and present mitigating evidence and a mental state defense (see id. at

2

43, 48), to voir dire jurors on Petitioner’s Native American heritage and belief in

3

Satan (see id. at 73-74), and to discover and remedy any conflict of interest of

4

David Sugiyama (see id. at 86-87), was harmless.

5

The California Supreme Court may have reasonably concluded that the

6

effect of any guilt and penalty phase errors, considered cumulatively, was

7

harmless. The court may have found harmless the combined effect of any

8

prosecutorial misconduct and ineffective assistance of counsel, in addition to any

9

errors, for example, in political considerations in the appellate review process (see

10

supra p. 42), juror misconduct in the consideration of Bible passages (see Order on

11

Mot. for Evid. Hr’g at 77), and the admission of evidence of Petitioner’s references

12

to Satan (see id. at 67-68). Cf. Kipp, 26 Cal. 4th at 1132, 1141 (finding no

13

cumulative error on direct appeal, because “[a]part from a single instance of guilt

14

phase prosecutorial misconduct, which we have found nonprejudicial, defendant

15

has failed to demonstrate that error occurred at either the guilt or the penalty

16

phase”). Claims 13, 38, and 39 are, therefore, DENIED.

17

XIV. Order

18

Claims 2, 4-13, 15-17, 24, 25, 27, 28(B)-(F), 29, 30, 32, 33, and 37-39 are

19

DENIED. Petitioner’s Motion for Leave to Amend His Petition for Writ of Habeas

20

Corpus is DENIED.

21

The Court hereby denies the First Amended Petition for Writ of Habeas

22

Corpus. Pursuant to 28 U.S.C. § 2253(c)(2), the Court issues a Certificate of

23

Appealability on Claims 14(I) and 19, as to the September 9 and September 15,

24

1987 letters. (See Order on Mot. for Evid. Hr’g at 57-58.)

25

IT IS SO ORDERED.

26

Dated: December 2, 2015.

27
28

PHILIP S. GUTIERREZ
United States District Judge
46
Pet. App. 81

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 1 of 93 Page ID #:1047

1

r----:::-E-. FILED

2
3

APR 3 0 2014

4

Document#

5

6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

12
13
14

15
16

MARTIN JAMES KIPP,
Petitionev,
v.

KEVIN CHAPPELL, Warden of
California State Prison at San
Quentin,
Respondent.

CASE NO. CV 03-8571 PSG

DEATH PENALTY CASE
ORDER DENYING
PETITIONER'S MOTION FOR
EVIDENTIARY HEARING AND
ORDER FOR MERITS
BRIEFING

17
18

Petitioner filed a Motion for Evidentiary Hearing on sixteen claims in his

19

First Amended Petition for Writ of Habeas Corpus. (Petr.' s Mot. for Evid. Hr' g,

20

Aug. 8, 2007, at 2.) Following the United States Supreme Court's decisions in

21

Cullen v. Pinholster, 131 S. Ct. 1388 (2011), Walker v. Martin, 131 S. Ct. 1120

22

(20 11 ), and Harrington v. Richter, 131 S. Ct. 770 (20 11 ), the Court Ordered the

23

parties to file supplemental briefing on any procedural bars to Petitioner's

24

evidentiary hearing claims and Petitioner's entitlement to a hearing to introduce

25

evidence beyond the state court record. (Order re: Supplemental Briefing on

26

Petr. 's Mot. for Evid. Hr' g, Apr. 29, 2011, at 2.)

27
28

The Court has reviewed the parties' supplemental briefs along with their
prior briefs on Petitioner's Motion for Evidentiary Hearing. As set forth below,

Pet. App. 82

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 2 of 93 Page ID #:1048

1

the Court denies relief on Petitioner's evidentiary hearing claims. The parties

2

shall proceed to brief the merits of Petitioner's remaining claims for relief.

3

I. Petitioner's Entitlement to an Evidentiary Hearing

4

In his briefing on the application of Pinholster to his motion for evidentiary

5

hearing, Petitioner argues that he:

6

14

is not seeking an evidentiary hearing for the purpose of
developing evidence to show that, under § 2254( d)( 1),
the state court decision was unreasonable. Kipp can
satisfy both§ 2254(d)(l) and (d)(2) without the aid of an
evidentiary hearing. Rather, he seeks an evidentiary
hearing to enable him to further prove his entitlement to
relief under§ 2254(a), and for the purpose of resolving
any factual issues that remain unresolved due to the
California Supreme Court's failure to provide him with a
full and fair hearing to develop the factual bases of his
claims.
(Petr.'s Supplemental Br. in Supp. ofPetr.'s Mot. for Evid. Hr'g, Sept. 23, 2011

15

("Petr.'s Br."), at 16-17.) Petitioner further argues that "[i]n the present case, the

16

lack of process Kipp received in the California Supreme Court must inform the

17

§ 2254(d)(l) and (d)(2) determinations." (!d. at 17.)

7
8
.9

10
11
12
13

18

Section 2254(a) simply sets forth the authority of a federal court to grant a

19

petition for writ of habeas corpus. Section 2254(a) states, "The Supreme Court, a

20

Justice thereof, a circuit judge, or a district court shall entertain an application for

21

a writ of habeas corpus in behalf of a person in custody pursuant to the judgment

22

of a State court only on the gro~nd that he is in custody in violation of the

23

Constitution or laws or treaties of the United States." 28 U.S.C. § 2254(a); see

24

also Pinholster, 131 S. Ct. at 1398 ("Section 2254(a) permits a federal court to

25

entertain only those applications alleging that a person is in state custody 'in

26

violation of the Constitution or laws or treaties of the United States"'). Section

27

2254(a) does not, by itself, establish a standard for relief for claims decided on the

28

merits by the state court.
2

Pet. App. 83

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 3 of 93 Page ID #:1049

1

With two exceptions, 1 the state court denied Petitioner's claims on the

2

merits. (See Lodg. 13 (Case No. S093369 (Cal. Nov. 12, 2003)), Lodg. 24 (Case

3

No. S129115 (Cal. June 28, 2006))); People v. Kipp, 26 Cal. 4th 1100'(2001). The

4

claims are thus subject to § 2254( d), which provides the standard for relief for

5

"any claim that was adjudicated on the merits in State court proceedings .... " 28

6

U.S.C. § 2254(d).

7
8

9
10
11

12
13
14
15
16
17
18

In full, § 2254( d), as amended by the Antiterrorism and Effective Death
Penalty Act of 1996 (AEDPA), provides:
An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State
court shall not be granted with respect to any claim that
was adjudicated on the merits in State court proceedings
unless the adjudication of the claim -

(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.

19

28 U.S.C. § 2254(d). The Supreme Court held in Pinholster that when

20

determining whether a petitioner has satisfied § 2254( d), a court may only

21

consider evidence in the state court record. 131 S. Ct. at 1398, 1400 n.7. The

22

Court held that "review under § 2254( d)( 1) is limited to the record that was before

23
24
25
26
27
28

The first exception is Claim XV in Cas{! No. S093369, alleging that Petitioner is
incompetent to be executed in violation of the United States Constitution. The claim is pleaded as
Claim 31 in the instant Petition. (See First Am. Pet. for Writ of Habeas Corpus, July 5, 2006
("Pet.") at 9-10, 271.) The state court dismissed the claim as premature. For the reasons set forth
below (see infra p. 90), this Court likewise dismisses without prejudice Claim 31 as premature.
The second exception is Claim Gin Case No. S129115, "[i]nsofar as it asserts that
petitioner is incompetent for execution" in violation of international law. The claim is pleaded
within Claim 34 in the instant Petition. (See Pet. at 11, 286.) The state court also dismissed this
claim as premature. For the reasons set forth below (see infra pp. 90-92), this Court denies Claim
34 on the basis that Petitioner fails to show that he is in custody in violation of the United States
Constitution or laws or treaties of the United States.

3
Pet. App. 84

.I

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 4 of 93 Page ID #:1050

1

the state court that adjudicated the claim on the merits." !d. at 1398. Section

2

2254(d)(2) "includes the language 'in light of the evidence presented in the State

3

court proceeding,' ... [providing] additional clarity ... on this point."· !d. at 1400

4

n.7.

5

As a result, a court may not consider evidence developed at a federal

6

evidentiary hearing in its§ 2254(d) analysis. "Cullen v. Pinholster now bars [an

7

evidentiary] hearing unless [petitioner] can satisfy§ 2254(d)." Henry v. Ryan, 720

8

F.3d 1073, 1093 n.15 (9th Cir. 2013). Where the petitioner "has not satisfied

9

§ 2254(d), the district court [does] not abuse its discretion by denying

10

[petitioner's] request for an evidentiary hearing." !d.; see also Gulbrandson v.

11

Ryan, 738 F.3d 976, 993-94 (9th Cir. 2013) (holding that the requirement that

12

petitioners "rely only on the record before the state court in order to satisfy the

13

requirements of§ 2254(d) ... effectively precludes federal evidentiary hearings

14

for such claims because the evidence adduced during habeas proceedings in

15

federal court could not be considered in evaluating whether the claim meets the

16

requirements of§ 2254(d)" (internal citation omitted)); Pizzuto v. Blades, 729

17

F.3d 1211, 1216 (9th Cir. 2013) ("Ifthe state court's adjudication of a claim

18

survives review under § 2254(d), that ends our analysis; the petitioner is not

19

entitled to an evidentiary hearing on that same claim in federal court"). Petitioner

20

cannot, therefore, receive "an evidentiary hearing to enable him to further prove

21

his entitlement to reliefunder § 2254(a)" or, in tum,§ 2254(d). (Petr.'s Br. at 17.)

22

Petitioner's argument that the state court "fail[ed] to provide him with a full

23

and fair hearing" does no more to establish his entitlement to an evidentiary

24

hearing. Petitioner Pinholster did not receive a hearing in state habeas

25

proceedings, see Pinholster, 131 S. Ct. at 1396 n.1 ("Although the California

26

Supreme Court initially issued an order asking the State to respond [to petitioner's

27

allegations], it ultimately withdrew that order as 'improvidently issued'"), nor did

28

the petitioners in Gulbrandson or Pizzuto, discussed above. See Gulbrandson v.
4
Pet. App. 85

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 5 of 93 Page ID #:1051

1

Schriro, No. CV 98-2024, 2007 WL 974104 (D. Ariz. Mar. 31, 2007) (noting that

2

the state court denied relief on the petition for post-conviction relief "without

3

holding an evidentiary hearing"); Pizzuto, 729 F.3d at 1218 ("[T]he state court did

4

not hold an evidentiary hearing before denying [petitioner's] state petition for

5

post-conviction review"). "A state court need not conduct an evidentiary hearing

6

to resolve every disputed factual question." Gulbrandson, 738 F.3d at 987.

7

"[S]uch a per se rule would be counter not only to the deference owed to state

8

courts under AEDPA, but to Supreme Court precedent." Pizzuto, 729 F.3d at 1219

9

(internal quotation omitted).

10

The Court will, therefore, proceed to analyze Petitioner's claims under

11

§ 2554(d) on the basis of the state court record.

12

II. Legal Standard under § 2254(d)

13

To satisfy§ 2254(d)(l), Petitioner must show that the state court's

14

adjudication of the claim "resulted in a decision that was contrary to, or involved

15

an unreasonable application of, clearly established Federal law, as determined by

16

the Supreme Court ofthe United States." 28 U.S.C. § 2254(d)(l). The Supreme

17

Court explained in Lockyer v. Andrade that a state court decision is "contrary to

18

our clearly established precedent if the state court applies a rule that contradicts

19

the governing law set forth in our cases or if the state court confronts a set of facts

20

that are materially indistinguishable from a decision of th[ e] Court and

21

nevertheless arrives at a result different from our precedent." 538 U.S. 63, 73

22

(2003) (internal quotations omitted); see also Crosby v. Schwartz, 678 F.3d 784,

23

788 (9th Cir. 2012) (applying Richter, 131 S. Ct. 770). "[U]nderthe

24

'unreasonable application' clause, a federal habeas court may grant the writ if the

25

state court identifies the correct governing legal principle from this Court's

26

decisions but unreasonably applies that principle to the facts of the prisoner's

27

case." Lockyer, 538 U.S. at 75 (internal quotation omitted); see also Crosby, 678

28

F.3d at 788. "The 'unreasonable application' clause requires the state court

'

5
Pet. App. 86

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 6 of 93 Page ID #:1052

1

decision to be more than incorrect or erroneous. The state court's application of

2

clearly established law must be objectively unreasonable." Lockyer, 538 U.S. at

3

75 (internal citation omitted); see also Crosby, 678 F.3d at 788.
"[A]s to the clause dealing with 'an unreasonable determination of the

4

5

facts,"' § 2254( d)(2), "the statement of facts from the last reasoned state court

6

decision is afforded a presumption of correctness that may be rebutted only by

7

clear and convincing evidence." Cudjo v. Ayers, 698 F.3d 752, 762 (9th Cir.

8

20 12) (internal quotation omitted). Under § 2254(d)(2), "if a petitioner challenges ·

'9

the substance of the state court's findings," the court:

10

must be convinced that an appellate panel, applying the
normal standards of appellate review, could not
reasonably conclude that the finding is supported by the
record. Similarly, when the challenge is to the state
court's procedure, mere doubt as to the adequacy of the
state court's findings of fact is insufficient; we must be
satisfied that any appellate court to whom the defect [in
the state court's fact-finding process] is pointed out
would be unreasonable in holding that the state court's
fact-finding process was adequate.

11

12
13
14
15
16
17
18

Hibbler v. Benedetti, 693 F.3d 1140, 1146-47 (9th Cir. 2012) (internal quotations

19

omitted; alteration in original).
The United States Supreme Court made clear in Richter that "[a] state

20
21

court's determination that a claim lacks merit precludes federal habeas relief so

22

long as fairmindedjurists could disagree on the correctness ofthe state court's

23

decision." 131 S. Ct. at 786 (internal quotation omitted). "Under§ 2254(d), a

24

habeas court must determine what arguments or theories supported or ... could

25

have supported, the state court's deci~ion;" the court must not "overlook[]

26

arguments that would otherwise justify the state court's result .... " !d. Section

27

2254( d) provides "a difficult to meet and highly deferential standard for evaluating

28

II
6
Pet. App. 87

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 7 of 93 Page ID #:1053

1

state-court rulings, which demands that state-court decisions be given the benefit

2

ofthe doubt." Pinholster, 131 S. Ct. at 1398 (internal quotations omitted).

3

III. Legal Standard for Ineffective Assistance of Counsel

4

To establish ineffective assistance of counsel, Petitioner must demonstrate

5

that ( 1) counsel's performance was deficient and (2) the deficient performance

6

prejudiced the defense. Strickland v. Washington, 466 U.S. 668, 687 (1984).

7

Counsel's representation is deficient if, "considering all the circumstances,"

8

it "fell below an objective standard of reasonableness" and was unreasonable

9

"under prevailing professional norms." !d. at 688. "Judicial scrutiny of counsel's

10

performance must be highly deferential. . . . A fair assessment of attorney

11

performance requires that every effort be made to eliminate the distorting effects

12

of hindsight." Id. at 689. The Court "must indulge a strong presumption that

13

counsel's conduct falls within the wide range of professional assistance; that is,

14

the defendant must overcome the presumption that, under the circumstances, the

15

challenged action might be considered sound trial strategy." Id. (internal

16

quotation omitted).

17

To establish that counsel's deficient performance prejudiced the defense,

18

Petitioner must show "that there is a reasonable probability that, but for counsel's

19

unprofessional errors, the result of the proceeding would have been different. A

20

reasonable probability is a probability sufficient to undermine confidence in the

21

outcome." !d. at 694. "The benchmark for judging any claim of ineffectiveness

22

must be whether counsel's conduct so undermined the proper functioning of the

23

adversarial process that the trial cannot be relied on as having produced a just

24

result." !d. at 686.

25

26
27

28

As the Supreme Court emphasized in Richter:
[s]urmounting Strickland's high bar is never an easy
task. ... Even under de novo review, the standard for
judging counsel's representation is a most deferential
one. Unlike a later reviewing court, the attorney
7

Pet. App. 88

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 8 of 93 Page ID #:1054

1
2

3
4

5
6
7
8
9
10

11
12
13
14
15
16

observed the relevant proceedings, knew of materials
outside the record, and interacted with the client, with
opposing counsel, and with the judge. It is all too
tempting to second-guess counsel's assistance after
conviction or adverse sentence. The question is whether
an attorney's representation amounted to incompetence
under prevailing professional norms, not whether it
deviated from best practices or most common custom.
Establishing that a state court's application of Strickland
was unreasonable under § 2254(d) is all the more
difficult. The standards created by Strickland and
§ 2254( d) are both highly deferential, and when the two
apply in tandem, review is doubly so. The Strickland
standard is a general one, so the range of reasonable
applications is substantial. Federal habeas courts must
guard against the danger of equating unreasonableness
under Strickland with unreasonableness under § 2254(d).
When § 2254(d) applies, the question is not whether
counsel's actions were reasonable. The question is
whether there is any reasonable argument that counsel
satisfied Strickland's deferential standard.

17

Richter, 131 S. Ct. at 788 (internal quotations and citations omitted).

18

IV. Claim l(D): Failure to Make an Opening Statement

19

In Claim 1(D), Petitioner alleges that he "was deprived of his right to

20

effective assistance of counsel at his capital trial because his counsel failed to

21

present an opening statement to the jury." (Pet. at 71.) Petitioner concedes that

22

the "failure to present an opening statement does not amount to per se

23

ineffectiveness," but alleges that it is evidence of ineffectiveness when counsel's

24

performance is considered as a whole. (Petr.'s Br. at 56.) He argues that in his

25

case, counsel's "failure to make an opening statement was particularly prejudicial

26

since the defense called no witnesses at the guilt phase. By the time the parties

27

rested at the guilt phase, the jurors had heard no narrative other than that presented

28

by the prosecution." (!d.; see also Pet. at 73.)
8

Pet. App. 89

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 9 of 93 Page ID #:1055

1

"The timing of an opening statement, and even the decision whether to

2

make one at all, is ordinarily a mere matter of trial tactics and in such cases will

3

not constitute the incompetence basis for a claim of ineffective assistance of

4

counsel." United States v. Rodriguez-Ramirez, 777 F.2d 454,458 (9th Cir. 1985).

5

The Ninth Circuit held in United States v. Murray, for example, that the "decision

6

not to make an opening statement" was "a reasonable tactical decision" even

7

though counsel, like Petitioner's counsel, did not "call any witnesses in defense."

8

751 F.2d 1528, 1535 (9th Cir. 1985). "When defense counsel does not have a

9

solid case, the best strategy can be to say that there is too much doubt about the

10

State's theory for a jury to convict." Richter, 131 S. Ct. at 791. That assertion can

11

be left strategically for counsel's closing argument.

12

"The question is whether there is any reasonable argument that counsel

13

satisfied Strickland's deferential standard." !d. at 788. In light of the strength of

14

the evidence against Petitioner on first degree murder, defense counsel conceded

15

that charge in his closing argument. (See RT 3895-96.) Defense counsel argued,

16

however, that the prosecution had not presented sufficient evidence to establish

17

the robbery-murder special circumstance, because the victim's property appeared

18

to have been taken only as an afterthought. (!d. at 3897-98.) Counsel also argued

19

that the prosecution had not presented sufficient evidence to establish the rape-

20

murder special circumstance, because the evidence suggested only that intercourse

21

occurred after the victim's death. (!d. at 3898-3900.) Counsel reminded the jurors

22

of the concept of reasonable doubt and argued that they must "eliminate ... every

23

rational possibility pointing to innocence in this case." (!d.) He repeatedly asked

24

for their "very thoughtful and very considerate" evaluation of the evidence. (!d. at

25

3893, 3899, 3900, 3901.)

26

In light of the guilt phase evidence against Petitioner, the California

27

Supreme Court may have reasonably concluded that counsel's strategy in not

28

making an opening argument was effective. Accordingly, Claim 1(D) is DENIED.

9

Pet. App. 90

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 10 of 93 Page ID #:1056

I

l
l

1

j

1

Petitioner's claim that counsel provided ineffective assistance when considered

2

cumulatively will be evaluated once the merits of each of Petitioner's individual

3

ineffective assistance claims have been briefed.

4

V. Claims l(F), l(G), l(H), 14(G), 14(H), and 14(J): Admissibility of

5

Evidence

6

In Claims l(F), 1(G), 1(H), 14(G), 14(H), and 14(J), Petitioner faults trial

7

counsel for objecting to several pieces of evidence at the guilt and penalty phases

8

of trial "on state law grounds alone, rather than objecting to admission of the

9

evidence on constitutional grounds." (Petr. 's Br. at 57.) Petitioner relies upon

10

Burns v. Gammon, 260 F.3d 892, 897-98 (8th Cir. 2001) for the proposition that

11

counsel's failure to object on constitutional grounds was prejudicial "in part

12

because the petitioner had to overcome a 'much more onerous' standard of

13

review" for plain error. (Petr.'s Br. at 59-60 (quoting Burns, 260 F.3d at 897-98).)

1

14

In Burns, the prosecutor asked the jury to consider the fact that by

I

15

exercising his right to a jury trial and right to confront witnesses, the defendant

16

had caused the victim to "relieve the attack." 260 FJd at 896. The Eighth Circuit

17

held that counsel's failure to object to that argument on constitutional grounds

18

"worked to Burns' actual and substantial prejudice," because it allowed the jury to

19

punish him for exercising his constitutional rights. Id. at 897. The court thus held

20

that defendant suffered prejudice not only from the more demanding standard of

21

review that applied because counsel failed to object adequately, but from the

22

prosecutor's argument itself.

j

23

Here, where the admission of evidence is at issue, the defendant suffers a

24-

constitutional violation only if the evidence is "of such quality as necessarily

25

prevents a fair trial" and "there are no permissible inferences the jury can draw

26

from the evidence in question .... " Hovey v. Ayers, 458 FJd 892, 923 (9th Cir.

27

2006) (internal quotation omitted); see also Jammal v. Van de Kamp, 926 F.2d

28

918, 920 (9th Cir. 1991) ("Only if there are no permissible inferences the jury may
10

Pet. App. 91

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 11 of 93 Page ID #:1057

1

draw from the evidence can its admission violate due process" (emphasis in

2

original)).

3

A.

September 15, 1987 Letter

4

Claim 1(F) addresses a letter Petitioner wrote to his then-wife on September

5

15, 1987, while he and his wife were in the custody of the Orange County Jail.

6

(Pet. at 76-81.) The parties argued the admissibility of the letter, in whole or in

7

part, in advance of its admission. (See RT 3709-30.) Defense counsel argued that

8

the letter was more prejudicial than probative. (!d. at 3710-11.) The portion of the

9

letter at issue read:

10
11

12
13
14
15
16
17

'I killed, raped, sodomized, beat, swore, and laughed at
those fucking no-good bitches. Yeah, it felt great,
because neither deserved to live anymore. One was a
black prostitute who liked to rob people and play games.
She goes, 'Okay, okay, Kipp,' while I crushed the hyoid
bone in her throat with a dim-mak technique. The other
little tramp played it off as a college sweetheart. Hell,
she was anything but that, and a loose fuck to boot.
Well, Satan's licking both those bitches up now and
laughing.'
(!d. at 3853.)

;:::

The prosecutor offered to introduce into evidence an edited version of the

18
19

letter that omitted any reference to the victim not at issue in the instant charges.

20

(!d. at 3711-12.) Petitioner was charged in the instant trial in Los Angeles County

21

with the rape, robbery, and murder of Tiffany Frizzell. Kipp, 26 Cal. 4th at 1109.

22

He had been previously convicted of the attempted rape and murder of Antaya

23

Howard in Orange County. People v. Kipp, 18 Cal. 4th 349, 358 (1998). The trial

24

court ruled that at least the portion of the letter pertaining to the crimes against

25

Frizzell would be admissible at the guilt phase. (RT 3712-14.)

26

Defense counsel then "advised the court that they wanted the entire letter to

27

come in during [the] guilt phase so that the jury would not be shocked by its

28

//
11

Pet. App. 92

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 12 of 93 Page ID #:1058

1

content when introduced by the prosecutor at [the] penalty phase." (Pet. at 78; see

2

also R T 3718.) The court acceded to defense counsel's request. (RT 3722-28.)

3

Petitioner now contends that counsel was ineffective for failing to object to

4

the admission of the statements regarding both Frizzell and Howard on

5

constitutional grounds.

6

As to the portion of the letter regarding Frizzell, based on the evidence

7

introduced at trial, it was a permissible inference that Petitioner raped and killed

8

Frizzell. The prosecution introduced evidence that Frizzell lived in Washington

9

and had flown to Long Beach the day before her murder to attend Brooks College.

10

{RT 3375-79). She stayed in a hotel that night because the college dormitories

11

were not open for registration until the next day. (Jd. at 3378-79); see also Kipp,

12

26 Cal. 4th at 1110. She was found on the bed in her hotel room unclothed from

13

the waist down, with a small hook embedded in her back that appeared to be from

14

a missing bra, and semen and sperm were present in her vagina and on her external

15

genital area. Kipp, 26 Cal. 4th at 1110. Petitioner's fingerprint was found on the

16

telephone in the room. Id. It was a reasonable inference from that evidence that it

17

was Frizzell Petitioner discussed as "play[ing] it off as a college sweetheart."

18

The trial court observed that the letter "certainly seems to be an admission.

19

A very substantial issue to what was heretofore a circumstan[t]ial case." (!d. at

20

3714.) The jury could have drawn the same permissible inference from

21

Petitioner's statements.
As to the remaining portion of the letter regarding Howard, 2 based on

22
23

evidence introduced at the penalty phase of trial, it was a permissible inference

24

that Petitioner raped and killed Howard. The prosecution presented evidence that

25

Howard was black (see RT 4306, 5170-71 (admitting and discussing photograph

26

ofHoward); cf Pet. Ex. 11 at 1206 (recording Howard's race as black)), that she

27
28

2

Petitioner's independent allegations regarding the letter's reference to Satan in connection with
Frizzell and Howard are addressed below in Claims 14(1) and 19. (See infra pp. 57-68.)

12

Pet. App. 93

r-

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 13 of 93 Page ID #:1059

1

was last seen with Petitioner, that she was found in her car with her breasts

2

exposed and her pants and underwear at her ankles, that she died of asphyxiation

3

from strangulation, and that Petitioner's fingerprints were found on and in her car.

4

See Kipp, 26 Cal. 4th at 1114. Because the jury could permissibly infer that it was

5

Howard Petitioner admitted strangling and raping (or attempting to rape), the

6

admission of the letter for the penalty phase of trial did not violate his

7

constitutional rights.

8
9

The California Supreme Court reasonably concluded that Petitioner failed to
show prejudice from counsel's failure to object to the admission of the letter on

10

constitutional grounds. See Kipp, 26 Cal. 4th at 1123. In addition, the state court

11

could have reasonably held that counsel's strategy of presenting all admissible

12

portions of the letter at the guilt phase of trial to diffuse their effect on the jury at

13

the penalty phase was reasonable.

14

Claim 1(F) is DENIED.

15

B.

16

Claim 1(G) addresses testimony regarding the reason for Frizzell's presence

Explanation for Tiffany Frizzell's Presence at a Long Beach Hotel

17

at the Long Beach hotel where she was found. (Pet. at 81-83.) As mentioned

18

above, Tiffany Frizzell's mother testified that she and Tiffany lived in

19

Washington, and Tiffany flew to Long Beach to attend Brooks College. (RT

20

3375-76.) She had made arrangements for Tiffany to stay at the Ramada Inn in

21

Long Beach because it was close to Brooks College and students could not check

22

in to stay at the College itself until the next day. (!d. at 3378-79.) She testified

23

that Tiffany traveled a day early "to lay in the sun and see the beach." (!d. at

24

3379.)

25

Ruling on its admissibility in advance of the testimony, the trial court

26

observed that Frizzell's reason for being at a hotel was relevant to whether

27

intercourse was consensual. (RT 3341-42.) The court remarked that the evidence

28

would counter a potential inference that the victim may have been "a hooker [who]
13

Pet. App. 94

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 14 of 93 Page ID #:1060

1

worked in motels," which would make the intercourse suggested by the evidence

2

more likely to be "consensual rather than rape." (Id. at 3341-42.) That the

3

testimony in this way supported an inference that intercourse was not consensual

4

is not objectively unreasonable.

5

Because there was a permissible inference from the testimony, the

6

California Supreme Court reasonably concluded that "an objection on

7

constitutional grounds would have lacked merit." Kipp, 26 Cal. 4th at 1125; see

8

Hovey, 458 F.3d at 923; Jammal, 926 F.2d at 920. The California Supreme Court

9

reasonably concluded that Petitioner was not prejudiced by counsel's failure to

10

11
12
13

raise a constitutional objection. Claim 1(G) is DENIED.

C.

Escape Attempts from Los Angeles County and Orange County
Jails

Claim 1(H) addresses evidence regarding Petitioner's two escape attempts.

14

(Pet. at 84-87.) In April1987, Petitioner planned an escape from the Orange

15

County Jail. See Kipp, 26 Cal. 4th at 1111-12. At that time, he faced murder

16

charges in Los Angeles County as well as Orange County. Later, on January 1,

17

1988, Petitioner attempted to escape from the Los Angeles County Jail. See id., 26

18

Cal. 4th at 1112. Petitioner's 1988 escape attempt came approximately four

19

months after his Orange County death judgment was entered and less than twelve

20

months before the beginning of his Los Angeles County trial.

21

"It is today universally conceded that the fact of an accused's ... escape

22

from custody, ... and related conduct, are admissible as evidence of

23

consciousness of guilt, and thus of guilt itself." United States v. Greiser, 502 F .2d

24

1295, 1299 (9th Cir. 1974) (internal quotation omitted); see also South Dakota v.

25

Neville, 459 U.S. 553, 561 (1983) (listing categories of"circumstantial evidence

26

of consciousness of guilt, such as escape from custody"); cf United States v.

27

Silverman, 861 F.2d 571, 581 (9th Cir. 1988) (holding that flight instruction is

28

appropriate where there is evidence sufficient to support a chain of unbroken
14

Pet. App. 95

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 15 of 93 Page ID #:1061

1

inferences ... '(1) from the defendant's behavior to flight; (2) from flight to

2

consciousness of guilt; (3) from consciousness of guilt to consciousness of guilt

3

concerning the crime charged; and (4) from consciousness of guilt concerning the

4

crime charged to actual guilt of the crime charged'" (quoting and adopting test set

5

forth in United States v. Myers, 550 F.2d 1036, 1049 (5th Cir. 1977))). That the

6

defendant attempted an escape in advance of his prosecution is evidence of guilt of

7

the charged crimes. See United States v. Guerrero, 756 F.2d 1342, 1347 (9th Cir.

8

1984) (holding Myers test was satisfied because "[t]he fact that the escape took

9

place the day before defendants were to be arraigned on the charges involved in

10

this case strongly suggests that the escape was motivated by considerations related

11

to this case"); see also Williams v. Woodford, 384 F.3d 567, 580, 603 (9th Cir.

12

2002) (affirming denial of habeas relief where evidence of escape plans made one

13

year and eight months before trial were admitted at guilt phase). It was, therefore,

14

permissible for the jury to infer consciousness of guilt, and guilt, from Petitioner's

'I 5

attempts to escape from custody.

16

Because there was a permissible inference from the evidence of Petitioner's

17

escape attempts, its admission did not violate Petitioner's constitutional rights.

18

See Hovey, 458 F.3d at 923; Jammal, 926 F.2d at 920. The California Supreme

19

Court may have reasonably concluded that Petitioner failed to show prejudice

20

from counsel's failure to object to the evidence on constitutional grounds. Cf

21

Kipp, 26 Cal. 4th at 1125-27. Claim l(H) is DENIED.

22

D.

September 9, 1987 Letter

23

Claim 14(G) addresses a letter Petitioner wrote to his then-wife on

24

September 9, 1987,3 while he and his wife were in the custody of the Orange

25

II

26
3

27
28

The letter at issue was undated. (See RT 5006-07.) The parties at trial and since trial have
referred to this letter inconsistently as the September 7, 1987 or the September 9, 1987letter. This
Court will use the September 9, 1987 date for the sake of consistency. See Kipp, at 26 Cal. 4th at
1120.

15

Pet. App. 96

;:::

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 16 of 93 Page ID #:1062

1

County Jail. (Pet. at 166-70.) The letter contained the following statements by

2

Petitioner:

3
4
5
6
7
8

9
10
11
12

13
14
15
16
17
18
19

20
21

22
23

24
25

26
27

Everyone hates a dyputy on the street its [sic] why they
are always getting killed! And your [sic] in their low-life
setting so they like to rub it in all the time. It is how they
get their satisfaction, besides turning key's [sic] all day
long. (ha! ha! ha!) Satan will lick them all up when
they die. Especially the bitch women deputies's [sic].
They walk around like their shit don't stink, but what
they forget is their facts do. I'd rape and sodimize [sic]
every woman bitch deputy and gouge their eye's [sic]
out! But I would let them live as invalent's [sic]. Yeah!
Satan will lick em all up in a tredge [sic] of horror. They
better not ever given [sic] me the opportunity to escape,
because I'll associate myself with a terrorist group and
really go on a spree. I'd kill every D.A. and his family,
deputies's [sic], men and women alike! And I'd gouge
everyone [sic] of their fucking eye's [sic] out! After I
got to 400-500 killing's [sic] of this type, I'd incorporate
some ninja type murder's [sic] by poison! Yeah, I don't
believe in God anymore, because their [sic] isn't one
who has ever helped me. But Satan has help [sic] me
rejuvanate [sic] my energie's [sic] in a working manner
babe. Don't ever underestimate my 'intention's' [sic]
that's all I can say!
(Pet. at 167-68; see also RT 5191.)
Concerning the admissibility of the letter, the trial court observed, in part,
that Petitioner's expert, Dr. Craig Haney:
related ... a tremendous amount of hearsay statements
on the stand ... as to what Mr. Kipp told [him]. [~] And
here we have something that Mr. Kipp said, too, about
escape attempts, about what he plans to do if he gets out
that would show lack of remorse. [~] [Dr. Haney] tells
us the defendant's remorseful. Maybe he is at this time.

28
16

Pet. App. 97

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 17 of 93 Page ID #:1063

1

Maybe he isn't. Maybe he's fooling the doctor. Who
knows. [~] I think the Oury] is entitled to weigh it.

2
3
4

5

(RT 4952.)
On direct appeal, the California Supreme Court:

11

discern[ed] no abuse of discretion in the trial court's
penalty phase ruling allowing in evidence the September
9 letter. The letter was relevant to rebut defense
evidence that defendant committed the two capital
murders during a relatively brief period of aberrant
behavior, that he had since expressed regret and shame
for the murders, and that he was unlikely to commit
additional offenses if imprisoned for life.
Kipp, 26 Cal. 4th at 1132. The California Supreme Court was not objectively

12

unreasonable in accepting the trial court's ruling that the jury could permissibly

13

infer that Petitioner was not remorseful and was likely to commit additional

14

offenses from the statements in his September 9, 1987 letter.

6
7

8

9
10

15

Because there were permissible inferences the jury could draw from the

16

letter, its admission did not violate Petitioner's constitutional rights. See Hovey,

17

458 F.3d at 923; Jammal, 926 F.2d at 920. The California Supreme Court may

18

have reasonably concluded that Petitioner failed to show prejudice from counsel's

19

failure to object to admission of the letter on constitutional grounds. Cf. Kipp, 26

20

Cal. 4th at 1133. Claim 14(0) is DENIED.

21

E.

22

Claim 14(H) addresses Petitioner's threat to a sheriffs sergeant in

23

connection with his attempted escape from the Los Angeles County jail. (Pet. at

24

170-75.) A sheriffs sergeant present when Petitioner was removed from the

25

ceiling above his cell testified that Petitioner stated:

26
27
28

Threat to Sheriffs Sergeant

'You will read about me again, Deputy Koeth, after I kill
that sergeant.' [~] I asked him, 'Which sergeant?' [~]
And he said, 'Sergeant Baeman.' He said he would kill
him in a very big way. He swore to me and his savior,
17

Pet. App. 98

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 18 of 93 Page ID #:1064

1

Satan, he would be killed in a very big way and a very
humiliating way. Humiliating to him and his family ....
I asked him why, and he said, 'Because he was, quote,
"pissed because Sergeant Baeman choked him out."' [~]
But Mr. Kipp wasn't choked out. I told him he walked
out of his cell, and he said, 'Whatever. I'm going to kill
that sergeant. I have nothing to lose.' . . . He said I was
lucky that we caught him that night, because he would
have been gone in the morning. [~] And he also said,
about the sergeant, that time is on [Kipp's] side.

2
3
4
5
6

7
8

9

(RT 4245-46.) The California Supreme Court reasoned that the testimony was

10

admissible because Petitioner's "threats against the sheriffs sergeant were

11

relevant to an understanding of the violent potential of defendant's attempted

12

escape." Kipp, 26 Cal. 4th at 1134.
That violent potential included a danger to Sergeant Baeman had Petitioner

13
14

not been restrained at the time along with a danger of future harm to Sergeant

15

Baeman. The jury could, therefore, permissibly infer from the sergeant's

16

testimony that Petitioner posed a future danger while incarcerated. The Supreme

17

Court "has approved the jury's consideration of future dangerousness during the

18

penalty phase of a capital trial, recognizing that a defendant's future

19

dangerousness bears on all sentencing determinations made in our criminal justice

20

system." Simmons v. South Carolina, 512 U.S. 154, 162 (1994); see also Kelly v.

21

South Carolina, 534 U.S. 246, 248 (2002).

22

Because there was a permissible inference the jury could draw from the

23

testimony, its admission did not violate Petitioner's constitutional rights. See

24

Hovey, 458 F.3d at 923; Jammal, 926 F.2d at 920. The California Supreme Court

25

may have reasonably concluded that Petitioner failed to show prejudice from

26

counsel's failure to object to the testimony on constitutional grounds. Cf Kipp, 26

27

Cal. 4th at 1134. Claim 14(H) is DENIED.

28

//
18

Pet. App. 99

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 19 of 93 Page ID #:1065

1

F.

2

Claim 14(J) addresses a post-mortem photograph of Antaya Howard. (Pet.

3

at 178-81.) As the California Supreme Court held on direct appeal:

4

by showing the position of the victim's clothing on her
body, some of her injuries, and the position of her body
as it was folded into the small hatchback area behind the
rear seat of the car, the photograph was relevant to assist
the jury in assessing the aggravating force of the murder
and rape or attempted rape of this victim.

5
6

7

8
9

Post-Mortem Photograph of Antaya Howard

Kipp, 26 Cal. 4th at 1136; (see also RT 4302-06.)
The California Supreme Court was not objectively unreasonable in holding

10
11

that the jury could permissibly infer that Howard's sexual activity was not

12

consensual and could permissibly assess the nature of the murder from the

13

photograph. See Villafuerte v. Stewart, Ill F.3d 616, 622, 627 (9th Cir. 1997)

14

(holding that photographs depicting the fatal wrapping of an asphyxiated murder

15

victim's head, bindings on her body, and blood at the crime scene did not deprive

16

defendant of a fair trial because they were relevant to show defendant knowingly

17

restrained the victim with the requisite intent); Gerlaugh v. Stewart, 129 F.3d

18

1027, 1030, 1032 (9th Cir. 1997) (finding no due process violation from

19

admission of "admittedly gruesome photos of the decedent," who had been run

20

over with a car three times, struck in the head by the car, stabbed in the head, neck,

21

and shoulders with a screwdriver at least thirty times, and dragged off a road into a

22

field).

23

Because there were permissible inferences the jury could make from the

24

photograph, its admission did not violate Petitioner's constitutional rights. See

25

Hovey, 458 F.3d at 923; Jammal, 926 F.2d at 920. The California Supreme Court

26

may have reasonably concluded that Petitioner failed to show prejudice from

27

counsel's failure to object to the photograph on constitutional grounds. Cf Kipp,

28

26 Cal. 4th at 1136. Claim 14(J) is DENIED.
19

Pet. App. 100

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 20 of 93 Page ID #:1066

1

VI. Claim 14(D): Presentation of Mitigating Evidence

2

In Claim 14(D), Petitioner alleges trial counsel was ineffective in his

3

investigation and presentation of mitigating evidence. When a petitioner claims

4

defense counsel failed to investigate or present certain evidence in mitigation, "in

5

order to determine whether [counsel's actions] ... might have affected the jury's

6

decision, it is essential to compare the evidence that actually was presented to the

7

jury with the evidence that might have been presented had counsel acted

8

differently." Bonin v. Calderon, 59 F.3d 815, 834 (9th Cir. 1995). "A state

9

court's determination that [the] claim lacks merit precludes federal habeas relief so

10

long as fairmindedjurists could disagree on the correctness of the state court's

11

decision." Richter, 131 S. Ct. at 786 (internal quotation omitted).

12

A.

13

Evidence Presented at Trial
1.

Expert Testimony
a.

14

;:::

Testimony from Dr. Craig Haney

15

Dr. Haney provided a social history for Petitioner. He testified that

16

Petitioner grew up on the Blackfeet Reservation in Browning, Montana. (RT at

17

4876, 4893.) He testified that Petitioner "was, by all accounts, a neglected child[,]

18

... in a home where there was a tremendous amount of instability on the part of

19

both of his parents, ... as a result ofboth the poverty and the alcoholism." (!d. at

20

4874-75.) Petitioner's mother was "very significantly alcoholic." (!d. at 4875.)

21

Petitioner was taken from his biological home at approximately two years old by

22

social workers. (!d. at 4876, 4879.) He and his siblings were in the home in the

23

winter without heat, and Petitioner was wearing only a shirt. (!d.) Petitioner's

24

biological mother had been jailed earlier in the day "for drinking." (!d. at 4877.)

25

Medical records described her as "'quite ignorant"' or "'very ignorant.'" (!d. at

26

4878.)

27

II

28

II
20

Pet. App. 101

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 21 of 93 Page ID #:1067

1

2
3

4
5
6

7
8
9

Dr. Haney testified that neglected children, coming out of the very early
years of life:
often come out of this period ... with a basic distrust, a
basic fear about people, and a basic sense that the world
is not a particularly good place for them and that they
cannot be secure in it. . . . This sense of insecurity and
this sense of mistrust is a very difficult thing ... to
abandon once it's been created at that early an age.

(Id. at 4880.)
Dr. Haney testified that at the time Petitioner went to live with Mildred and

10

John Kipp as foster parents, they were very stable parents. (!d. at 4883.) They

11

legally adopted Petitioner when he was nine years old. (!d. at 4884.) John was

12

"powerful" and that made Petitioner feel secure, although John was also a "very

13

harsh taskmaster" and "expected everything to be done his way.... [H]e was

14

such a dominant presence that he simply had - he could with words or with a look

15

reprimand and punish, and Martin was his subject ofthat, as were all of the other

16

people in John's environment." (!d. at 4884-86.) Dr. Haney testified that John did

17

not physically abuse Petitioner or others. (!d. at 4885.) He explained that John

18

came to serve too strong a purpose in Petitioner's life, because John became "the

19

external control for many things in Martin's life that most children begin to

20

develop internal controls for." (!d. at 4888.) Petitioner was mainly isolated on the

21

Kipps' ranch. (!d. at 4888-89.) He was consistently described as a caring, polite,

22

responsible child. (!d. at 4890.) He was shy and sensitive in his early years. (!d.

23

at 4891-92.) He went to school in a community that was largely white and

24

encountered racism there. (!d. at 4892-94.)

25

John later began drinking much more heavily, experienced marital problems

26

with Mildred, and became romantically involved with someone else. (!d. at 4898.)

27

John began to "physically mistreat" Mildred and Petitioner, and as John drank

28

more, the physical mistreatment escalated. (!d. at 4899.) John and Mildred
21

Pet. App. 102

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 22 of 93 Page ID #:1068

1

separated and then were divorced. (Jd. at 4898.) Petitioner was "squarely in the

2

middle of the conflict" and also experienced significant humiliation and shame as

3

result of John's deterioration. (Id.) Several people reported avoiding John

4

eventually because of his aggressive and violent behavior. (!d. at 4894, 4899.)

5

Petitioner went back and forth between his parents, needing John's approval when

6

working on the ranch even though John was physicaily "beat[ing] [him] up.;; (!d.

7

at 4900-01.) Petitioner experienced great confusion about "who he was, what his

8

identity was, how he was going to live the rest of his life" because his plan to

9

follow his father's model was failing. (!d. at 4900-01, 4904-05; see also id. at

10

4913.) Dr. Haney recounted an incident when John "choked [Petitioner] into

11

unconsciousness" for ten to twenty seconds, and an incident about two days later

12

when Petitioner suffered occipital head trauma because John hit Petitioner's head

13

against a nail on a wall. (!d. at 4902-03.) He also recounted an incident when

14

John "dragged" Petitioner out of a car by his feet and up a flight of stairs "with his

15

head banging against the stairs." (!d. at 4903.) John became very upset when one

16

of Petitioner's cousins was killed in an accident in which Petitioner was also

17

injured, and Petitioner believed that John was upset with him as a result. (!d. at

18

4904.)

19

Dr. Haney testified that Petitioner encountered difficulties when he

20

attempted to move off the Reservation. (!d. at 4908-10.) He stated that Petitioner

21

followed a pattern of many young men who left the Reservation, of "feel[ing] the

22

pull of the Reservation and go[ing] back," returning periodically or sometimes

23

permanently. (!d. at 4910.) When John died, Petitioner returned to the

24

Reservation and was drawn into a family conflict over John's funeral

25

arrangements and the division of the ranch, and it was a very difficult time for

26

him. (!d. at 4912-13.) John's death left Petitioner "without a reference point."

27

(Id. at 4913.)

28

//
22

Pet. App. 103

~-

r

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 23 of 93 Page ID #:1069

1

According to Dr. Haney, Petitioner decided to join the Marines to escape the

2

conflict and to gain some structure and direction. (Id. at 4914.) Petitioner was

3

disappointed by the lack of physical challenge and mundane nature of his desk job

4

and the lack of discipline of other Marines, and he stole a cassette player in

5

Okinawa and "did some time in the Brig." (!d. at 4915, 4918-19.) He became

6

"extremely disaffected" in Okinawa and developed a drug problem, using cocaine

7

and methamphetamines along with alcohol. (Id. at 4916.) He was transferred

8

back to El Toro and his drug and alcohol use intensified. (/d.)

9

Dr. Haney explained that Petitioner then committed and was incarcerated

10

for the rape of June Martinez. (/d. at 4919-20.) While in jail, he was in a fight

11

that significantly impacted him, and he "began to learn that you have to carry and

12

conduct yourself in settings like that in a different way .... " (!d. at 4920.) He

13

continued to deteriorate after being released from prison. (Id. at 4920-21.) In

14

response to a question about whether any significant events led to the murders of

15

Frizzell and Howard, Dr. Haney responded, "I think he was somebody who carried

16

a fair amount of anger inside of himself as a result of experiences that he'd

17

had . . . . These experiences were only compounded by the drug use and the

18

alcohol use." (!d. at 4924-25.) When asked if he would characterize Petitioner as

19

being "out of control" once he got out of prison, Dr. Haney responded, "I think in

20

a basic way he was, in terms of not having a guidance or structure in his life.

21

Absolutely." (/d. at 4925.) Dr. Haney testified that when he spoke to Petitioner

22

about two weeks before testifying, Petitioner talked at length about feeling shame,

23

humiliation, and regret, and "seeing very clearly and feeling very clearly what his

24

actions had done to other people." (/d. at 4926.)

25
26
27
28

On cross-examination, Dr. Haney was asked about Petitioner's September
15, 1987 letter, which stated in part:
'Remember one thing about your husband, "He's a real
man," not some weak deputy dressed in green, not some
23

Pet. App. 104

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 24 of 93 Page ID #:1070

1

4

fat poor slob, not some weak natured rat, not some poor
bastard lost in the system. I'm a warrior from the old
school. Always remember that love. I'm tough as
nails. . . . I'm one that takes no bullshit and demands
respect at any cost.'

5

(!d. at 4971.) Dr. Haney testified that Petitioner's language was not "inconsistent

6

with what I would have expected somebody in the debts [sic] of dispare [sic] as

7

Martin was at that time to have written that." (!d.) Dr. Haney testified that

8

Petitioner was angry at that time and for that period of time. (!d. at 4972.) Dr.

9

Haney testified that he believed Petitioner's statements that Petitioner felt shame,

2
3

l

10

sorrow, and regret, at the same time that he recalled Petitioner's written statements

11

that:

12

j

13

iI

14
15
16
17
18
19

'The way the newspaper made it look like I was
remorseful and what not, babe, I was anything but that,
you know. . . . Yeah, it felt great because neither
deserved to live anymore[.] ... Fuck the community.
Their mothers I'd rape. Now, does it sound like that I'm
in any way sorry?'
(!d. at 4980-81.)

b.

Testimony from Other Experts

In addition to the testimony presented from Dr. Haney, Dr. Charles

20

Heidenreich, a professor of Native American Studies and Anthropology, described

21

the history of the Blackfeet Nation and the poverty and substance abuse problems

22

found on the Blackfeet Reservation. (RT 4341-93.)

23

Dr. Thomas Holm, an Associate Professor in Political Science and

24

American Indian Studies and also an American Indian and former Marine, testified

25

about American Indians' history of military service. (/d. at 4754-68.) He

26

attributed his ability to succeed coming out of the military to his strong family

27

group and the ceremony of his community to "wash the blood from your hands"

28

and "cleanse[] ... [the] abnormal behavior that you acquired in warfare[,] [s]o that
24

Pet. App. 105

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 25 of 93 Page ID #:1071

1

you could lead a good, harmonious life within the group." (!d. at 4769-71.) He

2

stated that in surveys of American Indian Vietnam veterans, those who had similar

3

ceremonies were able to adjust better than those who had not. (!d. at 4771.)

4

Dr. Art Martinez, a clinical and counseling psychologist for Native

5

Americans and a Native American Indian, discussed the deterioration of economic

6

and community systems for the Blackfeet and other Native Americans and the

7

"symptoms" of that deterioration including alcoholism, drug abuse, and child

8

abuse. (!d. at 4834-45.) He described the challenges for Native Americans

9

moving from rural reservation life to urban mainstream city life, including the

10

difference in views of the world on "how to operate, ... where our family and

11

cultural lines exist, ... how to get things done and ... how to cooperate and

12

benefit from one another." (!d. at 4834, 4846-47.) He testified that outside the

13

Native American community, with a lack of support system, "a person is left to

14

become continually more and more distraught, and to basically fall apart.

15

More and more, as their life begins to fall apart, their esteem begins to chip away.

16

We see that the ... bonds and the binding that holds them together emotionally

17

begins to fall." (!d. at 4849.)

18

[~]

Dr. Ronald Siegel, a psychopharmacologist, discussed the connections

19

between alcohol and the commission of violent crime and between cocaine

20

smoking and the commission of domestic violence. (!d. at 4739-40.) He

21

discussed the progression of cocaine use and the aggressive or assaultive behavior

22

that may ensue. (!d. at 4741-43.) He also described the sexual excitement

23

associated with cocaine use and testified that the "almost automatic" sexual

24

arousal appeared to result from areas of the brain that do not require any higher

25

cortical functioning. (!d. at 4745-46.) It is higher cortical functioning that is

26

responsible for reason, codes of conduct, and morality, he explained. (!d. at

27

4746.) He testified that a chronic cocaine user "can't stop" the sexual arousal

28

//
25

Pet. App. 106

I

.

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 26 of 93 Page ID #:1072

1

experienced with cocaine use. (!d. at 4747.) He added that crystal meth, or

2

methamphetamine, can produce the same psychopathology as cocaine. (!d.)

3

Dr. John Irwin, who specializes in sociology and the study of deviant

4

behavior and criminology, discussed the security, daily routines, and living

5

conditions in maximum security prison units. (!d. at 4780-94.) He testified about

6

the effects of culture shock on persons being released from prison, as Petitioner

7

had been. (!d. at 4794-97.) He also discussed the propensity of"lifers" to become

8

"model prisoners" and to commit themselves to beneficial work. (!d. at 4800-07.)

2.

9
10

Lay Witness Testimony

Marilyn St. Germaine, a neighbor of Petitioner's biological family,

11

described his mother's alcoholism, the conditions ofPetitioner's biological family

12

and the community, the reputation of Petitioner's adoptive family, and the

13

struggles of Native Americans both on a reservation and when transitioning to

14

urban life. (!d. at 4311-39.)

15

Wesley Brown, who was Petitioner's boxing coach and lived on the

16

Blackfeet Reservation, gave a similar account of Petitioner's biological mother's

17

paranoia and alcoholism, the poverty of her family, and their severe lack of food.

18

(!d. at 4438-46.)

19

Leslie Cobell, who lived on the Blackfeet Reservation, discussed the

20

poverty of Petitioner's biological family and Petitioner's poor physical condition

21

when placed in the custody of John and Mildred Kipp. (!d. at 4425-30.) He

22

testified that Petitioner had impetigo and lice, was small, and had many scabs on

23

his head and part of his body. (!d. at 4430.) He discussed Petitioner's shyness and

24

unusually strong need to be near Mildred. (!d. at 4430-32.) He described John

25

favorably as strong and nonviolent, and added that he ended his friendship with

26

John after John began drinking far more heavily. (!d. at 4428, 4433-34.) He

27

testified about the more recent detrimental effects of Petitioner's prosecution on

28

//
26

Pet. App. 107

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 27 of 93 Page ID #:1073

1

Mildred and stated that if the jury returned a death sentence, "they are going to kill

2

two. Not only Martin, but also his mother." (!d. at 4434-36.)

3

Muma Thomas, Petitioner's adoptive older sister, testified about his

4

"pitiful" physical condition when he came to live with the Kipps. (!d. at 4513-14.)

5

She testified that eventually she became aware of the problems between her

6

mother, Mildred, and John and that it was a "tough, terrible time" when her mother

7

"couldn't keep the problems under wraps any more and they just exploded." (!d.

8

at 4663.) She stated that Petitioner suffered a lot during this time. (!d.) She

9

described a time when John disabled her truck so that she couldn't leave, and then

10

"came after" her and hit her and "knocked [her] across the side." (!d. at 4664-65.)

11

She went to the hospital and required stitches in her hand. (!d. at 4665.) Muma

12

also described her family's positive experience visiting Petitioner during his

13

earlier prison sentence. (!d. at 4666-69.) She asked the jury, "I just beg you, spare

14

my brother's life, please. There's good in him. The Lord is going to work with

15

him, I know it. I know it. Just have mercy on him, please. [,-r] Thank you so

16

much." (!d. at 4670.)

17

Max Kipp, John's younger brother, discussed John favorably and testified

18

that Petitioner was very small and extremely hungry when he first arrived in

19

John's home. (!d. at 4395-4404.) Max discussed John's strength and John's

20

boxing with Petitioner, and his subsequent alcoholism. (!d. at 4410-23.)

21

Marjorie Klein, Petitioner's adoptive older sister, identified photographs of

22

their family and their town and newspaper articles about Petitioner's boxing. (!d.

23

at 5063-75.) She asked the jury "if they would have mercy on him. I know it's

24

hard on my mother, and I wanted to bring her down here to see Martin. We love

25

him very much .... If you could just find it in your heart to have mercy on him."

26

(!d. at 5076.)

27

Mildred Kipp described Petitioner's physical condition when he first lived

28

with her. (!d. at 4448-49.) She discussed positive experiences she and John had
27

Pet. App. 108

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 28 of 93 Page ID #:1074

1

with Petitioner until John began drinking more heavily. (!d. at 4452-57.) She

2

testified that John "started getting mean towards me .... I told him that I was

3

going to leave him, that I wasn't going to take that.

4

Martin.... It seemed like Martin couldn't do anything right. And he was doing

5

everything he could." (!d. at 4457-58.) Although she denied John hitting

6

Petitioner, she testified that he "hit [her] or chase[d her] around or beat [her] up."

7

(/d. at 4458.) She described an incident when John took out his pistol and said,

8

"'Might as well end this right now,' he said, 'both of us."' (!d. at 4465.) She

9

asked the jury "if they wouldn't spare Martin's life. He's my only son and I really

10

love him. I don't want him ... [trailing oft][.]" (!d. at 4469.) She told Petitioner,

11

"I want you home, and I love you." (!d.)

12

[~]

And then he started in on

Joseph Kipp, Petitioner's adoptive cousin, testified that John began drinking

13

heavily after the death of Joseph's brother, Billy, and became aggressive. (!d. at

14

4471-79, 4488.) He described John as a "gentle giant" before then and testified

15

that Petitioner idolized John but was never able to live up to his overly high

16

expectations. (!d. at 4479, 4484-85.) Joseph testified that Petitioner was known

17

for being a hard worker. (!d. at 4489-91.) He stated that he came to testify for

18

Petitioner because "Martin is my cousin and I love him, and I love his mother, and

19

I'm afraid of what's going to happen to her." (!d. at 4492.)

20

Fron Froman, who worked for John, testified that John became physically

21

aggressive after he began drinking heavily. (!d. at 4514-17.) He stated that he did

22

not "want to see Martin die" and "[a]bsolutely" felt that Petitioner was "worth

23

saving." (!d. at 4518.) Fron's wife, Dorothy, testified that Petitioner would stay

24

with them sometimes and that she loved Petitioner and believed that his soul could

25

be saved. (!d. at 4521-23.) Fron and Dorothy's daughter, Gayle Tough, discussed

26

her childhood friendship with Petitioner and recalled a time when Petitioner was

27

brought to tears on the phone with John in her home. (!d. at 4592-96.) She told

28

the jury, "I just pray that you would all find it in your hearts to have mercy upon
28

Pet. App. 109

t

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 29 of 93 Page ID #:1075

1

him, because I know that there are things that happen in our lives that caused us to

2

be the people we are today. [,-r] And I just hope that you do have some mercy."

3

(!d. at 4600.)

4

Omar Michels, who worked on a farm near John's ranch, and his wife lone

5

testified that they had a son who was a good friend of Petitioner's and boxed with

6

him. (!d. at 4525-28, 4531.) Petitioner spent time at the Michelses' home, and

7

Omar stated that he was "just like another son to me. I dearly respected him. He

8

was a hard worker, he was honest, and well mannered kid." (Id. at 4529.) He

9

stated that he did not want to see Petitioner get the death penalty. (!d.) lone added

10

that when Petitioner spent time with them, she did not want her son to stay

11

overnight at Petitioner's home because she feared what John could do because he

12

was drinking. (!d. at 4534-35.) She also felt that Petitioner was "like another son"

13

to her and Omar. (Id. at 4538.)

14

Judy Matt, who was raised by Petitioner's adoptive sister Muma, lived with

15

Petitioner in Muma's home when she was fifteen and Petitioner was fourteen. (!d.

16

at 4653-54.) She testified that Petitioner grew up in difficult circumstances with

17

John and Mildred, and that John was particularly harsh to Petitioner at the boxing

18

ring. (Jd. at 4654-56.) She described John's heavy drinking. (!d. at 4656.) She

19

told the jury that she "dearly love[ d]" Petitioner and felt he "was a victim of a lot

20

of people's mistakes," and asked the jury to "have mercy on him, because I know

21

that Martin can do some good because he is a good person." (Id. at 4657.)

22

Harold St. Goddard, Petitioner's high school friend, reminisced about

23

enjoyable experiences with Petitioner in high school, particularly involving cross-

24

country events, and testified that he loved Petitioner and "[w]hen you have family,

25

they're always family, no matter what they do. They're still your family." (!d. at

26

4542-58.) Harold's wife, Kristin, was also friends with Petitioner in high school.

27

(!d. at 4561.) She described how upsetting the poverty on the Reservation is. (!d.

28

at 4561-63.) She also reminisced about enjoyable experiences with Petitioner in
29

Pet. App. 110

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 30 of 93 Page ID #:1076

1

high school and while she was in college. (!d. at 4566-73.) She said he was a

2

very gentle person. (!d. at 4572.) She said that she wanted Petitioner to be alive,

3

that she wanted her kids to be able to meet him, and that he is still her friend and

4

has had meaning in her life. (!d. at 4573.)

5

Linda Wetzel, who was a teacher at Petitioner's high school, testified that he

6

was kind in high school and that after a cross-country meet, she "could just run up

7

and give [Petitioner] a big hug and [she]'d get a hug in return." (!d. at 4576-78.)

8

She testified that Petitioner was "such a warm, loving and respectful young man,

9

and his family, his mother is such a gracious and loving person, and in our years of

10

involvement, even though we have left the Reservation, the pain and the hurt does

11

not stop just because we don't live there." (!d. at 4587.) She wished to testify in

12

the hope that "there was any opportunity to spare Petitioner's life." (!d.)

13

Donald Wetzel discussed his experiences transitioning from the Blackfeet

14

Reservation to the University of Montana, and his later struggles to keep his

15

students from using alcohol as a high school basketball and cross-country coach in

16

Browning. (!d. at 4702-17, 4720-24.) He coached Petitioner in cross-country and

17

testified that Petitioner had a good work ethic and was trustworthy and courteous.

18

(!d. at 4717-18.) He told the jury, regarding his position on the sentence Petitioner

19

should receive:

20
21
22
23
24
25
26

I've been on the other side of this. Two of my former
students in that class in 1977, were picked up, a couple
of hitchhikers, and booze and alcohol. Same thing. And
they were - executed by these guys. And I was involved
a little bit there and- I just don't think two wrongs make
a right. [,-r] I think this guy can help me in some ways
[in trying to keep students away from alcohol abuse]. I
can use guys like this, and I have - I've had students in
Deerlodge Montana Prison. They've helped me. I've
used them. [,-r] But the drugs and the alcohol are killing

27
28
30

Pet. App. 111

r-

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 31 of 93 Page ID #:1077

1

my people, and I've lost too many and I can't - I don't
want to lose any more.

2
3

(!d. at 4725-26.)

Coleen Cooper, Petitioner's ex-girlfriend, testified that he treated her well,

4
5

was polite to her family, protected her, and was "really a gentleman." (!d. at 4687-

6

89.) She said Petitioner was protective of her because she had been raped seven

7

months before she began dating him. (!d. at 4688.)
Mary Lee Harwood, Petitioner's friend and ex-girlfriend, testified that he

8
9

was very gentle and protective and never violent. (ld. at 4608.) She testified that

10

after she became involved in a relationship with an abusive man, with whom she

11

had a baby, Petitioner told her he was moving back to California and asked if she

12

and her baby would move with him so that he could take care of them. (!d. at

13

4619-20.) She described the lack of opportunity for high school children and

14

adults where she and Petitioner lived. (!d. at 4620-22.) She stated that she always

15

thought she and Petitioner would get married and she still loved him. (!d. at

16

4624.) She said that she felt terrible about his penalty phase trial and "wished it

17

was different. I wish we had had a chance. Both of our lives would've turned out

18

differently." (!d.)

19

Leon Vielle, who knew Petitioner in high school and gave Petitioner a place

20

to stay in Browning while Petitioner was enlisted in the Marines, described his

21

own time in the Marines. (!d. at 4630-34.) He testified that being in the Marines

22

changed his life dramatically, stating, "[W]hen I got out, I ... had a killer instinct.

23

... I wasn't afraid to hurt people or- I didn't feel the emotions or the- of a

24

normal- normal human being, because that's what they teach you to be." (!d. at

25

4632.) He described his extensive use of drugs and alcohol in the Marines,

26

including his time using opium in Okinawa, and stated that "probably 99.9 percent

27

II

28

II
31

Pet. App. 112

~ -

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 32 of 93 Page ID #:1078

1

of everybody I knew in the Marine Corps was on alcohol or some kind of a mind-

2

ltering substance." (Id. at 4634.) He stated that he and Petitioner used drugs and

3

alcohol together when Petitioner stayed with him in Browning. (!d.)

4

Woodrow Kipp, John's adoptive brother, who served in the Marines as John

5

did, testified that John believed that all the Marines did was "teach you to kill,

6

become a professional killer." (ld. at 4494-97.) He testified that the Marines

7

"encourage you to use alcohol. It's kind of the image of being a Marine, is to be

8

able to fight and drink." (!d. at 4504.) He described John's physical strength and

9

his demanding standards. (Id. at 4505-08.) He described Petitioner's relationship

10

with John as very good, until a turning point when John started drinking heavily.

11

(Id. at 4508.)

12

Kenton Wheeler, Petitioner's friend since childhood, testified that he and

13

Petitioner "did a lot of serious partying," drinking alcohol and taking drugs, when

14

they both had just completed boot camp in the Marines. (!d. at 5034-40.) They

15

smoked marijuana together. (Id. at 5039.) Kenton lived with Petitioner when

16

Petitioner returned from Japan, and Petitioner "was partying really hard .... " (!d.

17

at 5040-43.) They used "a lot of cocaine, a lot of speed, crystal meth .... " (Id. at

18

5044.) Petitioner stayed with Kenton in the summer of 1983 after Petitioner had

19

been incarcerated. (!d. at 5048-50.) Petitioner was "partying" rather heavily,

20

drinking and using drugs, during that summer. (!d. at 5051.) Petitioner was

21

"really confused" and did not seem to be in control of himself. (!d. at 5053.)

22

Kenton expressed love for Petitioner and said that "I know that there's another guy

23

there, ... a good man in ... Martin. [~] And I just want him to - he knows what

24

he's done, and he's aware of it. And I just want him to be able to think about what

25

he's done and maybe someday somebody can learn from that. Can grow. And

26

Martin can grow." (!d. at 5058.)

27

II

28

II
32

Pet. App. 113

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 33 of 93 Page ID #:1079

1

B.

2

Petitioner alleges that competent counsel would have presented the

3
4
5

6
7
8

9
10

11
12
13

14
15

16
17
18
19
20
21

22
23
24

25
26

27
28

Alleged Evidence Competent Counsel Should Have Presented

following available evidence:
Joseph Still Smoking, Martin's oldest brother ... could
have testified that he and Martin witnessed their father,
Curly, beat their mother, Mary repeatedly (Pet Ex. 281
~ 5); that he saw his mother drink alcohol when she was
pregnant with Martin (id., ~ 6); that because of parental
neglect, he took on responsibility for taking care of
Martin (id., ~ 7); and that when Martin was just a baby,
Martin drank alcohol left over from their parents'
drinking binges ( id., ~ 13). . . .
One of Martin's cousins, William Michell, could have
testified that he saw Mary drink alcohol while pregnant
with Martin, and that Curly beat Mary in front of Martin,
making Martin cry. (Pet. Ex. 268 ( 1/20/00 declaration),
~~ 4-6.) ...
Another cousin, Kenneth Wayne Still Smoking, could
have testified to the same facts as Michell and also to the
fact that Curly and Mary physically beat Martin and
otherwise abused and neglected him. (Pet. Ex. 282, ~~ 5,
8, 9 ('I saw Curly knock down Martin many times. I
even saw him hit Martin so hard that Martin just lay on
the floor unconscious'), 10 (Curly locked Martin in a
shed), 11, 12 (Martin drank from a slop bucket in the
house that contained bowel movements and urine).) ...
Many people who knew John and Martin Kipp could
have testified that John Kipp regularly and viciously beat
Martin. . . . Darlene Bradshaw could have testified that
John whipped Martin with a belt. (Pet. Ex. 231 ~ 5.) [~]
Rosemary MacDonald Houston could have testified that
John left huge welts on Martin's back after striking him
with a horsewhip and that he once badly burned Martin's
skin by placing a hot branding iron on him. (Pet. Ex.
249 ~~ 8, 11.) [~] Wayne Juneau could have testified

33
Pet. App. 114

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 34 of 93 Page ID #:1080

Pet. App. 115

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 35 of 93 Page ID #:1081

1
2
3
4
5
6
7
8
9
10

months while she went to Alaska. (/d.~~ 38-39.)
Bobbie moved out on John a third time after he slapped
her. (/d.~ 40.) She told him if he hit her again, she'd
divorce him. (/d.) According to Bobbie:
Unfortunately, as a result of my threat, John
switched from beating me to beating Martin.
Martin was still quite young - he had not
yet begun high school. When I was around,
I did my best to protect Martin from John's
blows. I shudder to think about the times I
wasn't there to protect Martin when John
flew off the handle and took out his drunken
anger on Martin.
(!d.) ...

11
12
13
14
15
16
17
18
19

As shown in the Petition, numerous witnesses were
available to testify about Martin's escalating drug and
alcohol use when he lived in Spokane as a teenager,
including Joseph Kipp himself. In a post-conviction
declaration, Joseph Kipp states that Martin smoked
marijuana and drank beer when he stayed with him and
Max Kipp, and that when Martin lived in Spokane the
following year with Brian Tatsey, Max saw needle marks
on Martin's arm and Martin asked him if he wanted some
methamphetamine. (Pet. Ex. 253 ~~ 10, 13.) Joseph
Kipp said that Martin's 'lifestyle really scared' him. (/d.
~ 13.) ...

~--

20
21
22
23
24
25
26
27
28

Brian or Phyllis Tatsey ... could have testified to
Martin's increasing use of and reliance on dangerous
narcotics, including PCP (he shot it intravenously),
crosstops (a drug akin to methamphetamine), cocaine
and acid. (Pet. Exs. 284, 285.) ...
Murna Thomas, Martin's adoptive sister ... provides
much more detailed, and relevant, testimony in her postconviction declaration [than the testimony she provided
at trial]. (Pet. Ex. 287.) ... She states in her declaration,
and could have testified at trial, that John did beat
35

Pet. App. 116

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 36 of 93 Page ID #:1082

1
2
3
4
5
6
7
8
9
10

11
12
13
14
15
16
17
18
19
20
21
22

Martin, rarely showed affection or approval, and that
'Martin, in particular, would catch hell from John if he
did not do something quick enough or well enough.' (!d.
,-r,-r 20, 21, 28.) She could have confirmed, similar to
Bobbie, that '[f]rom Martin's earliest days on the ranch,
he saw John drink and get drunk, he saw John stash his
liquor bottles around the ranch, he saw John abandon,
cheat on, and strike [Bobbie], and he felt John's blows
himself.' (!d. ,-r 28.) She also could have testified about
the alcoholism rampant in Martin's natural family and
about Bobbie's fleeing John and leaving Martin to be
taken care of by others. (!d. ,-r,-r 10, 11, 13-16.) ...
Mr. Kipp has presented on habeas numerous lay and
expert declarations describing in detail Mr. Kipp's
substance abuse over his life and its affect on his
behavior, as well as in utero exposure to neurotoxins and
family history of substance abuse and addiction. (See
Pet. at 13-48 and exhibits cited therein.) ...

t

Mr. Kipp's jury need not have been left in the dark about
his actual experience in the Marines, because witnesses
were available to describe the escalation in his drug and
alcohol abuse in the service. (See Pet. at 42 and exhibits
cited therein.) For example, Carl Hyams served with
Martin in the Marines and estimates that Martin used
about one to one and a half grams of cocaine daily (often
intravenously) when they were stationed in Okinawa in
the late 1970s. (Pet. Ex. 250 ,-r 2.) Mr. Kipp also drank
'mojo,' a powerful alcoholic drink containing absinthe.
(!d. ,-r 3.) ...

23
24
25
26
27

Other witnesses could have provided additional,
powerful testimony about Martin's use of drugs and
alcohol while on leave from the Marines - including
daily use of heroin and heavy use of acid - and about
how he seemed like a different person compared to the
Martin they knew before. (Pet. Ex. 246 ~,-r 5-8; Pet. Ex.

28
36

Pet. App. 117

~

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 37 of 93 Page ID #:1083

1

286 ~ 9; Pet. Ex. 230 ~ 4; Pet. Ex. 239 ~ 5; Pet. Ex. 254
~ 17.) ...

2
3

[N]\lmerous witnesses were available to discuss Mr.
Kipp's difficult transition to urban and non-reservation
life in Spokane, Oregon and Southern California ....
(See Pet. at 41-44 and exhibits cited therein.) ...

4
5

6
[T]he jury did not hear, or at best heard only fleetingly
and incompletely, of Mr. Kipp's ... head injuries; and
his witnessing of spousal abuse and rape at the hands of
Curly Carpenter and John Kipp. (See Pet. at 23-39 and
exhibits cited therein.)

7
8

9
10
11

(Mot. for Evid. Hr' g at 98-107 (footnotes omitted, citations edited).)

12

C.

13

Many portions of the evidence Petitioner faults trial counsel for not

Comparative Analysis

14

presenting were, in fact, covered at trial. See Pinholster, 131 S. Ct. at 1409-10

15

(holding it was not "necessarily unreasonable for the California Supreme Court to

16

conclude that Pinholster had failed to show a 'substantial' likelihood of a different

17

sentence," where the additional evidence "largely duplicated" evidence presented

18

at trial and "basically substantiate[d]" testimony given by petitioner's mother and

19

brother); Wong v. Belmontes, 558 U.S. 15,22 (2009) (holding petitioner could not

20

show prejudice from alleged ineffective assistance at penalty phase where "[s]ome

21

of the evidence was merely cumulative of the humanizing evidence [counsel]

22

actually presented; adding it to what was already there would have made little

23

difference"). First, concerning Petitioner's evidence that his biological mother

24

consumed alcohol during her pregnancy with him, Wesley Brown testified at trial

25

that Petitioner's biological mother "drank all the time." (RT 4442.) Marilyn St.

26

Germaine testified at trial that when there were small children in Petitioner's

27

mother's home, "there was always a lot of drinking going on there ....

28

[Petitioner's mother] was already pretty emersed [sic] in the alcohol problem."
37

Pet. App. 118

,_

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 38 of 93 Page ID #:1084

1

(Id. at 4314-15.) Dr. Haney testified at trial that Petitioner's mother was "very

2

significantly alcoholic." (Jd. at 4875.)

3

Second, concerning his evidence that his brother took care of him when he

4

was very young, Wesley Brown testified at trial that Petitioner's biological mother

5

was too alcoholic to care for him. (!d. at 4444.) Marilyn St. Germaine testified at

6

trial that in Petitioner's biological mother's home, there were "[k]ids running

7

around not being taken care of. . . . Sometimes the kids that were there would not

8

be feed [sic]. Sometime [sic] they wouldn't have diapers on. They would be out

9

running around, and parents would be passed out, or whoever was there or just in

10

and out of the house." (!d. at 4314.) Dr. Haney testified at trial that Petitioner was

11

neglected by his parents, was not well taken care of, and was not adequately

12

clothed or kept warm. (!d. at 4874-76.)

13

Third, regarding Petitioner's evidence about his adoptive father's treatment
e-

14

ofhim while boxing, Max Kipp discussed the boxing club to which John and

15

Petitioner belonged and testified that John trained Petitioner, would spar with him

16

in the ring, and wanted "to make Martin into a man." (!d. at 4410-11.) Regarding

17

Petitioner's evidence of John's emotional abuse, Gayle Tough, for example,

18

described at trial a moment when Petitioner was on the phone with John at her

19

home, and she remembered thinking, '"What could he possibly be saying that

20

would make him cry like that?' [~] I know John was pretty strict, but it just kind

21

of amazed me how you could make someone cry without raising your hand." (!d.

22

at 4596.)

23

Fourth, related to Petitioner's evidence about John's long-standing alcohol

24

abuse and Mildred's leaving the family home, Max Kipp and Leslie Cobell

25

described at trial how John, who was "always a drinker," eventually developed a

26

drinking problem that was no longer "under control" and testified that there was a

27

"family breakdown" in John's marriage. (!d. at 4416-18, 4422; see also id. at

28

4428, 4434.) Mildred Kipp testified that John "drank all along," and that she
38

Pet. App. 119

r-

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 39 of 93 Page ID #:1085

1

eventually told John she was going to leave and moved in with her daughter,

2

Murna. (!d. at 4457, 4461, 4463.) She returned to the ranch once after that before

3

leaving again. (!d. at 4465-66.) Murna Thomas testified that Petitioner

4

"suffer[ed] a lot" during this time. (!d. at 4663.) Dr. Haney testified at trial that

5

Mildred and John "had a long period of emotional conflict where she stayed in the

6

home and they tried to work things out" before she ultimately left. (!d. at 4902.)

7

Fifth, concerning Petitioner's evidence about his drug use and experience in

8

the Marines, Dr. Haney testified that Petitioner was disappointed by his experience

9

and developed a drug problem in the Marines in Japan, using cocaine and

10

methamphetamines along with alcohol, and that his drug and alcohol use

11

intensified from that point. (!d. at 4916.) Leon Vielle testified at trial that he and

12

Petitioner used drugs and alcohol together when Petitioner stayed with him in

13

Browning while enlisted in the Marines. (!d. at 4634.) Kenton Wheeler testified

14

about Petitioner's use of alcohol and drugs when Petitioner had completed boot

15

camp in the Marines, after he returned from Japan, and after he had been

16

incarcerated, including his use of cocaine, speed, crystal meth, and marijuana. (!d.

17

at 5034-53.) Similarly, regarding the effect of Petitioner's drug use on his

18

behavior, Dr. Haney discussed Petitioner's drug use as compounding Petitioner's

19

experiences and leading to the murders. Dr. Siegel discussed the aggressive

20

behavior and sexual excitement associated with cocaine use and testified that a

21

chronic cocaine user "can't stop" the sexual arousal experienced with cocaine use.

22

(!d. at 4739-47.) He also testified that methamphetamine can produce the same

23

psychopathology as cocaine. (!d.)

24

Sixth, related to Petitioner's evidence about his struggle to transition to

25

urban life in Oregon and Southern California, Marilyn St. Germaine testified at

26

trial that many Native Americans "didn't even know how to survive in the

27

cities .... It's a big transition moving from a little community of nine thousand to

28

a big urban area .... [A]ny Indian coming from any reservation, it's a real
39

Pet. App. 120

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 40 of 93 Page ID #:1086

1

tramatic [sic] experience." (!d. at 4317, 4321, 4324.) Mary Lee Harwood testified

2

at trial that "[i]t's pretty hard to go off the Reservation. Rent is so much higher

3

and you don't have your family and your friends there for support. Run out of

4

money. You starve." (!d. at 4623.) Donald Wetzel testified at trial that "when

5

you come off that reservation and all of a sudden you're a minority, you're in a

6

situation where hey, you know, it's a whole different ball game, and it's just

7

tough. It's tough controlling that social life, and especially, you know, coming

8

from the Blackfeet Reservation. [,-r] It's hard to explain, but it's- it's a tough

9

thing." (!d. at 4708.) Dr. Martinez provided fairly extensive expert testimony on

10

the subject, as discussed above. (See id. at 4834,4846-47, 4849-52.) Dr. Haney

11

testified at trial that Petitioner, like many other young men, encountered

12

difficulties when he attempted to move off the Reservation. (!d. at 4908-10; see

13

also id. at 4917, 4922-24.)

14

Seventh, regarding Petitioner's evidence that he suffered head injuries, Dr.

15

Haney testified at trial about three head injuries John inflicted, one causing

16

unconsciousness for ten to twenty seconds, one causing occipital head trauma, and

17

one involving Petitioner's head banging up a flight of stairs. (!d. at 4902-03.)

18

In support of his allegation that he witnessed John rape Mildred, Petitioner

19

relies upon the declaration of Dr. Judith Becker. (See Pet. at 36 (citing Pet. Ex.

20

229 ,-r 21 ). ) Dr. Becker declared that Petitioner "stated that he recalled being very

21

young and out on the prairie when John Kipp raped Mildred in the back of a

22

pickup truck. He recalls hearing her scream. He stated that there were many times

23

when John Kipp forced sex on Mildred Kipp." (Pet. Ex. 229 ,-r 21.) The California

24

Supreme Court may have reasonably given little weight to Petitioner's evidence,

25

given that it merely repeats Petitioner's self-serving statements. The state court

26

may have also reasoned that had counsel presented that evidence from Dr. Becker,

27

she would have been subject to cross-examination regarding Petitioner's views on

28

rape. See Be/montes, 558 U.S. at 24 (noting that penalty phase expert testimony
40

Pet. App. 121

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 41 of 93 Page ID #:1087

1

that petitioner would likely be nonviolent in prison would have been subject to

2

cross-examination on whether evidence of a second murder by petitioner changed

3

the expert's view); Edwards v. Ayers, 542 F.3d 759, 775 (9th Cir. 2008)

4

(observing that penalty phase evidence that shootings of two twelve-year-old girls

5

were impulsive and attributable to frontal lobe dysfunction would have opened the

6

door to rebuttal evidence that petitioner was sexually confused and destructive and

7

had long-standing rage toward women and a fetish for women's hair). Dr. Becker

8

explained in her declaration:

9
10
11
12
13
14
15
16
17
18

Mr. Kipp reported that he has always had a strong sex
drive and has had urges to rape .... When questioned as
to why he enjoyed engaging in sexual activity with a
woman when she was unconscious, he responded, 'It was
just you,' indicating that he did not necessarily need the
interaction and feedback from a sexual partner....
When asked to estimate how many sexual partners he has
had over the course of his life, he reports that he has had
between 500 and 600 .... He also reported that he
engaged in sexual activity with prostitutes,
approximately between 100 to 200 prostitutes. . . . He
estimates that approximately one-third of the 500 to 600
sexual partners that he has had were not conscious at the
time that he engaged in sexual activity with them ....

19
20
21
22
23
24
25
26
27

Regarding ... Ms. Howard, he stated that ... she
accompanied him in his car and that they engaged in
consensual sex . . . . He stated that he had consumed a
considerable amount of alcohol as well as cocaine. He
stated that he engaged in consensual sex with her two or
three times in the car as well as one time out of doors
where there were some men watching. He reported that
she wanted to go with one of the men who was observing
them and that he got into an argument with her. He
reported that he wanted to be sexual with her again and
she pulled out a knife. He also reported that she pulled
out a gun and that he grabbed her by the throat. He

28
41

Pet. App. 122

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 42 of 93 Page ID #:1088

1

stated that initially he did not know that he had killed
her. He had sex with her after he knew she was dead ....

2
3

9

Regarding Ms. Frizzell, he reported that he had been
depressed, having just broken up with a girlfriend. He
stated that on that day he had consumed a fifth of
Vodka. . . . He reported that he went with her to [her]
hotel; she left him in the room; he started making out
with her but then she pushed him away. He stated at that
point he choked her, he strangled her and after she was
deceased, he looked at her pubic[] hair which he found
very arousing, and then penetrated her after she had died.

10

(!d. ~~ 26-42.) Based upon Dr. Becker's report, the California Supreme Court may

11

have reasonably concluded that her testimony would have been more prejudicial

12

than beneficial to Petitioner.

4
5
6
7
8

13

Moreover, although Petitioner presented more detailed evidence on habeas

14

review regarding his exposure to alcohol, neurotoxins, and excrement after birth,

15

his extremely poor conditions during his first two years of life were illustrated and

16

undisputed at trial. Petitioner also presents evidence on habeas review that John

17

abused him physically to a far greater extent than was portrayed at trial.

18

Nevertheless, the California Supreme Court was not objectively unreasonable in

19

concluding that Petitioner's evidence did not show a reasonable probability of a

20

different outcome, in light of the jury's awareness of several incidents of

21

significant physical abuse by John when it returned its verdict. Finally, although

22

the accounts that Petitioner's biological parents assaulted each other and their

23

children and that Mildred attempted to leave Petitioner's home early in his life are

24

disconcerting new evidence, the California Supreme Court may have reasonably

25

found that they did not show a reasonable probability of a different outcome in

26

light of the extensive mitigating evidence already presented and the severity of the

27

crimes at issue.

28

//
42

Pet. App. 123

~

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 43 of 93 Page ID #:1089

1

In total, the California Supreme Court may have reasonably concluded that

2

Petitioner's evidence failed to show prejudice from any deficient performance by

3

counsel in investigating and presenting mitigating evidence. Claim 14(D) is,

4

therefore, DENIED.

5

VII. Claim l(E): Mental State Defense

6

A.

7

In Claim 1(E), Petitioner alleges that counsel was ineffective for failing to

Allegations

8

investigate and present evidence at the guilt phase of trial that he was unable to

9

form the intent required for the charged crimes. (Pet. at 74-76; Petr.'s Br. at 48-

10

53.)

11

In his Petition, Kipp relies upon the declarations of Dr. Pablo Stewart, Dr.

12

Becker, and Dr. Hilary Weaver. (Pet. at 74.) He alleges that Drs. Becker and

13

Stewart have diagnosed him as having Dysthymia Disorder by History (a

14

chronically depressed mood), Attention Deficit/Hyperactivity Disorder (Not

15

Otherwise Specified), possible Fetal Alcohol Effects, Polysubstance Dependence

16

in a controlled environment, Complex Post-Traumatic Stress Disorder,

17

necrophilia, and a variety of paraphilias. 4 (Pet. at 74-7 5.)
Although Petitioner makes only a brief reference to the opinion of Dr.

18
19

Weaver in his Petition and does not discuss it in detail, she opined:

20

Martin's biological father, Curly Carpenter, had a long
history of violence, alcoholism, criminal behavior, and
mental illness. . . . [His] later psychiatric evaluations
clearly label his long-standing deficits. While it is
impossible for me to document the biological legacy that
Martin received from his father with complete certainty,
it is clear that mental illness can be biologically based,

21
22
23

24
25

26
4

27
28

Dr. Becker explained that paraphilias "are classified by recurrent, intense sexually arousing
fantasies, sexual urges or behaviors generally involving 1) non-human objects, 2) the suffering or
humiliation of one's self or one's partner or 3) children or other non-consenting persons that occur
over a period of at least six months." (Pet. Ex. 229 ~52.)

43

Pet. App. 124

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 44 of 93 Page ID #:1090

1

and thus, may have profound implications for Martin's
life ....

2
3

[Petitioner's] exposure to alcohol in utero, as a nursing
infant, and as a toddler who found and drank from
bottles of alcohol clearly put him at risk for physical and
mental damage. Likewise, the exposure to burning tires
in the home of his birth family may have exposed him to
toxic chemicals that could cause lasting impairment. It is
not possible for me to determine conclusively that these
early events led to impairments that hindered Martin's
academic success and influenced his behaviors later in
life, however, the exposure to known toxins was clearly
there and put him at great risk. ...

4
5
6

7
8
9
10

11
During the interview, Martin's descriptions ofhimselfin
his 20s were. less coherent than his earlier descriptions
and they often led to tangents. This is probably a
reflection of impairment as a result of his heavy drug
use. The drug use made it difficult for him to have a full
understanding of what he was doing at the time and has
affected his ability to remember this time in his life....

12
13
14
15
16
17

Today, Martin presents as having more stability and
control in his life but the scars of his upbringing are still
apparent. ...

18
19
20

Throughout the interview, Martin twitched, sniffed, and
looked around a lot. He seemed to be in a state of quiet
agitation. . . . I interpreted his non-verbal behavior as
indications of some mental disturbance. Based on my
limited contact with him, it is not possible to elaborate
on the nature of the disturbance or determine whether it
existed prior to his incarceration.

21

22
23
24
25
26

(Pet. Ex. 329 ~~ 24, 125, 137, 139, 170.)

27

II

28

II

44
Pet. App. 125

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 45 of 93 Page ID #:1091

1
2

In briefing, Petitioner relies upon the opinions of Dr. Stewart and Dr. Robin
LaDue. (Petr. 's Br. at 49-51.) He discusses:

3

Dr. Stewart's ... opinion that at and around the time of
the charged offense, Kipp suffered from profound
cognitive deficits as a result of his in utero exposure to
neurotoxins, Attention Deficit/Hyperactivity Disorder
("AD/HD"), Impulse Control Disorder, and
Post-Traumatic Stress Disorder ("PTSD"). (Pet. Ex. 278
,-r 48.) On the basis of these psychiatric disorders,
combined with Kipp's heavy drug abuse around the time
of the offense, Dr. Stewart concluded that there is a
strong probability Kipp was incapable of acting with
premeditation and deliberation when the offense
occurred. (!d. ,-r 49.) Dr. Stewart also concluded that
Kipp's 'severely debilitating psychiatric symptoms are
lifelong' and would have impacted him during the
relevant timeframe. (!d.)

4

5
6
7
8
9
10
11
12
13
14
15

(Petr.'s Br. at 49 (citations edited).)
Petitioner recounts Dr. LaDue's opinions that records "'strongly suggest'"

16

that he was prenatally exposed to alcohol and "'suggest'" that he may be

17

neurologically impaired as a result. (!d. at 50 (quoting Pet. Ex. 256 ,-r 11).)

18

Petitioner relies upon Dr. LaDue's explanation that persons with Fetal Alcohol

19

Effects "'typically have difficulty associating cause and effect, learning from

20

experience, generalizing to new situations, controlling impulses, and internalizing

21

principles of interpersonal behavior. Their behavior is often impulsive,

22

inconsistent and erratic and their ability to understand, explain or justify their

23

actions is quite limited."' (!d. (quoting Pet. Ex. 256 ~ 8).)

24

B.

Analysis

25

As noted above, Kipp relies upon a brief portion of Dr. Becker's

26

conclusions in his Petition but not in his briefing. Dr. Becker's full opinion,

27

discussed above, notes that Petitioner "has had urges to rape," enjoyed engaging

28

in sexual activity with unconscious women and had done so more than one
45

Pet. App. 126

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 46 of 93 Page ID #:1092

1

hundred times, admitted grabbing Howard by the throat after wanting to be sexual

2

with her and claimed to have known she was dead before having sex with her, and

3

choked Frizzell after she pushed him away from kissing her, strangled her, and

4

penetrated her after she had died. (See Pet. Ex. 229 ~,-r 26-42.) From these

5

portions of Dr. Becker's report, the California Supreme Court may have reasoned

6

that had counsel introduced a mental state defense, the prosecution would have

7

been able to introduce powerful evidence to the contrary, that Petitioner intended

8

the attacks and executed them with premeditation and deliberation. Cf Franklin v.

9

Johnson, 290 F.3d 1223, 1234 (9th Cir. 2002) (noting that "U]urors may well ...

10

look skeptically at a claim that someone who is psychologically prone to sexual[]

11

abuse ... should not be found guilty of a crime when he does commit such abuse"

12

and finding no prejudice from counsel's failure to investigate mental state defense

13

based upon pedophilia for lack of expert testimony that mental disease or defect

14

impacted his commission of the crime). Dr. Becker's opinion provides evidence

15

that Petitioner was precisely capable of forming the intent to have sexual

16

intercourse with non-consenting women and to have sexual intercourse with

17

deceased women.

18

The state court may have also reasoned that the prosecution could have

19

introduced evidence contrary to a mental state defense from Dr. Leisla Howell and

20

Dr. Raymond Anderson. 5 Dr. Howell reported that Petitioner stated that he asked

21

the prior rape victim (June Martinez) in his van if she would like to engage in sex,

22

that she said no, and that he pushed her to the back of the van, pushed her down,

23

and had intercourse with her. (Lodg. 11, Ex. 1, at 1-2; see also id., Ex. 2, at 1.)

24
25
26
27
28

5

Dr. Haney was questioned on cross-examination at the penalty phase with the opinion of Dr.
Howell that test results showed no signs of organic brain damage and the opinion of Dr. Anderson
that Petitioner's early developmental history was unremarkable. (RT 4961-62; see also id. at
4973-75, 4992-94.) Dr. Haney was also questioned about his own interview note that Petitioner
discussed his prior rape conviction, stating, "'He wanted to get laid no matter what."' (!d. at
4977.) That evidence, too, may have been introduced to counter a mental state defense at the guilt
phase of trial, to show that Petitioner had the capacity to form the intent to rape.

46

Pet. App. 127

,_

~

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 47 of 93 Page ID #:1093

1 . Drs. Howell and Anderson reported that the rape took place in the back of the van
2

where there was no door handle to allow escape and while Petitioner was wearing

3

a wig (suggesting an attempt to conceal his identity), evidencing Petitioner's

4

capacity for premeditation concurrent with his sexual aggression and sexual

5

deviation. (See id., Ex. 1, at 2-3 ("Subject stated that he could not say why there

6

was no door handle. This question was rephrased and repeated a number of times

7

but Subject offered no information. He was informed that the absence of a door

8

handle was strong indication that it was his intention that his passengers could not

9

get out of the car until he was ready to let them out"); id., Ex. 2, at 1-2 ("At the

10

time he met the woman, he was wearing a wig - which the investigating probation

11

officer believed was an attempt to conceal his true appearance and actions which

12

suggested pre-meditation on his part").)

13

Considering the opinions offered by Dr. Weaver, the California Supreme

14

Court may have reasonably disregarded them as speculative. See Williams, 384

15

F .3d at 610-11 (finding that expert report noting the possibility of diminished

16

capacity but lacking "sufficient tangible evidence" did not substantiate a mental

17

state defense, and the facts of the crimes reflected deliberate action (internal

18

quotation omitted)); Griffin v. Johnson, 350 F.3d 956, 965 (9th Cir. 2003)

19

(holding that psychologist's conclusion that petitioner "may not have been able to

20

form the required intent for the crime for which he was convicted" and it was

21

"quite unlikely" that he formed that intent was "speculative on its face" (emphasis

22

in original)). Dr. Weaver noted that Petitioner "may" have inherited mental

23

illness, was "at risk" for impairment, "probably" showed impairment in his self-

24

descriptions, and may have had some kind of mental disturbance prior to

25

incarceration. (Pet. Ex. 329 ~~ 24, 125, 137, 170.)

26

The state court may have also reasonably concluded that Petitioner showed

27

insufficient evidence of intoxication on the night of the crimes to support a mental

28

state defense on that basis. See Williams, 384 F.3d at 610-11; Griffin, 350 F.3d at
47

Pet. App. 128

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 48 of 93 Page ID #:1094

1

965 (finding speculative psychologist's conclusion that petitioner "may not have

2

been able to form the required intent for the crime for which he was convicted"

3

and it was "quite unlikely" that he did (emphasis in original)). Dr. Stewart

4

declared that Petitioner's "heavy consumption of drugs and alcohol shows a

5

pattern of use that results in a complete loss of control" and that in light of his

6

"chronic psychiatric symptomatology and heavy drug abuse around the time of the

7

crimes for which he is convicted," there is a "strong possibility" that Petitioner

8

had diminished capacity. (Pet. Ex. 278 ,-r,-r 46, 49 (emphasis added).) Dr. Stewart

9

opined that Petitioner's psychiatric symptoms had "some diminishing impact" on

10

his mental capacity. (Jd. ,-r 49 (emphasis added).) Dr. Stewart does not discuss any

11

evidence of Petitioner's alleged intoxication on the night of the crimes, however.

12

While Dr. Becker reported Petitioner's statement that he consumed a fifth of

13

vodka the night of Frizzell's murder (see Pet. Ex. 229 ,-r 41 ), Petitioner presents no

14

evidence of his intoxication beyond his own statements.

~

r---

15

Considering Petitioner's available evidence as a whole, the California

16

Supreme Court may have reasonably found that the evidence of Petitioner's

17

mental health issues and intoxication on the night ofthe crimes was insufficient to

18

show a reasonable probability of a different outcome at trial had counsel presented

19

a diminished capacity defense. Accordingly, Claim l(E) is DENIED.

20

VIII. Claim 3: Ake Violation

21

In Claim 3, Petitioner alleges his constitutional rights were violated

22

"because he was denied the assistance of mental health professionals and other

23

experts necessary to adequately challenge the prosecution's case and to mount a

24

constitutionally adequate defense," citing Ake v. Oklahoma, 470 U.S. 68, 80

25

(1985). (Pet. at 89.) Petitioner alleges that he "was denied his constitutional

26

rights by counsel's failure to retain, consult with, adequately inform, and present

27

the testimony of competent and appropriate experts" on a variety of mental health

28

topics. (Jd. at 90.)
48

Pet. App. 129

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 49 of 93 Page ID #:1095

1

In Ake, the Supreme Court held that "when a defendant has made a

2

preliminary showing that his sanity at the time of the offense is likely to be a

3

significant factor at trial, the Constitution requires that a State provide access to a

4

psychiatrist's assistance on this issue if the defendant cannot otherwise afford

5

one." 470 U.S. at 74. The Court reached "a similar conclusion in the context of a

6

capital sentencing proceeding, when the State presents psychiatric evidence of the

7

defendant's future dangerousness." !d. at 83. "[T]he State must, at a minimum,

8

assure the defendant access to a competent psychiatrist who will conduct an

9

appropriate examination and assist in evaluation, preparation, and presentation of

10
11

the defense." !d.
To establish a constitutional violation, Petitioner must, therefore,

12

demonstrate that the state denied him access to a competent psychiatrist and

13

appropriate examination and assistance. Harris v. Vasquez, 949 F.2d 1497, 1516

14

(9th Cir. 1991 ). In Harris, the Ninth Circuit found no constitutional violation

15

"because the state did in fact provide Harris with psychiatric assistance. The state

16

provided Harris with access to any competent psychiatrist of his choice when it

17

gave Harris the funds to hire two psychiatrists from the general psychiatric

18

community. The state did not limit Harris's access to psychiatric assistance in any

19

way." !d. (emphasis in original).

20

Here, nearly four years before Petitioner's jury selection began, the state

21

authorized Petitioner's requested funding for a "psychiatric evaluation," an "EEG

22

examination and analysis," and a "psycho-pharmacological evaluation" by experts

23

of Petitioner's choice, without limitation to the guilt or penalty phase of trial. (CT

24

1521-23.) Approximately six months later, the state authorized Petitioner's

25

requested funding for an "American Indian Psychologist," again without limitation

26

to the guilt or penalty phase of trial. (!d. at 1524-26.) Approximately six months

27

after that authorization, the state authorized Petitioner's requested funding "for the

28

retention of experts to investiga[te]" the case, including investigation of
49

Pet. App. 130

r--

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 50 of 93 Page ID #:1096

1

"psychological, psychiatric and factual aspects of the case pertaining to both the

2

guilt and penalty phase ... in order that defendant's lawyer may b[ e] provided

3

with information to advise the defendant of possible defenses and pleas." (Id. at

4

1535-37.) The state also provided funding for Dr. Haney, for example, who

5

testified about Petitioner's mental health at the penalty phase of trial. (See, e.g.,

6

CT 1688-97 (documenting state funding for Dr. Haney); supra pp. 20-24

7

(discussing testimony from Dr. Haney).) The California Supreme Court may have

8

reasonably concluded, as the Ninth Circuit did in Harris, that Petitioner suffered

9

no constitutional violation pursuant to Ake because the state provided Petitioner

10

with access to competent psychiatric assistance.

11

In addition, to the extent Petitioner argues in his reply brief that the "core

12

allegation" of Claim 3 was "of ineffective assistance of counsel," (Petr. 's Reply

13

Br. in Supp. of Supplemental Mot. for Evid. Hr'g, Aug. 10,2012, at 23), those

14

allegations are addressed above in Claims 14(D) and 1(E). (See supra pp. 20-48.)

15
16

Claim 3 is, therefore, DENIED.

IX. Claims 14(E), 14(F), and 18: Jury's Awareness of Petitioner's Prior

17

Death Sentence

18

A.

19

In Claim 18, Petitioner alleges that testimony informing the jury that

Factual Background and Allegations

20

Petitioner was under a sentence of death in Orange County "misled [the jury] in

21

the role they played in the sentencing decision" and rendered his penalty decision

22

unfair and unreliable. (Pet. at 197-200.)

23

The jury learned of Petitioner's Orange County death sentence through the

24

testimony of Dr. Haney. The prosecutor cross-examined Dr. Haney about whether

25

the statements Petitioner made in his September 15, 1987letter were consistent

26

with the opinion Dr. Haney gave regarding Petitioner's mental state. (RT 4970-

27

72, 4980-81.) On redirect, defense counsel asked Dr. Haney about Petitioner's

28

"attitude" about the letter when Dr. Haney discussed it with him. (Id. at 4998.)
50

Pet. App. 131

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 51 of 93 Page ID #:1097

1

Dr. Haney testified that Petitioner was angry, upset, confused, and "going through

2

some very difficult[] emotional times." (!d.) Dr. Haney stated that he was aware

3

that Petitioner was on "suicide watch" and his letter was consistent with the

4

thoughts of a person considering suicide and experiencing "a tremendous amount

5

of emotional distress." (!d. at 4998-99.) Dr. Haney explained that Petitioner's

6

statement showed:

7
8
9
10
11
12

13
14
15

16
17
18

19
20
21

22
23
24

25

26
27
28

shame[,] and in this instance inability to deal with it. [~]
This is a man who was in jail having just been sentence
today death [sic]. He's at the very bottom of his life.
He's trying to communicate to his wife and show her that
he is not effected [sic] by this. And he's doing it in the
accepted jail house manner of defiance. Of not showing
vulnerability and not not [sic] being able to admit what's
going on inside of him....
I think he's- he is very angry and upset about the way
his trial was conducted, and what he felt was an
inadequate defense in presentation of his life. And I
think he felt angry that that had happened. And I think
to a certain extents [sic] maybe blamed himself. But I
also think feeling helpless in a system in which he feels
now he has no control. And feeling as pessimistic about
his future as he possibly could. [~] So you deal with that
not by showing vulnerability, not by being open to
yourself or anybody. You deal with it by rejecting it.
And that's the ultimate in a prison persona; a prison face
taking any feeling and just reflecting it back and acting
as though it doesn't matter and you don't care. And in
part you're trying to convince other people, and in part
you're trying to convince yourself as a survival strategy.

,_

(!d. at 5000-02.)

Defense counsel then asked to approach the bench on a separate matter. At
the bench, the trial court asked:
Are you aware of what just happened? . . . He just told the
jury that he's under sentence for death in Orange County.
51

Pet. App. 132

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 52 of 93 Page ID #:1098

1

[Defense Counsel] Brody: I am aware. And I will tell
you that as far as expressing an opinion, once the Court
ruled that the letter was - the other letter was admissible
in rebuttal, then it was going to come in any way [sic].
And he's going to have to talk about this letter and
explain what this letter is about. [~] I didn't want him to
express the opinion, but I felt we had no choice. . . . And
that's is [sic] my explanation of what we've done.

2
3
4
5
6
7

(Id. at 5002-03.) A short time later, at the conclusion of Dr. Haney's testimony,

8

the trial court addressed the jury:

9

Ladies and gentlemen, ... I believe for the first time
today you have heard what has happened to Mr. Kipp in
Orange County. I hope this is the first time you've heard
it. [~] In any event, whether it is or not, I want to again
admonish you that what that jury did is totally outside
the relm [sic] of what you are to do or expected to do in
this case. You are expected to treat this case as a[ n]
independent entity, and not be concerned about what that
jury did. [~] You are not to say, all right, that jury gave
him death, so it's easy for us to go along and do the same
thing. [~] Or the reverse; since they gave him death it
doesn't make any difference, we'll give him life without
possibility of parole. [~] That is not the way you are to
operate. No one knows what's going to happen to that
Orange County case, whether it's going to be sustained
on appeal, be retried. No one knows. And it doesn't
matter. You do what is right in this case, what you have
heard at this trial.

10

11
12
13

14
15

16

17
18

19
20
21

22

Anyone that can't go along with that admonition now
that they've heard that? If so, please let us know.

23
24

(No audible response from the jury panel.)

25

26
27
28

Alright.

(Id. at 5011-12.)

II
52

Pet. App. 133

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 53 of 93 Page ID #:1099

1

At the end of the trial court's penalty phase jury instructions, the trial court

2

reiterated:

3

You will do this on your own. As I mentioned before,
the Orange County verdict has no bearing on this one
way or the other, and neither does what your friends or
family or the newspapers might think. [,-r] You have to
be guided by your own personal beliefs and what you
heard in this courtroom. [,-r] You all took an oath to do
that and that is what is expected of you.
(!d. at 5245.)

4
5
6
7
8

Petitioner argues that counsel was ineffective for eliciting testimony about

9
10

Petitioner's Orange County death sentence. (Pet. at 159-63 (Claim 14(E)).) He

11

argues that knowledge of Petitioner's Orange County death sentence made it "far

12

easier" for the jury to return a death sentence in this case. (!d. at 162. )6

13

Petitioner further alleges that trial counsel was ineffective for failing to ask

14

jurors on voir dire about their ability to remain fair and impartial upon learning of

15

Petitioner's Orange County death sentence. (!d. at 163-66 (Claim 14(F)).f

16

Petitioner argues that counsel "knew that there was little chance the letter would

17

be suppressed ... [and] that it was incumbent upon them to explain the content of

18
19

20
21

22
23
24
25
26

6

Petitioner cites to two juror declarations in an effort to show how the Orange County sentence
impacted the jurors' deliberations. (See Pet. at 199; Petr. 's Br. at 25.) The declarations are
inadmissible under Federal Rule of Evidence 606(b ), which provides that the Court "may not
receive a juror's affidavit" concerning "the effect of anything upon that juror's or another juror's
vote; or any juror's mental processes concerning the verdict .... " Fed. R. Evid. 606(b)(l). In
light of Romano v. Oklahoma, 512 U.S. 1 (1994), discussed below, the Orange County sentence
does not constitute "extraneous prejudicial information ... improperly brought to the jury's
attention" or "an outside influence ... improperly brought to bear" to make the declarations
admissible. Fed. R. Evid. 606(b)(2)(A)-(B); cf United States v. Bussell, 414 F.3d 1048, 1055 (9th
Cir. 2005) (holding that jurors' speculation about disposition of charges against co-defendant was
not "extraneous prejudicial information" and juror declarations were thus inadmissible under
Federal Rule ofEvidence 606(b)).
7

27
28

Although Petitioner's Supplemental Brief identifies Claims 14(E), 14(G), and 18 as the subject
of his motion for evidentiary hearing concerning his Orange County death sentence (Petr.'s Br. at
23), his Motion for Evidentiary Hearing correctly identifies Claims 14(E), 14(F), and 18. (Mot.
for Evid. Hr'g at 41.)

53

Pet. App. 134

,_

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 54 of 93 Page ID #:1100

1

the letter to the jury." (!d. at 164.) He argues that counsel should have

2

"contemplated well before trial that it might be necessary to reveal the prior death

3

sentence to the jury in order to explain" Petitioner's letter. (!d.)

4

B.

Legal Standard

5

The United States Supreme Court held in Romano v. Oklahoma that the

6

admission of evidence that petitioner received a d~ath sentence in a separate trial

7

for a separate murder "did not amount to constitutional error." 512 U.S. 1, 3

8

( 1994). In Romano, the jury learned of the prior sentence and of petitioner's

9

intention to appeal the sentence. !d. at 4. The Supreme Court rejected petitioner's

10

contention that the evidence impermissibly reduced the jury's sense of

11

responsibility for its decision, because the evidence was not false at the time it was

12

admitted and did not pertain to the jury's role in the sentencing process. !d. at 6-9.

13

The Court noted that the jury was correctly instructed that "it had the

14

responsibility for determining whether the death penalty should be imposed." !d.

15

at 9 (internal quotation omitted). The Court went on to hold that the evidence did

16

not violate petitioner's due process rights because:

17

even assuming that the jury disregarded the trial court's
instructions and allowed the evidence of petitioner's
prior death sentence to influence its decision, it is
impossible to know how this evidence might have
affected the jury. It seems equally plausible that the
evidence could have made the jurors more inclined to
impose a death sentence, or it could have made them less
inclined to do so. Either conclusion necessarily rests
upon one's intuition. To hold on the basis of this record
that the admission of evidence relating to petitioner's
sentence in the [prior] case rendered petitioner's
sentencing proceeding for the [instant] murder
fundamentally unfair would thus be an exercise in
speculation, rather than reasoned judgment.

18
19

20
21

22
23

24
25

26
27

!d. at 13-14.

28

II
54

Pet. App. 135

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 55 of 93 Page ID #:1101

1

The Tenth Circuit recently applied Romano in rejecting a petitioner's claim

2

that counsel was ineffective for informing the jury about petitioner's prior death

3

sentence. Howell v. Trammell, 728 F.3d 1202, 1223-24 (lOth Cir. 2013). Counsel

4

informed the jury of the sentence to rebut evidence in aggravation that petitioner

5

posed a continuing threat, by showing that petitioner had been a model prisoner

6

while on death row. !d. at 1223. The circuit court observed that there was no

7

clearly established federal law to support petitioner's argument that telling a jury

8

of a prior death sentence would predispose them to "follow the earlier jury's

9

recommendation." !d. at 1224 (internal quotation omitted). The circuit court

10

emphasized that "'evidence of the prior death sentence may not produce a

11

unidirectional bias toward death,"' since the jurors may theorize that they are

12

being asked to deliver a second sentence because the first sentence- a capital

13

sentence - was "handed down in error" and was "wrong." !d. at 1224 (quoting

14

Romano, 512 U.S. at 20 (Ginsburg, J., dissenting) (reasoning that "[s]omejurors,

15

otherwise inclined to believe the defendant deserved the death penalty for the

16

crime in the case before them, might nonetheless be anxious to avoid any feeling

17

of responsibility for the defendant's execution. Jurors so minded might vote for a

18

life sentence, relying on the prior jury's determination to secure defendant's

19

death")).

20

C.

21

Analysis
1.

22

Jury's Awareness of Orange County Death Sentence

Petitioner's argument that the jury's knowledge of his prior death sentence

23

rendered the instant sentence constitutionally unfair and unreliable is foreclosed

24

by Romano. As in Romano, the judge at Petitioner's trial informed the jury

25

generally that each juror had the ultimate duty and responsibility, determined by

26

his or her own values, to choose the proper penalty in this case (RT 5133), and

27

II

28

II
55

Pet. App. 136

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 56 of 93 Page ID #:1102

1

that the People and the defendant were entitled to the individual opinion of each

2

juror and each juror must decide the case for himself or herself. (!d. at 5239.) The

3

judge also specifically instructed the jury, at the time the prior sentence was heard

4 · and at the conclusion of the penalty phase instructions, that the "Orange County
5

verdict has no bearing in this one way or the other .... " (!d. at 5245; see also id.

6

at 5012.) The California Supreme Court reasonably denied Petitioner's Eighth and

7

Fourteenth Amendment claims in light of Romano. Claim 18 is DENIED.

2.

8
9

Ineffective Assistance of Counsel

The Court "must indulge a strong presumption that counsel's conduct falls

10

within the wide range of professional assistance." Strickland, 466 U.S. at 689.

11

"The standards created by Strickland and § 2254(d) are both highly deferential,

12

and when the two apply in tandem, review is doubly so." Richter, 131 S. Ct. at

13

788 (cautioning that "[i]t is all too tempting to second-guess counsel's assistance

14

after conviction or adverse sentence") (internal quotations and citations omitted).

15

It was not objectively unreasonable for the Califo~ia Supreme Court to determine

16

that counsel's strategy to avoid informing jurors, on voir dire or otherwise, of the

17

prior death sentence until the court ruled that the September 15 letter would be

18

admissible was reasonable. (See, e.g., RT 1316 (reflecting defense counsel's

19

awareness during voir dire that a juror's knowledge of the prior sentence "might

20

ease that burden for you and sort of cause you to know that if you vote for death in

21

this case, he's already gotten death someplace else and the responsibility is

22

lessened here").)
Counsel litigated against the admission of the letter not only on the basis

23
24

that it was more prejudicial than probative (id. at 3709-14), but also on the

25

grounds (1) that it was a privileged spousal communication and (2) that the

26

Orange County Jail lieutenant had no authority to open the letter because

27

II

28

II
56

Pet. App. 137

~·

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 57 of 93 Page ID #:1103

1

Petitioner and his wife were both out of custody of the Jail at the time he did so.

2

(!d. at 2440-52.) Although the trial court ultimately ruled the letter admissible, the

3

California Supreme Court would not have been objectively unreasonable in

4

holding that counsel's motions showed a sufficient chance of success to justify his

5

strategy. The California Supreme Court may have reasonably concluded that trial

6

counsel provided constitutionally adequate representation in attempting to exclude

7

the letter and revealing Petitioner's prior sentence only after the trial court ruled

8

the letter admissible.

9

In addition, in light of the highly damaging statements Petitioner made in

10

his September 15 letter (see supra pp. 11-13), the California Supreme Court may

11

have reasonably determined that it was strategic to present any and all

12

explanations for the statements, including Petitioner's recent receipt of a death

13

sentence. As discussed above, the jury's knowledge of a prior death sentence does

14

not always weigh in favor of a second capital sentence. See Howell, 728 F .3d at

15

1224; Romano, 512 U.S. at 20 (Ginsburg, J., dissenting). Counsel's strategy may

16

have been a reasonable one. Claims 14(E) and 14(F) are, therefore, DENIED.

17

X. Claims 14(1) and 19: Petitioner's References to Satan

18

A.

19

In Claim 19, Petitioner alleges that his constitutional rights were violated by

Factual Background and Allegations

20

the admission of evidence that he "worshipped Satan." (Pet. at 200-05.)

21

Petitioner alleges that the jury learned that Petitioner was an "apparent worshiper

22

of Satan" through three items of evidence: (1) his September 9, 1987 letter; (2) his

23

September 15, 1987letter; and (3) testimony regarding his January 1, 1980 threat

24

to Sergeant Baeman. (!d. at 201.)

25

In Claim 14(I), Petitioner alleges that counsel failed to litigate competently

26

the admissibility of the evidence. (!d. at 175-78.) Petitioner faults counsel for

27

raising objections to the letters based only on the state evidentiary code, rather

28

than the state and federal constitutions. (!d. at 175.) Petitioner further faults
57

Pet. App. 138

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 58 of 93 Page ID #:1104

1

counsel for failing to object to the reference to Satan in Petitioner's threat to

2

Sergeant Baeman. (!d.)

1.

3

September 9, 1987 Letter

4

As discussed above, in his September 9, 1987letter, Petitioner stated:

5

Everyone hates a deputy on the street its [sic] why they
are always getting killed! And your [sic] in their iow-iife
setting so they like to rub it in all the time. It is how they
get their satisfaction, besides turning key's [sic] all day
long. (hal hal hal) Satan will lick them all up when
they die. Especially the bitch women deputies's [sic] ....
I'd rape and sodimize [sic] every woman bitch deputy
and gouge their eye's [sic] out! But I would let them live
as invalent's [sic]. Yeah! Satan will lick em all up in a
tredge [sic} of horror.... Yeah, I don't believe in God
anymore, because their [sic} isn't one who has ever
helped me. But Satan has help [sic} me rejuvanate [sic}
my energie's [sic} in a working manner babe. Don't
ever underestimate my 'intention's' [sic] that's all I can
say!

6
7
8
9
10
11
12
13
14

15
16

(Pet. at 167-68 (emphasis added); see also Pet. at 202; RT 5191.)

2.

17

In his September 15, 1987 letter, Petitioner stated:

18
19

September 15, 1987 Letter

25

'I killed, raped, sodomized, beat, swore, and laughed at
those fucking no-good bitches. . . . Yeah, it felt great,
because neither deserved to live anymore. One was a
black prostitute who liked to rob people and play
games. . . . The other little tramp played it off as a
college sweetheart. Hell, she was anything but that, and
a loose fuck to boot. Well, Satan's licking both those
bitches up now and laughing.' ...
(!d. at 3853 (emphasis added).) On the next page of the letter, Petitioner stated,

26

"We are coming home, Satan." (!d. at 3719-20.)

27

II

28

II

20
21
22
23
24

58

Pet. App. 139

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 59 of 93 Page ID #:1105

3.

1
2
3

A sheriffs sergeant testified that on January 1, 1980, following Petitioner's
escape attempt, Petitioner stated:

4

'You will read about me again, Deputy Koeth, after I kill
that sergeant.' [.,-r] I asked him, 'Which sergeant?' [.,-r]
And he said, 'Sergeant Baeman.' He said he would kill
him in a very big way. He swore to me and his savior,
Satan, he would be killed in a very big way and a very
humiliating way.

5
6
7
8
9

I

January 1, 1980 Threat to Sergeant Baeman

(!d. at 4245 (emphasis added).)

10

B.

11

Petitioner relies upon the United States Supreme Court's decision in

12

Dawson v. Delaware, 503 U.S. 159 (1992). (See Pet. at 177; Petr.'s Br. at 22-23.)

13

In Dawson, the jury heard evidence that defendant had the words "Aryan

14

Brotherhood" tattooed on his hand and that the Aryan Brotherhood "refers to a

15

white racist prison gang that began in the 1960's in California in response to other

16

gangs of racial minorities. Separate gangs calling themselves the Aryan

17

Brotherhood now exist in many state prisons including Delaware." !d. at 161-62.

18

The jury also heard evidence that defendant had the name "Abaddon" tattooed on

19

his stomach, and had introduced himself at a bar as "Abaddon," saying that it

20

meant "[o]ne of Satan's disciples." !d. at 161-62. Although the Supreme Court

21

apparently held that the admission of both the Aryan Brotherhood and the

22

Abaddon evidence was erroneous, see id. at 163, its analysis focused upon the

23

Aryan Brotherhood evidence alone.

24

Legal Standard

At the outset, the Court rejected as "too broad" the defendant's contention

25

that the Constitution "forbids the consideration in sentencing of any evidence

26

concerning beliefs or activities that are protected under the First Amendment,"

27

holding that "the Constitution does not erect a per se barrier to the admission of

28

evidence concerning one's beliefs and associations at sentencing simply because
59

Pet. App. 140

;--

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 60 of 93 Page ID #:1106

1

those beliefs and associations are protected by the First Amendment." !d. at 164-

2

65. In the facts of defendant's case, however, the prosecution "proved nothing

3

more than Dawson's abstracts beliefs" and did not tie the Aryan Brotherhood

4

evidence "in any way to the murder of Dawson's victim." !d. at 166-67.

5

Dawson's victim was white, as was Dawson, showing no elements of racial hatred

6

involved in the killing. !d. at 166. Moreover, the evidence was not relevant "to

7

rebut any mitigating evidence offered by Dawson," because "the Aryan

8

Brotherhood evidence presented in this case cannot be viewed as 'bad' character

9

evidence in its own right." Id. at 167-68. "[O]n the present record," the Court

10

explained, "one is left with the feeling that the Aryan Brotherhood evidence was

11

employed simply because the jury would find these beliefs morally reprehensible,"

12

which does not justify their admission. !d. at 167. The Supreme Court noted that

13

it would be "a much different case" if the prosecution had presented evidence to

14

connect the evidence to the crimes or to show that the Aryan Brotherhood is

15

"associated with drugs and violent escape attempts at prisons, and ... advocates

16

the murder of fellow inmates," to show its relevance. !d. at 165-66.

17

The Ninth Circuit recently applied Dawson in denying habeas relief based

18

upon the admission of testimony that petitioner belonged to the Aryan

19

Brotherhood. See Schneider v. McDaniel, 674 F.3d 1144, 1149-50 (9th Cir.

20

2012). The Ninth Circuit explained that "Dawson held only that the First

21

Amendment 'prevents [the state] from employing evidence of a defendant's

22

abstract beliefs at a sentencing hearing when those beliefs have no bearing on the

23

issue being tried."' Schneider, 674 F.3d at 1149 (quoting Dawson, 503 U.S. at

24

168; alteration in original). The Circuit emphasized that "the Supreme Court

25

expressly recognized that the case would be different if the evidence proved

26

something more than Dawson's abstract beliefs." Id. at 1150. The Circuit held

27

that in Schneider's case, evidence of his membership in the Aryan Brotherhood

28

was relevant to his co-defendant's defense, that she was coerced into participating
60

Pet. App. 141

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 61 of 93 Page ID #:1107

I

in the crimes and could not escape because petitioner beat her and told her he was

2

affiliated with the Aryan Brotherhood or Aryan Warriors, who "kill snitches." Id.

3

at II47-48. Because the evidence was relevant to the co-defendant's defense, the

4

Ninth Circuit denied petitioner's claim.

5

Other circuits, too, have emphasized that Dawson's prohibition is limited to

6

abstract beliefs unrelated to the issues at trial. See, e.g., United States v. Kane,

7

452 F.3d I40, I42-43 (2d Cir. 2006); Kapadia v. Tally, 229 F.3d 64I, 647-48 (7th

8

Cir. 2000); Fuller v. Johnson, II4 F.3d 49I, 498 (5th Cir. I997) (holding that

9

admission of evidence of Aryan Brotherhood membership did not violate

I0

petitioner's First Amendment rights because the prosecution introduced relevant

II

evidence of future dangerousness, "distinguish[ing] ... Dawson on exactly this

I2

point"); United States v. Beasley, 72 F.3d I5I8, I527-28 (lith Cir. I996). As the

I3

Eleventh Circuit explained in Beasley, "[t]he First Amendment's protection of

I4

beliefs and associations does not preclude such evidence where relevant to a trial

I5

issue;" rather, "[a] person's beliefs, superstitions, or affiliation with a religious

I6

group is properly admissible where probative of an issue in a criminal

I7

prosecution." 72 F.3d at I527-28 (discussing, inter alia, Dawson, 503 U.S. at

I8

I65); cf Wisconsin v. Mitchell, 508 U.S. 476, 489 (1993) ("The First Amendment

I9

... does not prohibit the evidentiary use of speech to establish the elements of a

20

crime or to prove motive or intent").

2I

In Kapadia v. Tally, the Seventh Circuit rejected a habeas petitioner's

22

argument that evidence of his anti-Semitic beliefs violated his First Amendment

23

rights under Dawson. 229 F.3d at 647-48. The circuit court approved of the trial

24

court's finding that petitioner was "more dangerous because he held anti-Semitic

25

views and attacked a Jewish community center," which showed "a greater

26

probability he would not be rehabilitated." /d. at 647. Because the petitioner

27

made his anti-Semitic remarks after his conviction, the circuit court held that the

28

trial court "was free to conclude that he lacked remorse" and, in sum, "presented a
6I

Pet. App. 142

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 62 of 93 Page ID #:1108

1

threat of future dangerousness to the community, a proper consideration" at

2

sentencing. !d. The Seventh Circuit concluded:

3

Read in context, the court's remarks at sentencing
weighed defendant's statements in the context of his
attitude towards the victims, his lack of remorse, and
lack of potential for rehabilitation. Nothing in the
Constitution prevents the sentencing court from factoring
a defendant's [otherwise protected] statements into
sentencing when those statements are relevant to the
crime or to legitimate sentencing considerations ....
[T]he sentencing court was not punishing [petitioner] for
his abstract beliefs but rather for his concrete application
of those misguided beliefs in criminal activity ....
!d. at 648 (internal quotation omitted).

4

5

6
7
8

9
10
11

12

The Second Circuit has similarly identified a number of trial issues on

13

which a defendant's otherwise protected beliefs or affiliations may be introduced.

14

Kane, 452 F.3d at 142-43. The circuit court explained that:

15

23

evidence regarding the defendant's beliefs or
associational activity[,] ... so long as it is relevant to the
issues involved in the sentencing proceeding[,] ... may
be relevant to show motive, see Barclay v. Florida, 463
U.S. 939, 948-49 (1983) (plurality opinion), analyze a
statutory aggravating factor, see id. at 949, 949 n.7,
illustrate future dangerousness or potential recidivism,
see, e.g., United States v. Tampico, 297 F.3d 396,402-03
(5th Cir. 2002), or rebut mitigating evidence that the
defendant proffers, see generally Dawson, 503 U.S. at
167.
!d. at 142-43 (internal quotation omitted; internal citations edited and omitted)

24

(holding that "because much of [appellant's] writings concerned illegal real estate

25

schemes, which related directly to his offense of conviction, the writings also may

26

indicate the increased likelihood of recidivism or a lack of recognition of the

27

gravity of the wrong" (internal quotation omitted)).

28

II

16
17
18
19
20
21

22

f

62

Pet. App. 143

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 63 of 93 Page ID #:1109

1

In United States v. Fell, the Second Circuit reaffirmed that "evidence of the

2

defendant's abstract moral beliefs may in some cases be constitutionally

3

admissible to show motive," but held that "there must be stronger evidence of the

4

connection than occurred here .... " 531 F.3d 197,230 (2d Cir. 2008). The court

5

found too attenuated a connection between evidence of appellant's satanic beliefs

6

and tattoos and evidence of his motives in the crimes to permit its introduction.

7

!d. The government argued that:

8

a satanist believes he 'can murder[,] rape and rob at will
without regard for the moral or legal consequences[,]' an
inference buttressed by the fact that Fell committed the
murders while wearing a 'Slayer' t-shirt. [~] Slayer is a
'heavy metal' band whose albums and lyrics cover topics
such as serial killers, satanism, religion and warfare ....

9
10

11
12
13

531 F.3d at 230,230 n.24. The government "posit[ed] on appeal a relationship

14

between the t-shirt Fell wore during the murders and Fell's satanic interests and

15

his motive for killing" a victim he did not previously know. !d. at 230. Although

16

the court ultimately found the evidence harmless, it was "not persuaded by the

17

relevance ofth[e] evidence" connecting appellant's Slayer t-shirt to Satanic

18

motives in committing the crimes. !d.

19

C.

20

The California Supreme Court held on direct appeal:

21

22
23
24
25
26
27
28

California Supreme Court Decision on Direct Appeal

[Regarding] the September 15 letter, ... [w]hen this
issue was discussed in the trial court, the defense argued
that the references to Satan were not relevant to any
statutory aggravating factor. The prosecutor replied that
the defense would place defendant's character in issue at
the penalty phase, and that evidence about defendant's
favorable regard for Satan would then be admissible in
rebuttal. The court ruled it would allow the references to
Satan 'at the penalty phase under factor k.'
Defendant is correct that character evidence under
section 190.3, factor (k), can only be mitigating, and
63

Pet. App. 144

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 64 of 93 Page ID #:1110

1

therefore the prosecution may not introduce evidence of
defendant's bad character as part of its case in
aggravation at the penalty phase. Once the defendant
puts his general character in issue at the penalty phase,
however, the prosecutor may rebut with evidence or
argument suggesting a more balanced picture of his
personality. Here, it was understood that defendant
intended to place his general character in issue at the
penalty phase, and in this context the trial court's ruling
properly permitted the prosecution to respond with
rebuttal evidence about defendant's views on Satan....

2
3
4
5
6

7

8
9

[E]vidence about defendant's view of Satan during
questioning about defendant'.s threats in January 1988
... was admissible as part of the circumstances of the
escape attempt and threats ....

10

11

12
13

Defendant wrote the September 9 and September 15
letters in 1987, four years after killing Tiffany Frizzell
and around 15 months before trial began. Thus, the jury
could properly consider these letters as bearing on
defendant's claimed feelings of remorse at the time of
trial. A favorable view of the biblical figure of Satan is
generally understood as a symbolic rejection of the
values of love and compassion, and as indicating
acceptance of the contrary values of hatred and violence,
with a consequent rejection of all moral restrictions on
crimes such as murder and rape. See McCorkle v.
Johnson, 881 F.2d 993, 995-96 (11th Cir. 1989). This
abhorrent value system is inconsistent with defendant's
claimed remorse and shame for the murders of his two
victims, and thus the evidence was properly admitted in
rebuttal. If defendant's conception of Satan
encompassed qualities consistent with an attitude of
remorse, he was free to articulate them.

14
15
16
17
18
19

20
21

22
23
24
25

-f

26

Kipp, 26 Cal. 4th at 1134-35 (internal quotation omitted; internal citations edited

27

and omitted).

28

II
64

Pet. App. 145

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 65 of 93 Page ID #:1111

1

2
3

D.

Analysis

1.

Reasonableness of State Court Decision

The California Supreme Court's conclusion that the reference to Satan in

4

the September 15 letter was permissible, rebuttal character evidence is not

5

objectively unreasonable, in light of the statements in the letter connected to the

6

reference. The "bitches" Petitioner said Satan was "licking ... up now and

7

laughing" were women he said he raped and killed. A fairminded jurist could

8

conclude that the reference to Satan, in context, rose to the level of"'bad'

9

character evidence in its own right." Dawson, 503 U.S. at 168.

10

As discussed above, the jury could permissibly infer from the evidence of

11

Petitioner's threat to Sergeant Baeman that Petitioner posed a future danger while

12

incarcerated. (See supra pp. 17-18.) The state court was not objectively

13

unreasonable in concluding that Petitioner's reference to Satan in that threat was

14

admissible as part of"the violent potential of defendant's attempted escape."

15

Kipp, 26 Cal. 4th at 1134. The court may have reasoned that Petitioner's

16

"swor[n]" promise to his "savior, Satan" to kill Sergeant Baeman lent additional

17

weight to the threat. In addition, because the California Supreme Court reasonably

18

held that there was no constitutional error in the admission of the threat and its

19

reference to Satan, it may have reasonably determined that Petitioner showed no

20

reasonable probability of success had counsel moved to exclude that evidence on

21

constitutional grounds. See Wilson v. Henry, 185 FJd 986, 990 (9th Cir. 1999)

22

("To show prejudice under Strickland from failure to file a motion," petitioner

23

must show, in part, that "had his counsel filed the motion, it is reasonable that the

24

trial court would have granted it as meritorious"); see also United States v.

25

Molina, 934 F.2d 1440, 1447 (9th Cir. 1991) (holding that because evidence was

26

admissible, "the decision not to file a motion to suppress it was not prejudicial. ...

27

[I]t is not professionally unreasonable to decide not to file a motion so clearly

28

lacking in merit").
65

Pet. App. 146

f

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 66 of 93 Page ID #:1112

1

The reasonableness of the state court's remarks on the September 9 and 15

2

letters together poses a more difficult question. The California Supreme Court's

3

statements that the September 9 and 15 letters evidence an "abhorrent value

4

system" that "indicate[ s] acceptance of the ... values of hatred and violence, with

5

a consequent rejection of all moral restrictions on crimes such as murder and

6

rape," echo the abstract beliefs held to be inadmissible, without more, in Dawson

7

and Fell. See Dawson, 503 U.S. at 167 (holding that fact that "the jury would find

8

these beliefs morally reprehensible" did not justify their admission); Fell, 531 F.3d

9

at 230 (rejecting the government's mere "inference" that "a satanist believes he

10

can murder[,] rape and rob at will without regard for the moral or legal

11

consequences" (internal quotation omitted)). Although the California Supreme

12

Court stated that a favorable view of Satan is "generally understood" to have that

13

meaning, critically, no such evidence was presented at trial.

2.

14

--

Evaluation under De Novo Review

t

Assuming, arguendo, that the California Supreme Court's analysis of the

15
16

September 9 and 15 letters constitutes an unreasonable application of Dawson in

17

this respect, Petitioner would be entitled to de novo review of his claim. See

18

Panetti v. Quarterman, 551 U.S. 930, 953-54 (2007) (holding that when "the

19

requirement set forth in § 2254(d)( 1) is satisfied[, a] federal court must then

20

resolve the claim without the deference AEDPA otherwise requires"); Frantz v.

21

Hazey, 533 F.3d 724, 735 (9th Cir. 2008) (holding that where "there is

22

[§ 2254(d)(1)] error, we must decide the habeas petition by considering de novo

23

the constitutional issues raised"). No evidentiary hearing is required since the

24

admissibility of the evidence can be decided on the basis of the state court record.

25

See Campbell v. Wood, 18 F.3d 662, 679 (9th Cir. 1994) (holding pre-AEDPA that

26

a claim does not require a hearing if it "can be resolved by reference to the state

27

court record").

28

//
66

Pet. App. 147

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 67 of 93 Page ID #:1113

1

2

a.

References to Satan in September 9 Letter

At the penalty phase of trial, Petitioner introduced evidence that "lifers" had

3

a propensity to become "model prisoners" and to commit themselves to beneficial

4

work. (RT 4800-07.) The prosecution was entitled to rebut that evidence with

5

evidence that Petitioner posed a future danger if sentenced to life without parole,

6

particularly in light of Petitioner's escape attempts. See Simmons, 512 U.S. at 162

7

(approving of "the jury's consideration of future dangerousness during the penalty

8

phase of a capital trial, recognizing that a defendant's future dangerousness bears

9

on all sentencing determinations made in our criminal justice system"); Dawson,

10

503 U.S. at 165-66 (noting that otherwise protected beliefs could be admissible "to

11

rebut any mitigating evidence offered" and to show an association with "violent

12

escape attempts at prisons, and ... the murder of fellow inmates"); Kane, 452 F.3d

13

at 142-43 (holding defendant's beliefs admissible to show future dangerousness or

14

to rebut mitigating evidence); Fuller, 114 F.3d at 498 (holding protected

15

associations admissible to show future dangerousness). The references to Satan in

16

the September 9 letter were relevant to show Petitioner's future dangerousness,

17

because Petitioner felt Satan had rejuvenated his energy to carry out his intentions,

18

which were to rape and sodomize female deputies. Because Petitioner's references

19

to Satan were relevant to his future dangerousness, their admission did not violate

20

Petitioner's First Amendment rights.

21
22

b.

Reference to Satan in September 15 Letter

As the jury was instructed, the circumstances of the crimes were a relevant

23

consideration at sentencing. (RT 5128-29.) The circumstances ofthe crimes are a

24

permissible aggravating factor. See Allen v. Woodford, 395 F.3d 979, 1012 (9th

25

Cir. 2004); see also Tuilaepa v. California, 512 U.S. 967, 976 (1994). Petitioner's

26

statement that Satan was "licking both those bitches up now and laughing" was

27

relevant to explain his possible motivations in the crimes, in light of his statements

28

that the victims were a "prostitute" and a "loose fuck," who were "no-good" and
67

Pet. App. 148

f

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 68 of 93 Page ID #:1114

1

did not "deserve[] to live anymore [sic]." Petitioner's views on the character of

2

the victims suggest that he may have been motivated to rape and kill them because

3

Satan would then "lick[] [them] up" and "laugh[]."

4

These possible motivations and Petitioner's view that this was the outcome

5

of his crimes constitute circumstances of the crimes that are constitutionally

6

admissible. See Dawson, 503 U.S. at 165-67 (noting that Dawson's beliefs could

7

have been admissible if tied "in any way to the murder of [his] victim"); Kane, 452

8

F.3d at 142-43 (holding beliefs admissible when "relevant to show motive, analyze

9

a statutory aggravating factor, ... or [demonstrate] a lack of recognition of the

10

gravity of the wrong" (internal quotation and citation omitted)); Kapadia, 229

11

F.3d at 648 (holding beliefs admissible where "relevant to the crime" and given

12

"concrete application ... in criminal activity"); Beasley, 72 F.3d at 1527-28

13

(holding protected beliefs admissible "where probative of an issue in a criminal

14

prosecution"); cf Mitchell, 508 U.S. at 489 ("The First Amendment ... does not

15

prohibit the evidentiary use of speech to establish the elements of a crime or to

16

prove motive or intent"). Moreover, as discussed above, the reference to Satan in

17

its context constituted permissible, rebuttal character evidence. Petitioner's First

18

Amendment rights were not, therefore, violated by the admission of his reference

19

to Satan in the September 15 letter.

c.

20

Ineffective Assistance of Counsel

Because there was no constitutional violation in the admission of the

21
22

references to Satan in the September 9 and September 15 letters, Petitioner has

23

failed to demonstrate a reasonable probability of success had counsel moved to

24

exclude them on constitutional grounds. See Wilson, 185 F.3d at 990; Molina, 934

25

F.2d at 1447. Petitioner has, therefore, failed to establish prejudice from any

26

ineffective assistance of counsel. ·
Accordingly, Claims 14(I) and 19 are DENIED.

27
28

II
68

Pet. App. 149

-f

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 69 of 93 Page ID #:1115

1

XI. Claims l(B), l(C), 14(B), and 14(C): Inadequate Voir Dire
In Claims 1(B) and 14(B),8 Petitioner alleges that trial counsel was

2
3

ineffective for failing to question the venire adequately regarding his Native

4

American heritage. (Pet. at 63-67, 143-46.) In Claims 1(C) and 14(C), Petitioner

5

makes the same allegation regarding his belief in Satan. (!d. at 68-71, 146-49.)

6

A.

7

There is a "high level of deference given to counsel's decisions during jury

Legal Standard

8

selection." Carrera v. Ayers, 670 F.3d 938, 948-49 (9th Cir. 2011) (collecting

9

cases). "'The conduct of voir dire will in most instances involve the exercise of a

10

judgment which should be left to competent defense counsel."' Hovey, 458 F.3d

11

at 909-10 (holding counsel's performance was not deficient in asking voir dire

12

questions generally limited to whether the juror could "follow the law," "be fair to

13

both sides,'' and "wait until all the evidence is in" to form an opinion) (quoting

14

Gustave v. United States, 627 F.2d 901, 906 (9th Cir. 1980)).

15

-f

A strategy "that in defending a capital case, the least voir dire is the best

16

tactic, [and] ... preferr[ing] to rely on nonverbal communication to make

17

determinations about potential jurors because that avoids exposing potentially

18

favorable jurors to prosecutorial challenges" is a reasonable strategy. Hovey, 458

19

F.3d at 910 (internal quotation omitted). Counsel is not ineffective for relying on

20

jurors' statements that they would be fair and follow the law as instructed. Wilson,

21

185 F.3d at 991 ("Counsel's choice to rely on such a commitment, without

22

emphasizing his client's criminal history, merits deference as a tactical decision").

23

As for prejudice, the state court may reasonably determine that a petitioner

24

fails to make "the required showing of prejudice under Strickland'' where he fails

25

to "show[] that any juror who harbored an actual bias was seated on the jury as a

26

result of counsel's failure to voir dire" on the issue. Ybarra v. McDaniel, 656 F.3d

27
28

8

The discussions in sections l(A) and 14(A) ofthe Petition set forth factual background only and
do not state individual claims for relief.

69

Pet. App. 150

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 70 of 93 Page ID #:1116

1

984, 1001 (9th Cir. 2011); see also Davis v. Woodford, 384 F.3d 628, 643 (9th Cir.

2

2004) ("Establishing Strickland prejudice in the context of juror selection requires

3

a showing that, as a result of trial counsel's failure to exercise peremptory

4

challenges, the jury panel contained at least one juror who was biased").

5

B.

6

Allegations and Analysis Regarding Native American Heritage
1.

Right to Inquiry

7

Petitioner alleges that counsel asked only "a handful" of prospective jurors

8

questions to uncover "any racist or biased feelings or views regarding Petitioner's

9

Native American heritage." (Pet. at 63.) Petitioner argues that "[d]ue process

10

requires that the court inquire into racial bias when there is a reasonable

11

probability that racial or ethnic prejudice might influence the jury," citing, among

12

others, Turner v. Murray, 476 U.S. 28, 36-37 (1986). (Pet. at 65-66.) Petitioner

13

relies upon the Supreme Court's statement in Turner that "a capital defendant

14

accused of an interracial crime is entitled to have prospective jurors informed of

15

the race of the victim and questioned on the issue of racial bias." 476 U.S. at 36-

16

37. The Court held that the trial court may not refuse such questioning. See id. at

17

30-31' 36.

18

The Turner Court specifically noted, however, that "should defendant's

19

counsel decline to request voir dire on the subject of racial prejudice, we in no

20

way require or suggest that the judge broach the topic sua sponte." !d. at 37 n.lO.

21

The Court observed that whether the questioning could "have the negative effect

22

of suggesting to the jurors that race somehow is relevant to the case" was "a

23

decision we leave up to a capital defendant's counsel." !d. Turner, therefore, does

24

not govern Petitioner's claim of ineffective assistance.

25

As discussed above, Petitioner must establish prejudice from any deficient

26

performance by showing that a seated juror harbored actual bias. See Ybarra, 656

27

F .3d at 1001. A petitioner could show, for example, that a juror made statements

28

during voir dire that demonstrated bias. See United States v. Quinto-Barraza, 78
70

Pet. App. 151

-f

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 71 of 93 Page ID #:1117

1

F.3d 1344, 1349-50 (9th Cir. 1995) (considering juror's apparently biased

2

statements on voir dire but concluding that counsel's strategy was not objectively

3

unreasonable). Here, instead, Petitioner presents two statements from juror

4

declarations to attempt to show prejudice. (See Pet. at 66.) One juror stated,

5

"'Like so many Indians on reservations, Kipp's family had spent almost all their

6

time drinking alcohol."' (!d. (quoting Pet. Ex. 303 ~ 6).) The second stated, "He

7

[Petitioner] reminded me of an Indian warrior. He was very macho and showed no

8

remorse or fear." (Id. (quoting Pet. Ex. 312 ~ 2).)

9
10

2.

Admissibility of Juror Declarations

The Ninth Circuit has "not decided, as some courts have, whether Rule

11

606(b) prevents [a court] from considering evidence that a juror's racial bias was

12

expressed during deliberations." United States v. Hayat, 710 F.3d 875, 886 (9th

13

Cir. 2013). In Hayat, the Ninth Circuit considered a juror's statement during

14

deliberations that "they all look alike when in a costume," referring to Pakistanis

15

wearing clothing common among Pakistanis and Muslims. !d. at 886-87.

16

Petitioner argued that the comment evidenced racial and religious bias,

17

particularly in light of the juror's later remarks in a news interview about the

18

government's use of so-called 'preventative criminal prosecutions' of potential

19

terrorists:

20
21
22
23
24

I don't want to see the government lose its case.... Can
we, on the basis of what we know, put this kid on the
street? On the basis of what we know of how people of
his background have acted in the past? The answer is
no .... Not this particular case, I'm saying, but future
cases .... Too many lives are changed by terrorism ....

25

Id. at 887 (internal quotations omitted). The juror testified, after the interview was

26

published, that he did not have those thoughts before jury deliberations began. !d.

27

at 888. Upholding the district court's determination that the juror was not

28

motivated by an impermissible racial, ethnic, or religious bias, the Ninth Circuit
71

Pet. App. 152

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 72 of 93 Page ID #:1118

1

emphasized that "the issue was [the juror's] impartiality as a juror at the time of

2

trial and not his post-trial attitudes" and the context of his statement during

3

deliberations provided a non-biased explanation. Id. at 887, 889, 891. The court

4

noted that while the statement "could be interpreted as reflecting a tendency to

5

group people together on the basis of their shared cultural or physical

6

characteristics," in context, the statement was an evaluation of the credibility of a

7

witness's testimony identifying a particular person. !d. at 887.

3.

8

Analysis

As in Hayat, the jurors' statements here may have been legitimately related

9
10

to their consideration of evidence presented at trial. The jurors' statements were

11

related to trial evidence introduced about the prevalence of alcoholism on Native

12

American reservations, the warrior culture in the Blackfeet Nation, and

13

Petitioner's own statements. In context, the first juror stated in her declaration,

14

"The witnesses from Kipp's tribe testified about the defendant's background. Like

15

so many Indians on reservations, Kipp's family had spent almost all their time

16

drinking alcohol. However, I didn't see the defendant's background as a reason

17

that he should be sentenced to life without the possibility of parole." (Pet. Ex. 303

18

,-r 6.) Her statement reflects her consideration of evidence presented at trial that

19

Petitioner's biological and adoptive families both suffered serious effects from

20

alcoholism and that many Blackfeet and other Native Americans on reservations

21

faced widespread alcoholism. (RT 4353-57, 4379-83, 4834-47, 4874-75, 4898-

22

4905.)

23

The second juror's statement that Petitioner reminded him of"an Indian

24

warrior" because he was "very macho and showed no remorse or fear" related to

25

evidence presented at trial that Blackfeet men were "warriors," and that "Indians

26

became warriors without weapons" who continued to learn "the ideals of the old

27

warrior way," including "bravery." (Jd. at 4386-91.) Petitioner, in fact, described

28

himself as a "warrior from the old school" in his September 15 letter. (!d. at
72

Pet. App. 153

;-

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 73 of 93 Page ID #:1119

Pet. App. 154

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 74 of 93 Page ID #:1120

1

Fed. R. Evid. 606(b)(l) ("[A] juror may not testify about ... the effect of anything

2

on that juror's or another juror's vote"). Even considering the evidence, however,

3

the statement shows only that the jurors took the letters to show Petitioner's

4

"anger towards society," and not that they harbored bias against Petitioner because

5

of his beliefs. (Pet. Ex. 312 ,-r 7.)

6

The California Supreme Court's determination that Petitioner failed to show

7

that a seated juror harbored an actual bias about his belief in Satan is not

8

objectively unreasonable. See Ybarra, 656 F.3d at 1001. The state court may

9

have reasonably held that Petitioner failed to show prejudice from counsel's lack

10

of voir dire questioning on his belief. See id. Claims 1(C) and 14(C) are

11

DENIED.

12

XII. Claim 20: Jury Consideration of Bible Passages

13

A.

Allegations

14

In Claim 20, Petitioner alleges that his constitutional rights were violated by

15

the jury's consideration of"extraneous information" in the form of Bible verses.

16

(Pet. at 206-09.) Petitioner relies upon a juror declaration stating that another

17

JUror:

18

brought in a Bible and read it to us. She talked about
several verses in the Bible, which she told us would help
us in making a decision. The jurors talked about
standing in judgment of another human being. There
was also discussion of the verses which state, 'an eye for
an eye' and 'judge not lest ye be judged.' A little over
half of the jurors had a religious background and strong
religious beliefs.

19
20
21
22
23
24

(Pet. Ex. 310 ,-r 3; see also Petr.'s Br. at 20.)

25

B.

Legal Standard and Analysis

26

In Crittenden v. Ayers, the Ninth Circuit rejected a petitioner's claim based

27

upon a juror's reading of a biblical passage during penalty phase deliberations.

28

624 F.3d 943,972-74 (9th Cir. 2010). The juror studied the Bible at home and
74

Pet. App. 155

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 75 of 93 Page ID #:1121

1

found the passage, "[w ]ho so sheddeth man's blood by man shall his blood be

2

shed." !d. at 973. A second juror testified that the juror mentioned something

3

from the Bible during deliberations. !d. The Ninth Circuit held:

4
5
6

7
8
9
10
11

12
13

14
15
16
17
18
19
20
21

22
23
24
25
26
27

28

We need not decide here whether clearly established
Supreme Court law required the treatment of the Bible as
extrinsic evidence, or whether reading and sharing
biblical passages constitutes juror misconduct. Even if
[the juror's] consulting of the Bible and sharing of the
Genesis 9:6 passage with other jurors violated
[petitioner's] Sixth Amendment right to a jury verdict
based upon the evidence developed at the trial, he has
not established prejudice. The alleged introduction of
extrinsic evidence into deliberations did not have a
substantial and injurious effect or influence in
determining the jury's verdict of death.
[The juror's] private study of the Bible was not
prejudicial. Although we agree that [petitioner] was
entitled to be tried by 12 ... impartial and unprejudiced
jurors, the bare showing that a juror read a religious text
outside the jury room does not establish prejudice. Such
a rule has no support in precedent and is, at the very
least, in tension with the Supreme Court's teaching that a
sentencing jury must be able to give a reasoned moral
response to a defendant's mitigating evidence.
Our opinion in Fields [v. Brown, 503 F.3d 755 (9th Cir.
2007)], in which we also considered a claim of
Bible-related juror misconduct, forecloses [petitioner's]
claim that [the juror's] mention of Genesis 9:6
prejudiced him. In Fields, the jury's discussion of
biblical passages was far more extensive, but we
nonetheless concluded, reviewing the matter de novo,
that there was no prejudice. The foreperson there
checked the Bible and made notes 'for' and 'against'
imposition of the death penalty which he brought to the
deliberations the next day. Fields, 503 F.3d at 777. His
notes were passed around and the religious material
75

Pet. App. 156

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 76 of 93 Page ID #:1122

1

7

discussed by some jurors. !d. at 777-78. . . . [T]he
passage itself [read in Crittenden] was innocuous
compared to the contents of the foreperson's note in
Fields, which quoted four passages besides Genesis 9:6,
including the 'eye for eye' maxim and Romans 13:1-5,
Fields, 503 F.3d at 777 n.15, which has been understood
as cloaking the 'State with God's authority,' id. at
798-99 (Berzon, J., dissenting).
Crittenden, 624 F.3d at 973-74 (internal quotations, alterations, citations, and

8

footnote omitted).

2
3

4
5
6

9

The foreperson' s passages in Fields were also more damaging than those at

10

issue here. Along with the "eye for an eye" edict, the Fields foreperson shared

11

passages stating, "Whoso sheddeth man's blood by man shall his blood be shed,"

12

and "He that smiteth a man, so that he dies, shall surely be put to death." Fields,

13

503 F .3d at 777 n.15 (internal quotations omitted). The Ninth Circuit found them

14

not to have had substantial and injurious effect or influence partly because the

15

foreperson's notes "had an 'against' [the death penalty] part as well." !d. at 781.

16

Here, too, the biblical passages included the provision to ')udge not lest ye be

17

judged," weighing against the death penalty. (Pet. Ex. 310 ~ 3 (internal quotation

18

omitted).)

19

The circuit court in Fields held that even "[m]ore important[]" than the

20

contents of the passages were the court's instructions to the jurors. The Circuit

21

observed that "the jury was instructed to base its decision on the facts and the law

22

as stated by the judge, regardless of whether a juror agreed with it. We presume

23

that jurors follow the instructions." Fields, 503 F.3d at 782. Petitioner Kipp's

24

jury received comparable instructions. (See, e.g., RT 5109-10 ("You must decide

25

all questions of fact in this case from the evidence received in this trial and not

26

from any other source. . . . You must not ... consult reference works ... for

27

additional information"), 5238 ("The purpose of the Court's instructions is to

28

provide you with the applicable law so you may arrive at a just and lawful
76

Pet. App. 157

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 77 of 93 Page ID #:1123

1

verdict"), 5244 ("[Y]ou determine under the relevant evidence which penalty is

2

justified and appropriate .... To return a judgment of death, each of you must be

3

persuaded that the aggravating circumstances are so substantial in comparison

4

with the mitigating circumstances that it warrants death instead of life without

5

parole").)

6

Thus, assuming arguendo that the juror declaration is admissible evidence

7

and that the Bible reading was misconduct, the California Supreme Court was not

8

objectively unreasonable in holding that Petitioner failed to show a substantial and

9

injurious effect or influence on the verdict. See Crittenden, 624 F.3d at 973-74;

10

Fields, 503 F.3d at 781-83. As the California Supreme Court discussed,

11

considerable aggravating evidence was presented at trial. See Kipp, 26 Cal. 4th at

12

1112-15, 1120. Claim 20 is, therefore, DENIED.

13

XIII. Claim 21: Juror Misunderstanding
~--

14

A.

15

In Claim 21, Petitioner alleges that his constitutional rights were violated

Allegations and Factual Background

f

16

"as a result of [a] juror['s] ... admitted misunderstanding of the court's instruction

17

at [the] penalty phase ... to mean that she could not consider sympathy for

18

Petitioner as a factor on which she could rest a decision to spare his life." (Pet. at

19

210.) Petitioner relies upon the juror's declaration that:

20

[a]s I recall, the judge's instructions to us stated that if
there was no doubt that Mr. Kipp was guilty of murder,
we had to bring back a verdict of death. As I understood
the judge's instructions, the jury was not allowed to take
sympathy for the defendant into consideration when
deciding whether a sentence of death or life without
parole was more appropriate.

21
22
23
24
25
26

(Pet. Ex. 310 ,-r 4; see Petr.'s Br. at 27-28.)

27

II

28

II
77

Pet. App. 158

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 78 of 93 Page ID #:1124

1

The jury was instructed, to the contrary:

2

In determining which penalty is to be imposed on the
defendant, ... [y]ou shall consider, take into account and
be guided by ... , if applicable[,] ... any sympathetic or
other aspect of the defendant's character or record that
the defendant offers as a basis for a sentence less than
~eath
Ar nnt rPlo:ltP~ tn thP nf.t:'pn~P CQf
\l:Thlch hP
\.~~, nrhPthPr
~V
1~
is on trial. [,-r] You must disregard any jury instruction
given to you in trial phase that we previously had [sic]
which conflicts with this principle....

3
4
5

U

6
7
8
9

11
12
13

I
I

... .l. V.I.

V.I.

.l..l.V\. .l.V.I.U.\.VU

LoV

l,..l..I.V V..Ll\..t.a..a.u"'

TT

.a..a.

.a...a. .a.

....,.

If any mitigating circumstance, whether it be an aspect of
the background, character or your observation of the
defendant, arouses mercy, sympathy or compassion, so
as to persuade you that death is not the appropriate
penalty, you may act in response thereto and decide for
life without possibility of parole.

10

14

VV

(RT 5128-29, 5131-33.)

15

B.

Analysis

16

The juror's declaration is not admissible to show misunderstanding of the

17

court's instruction. "After a verdict is returned a juror will not be heard to

18

impeach the verdict when his testimony concerns his misunderstanding of the

19

court's instructions. This rule does not violate a defendant's constitutional rights."

20

United States v. Stacey, 475 F.2d 1119, 1121 (9th Cir. 1973) (internal citations

21

omitted); see also United States v. Span, 75 F.3d 1383, 1390 n.8 (9th Cir. 1996)

22

("The [appellants] offer jurors' statements as evidence that the jurors

23

misunderstood the applicable law and would have acquitted if they had been

24

properly instructed. But Federal Rule of Evidence 606(b) bars the use of a juror's

25

'mental processes' to inquire into the validity of a verdict"); United States v.

26

Jackson, 549 F.3d 963, 984 (5th Cir. 2008) ("[R]ule 606(b) has consistently been

27

used to bar testimony [that] the jury misunderstood instructions" (internal

28

quotation omitted)); Allen v. Minnstar, Inc., 97 F.3d 1365, 1373 (lOth Cir. 1996)
78

Pet. App. 159

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 79 of 93 Page ID #:1125

1

("[P]laintiff claims the jury did not understand the meaning of 'unreasonably

2

dangerous[.]' ... [P]laintiffs attempt to impeach the jury's verdict based upon a

3

juror's post-verdict statement is prohibited by Federal Rule of Evidence 606(b)");

4

Karl v. Burlington N. R. Co., 880 F.2d 68, 75 (8th Cir. 1989) ("[E]vidence of the

5

jury's misinterpretation of its instructions is deemed incompetent and inadmissible

6

under Rule 606(b)"); Warden, Ky. State Penitentiary v. Gall, 865 F.2d 786, 789

7

n.2 (6th Cir. 1989) ("[J]uror testimony as to only external rather than internal

8

influence is admissible, and ... a misapprehension as to the instructions is internal

9

in nature" (emphasis omitted)); United States v. Neary, 552 F.2d 1184, 1190 (7th

10

Cir. 1977) ("[A] juror will not be heard to impeach the verdict by testimony

11

concerning his misconception of the court's instructions"); Domeracki v. Humble

12

Oil &Ref Co., 443 F.2d 1245, 1247-48 (3d Cir. 1971) ("Long settled

13

considerations of public policy dictate that ... misapprehension of the law ...

14

cannot be shown by the evidence of the jurors themselves, as the ground of

15

disturbing the verdict" (internal quotation omitted)).

16

Petitioner's jury was properly instructed that it could consider sympathy to

17

return a sentence of life without parole. The California Supreme Court's

18

conclusion that Petitioner could not show a constitutional violation through a

19

juror's declaration that she misunderstood was not an unreasonable application of

20

clearly established federal law. Claim 21 is, therefore, DENIED.

21

XIV. Claims 22 and 28(G): Instruction on Life Imprisonment without Parole
Allegations and Factual Background

22

A.

23

In Claims 22 and 28(G), Petitioner alleges that "contrary authority from the

24

California Supreme Court notwithstanding (see, e.g., People v. Hawthorne, 4 Cal.

25

4th 43, 75 (1992)), the trial court had a sua sponte duty to instruct on 'life without

26

parole."' (Pet. at 260 (internal citation edited); see also id. at 213-14.) Petitioner

27

asserts that the trial court should have informed the jury that life without parole

28

"actually means no possibility of parole." (Pet. at 261.) Petitioner relies upon
79

Pet. App. 160

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 80 of 93 Page ID #:1126

1

Simmons v. South Carolina, 512 U.S. 154, 168-69 (1994) for the proposition that

2

where the State makes a showing of future dangerousness, due process requires

3

that the jury be instructed that the alternative to a death sentence will leave the

4

defendant ineligible for parole. (See Pet. at 260-61; Petr.'s Br. at 26-27.)

5

Petitioner points to statements in juror declarations that the jurors voted for the

6

death penalty to avoid future danger, believing that if Petitioner received a

7

sentence of life without parole, he might be released in the future. (See Petr.'s Br.

8

at 26-27.) 10

9

The trial court twice instructed the jury that "[i]t is the law of this state that

10

the penalty for a defendant found guilty of the murder ofthe first degree shall be

11

death or confinement in the state prison for life without possibility ofparole." (RT

12

5128, 5243 ("It is now your duty to determine which of the two penalties, death or

13

confinement in the state prison for life without possibility ofparole, shall be

14

imposed") (emphasis added).) The prosecutor argued to the jury:

15

[T]he defense is going to present this argument to you that
life without possibility of parole is an extreme, severe
penalty. It means that the defendant will never get out of
prison. It means that the defendant will die in prison. He
will die of natural causes or be executed in prison if you
determine that the death penalty is appropriate.

16
17
18
19
20

(!d. at 5157 (emphasis added).) Defense counsel, in turn, repeated that the

21

possible alternate sentence to death was "life in prison without the possibility of

22

parole." (Id. at 5217, 5225 (emphasis added).)

23

B.

Legal Standard and Analysis

24

The Supreme Court held in Simmons that "when a capital defendant's future

25

dangerousness is at issue, and the only sentencing alternative to death available to

26
27
28

10

Because the Court holds that the California Supreme Court did not unreasonably apply federal
law in finding no further instructions needed, the Court need not reach the admissibility of the
juror declarations under Federal Rule of Evidence 606(b). (See supra pp. 78-79 (collecting cases
holding juror declarations inadmissible to show jurors' misunderstanding of instructions).)

80

Pet. App. 161

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 81 of 93 Page ID #:1127

1

the jury is life imprisonment without possibility of parole, due process entitles the

2

defendant to inform the jury of his parole ineligibility, either by a jury instruction

3

or in arguments by counsel." Kelly, 534 U.S. at 248 (discussing Simmons; internal

4

quotations and alteration omitted); see also Shafer v. South Carolina, 532 U.S. 36,

5

52-54 (2001) (same).

6

Although the Court went on to hold in Shafer and Kelly that defense

7

counsel's statements to the jury in those cases failed to protect the defendants' due

8

process rights, the California Supreme Court may have reasonably found the facts

9

of Shafer and Kelly to be inapposite here. The trial court in Shafer told the jury

10

that "life imprisonment means until the death of the defendant," Shafer, 532 U.S.

11

at 52 (internal quotation omitted), but neither trial court specified that the

12

alternative punishment was life imprisonment without the possibility of parole. In

13

neither case did the prosecutor inform the jury that "life without possibility of

14

parole ... means that the defendant will never get out of prison" either, as the

15

prosecutor did here.

16

Likewise, the Supreme Court emphasized in Shafer that "South Carolina has

17

consistently refused to inform the jury of a capital defendant's parole eligibility

18

status." 532 U.S. at 48. The Supreme Court observed that "[a]t the time we

19

decided Simmons, South Carolina was one of only three states- Pennsylvania and

20

Virginia were the others - that had a life-without-parole sentencing alternative to

21

capital punishment for some or all convicted murderers but refused to inform

22

sentencing juries of that fact." Shafer, 532 U.S. at 48 n.4 (internal quotation,

23

citation, and alterations omitted). Thus, the California practice of "simply

24

identify[ing] the jury's sentencing alternatives of death and life without parole,"

25

Simmons, 512 U.S. at 167 n.7 (citing Cal. Penal Code§ 190.3), did not constitute a

26

"refus[al] to inform" the jury of the impossibility ofparole.

27

II

28

II
81

Pet. App. 162

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 82 of 93 Page ID #:1128

1
2

The Court explained that:

7

[d]isplacement of the longstanding practice of parole
availability [in South Carolina] remains a relatively
recent development, and common sense tells us that
many jurors might not know whether a life sentence
carries with it the possibility of parole. . . . Until two
years before Shafer's trial, ... the State's law did not
categorically preclude parole for capital defendants
sentenced to life imprisonment.

8

Shafer, 532 U.S. at 52-53 (internal quotations omitted). The Court added that

9

"[t]he jury's comprehension was hardly aided" by the trial court's response to its

10

question about parole. !d. at 53. The jury asked if there was "any remote chance

11

for someone convicted of murder to become eligible for parole." Id. (internal

12

quotation and alteration omitted). The trial court responded that "'[p]arole

13

eligibility or ineligibility is not for your consideration.' That instruction did

14

nothing to ensure that the jury was not misled and may well have been taken to

15

mean that parole was available but that the jury, for some unstated reason, should

16

be blind to this fact." Id. (internal citation omitted, emphasis in original). The

17

Court stated in Kelly, one year later, that there was not "any reason to believe that

18

Kelly's jury was better informed than Simmons's or Shafer's on the matter of

19

parole eligibility." Kelly, 534 U.S. at 257.

3
4
5
6

20

At the time of Petitioner's trial, the unavailability of parole in a sentence for

21

capital murder was much longer established in California than it had been in South

22

Carolina. Jury selection in Petitioner's trial began on September 28, 1988 (RT

23

90), approximately eleven years since the California legislature established life

24

without parole as the alternative penalty for death-eligible crimes. See Cal. Stats.

25

1977, c. 316, §§ 5 et seq.; cf http://www.cdcr.ca.gov/capital_punishment/

26

history_of_capital_punishment.html. Moreover, Petitioner's trial judge twice told

27

the jury that the only available alternative to a death sentence was confinement in

28

the state prison for "life without possibility of parole." Petitioner's trial judge did
82

Pet. App. 163

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 83 of 93 Page ID #:1129

1

not limit his instructions, as did the South Carolina courts, to a stated alternative of

2

only "life imprisonment." As noted above, the prosecutor at Petitioner's trial

3

himself told the jury that a sentence of "life without possibility of parole ... means

4

that the defendant will never get out of prison." Finally, unlike Shafer's jury,

5

Petitioner's jury asked no question about whether Petitioner could be paroled and

6

was never told that they should not consider Petitioner's "parole eligibility or

7

ineligibility."

8

The California Supreme Court was not objectively unreasonable in

9

concluding that, in light of the differences between Petitioner's trial and those of

10

the South Carolina defendants, Petitioner suffered no due process violation from

11

the lack of further instruction. See Kipp, 26 Cal. 4th at 1138. Even if"fairminded

12

jurists could disagree" about whether the Supreme Court's decisions in Simmons

13

and Shafer require more explicit jury instructions on a defendant's ineligibility for

14

parole, that possibility for debate does not satisfy 28 U.S.C. § 2254(d). Richter,

15

131 S. Ct. at 786 (internal quotation omitted). Claims 22 and 28(0) are, therefore,

16

DENIED.

17

XV. Claims 15 and 23: Forensic Science Services Conflict of Interest

18

A.

19

In Claim 23, Petitioner alleges a constitutional violation from a conflict of

20

interest by a testifying expert witness for the prosecution, David Sugiyama. (Pet.

21

at 215-18; Petr.'s Br. at 28-30.) In a portion of Claim 15, Petitioner alleges that

22

the prosecution's presentation of that evidence constitutes prosecutorial

23

misconduct. (Pet. at 181-84; Petr.'s Br. at 28-30.)

24

Allegations and Factual Background

Petitioner alleges that Sugiyama was employed by the Los Angeles County

25

Sheriffs Department at the time of the crimes at issue in 1983 and examined

26

Frizzell's body for evidence of rape and other injuries. (Pet. at 215; see also CT

27

648-50.) In 1984, Petitioner alleges, his counsel hired Keith Inman, a criminalist

28

with the private firm Forensic Science Services ("FSS"), to work on Petitioner's
83

Pet. App. 164

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 84 of 93 Page ID #:1130

1

case and to consider evidence of Frizzell's and Howard's injuries and sexual

2

assaults. (See Pet. at 215-16 (alleging that Petitioner retained FSS in 1984, citing

3

Pet. Ex. 307 11 ,-r 3); but see Pet. Ex. 307 ,-r 3 (stating that Petitioner retained FSS in

4

1985).) Petitioner alleges that in approximately 1985, FSS employed Sugiyama,

5

and Sugiyama had access to an office at FSS, where Inman's confidential case·

6

materials were stored. (Pet. at 216.) Inman assigned Sugiyama "the task of

7

performing the analytical work on the evidence." (Pet. Ex. 307 ,-r 4; see also Pet.

8

at 216.) On June 27, 1985, the trial court approved Sugiyama's confidential

9

consultation with the prosecution. (Pet. at 216 (citing CT 985, 1381-82).)

10

Petitioner argues:

11

It is difficult to imagine how defense counsel could have
properly cross-examined Sugiyama on his findings
regarding sexual assault, given that doing so would have
placed counsel in the untenable position of attacking the
credibility of their own expert. Unsurprising1y, defense
counsel's cross-examination of Sugiyama at Kipp' s trial
totaled a mere six pages. (RT 3593-99.) Although
Sugiyama admitted in his preliminary hearing testimony
that his examination of the Frizzell sexual assault kit was
both 'cursory' and 'subjective' (CT 681), defense
counsel did not in any way seek to undermine his
conclusions on cross-examination before the jury....
Additionally, the-prosecutor had a duty to not present
testimony of a conflicted defense expert, or to alert
defense counsel and the trial judge that he intended to
present the testimony of a conflicted defense expert.

12
13
14
15
16
17
18
19
20
21
22
23

(Petr. 's Br. at 29-30 (citations added).) Petitioner also alleges that counsel's

24

failure to discover and remedy the conflict of interest constitutes ineffective

25

assistance. (Pet. at 216.)

26
27
28

11

Petitioner's citation to Exhibit 306 appears to be a typographical error. Exhibit 306 is the
declaration of Mary Lee Harwood, Petitioner's ex-girlfriend. Exhibit 307 is the declaration of
Keith Inman.

84

Pet. App. 165

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 85 of 93 Page ID #:1131

1

B.

Legal Standard and Analysis

2

Petitioner's claim that FSS 's conflict of interest violated his constitutional

3

rights lacks support in clearly established federal law. The Supreme Court held in

4

Mickens v. Taylor that although "circuit courts 'have applied Sullivan

5

unblinkingly to all kinds of alleged attorney ethical conflicts,' invoking it in cases

6

involving interests of former clients, interests implicating counsel's personal or

7

financial interest, interests inherent in romantic relationships with opposing

8

counsel, and interests implicated by counsel's future or present employment with

9

opposing counsel," the Supreme Court's holding in Sullivan was limited to joint

10

representation. Earp v. Ornoski, 431 F.3d 1158, 1184 (9th Cir. 2005) (quoting

11

Mickens, 535 U.S. 162, 174 (2002) (internal quotation omitted)); see Cuyler v.

12

Sullivan, 446 U.S. 335 (1980). Joint representation requires an attorney

13

"representing two or more defendants who have been jointly charged or have been

14

joined for trial." Sullivan, 446 U.S. at 351 (internal quotation and alterations

15

omitted); see also Holloway v. Arkansas, 435 U.S. 475, 482 (1978) ("[J]oint

16

representation" occurs where "a single attorney ... represent[ s] codefendants").

17

"[A]ny extension ... outside of the joint representation context remain[s],

18

'as far as the jurisprudence ofthe Supreme Court [is] concerned, an open

19

question."' Earp, 431 F.3d at 1184 (quoting Mickens, 535 U.S. at 176; internal

20

alteration omitted); see also Moore v. Mitchell, 708 F.3d 760 (6th Cir. 2013)

21

(rejecting habeas petitioner's claim based on mitigation expert's conflict of

22

interest, because "[t]he right to conflict-free representation stems from the Sixth

23

Amendment's guarantee of effective assistance of counsel. Since there is no

24

constitutional right to a mitigation specialist, much less an effective one, there is

25

no constitutional right to a specialist free of conflicts" (internal citations omitted));

26

cf Henslee v. Stewart, 172 Fed. Appx. 759 (9th Cir. 2006) (affirming denial of

27

habeas relief because "(1) there is no clearly established Supreme Court law

28

establishing a due process right to a medical expert free from conflicts of interest;
85

Pet. App. 166

f

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 86 of 93 Page ID #:1132

1

and (2) no prejudice from any alleged conflict of interest is shown")

2

(unpublished).

3
4
5

6
7

8
9
10

Petitioner attempts to distinguish this authority in his Traverse as follows:
Respondent argues that Kipp cannot show a violation of
any controlling Supreme Court authority on his conflict
claim. (Answer at 115.) However, courts recognize that
imputed conflicts and conflicts involving experts can
amount to an actual conflict under Sullivan, and that
evidentiary hearings are appropriate on such claims.
United States v. Rodrigues, 347 F.3d 818, 824 (9th Cir.
2003); Hendricks v. Vasquez, 974 F.2d 1099 (9th Cir.
1992).

11

(Petr. 's Traverse, Mar. 12, 2007, at 44 (internal citations edited).) Petitioner's

12

citations to Rodrigues and Hendricks are unavailing. Neither case discusses a

13

conflict involving an expert witness. Rodrigues affirmed the district court's

14

dismissal of a habeas petition because petitioner failed to allege specific facts to

15

entitle him to relief under Sullivan. 347 F.3d at 820. The circuit court held that

16

petitioner's defense was not adversely affected by his former prosecutor's

17

affiliation with defense counsel's firm, and that counsel did not forgo investigating

18

or presenting defense evidence because of his relationship with other clients. !d.

19

at 825-28. In Hendricks, the circuit court remanded for an evidentiary hearing on

20

petitioner's claims that counsel failed to investigate his background to present

21

mental impairment evidence at the guilt and penalty phases of trial. 974 F.2d at

22

1109-10. No conflict of interest on the part of defense counsel or an expert

23

witness was at issue in the case. Petitioner fails to show clearly established federal

24

law in support of his claim that a conflict of interest by Sugiyama violated his

25

constitutional rights.

26

The California Supreme Court may have also reasonably denied Petitioner's

27

claims, including those of ineffective assistance and prosecutorial misconduct, for

28

lack of prejudice. See Williams, 384 FJd at 584-85 ("When the government
86

Pet. App. 167

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 87 of 93 Page ID #:1133

1

deliberately interferes with the confidential relationship between a criminal

2

defendant and defense counsel, that interference violates the Sixth Amendment

3

right to counsel if it substantially prejudices the criminal defendant"); Yeboah-

4

Sefah v. Ficco, 556 F.3d 53, 71-73 (1st Cir. 2009) (rejecting habeas claim based

5

upon trial counsel's concurrent representation of prosecution's medical examiner,

6

because petitioner failed to show that the conflict "'actually affected the adequacy

7

of his representation"' (quoting Mickens, 535 U.S. at 171)). The Ninth Circuit

8

explained in Williams that "[ s]ubstantial prejudice results from the introduction of

9

evidence gained through the interference against the defendant at trial, from the

10

prosecution's use of confidential information pertaining to defense plans and

11

strategy, and from other actions designed to give the prosecution an unfair

12

advantage at trial." 384 F.3d at 585 (rejecting petitioner's claim because he "does

13

not argue, and the record does not show, that the prosecution used any confidential

14

information obtained from the monitoring or interception to achieve an unfair

15

advantage at trial").

16

Here, Petitioner alleges only that defense counsel's cross-examination of

17

Sugiyama was attenuated. He makes no specific allegations of prejudice to show

18

what facts trial counsel could have presented on cross-examination had there been

19

no alleged conflict, apart from Sugiyama's statements that his examination was

20

cursory and subjective. Petitioner likewise does not specifically allege any

21

confidential evidence the prosecution gained from Sugiyama. The California

22

Supreme Court's rejection of Petitioner's claims for lack of prejudice is not an

23

unreasonable application of any clearly established federal law. Accordingly,

24

Claim 23 and the related portion of Claim 15 are DENIED.

25

XVI. Claim 26: Constitutionality of California's Death-Eligibility Process

26

In Claim 26, Petitioner alleges that "California's process to determine who

27

is eligible for the death penalty violates the Constitution." (Pet. at 225.)

28

Petitioner contends that the process is unconstitutional because it makes "virtually
87

Pet. App. 168

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 88 of 93 Page ID #:1134

1

every murder potentially first-degree murder, and every defendant found guilty of

2

first-degree murder eligible for the death penalty." (!d. at 225-26.) Specifically,

3

Petitioner alleges that ( 1) the definition of first degree murder is overbroad and

4

overlaps substantially with the death-eligibility special circumstances (id. at 227-

5

30); (2) the special circumstances are "vague and overbroad" and fail to narrow

6

adequately the class of persons eligible for the death penalty (id. at 230-33); and

7

(3) the narrowing process is left to unconstitutional prosecutorial discretion. (Id.

8

at 233.)

9

First, Petitioner argues that "both the sweeping nature of [California Penal

10

Code]§ 189," defining first degree murder, "and the substantial overlap between

11

the special circumstances listed in § 190.2 and the factors listed in § 189 make

12

most murders first-degree murders and most murderers death eligible." (Id. at 227

13

(emphasis added).) The Ninth Circuit has rejected the argument that classifications

14

are overbroad if they make '"nearly"' all or "'virtually"' all murders first degree

15

murder and subject to a special circumstance, however. Morales v. Woodford, 388

16

F.3d 1159, 1175 (2003) (holding that California's "lying-in-wait circumstance is

17

not overly broad such that it 'applies to every defendant convicted of a murder,' ...

18

[t]o render it inadequate under Tuilaepa" (quoting Tuilaepa v. California, 512 U.S.

19

967,972 (1994); internal alteration omitted)). In addition, the Supreme Court in

20

Tuilaepa "rejected a broad challenge to the California scheme" as impermissibly

21

vague, Morales, 388 F.3d at 1174, concluding that "none of the ... factors [at

22

issue] is defined in terms that violate the Constitution." Tuilaepa, 512 U.S. at 976.

23

Petitioner here raises no vagueness challenge to any specific special circumstance.

24

His general argument is foreclosed by Morales and Tuilaepa.

25

Second, Petitioner contends that California's special circumstances fail to

26

narrow adequately the class of persons eligible for the death penalty. (Pet. at 230-

27

33). In particular, Petitioner argues that the felony-murder special circumstance

28

fails to narrow the group of first degree murders adequately, because "[a]s
88

Pet. App. 169

f

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 89 of 93 Page ID #:1135

1

construed by the California Supreme Court in People v. Anderson, 43 Cal. 3d 1104

2

[(1987)], the felony-murder special circumstance under which Petitioner was made

3

eligible for death, like the felony-murder rule itself, does not contain an intent

4

element for the actual killer." (Pet. at 231.) Anderson overruled the California

5

Supreme Court's earlier interpretation of a state statute, in December 1983, to

6

require such an intent. See Carlos v. Superior Court, 35 Cal. 3d 131 (1983).

7

Petitioner committed the rape, robbery, and murder of Frizzell in September 1983.

8

The Ninth Circuit has held that "retroactive application of Anderson does not

9

offend federal rights where, as here, the conviction occurred before Carlos was

10

decided." Hamilton v. Vasquez, 17 F.3d 1149, 1164 (9th Cir. 1994); see also Hunt

11

v. Vasquez, 889 F.2d 878, 880 (9th Cir. 1990) (denying habeas relief where

12

petitioner sought "retroactive application of a state decision [Carlos] that does not

13

implicate his rights under federal law"). Thus, no intent element for the actual

14

killer is constitutionally required to narrow the class adequately. Regarding

15

Petitioner's more general claim that California's special circumstances fail to

16

narrow adequately the class of persons eligible for the death penalty (Pet. at 230

17

(citing Furman v. Georgia, 408 U.S. 238 (1972) and Gregg v. Georgia, 428 U.S.

18

153, 199 (1976))), the claim lacks support in clearly established federal law. In

19

Bradway v. Cate, the Ninth Circuit rejected a petitioner's challenge to a special

20

circumstance in the operative 1978 California death penalty statute and observed

21

that the Supreme Court has not decided any "case that could reasonably support

22

[petitioner's] due process claim ... based on a failure to narrow the class .... "

23

588 F.3d 990, 992 (9th Cir. 2009).

24

Third, Petitioner's contention that capital prosecution in California leaves

25

too wide a range of prosecutorial discretion is contrary to federal law. The

26

argument that a "capital punishment statute is unconstitutional because it vests

27

unbridled discretion in the prosecutor to decide when to seek the death penalty ...

28

has been explicitly rejected by the Supreme Court." Campbell v. Kincheloe, 829
89

Pet. App. 170

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 90 of 93 Page ID #:1136

1

F.2d 1453, 1465 (9th Cir. 1987) (citing Gregg, 428 U.S. at 199; Proffitt v. Florida,

2

428 U.S. 242, 254 (1976); Jurek v. Texas, 428 U.S. 262, 274 (1976)).

3

4
5

Claim 26 is, therefore, DENIED.

XVII. Claim 31: Incompetence to Be Executed
In Claim 31, Petitioner alleges that he is incompetent to be executed under

6

Ford v. Wainwright, 477 U.S. 399 (1986). (Pet. at 271-72.) Petitioner

7

acknowledges that this claim is "not currently ripe, because there is no established

8

date for Petitioner's execution." (!d. at 272.) Petitioner explains that the "claim is

9

presented in conformance with the dictates of Stewart v. Martinez- Villareal, 523

10

U.S. 637 (1998), in order to preserve this claim for review when ripe." (!d.

11

(internal citation edited).) The Supreme Court held in Martinez- Villareal that

12

where a petitioner's "Ford claim was dismissed as premature ... because his

13

execution was not imminent and therefore his competency to be executed could

14

not be determined at that time," once execution is imminent, the claim "should be

15

treated in the same manner as the claim of a petitioner who returns to a federal

16

habeas court after exhausting state remedies." 523 U.S. at 644-45.

17

Because Petitioner's execution is not imminent at this time, Claim 31 is

18

DISMISSED WITHOUT PREJUDICE.

19

XVIII. Claims 34, 35, and 36: International Law and Constitutionality of

20

Lethal Injection and Execution Following Lengthy Confinement

21

A.

22

In Claim 34, Petitioner alleges that "international customary law and the

Allegations

23

obligations of the United States under that law" prohibit the imposition of the

24

death penalty on "mentally disordered individuals." (Pet. at 285.) He alleges that

25

he is mentally disordered and that his execution would violate the "accepted norm

26

... [of] 111 nations;" the standards of the United Nations Economic and Social

27

Council, endorsed by the United Nations General Assembly; the position of the

28

United Nations Commission on Human Rights in the findings of the United
90

Pet. App. 171

--f

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 91 of 93 Page ID #:1137

1

Nations Special Rapporteur on Extrajudicial, Summary and Arbitrary Executions;

2

Protocol No.6 and Protocol No. 13 to the European Convention for the Protection

3

of Human Rights and Fundamental Freedoms; and the Protocol to the American

4

Convention on Human Rights to Abolish the Death Penalty, adopted by the

5

General Assembly of the Organization of American States. (Id. at 288-92.)

6

In Claim 35, Petitioner alleges that "the methods for execution in

7

California- lethal gas and lethal injection - and the procedures used to administer

8

lethal injection" violate the United States Constitution along with international

9

law, including Article 7 of the International Covenant on Civil and Political Rights

10

(ICCPR). (!d. at 293.) Petitioner acknowledges that "[l]ethal injection is now

11

recognized as the only method of execution currently authorized in California."

12

(!d. at 294.)

13

In Claim 36, Petitioner alleges that execution following a lengthy

14

confinement under sentence of death violates the United States Constitution and

15

international law. (!d. at 30 1-08.) Petitioner argues that "[t]he international

16

community is increasingly recognizing that ... prolonged confinement under

17

[judgment of death] is cruel and degrading in violation of international human

18

rights law," including the United Nations Convention against Torture and Other

19

Cruel, Inhumane or Degrading Treatment or Punishment. (Id. at 302-03.)

20

B.

Legal Standards and Analysis

21

Petitioner's claims lack support in clearly established federal law as

22

determined by the Supreme Court. Clearly established federal law does not hold

23

the death penalty, imposed upon mentally disordered persons or otherwise, to

24

violate enforceable rights under international law. Cf Sosa v. Alverez-Machain,

25

542 U.S. 692, 734-35 (2004) ("[T]he [Universal] Declaration does not of its own

26

force impose obligations as a matter of international law. . . . And, ... the United

27

States ratified the Covenant [the ICCPR] on the express understanding that it was

28

not self-executing and so did not itself create obligations enforceable in the federal
91

Pet. App. 172

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 92 of 93 Page ID #:1138

1

courts"); Nevius v. McDaniel, 218 F.3d 940 (9th Cir. 2000) (denying certificate of

2

appealability because state court did not contradict or unreasonably apply federal

3

law in denying petitioner's claim that repeated scheduling of execution constituted

4

cruel and unusual punishment in violation of "the Eighth Amendment and several

5

instruments of international law, including the Universal Declaration of Human

6

Rights, and the Convention against Torture and Other Cruel, Inhumane, or

7

Degrading Treatment or Punishment"); see also Buell v. Mitchell, 274 F.3d 337,

8

370-76 (6th Cir. 2001) (rejecting as "wholly meritless" state habeas petitioner's

9

contentions that capital punishment violates the American Declaration, the

10

ICCPR, or customary international law); Garza v. Lappin, 253 F.3d 918, 923 (7th

11

Cir. 2001) (holding that execution under federal death sentence would not violate

12

the American Declaration because it "is merely an aspirational document that, in

13

itself, creates no directly enforceable rights"). Likewise, '"[t]he Supreme Court

14

has never held that execution after a long tenure on death row is cruel and unusual

15

punishment."' Smith v. Mahoney, 611 F.3d 978, 998 (9th Cir. 2010) (quoting

16

Allen v. Ornoski, 435 F.3d 946, 958 (9th Cir. 2006)). Accordingly, Petitioner fails

17

to show that he is in custody in violation of the United States Constitution or laws

18

or treaties of the United States to be entitled to habeas relief. See 28 U.S.C.

19

§ 2254(a). Claim 34, Claim 36, and the portion of Claim 35 alleging a violation of

20

international law are DENIED.

21

The portion of Claim 35 alleging that California's lethal injection procedure

22

violates the United States Constitution is DISMISSED WITHOUT PREJUDICE.

23

See Payton v. Cullen, 658 F.3d 890, 893 (9th Cir. 2011) (holding that challenge to

24

California's lethal injection protocol is "unripe" until a "new protocol [is] in

25

place" and should be dismissed).

26

XIX. Order

27

For the reasons set forth above, Claims 1, 3, 14, 18, 19, 20, 21, 22, 23, 26,

28

28(G), 34, and 36, the portion of Claim 15 regarding Forensic Science Services,
92

Pet. App. 173

Case 2:03-cv-08571-PSG Document 147 Filed 04/30/14 Page 93 of 93 Page ID #:1139

1

and the portion of Claim 35 alleging a violation of international law are denied.

2

Claim 31 and the portion of Claim 35 alleging that California's lethal injection

3

procedure violates the United States Constitution are dismissed without prejudice.

4

Petitioner's Motion for Evidentiary Hearing is denied.

5
,.

{

/

I

l
i

The parties shall proceed to brief the merits of Petitioner's remaining claims

()

for relief under 28 U.S.C. § 2254(d). Petitioner shall file his opening brief no later

7

than sixty (60) days from the date of this Order. Respondent shall file his

8

opposition brief no later than sixty (60) days from the filing of Petitioner's

9

opening brief. Petitioner shall file any reply brief no later than thirty (30) days

10

from the filing of Respondent's opposition brief.

11

IT IS SO ORDERED.

12

Dated:

11-e~.-,-J

3o , 2014.

13

P IL P .
TIERREZ
United States District Judge

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
93

Pet. App. 174

Case 2:03-cv-08571-PSG Document 70-7 Filed 08/04/06 Page 1 of 1 Page ID #:22393

SUPREME COURT

FILED

JUN Z 8 20n6
., u· .

A lJ

~

,.

· •

200~·

i!rederick K. Ohlrich Clerk

..

----

--------~~~-I)I!;PtJTY

S129115

IN THE SUPREME COURT OF CALIFORNIA
En Bane
In re MAR TIN JAMES KIPP on Habeas Corpus

The petition for writ of habeas corpus filed on November 5, 2004, is denied.
Insofar as it asserts that petitioner is incompetent for execution, claim G is
dismissed as premature. (See People v. Lawley (2002) 27 Cal.4th 102, 169, fu. 25;
People v. Kelly (1992) 1 Cal.4th 495, 545, fu. 11.) With that O.tie exception, each claim is
denied on the merits for failure to state a prima facie case for relief.
Except insofar as they allege ineffective assistance of prior appellate or habeas
corpus cow1sel, claims A through E and J are also denied as repetitive of claims made in
a previous petition for writ ofhabeas corpus. (In re Miller (1941) 17 Cal.2d 734, 735.)
Except insofar as they allege ineffective assistance of trial or appellate counsel,
claims A, B, C (except insofar as it alleges prosecutorial misconduct in presenting the
testimony of David Sugiyama), D, and E are barred because, being based entirely on facts
in the appellate record, they could have been, but were not, raised on appeal. (See In re
Harris, supra, 5 Ca1.4th at p. 825, fn. 3; In re Dixon (1953) 41 Cal.2d 756, 759.)
Claim B, alleging insufficiency of the evidence, is not cognizable on habeas
corpus. (In re Lindley (1947) 29 Cal.2d 709, 723.)
Except insofar as they allege ineffective assistance of prior habeas corpus counsel,
Claims A through E and J are denied as untimely. (In re Robbins (1998) 18 Cal.4th 770,
780-781; In re Clark (1993) 5 Cal.4th 750, 763-799.)

Chief Justice

Pet. App. 175

KIPP v. WOODFORD
Case 2:03-cv-08571-PSG
Document
13-129 Filed 06/01/04 Page 1 of 1 Page ID #:21743
·•
CV 03-08571-GLT
LODGMENT 13

SIJIJifl!bAJ

f: I L ~ou~r
Nov.1 D

8093369

f:'re~ertc~r

2 200J

J.o-

.

''· Ohl

IN THE SUPREME COURT OF CALIF,ORNIA~chcterlr
En Bane
Date, Filed _ _ .

DOCKET
In re MARTIN JAMES KIPP on Habeas Corpus

~1~iX-H

Entered
The peti~ion for writ o.fhabe~ corp~s filed on De~ember ~' 2000, is denie~~Dote Rec'd
~ ~1
Each claun except cla1m XV ts dented on the ments for fallure to state a pnliJ~::u;aL.---_,.l---f\1
facie case for relief~
Claim XV is dismissed as premature. (See People v. Kelly (1992) 1 Cal.4th 495,
545, fu. 11.)
Except insofar as they allege ineffective assistance of counsel, claims IV and XII
are barred because they were raised and rejected on appeal. (See In re Harris (1993) 5
Cal.4th 813, 825; In re Waltreus(1965) 62 Cal.2d 218, 225.)
Except insofar as they allege ineffective assistance of counsel, claims III, V, VIII
(except insofar as it alleges misconduct in presenting the testimony of David Sugiyama),
IX, and XVI are barred because, being based entirely on facts in the appellate record,
they could have been, but were not, raised on appeal. (See In re Harris, supra, 5 Cal. 4th
at p. 825, fu. 3; In re Dit~o~:!(1953) 41 Cal.2d 756, 759.)
Claims IV and V, alleging insufficiency ofthe evidence, are not cognizable on
habeas corpus. (In re Lindley (1947) 29 CaL2d 709, 723.)
Agreeing that claim XV should be dismissed as premature, Justice Brown would
deny all of the other claims solei¥ on tb• 111orila:
ED"~

A

~

l

JUN- t 2004
CL!?.RK, U.S. DISTRICT COURT
CENTf4AL DISTRICT OF CAUFOni\H
:: .' rrHEAN DIVISION AT 5/1)'~'\;':~!::.
( · ~-: .. \)VI

;.:;;;::;;:::;:===;;;;;...-----·_::_ .___./

Pet. App. 176

Case 2:03-cv-08571-PSG
13-40 Filed 06/01/04 Page 1 of 42 Page ID #:9386
KIPP v. Document
WOODFORD
CV 03-08571-GLT
LODGMENT?
lU

PEOPLE

V.

KIPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

[No. S009169. Nov. 1, 2001.]

,JUN- f 2004

THE PEOPLE, Plaintiff and Respondent, v.
,... ..,....=K-:U~~......- - - '
\.IUlW'I •
.S. DISTRICT COURT
MARTIN JAMES KIPP, Defendant and Appe lanCENTAAl DISTRJCT OF CALIFORNIA
Y. SOUTHERN ONISfON AT SANTA ANA
~-

--

PU1Y

SUMMARY

A jury convicted defendant of one count of murder in the first degree
(Pen. Code, § 187), with the special circumstance of murder in the commission of rape (Pen. Code, § 190.2, subd. (a)(17)(C)), and one count each o.,.
forcible rape (Pen. Code, § 261, subd. (a)(2)) and robbery (Pen. Code,
§ 211 ). The jury also returned a penalty verdict of death for the first degree
murder. (Superior Court of Los Angeles County, No. A028286, Michael G.
Nott, Judge.)
The Supreme Court affirmed. The court held that the trial court did not
abuse its discretion in admitting into evidence a letter defendant sent his
wife from jail in which he admitted murdering and raping the victim,
evidence that the victim was in the geographic location to attend college, and
evidence of defendant's plan to escape from jail. The court also held that
there was sufficient evidence to support the conviction for robbery. The
court held that the prosecutor's closing argument appeal to sympathy toward
the victim was improper, but did not require reversal of the judgment. The
court further held that the trial court did not err in instructing the jury on
felony murder, even though the indictment only charged murder with malice.
As to penalty phase issues, the court held that the trial court did not abuse
its discretion in admitting into evidence two letters defendant sent his wife
from jail-one threatening women deputies and district attorneys and the
other admitting to murdering and raping the victim. It held that the trial court
did not abuse its discretion in admitting evidence that defendant threatened
to kill a sheriff's sergeant who assisted in subduing him after his attempted
escape from the county jail. The court also held that defendant's references
to Satan were admissible as rebuttal evidence. The court also held that
the trial court did not abuse its discretion in admitting a photograph of the
body of defendant's previous murder victim. The court held the appellate
review process for this case was not improper. The court finally held that

Pet. App. 177

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 2 of 42 Page ID #:9387

v.

(IPP

PEOPLE

001]

26 Cal.4th 1100; 113 Cai.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

1101

KIPP

political influences did not render the appellate review process unconstitutional. (Opinion by Kennard, J., with George, C. J., Baxter, Werdegar, Chin,
Brown, JJ., and Kremer, J., * concurring.)

HEAD NOTES

Classified to California Digest of Official Reports .

~ree

11Sl

of

tde,

;ree
G.

not
his
lm,

md
hat
l'he
ard
l'he
on
ce.

(la-ld) Homicide § 41-Evidence-Admissibility-Confessions and
Admissions-Defendant's Letter to His Wife Admitting Murder
and Rape.-ln the guilt phase of a capital homicide prosecution, the
trial court did not abuse its discretion in admitting into evidence a letter
defendant sent his wife from jail in which he admitted murdering and
raping the victim. Defendant's uncoerced admission had substantial
probative value and was not unduly prejudicial. The probative value
was not diminished by the timing of the admission, coming about three
weeks after a jury had returned a penalty verdict of death against
defendant for the murder of a different victim and three days before the
sentencing hearing for that crime. Although defendant may have been
angry at that time, this did not explain why this emotion would have
caused him to falsely admit culpability for crimes he had not committed. Also, admissions in the letter that he had sodomized both victims,
for which no evidence was presented, did not render the letter unduly
prejudicial, since even if defendant did not sodomize either victim, his
false statements to the contrary could have been exaggeration or embellishment without substantially detracting from defendant's admission that he, and not someone else, sexually assaulted and killed the
two victims. Furthermore, the prosecution offered to redact racial
epithets and references to Satan from the letter, but defense counsel
insisted on admitting the entire letter with few deletions.
[See West Key Number System, Criminal

LISe

·ife
the
urt
ted
ted
::es
hat
the
ate
hat

Law~

530.]

(2)

Criminal Law § 657-Appellate Review-Standard of ReviewTrial Court's Ruling Under Evid. Code, § 352.-An appellate court
applies the deferential abuse of discretion standard when reviewing a
trial court's ruling under Evid. Code, § 352 (evidence may be excluded
if prejudicial effect outweighs probative value).

(3)

Criminal Law§ 288-Evidence-Admissibility-Trial Court's Discretion.-Under Evid. Code, § 352, a trial court has discretion to

*Presiding Justice of the Court of Appeal, Fourth Appellate District, Division One,
assigned by the Chief Justice pursuant to article VI, section 6 of the California Constitution.

Pet. App. 178

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 3 of 42 Page ID #:9388
1102

PEOPLE

v.

KIPP

26 Ca1.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

exclude evidence if the prejudicial effect outweighs the probative
value. For this purpose, "prejudicial" is not synonymous with "damaging," but refers instead to evidence that uniquely tends to evoke an
emotional bias against a defendant without regard to its relevance on
material issues.
(4)

Criminal Law§ 104-Rights of Accused-Competence of Defense
Counsel-Burden of Proof.-To establish a violation of the constitutional right to effective assistance of counsel, a criminal defendant must
show both that his or her counsel's performance was deficient when
measured against the standard of a reasonably competent attorney and
that this deficient performance caused prejudice in the sense that it so
undermined the proper functioning of the adversarial process that the
trial cannot be relied on as having produced a just result. If a defendant
fails to show that the challenged actions of counsel were prejudicial, a
reviewing court may reject the claim on that ground without determining whether counsel's performance was deficient.

(Sa-Sd) Rape § 7.2-Evidence-Admissibility-Reason Victim Was in
Geographic Area.-In a prosecution for capital murder and rape, the
trial court did not abuse its discretion in admitting evidence that the
victim was in the geographic location to attend college. In a prosecution for forcible rape, evidence is relevant if it establishes any circumstance making the victim's consent to sexual intercourse less plausible.
In determining whether this victim had consented to intercourse with
defendant, with whom she had no prior acquaintance, the jury might
have been assisted by the information that she was not traveling on a
holiday or vacation, but had arrived to begin her college education.
This information also prevented any speculation by the jury that a
young woman alone in a motel room might be a prostitute who
consented to intercourse with defendant on a promise of compensation.
Although the probative value of the evidence was not great, it did not
lack any tendency in reason to prove that the victim did not consent to
sexual intercourse with defendant. Nor did the prejudicial effect of the
evidence unduly outweigh its probative value. The testimony about the
victim's purpose in traveling to the area to attend college was brief and
apparently without any display of emotion. The trial court could have
reasonably concluded, in the exercise of its broad discretion, that this
testimony would not so inflame the jurors' emotions as to interfere with
their fair and dispassionate assessment of the evidence of defendant's
guilt.
(6a, 6b) Criminal Law § 657-Appellate Review-Standard of Review-Relevance.-An appellate court applies the deferential abuse of

Pet. App. 179

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 4 of 42 Page ID #:9389

p

]

PEOPLE

Criminal Law § 565-Appellate Review-Preserving ObjectionsEvidence-Prejudicial Matter.-In a prosecution for capital homicide and rape, defendant waived any objection, on the basis of Evid.
Code, § 352 (evidence may be excluded if prejudicial effect outweighs
probative value), to the trial court's admission of evidence that the
victim was in the geographic location to attend college. Although
defense counsel made two isolated references to the evidence being
"inflammatory," counsel neither mentioned § 352 nor argued that the
probative value of the evidence was substantially outweighed by a risk
of undue prejudice. Instead, counsel argued consistently and exclusively that the evidence was entirely irrelevant and immaterial. This
was insufficient to preserve a claim of error under § 352.

(8)

Homicide § 43-Evidence-Admissibility-Conduct and Statements of Defendant-Plan to Escape from Jail.-In the guilt phase
of a capital prosecution, the trial court did not abuse its discretion in
allowing evidence of defendant's plan to escape from county jail before
trial, but excluding evidence of defendant's accompanying threats
against jail personnel. Ordinarily, an attempt or plan to escape from jail
pending trial is relevant to establish consciousness of guilt. Although
defendant was under a death judgment in a separate capital prosecution
when he attempted to escape, which diminished the probative value of
the evidence of an escape as to this trial, the probative value was not so
diminished as to lack any practical significance. Defendant was not
facing imminent execution, given the lengthy review process for death
judgments. In this situation, defendant's decision to attempt an escape
might well have been significantly influenced by consciousness that he
was guilty of this charged capital murder and would likely incur a
second death judgment. Balanced against this probative value, the risk
of undue prejudice was slight, as there was no overt violence in the
escape attempt. Also, given the strong evidence of defendant's guilt, it
was not reasonably possible that exclusion of the evidence of the
escape would have yielded a different result. Further, evidence that the
son of defendant's wife was to participate in the planned escape was
not unduly prejudicial, since there was nothing to indicate that the son
was not an adult.

t

I
)

t
l

1

t
1
l

f

1103

(7)

1

1

KIPP

discretion standard when reviewing a trial court's ruling on a relevance
objection. Evidence is relevant if it has any tendency in reason to prove
or disprove a disputed fact at issue.

1
1

v.

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

(9a, 9b) Robbery § 6-Evidence-Sufficiency-Robbery of Murder
Victim: Homicide § 66-Evidence-Sufficiency.-In a prosecution

Pet. App. 180

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 5 of 42 Page ID #:9390

1104

PEOPLE

v.

KJpp

26 Cal.4th llOO; ll3 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

for capital murder, rape, and robbery, there was sufficient evidence to
support a conviction for robbery. To support a robbery conviction, the
evidence must show that the requisite intent to steal arose either before
or during the commission of the act of force. When presented with
evidence that a defendant killed another and took substantial property
from the victim at the time of the killing, a jury ordinarily may
reasonably infer that the defendant killed for the purpose of robbery.
Also, a jury may reasonably draw this inference when the evidence
shows that the defendant also raped or attempted to rape the victim at
the time of the killing; in that situation, a jury may infer that the
defendant killed for purposes of both rape and robbery. In this case, a
rational trier of fact could have found beyond a reasonable doubt that
defendant intended to steal from the victim when he strangled her to
death. There was evidence that when defendant strangled the victim, he
took her personal stereo and her cassette player. From this evidence,
the jury could reasonably infer that at least one reason defendant killed
the victim was to accomplish the taking of these items. The fact that
some of the victim's cash and other property was found in her motel
room did not negate the inference. The undisturbed condition of the
room indicated that the victim was killed elsewhere, and defendant did
not search the room after returning the body. Further, even if the
evidence was insufficient to support a robbery conviction, the first
degree murder conviction was valid under the felony-murder theory,
since the jury found that the murder was committed during a rape.
(10)

Criminal Law § 621-Appellate Review-Sufficiency of Evidence.
-To determine the sufficiency of the evidence to support a conviction,
an appellate court reviews the entire record in the light most favorable
to the prosecution to determine whether it contains evidence that is
reasonable, credible, and of solid value, from which a rational trier of
fact could find the defendant guilty beyond a reasonable doubt.

(11a, 11b) Criminal Law§ 451.2-Argument of Counsel-Closing Argument-Capital Case-Appeal to Sympathy.-In the guilt phase of
a capital homicide prosecution, the prosecutor committed misconduct
in the closing argument when, in discussing the killing of a human
being, the prosecutor stated, "If you would, think for a moment about
, what it means. A living, breathing human being had all of that taken
away." An appeal for sympathy for the victim is out of place during an
objective determination of guilt. However, the misconduct was not
reversible. The prosecutor's comment was brief, mild, and not repeated. It did not add cumulative effect to other errors in a crucial area
of the case. The evidence that defendant raped and killed the victim

Pet. App. 181

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 6 of 42 Page ID #:9391

pp

)1]

PEOPLE V. K.Jpp

to
he

was very strong and generally uncontradicted. It was not reasonably
probable that the jury would have reached a result more favorable to
defendant absent the prosecutor's misconduct. Furthermore, the prosecutor's comment did not infect the trial with such unfairness as to
make defendant's conviction a denial of due process or to render the
verdict unreliable.

fre

th
ty
ay
·y.
ce
at
he
a
.at
to
he
:e,
~d

(12)

Criminal Law § 559-Appellate Review-Preserving Objections
-Prosecutorial Misconduct.-To preserve for appeal a claim of
prosecutorial misconduct, the defense must make a timely objection at
trial and request an admonition. Otherwise, the point is reviewable only
if an admonition would not have cured the harm caused by the
misconduct.

(13)

Homicide § 85-Triai-Instructions-Felony Murder-Where
Indictment Charges Murder with Malice.-In a capital prosecution
for first degree murder, rape, and robbery, the trial court did not err in
instructing the jury on felony murder, even though the indictment only
charged murder with malice. A pleading charging murder in these
terms adequately notifies a defendant of the possibility of conviction of
first degree murder on a felony-murder theory. The two forms of
murder have different elements, but there is but a single statutory
offense of murder. Felony murder and premeditated murder are not
distinct crimes. Although an information charging murder without
elaboration may not always provide notice sufficient to afford the due
process of law guaranteed by U.S. Const., 14th Amend., in this case,
defendant had adequate notice. The information charged defendant
with rape and robbery, as well as murder, and it alleged the special
circumstances of murder in the commission of rape and robbery. The
prosecution introduced evidence supporting each crime charged and
each special circumstance allegation. The defense made no request for
a continuance on the basis of inadequate notice, nor did defendant
explain how the defense was significantly affected by the addition of
the felony-murder rape theory. In any event, defendant waived any
claim of insufficient notice by not moving to reopen when he learned
that the court would instruct the jury on felony murder.

·(14)

Criminal Law § 531.4-Penalty Phase of Capital ProsecutionEvidence-Aggravating Evidence-Defendant's Letter to Spouse.
-In the penalty phase of a capital prosecution, the trial court did not
abuse its discretion in admitting into evidence two letters defendant
sent his wife from jail-one threatening women deputies and district
attorneys and the other admitting to murdering and raping the victim.

at
.el
1e

id

1e
·st
y,

e.
n,

le
is
Jf

rJf

ct
lll

llt
lll

Jt
~~a

m

1105

26 Cal.4th 1100; 113 Cai.Rptr.2d 27; 33 P.3d 450 [Nov. 2001}

Pet. App. 182

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 7 of 42 Page ID #:9392

1106

PEOPLE V. KJpp

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

The first letter was relevant to rebut defense evidence that defendant
committed this capital murder and a previous murder during a relatively brief period of aberrant behavior, that he had since expressed
regret and shame for the murders, and that he was unlikely to commit
additional offenses if imprisoned for life. As with the second letter,
defendant failed to show that this probative value was greatly diminished by the timing of the admission, coming a few weeks after a jury
had returned a penalty verdict of death against defendant for the first
murder. Although defendant may have been angry, frustrated, and
discouraged at that time, defendant did not plausibly explain why the
jury could not have properly considered these emotions in deciding the
appropriate weight to give the evidence.
(15)

Criminal Law § 531.5-Penalty Phase of Capital ProsecutionEvidence-Aggravating Evidence-Violent Conduct-Threats to
Officer.-In the penalty phase of a capital prosecution, the trial court
did not abuse its discretion in admitting evidence that defendant threatened to kill a sheriff's sergeant who assisted in subduing him after his
attempted escape from the county jail. Under Pen. Code,§ 190.3, factor
(b), at the penalty phase, the jury is permitted to consider the presence
or absence of criminal activity by the defendant which involved the use
or attempted use of force or violence or the express or implied threat to
use force or violence. As used in this factor, the term "criminal
activity" includes only conduct that violates a penal statute. Even if
defendant's threat to kill the sheriff's sergeant, by itself, did not violate
a penal statute at that time, the threat was admissible as part of the
attempted escape, which did violate a penal statute. Under § 190.3,
factor (b), the prosecution may introduce evidence to show not only the
conduct establishing the criminal violation, but also evidence of any
relevant surrounding circumstances. In particular, threats made while in
custody immediately after an otherwise admissible violent criminal
incident are themselves admissible under § 190.3, factor (b). In this
case, defendant's threats against the sheriff's sergeant were relevant to
an understanding of the violent potential of defendant's attempted
escape.

(16)

Criminal Law § 531.4-Penalty Phase of Capital ProsecutionEvidence-Aggravating Evidence-Defendant's References to Satan.-In the penalty phase of a capital prosecution, the trial court did
not err in denying defendant's motion to exclude evidence of defendant's references to Satan. The evidence was not admissible in aggravation under the catchall Pen. Code, § 190.3, factor (k), since evidence
allowed under that factor can only be mitigating. However, once a
defendant puts his or her general character in issue at the penalty phase,

Pet. App. 183

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 8 of 42 Page ID #:9393

PEOPLE

v.

KIPP

1107

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

the prosecutor may rebut with evidence or argument suggesting a more
balanced picture of his or her personality. In this case, defendant
intended to place his general character in issue, and in this context the
trial court's ruling properly permitted the prosecution to respond with
rebuttal evidence about defendant's views on Satan. A witness testified
that defendant swore "to his savior, Satan," that he would kill a
sheriff's sergeant who subdued him during an attempt to escape. This
evidence was admissible as part of the circumstances of the escape
attempt and threats. Also, in a letter to his wife, defendant included two
references to Satan, including a statement that Satan had helped rejuvanate him. A favorable view of the biblical figure of Satan is generally
understood as a symbolic rejection of the values of love and compassion, and as indicating acceptance of the contrary values of hatred and
violence, with a consequent rejection of all moral restrictions on crimes
such as murder and rape. This was inconsistent with defendant's
claimed remorse and shame for the murders of his two victims, and
thus the evidence was properly admitted in rebuttal.
(17)

Criminal Law § 521.5-Penalty Phase of Capital ProsecutionEvidence-Aggravating Evidence-Other Crimes-Photograph of
Other Murder Victim.-In the penalty phase of a capital prosecution,
the trial court did not abuse its discretion in admitting a photograph of
the body of defendant's previous murder victim as police officers found
it in her car. The admission of photographs of a victim lies within the
broad discretion of the trial court when a claim is made that they are
unduly gruesome or inflammatory. On appeal, the reviewing court
applies the deferential abuse of discretion standard when reviewing the
trial court's ruling. In this case, by showing the position of the victim's
clothing on her body, some of her injuries, and the position of her body
as it was folded into the small hatchback area behind the rear seat of
the car, the photograph was relevant to assist the jury in assessing the
aggravating force of the murder and rape or attempted rape of this
victim. Although the photograph was somewhat gruesome, as murder
victim photographs almost invariably are, it was not shocking or
inflammatory. Also, the trial court carefully weighed the potential
prejudice and excluded another photograph that was more gruesome in
its depiction of the victim's face.
[See 2 Witkin, Cal. Evidence (4th ed. 2000) Demonstrative, Experimental, and Scientific Evidence, § 10.]

(18)

Criminal Law § 523.2-Penalty Phase of Capital ProsecutionInstructions-Weighing Process.-In the penalty phase of a capital

Pet. App. 184

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 9 of 42 Page ID #:9394

1108

PEOPLE

v. KlPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

homicide prosecution, the trial court's jury instructions were not erroneous. The trial court instructed the jury, "To return a judgment of
death, each of you must be persuaded that the aggravating factors are
so substantial in comparison with the mitigating factors that it warrants
death instead of life without parole." When the jury is instructed in this
way, the trial court need not also instruct the jury to return a verdict of
life without parole if the aggravating circumstances do not outweigh
the mitigating circumstances. Further, the jury instructions were not
defective in failing to state that the jury could return a verdict of life
without parole even if the circumstances in aggravation outweighed
those in mitigation. Although such an instruction is not required, the
trial court gave a special instruction stating, "Each juror is free to
assign whatever moral or sympathetic value he or she deems appropriate to each and all the various factors before him. You are free to reject
death as inappropriate under the circumstances, even if you believe that
the aggravating evidence predominates over the mitigating."
(19)

Homicide § 101.2-Punishment-Death Penalty-Validity-Appellate Review Process.-The appeal process of a capital defendant's
death judgment was not constitutionally defective. The process is not
constitutionally defective in failing to provide for comparative or intercase proportionality review, and although a death sentence is subject to
intracase proportionality review, defendant made no claim that his
sentence was grossly disproportionate to his moral culpability for the
crimes he committed. Nor was defendant subject to an unconstitutional
conflict of interest by the fact that the attorney appointed to represent
him on appeal also was appointed to investigate potential habeas corpus
claims. Although habeas corpus counsel might potentially be burdened
by a conflict of interest if placed in the position of urging counsel's
own incompetence as appellate counsel, defendant failed to show that
this dual appointment could in any way interfere with counsel's effective representation on the appeal. Moreover, a defendant has no right
under the federal Constitution to the effective assistance of counsel in a
state habeas corpus proceeding, although the alleged deficiencies of
habeas corpus counsel, whether the result of a conflict of interest or
some other cause, may be considered when determining the applicability of procedural bars. Thus, the appointment of a single attorney to
rppresent defendant on direct appeal and on any petition for writ of
habeas corpus did not violate the state or federal Constitution.

(20)

Homicide § 101.2-Punishment-Death Penalty-Validity-Appellate Review Process-Political Influences on Justices.-Political
influences do not render the appellate review process of death penalty

Pet. App. 185

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 10 of 42 Page ID #:9395

PEOPLE

v.

1109

KlPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

judgments unconstitutional. Under the due process clause of the federal
Constitution, a defendant is entitled to an impartial trial judge, and to
have his or her automatic appeal decided by appellate justices who are
impartial. A defendant is not, however, entitled to have the appeal
decided by justices who have never formed or expressed opinions or
thoughts on general topics such as the propriety of the death penalty.
Bias in the sense of crystallized points of view about issues of law or
policy is almost universally deemed no ground for disqualification.
Further, even if there is some relationship between a justice's affirmance of death sentences and his or her retention in office, a defendant
must demonstrate that a justice will affirm every death sentence or any
particular death sentence, or at least the defendant's own sentence.
Thus, members of the California Supreme Court do not have a disabling conflict of interest in determining this type of appeal. Even if
such a conflict of interest existed, it would apply equally to all California judges and, under the common law rule of necessity, the justices
of this court would not be disqualified.

COUNSEL

Ross Thomas and John Ward, under appointments by the Supreme Court, for
Defendant and Appellant.
Bill Lockyer, Attorney General, David P. Druliner, Chief Assistant Attorney
General, Gary W. Schons, Assistant Attorney General, William M. Wood,
Janelle M. Boustany and Robert B. Shaw, Deputy Attorneys General, for
Plaintiff and Respondent.

OPINION

KENNARD, J.-Defendant Martin James Kipp appeals from a judgment of
death upon his conviction by jury verdict of one count of murder in the first
degree (Pen. Code, § 187), 1 with the special circumstance of murder in the
commission of rape (§ 190.2, subd. (a)(17)(C)), and one count each of
forcible rape(§ 261, subd. (a)(2)) and robbery(§ 211). The jury that returned
the'Se verdicts as to guilt and special circumstance also returned a penalty
verdict of death for the offense of first degree murder. The trial court denied
the automatic motion to modify penalty (§ 190.4, subd. (e)) and sentenced
defendant to death.
1

All further statutory references are to the Penal Code unless otherwise indicated.

Pet. App. 186

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 11 of 42 Page ID #:9396

1110

PEOPLE

v.

KIPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

This appeal from the judgment of death is automatic. (§ 1239, subd. (b).)
We will affirm the judgment in its entirety.
FACTS AND PROCEEDINGS

This court has affirmed a judgment of death against defendant for the
murder of Antaya Yvette Howard in Orange County in December 1983.
(People v. Kipp (1998) 18 Cal.4th 349 [75 Cal.Rptr.2d 716, 956 P.2d 1169].)
In the trial of that case, the prosecution introduced evidence that defendant
had raped and murdered Tiffany Frizzell in Los Angeles County in September 1983. (/d. at pp. 360-361, 369-373.) In this case, we consider the
separate and later death judgment against defendant for the Frizzell murder.
A.

Prosecution's Guilt Phase Case-in-Chief

On Thursday, September 15, 1983, Tiffany Frizzell, age 18 years, left her
home in Indianola, Washington, and traveled to Long Beach, California, to
attend Brooks College. Because the dormitories at Brooks College did not
open until Saturday, September 17, she took a room near the college at the
Ramada Inn on Pacific Coast Highway in Long Beach.
On the morning of September 17, 1983, the housekeeping staff at the
Ramada Inn discovered Tiffany Frizzell's lifeless body face up on the bed in
her room. The bed was neatly made, and the body was on top of the sheets
and blanket, but under the bedspread. An article of clothing described as a
sunsuit or jumpsuit covered her face under the bedspread. She was wearing
a blouse without a bra, and she was naked from the waist down. Around her
neck was a cloth belt pulled very tight. There were no signs of forced entry
into the room, and no indication that a struggle had taken place there.
Frizzell's purse, driver's license, and some $130 in cash were found in a
dresser in the room. A small hook, evidently from her missing bra, was
found embedded in the skin of her back. The fingernail on the middle finger
of her left hand was broken. A damp bathing suit was hanging in the
bathroom. Defendant's fingerprint was found on the telephone in the room.
A criminalist employed by the Los Angles County Sheriff used a standard
sexual assault kit to obtain evidence from Frizzell's body. Examination and
analysis of the materials obtained in this way revealed the presence of semen
and sperm in Frizzell's vagina and on her external genital area, but not in her
mouth or rectal area.
A deputy medical examiner employed by the Los Angeles County Coroner performed an autopsy of Frizzell's body. When he removed the belt from

l
!

Pet. App. 187

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 12 of 42 Page ID #:9397

v.

PEOPLE

001]

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

b).)

her neck, he found a deep ligature mark underneath. Scratches near this
ligature mark were consistent with fingernails. Petechial hemorrhages in the
eyes and scalp were consistent with strangulation. There was a bruise on the
abdomen, four and one-half inches to the left of the navel, a bruise on the
outside of the front of the left thigh, a bruise on the top of the left shoulder,
and a small abrasion on the back of the left hand. These injuries all occurred
before death, but the absence of healing indicated they were fresh, within 48
hours of death. There was no trauma to the external vaginal or anal areas, but
there was redness and erosion of the cervix consistent with sexual intercourse. The cause of death was asphyxiation due to ligature strangulation.

the
183.
9].)

lant

KIPP

1111

(Ipp

~m-

the
der.

her
, to
not
the

the
i in
~ets

ts a
1ng

her
I try

ere.
n a
was

tger
the
)m.
lard
and
nen

her

lrO-

·om

On Monday, September 19, 1983, a gardener working at a residence in
Long Beach found a canvas bag in some bushes next to an alley. He gave the
bag to the woman who owned the residence, and she gave it to the police.
The residence where the bag was found was a half-mile from the Ramada
Inn where Frizzell's body was found. The bag contained a camera, a purse,
cosmetics, a pair of shorts, a terry cloth robe, a washcloth, four socks, a bra
that was tom and missing a fastener, a newspaper dated September 16, 1983,
a magazine, a map of the City of Long Beach, about $10 in cash, an
apparently used tampon, and a book with Tiffany Frizzell's name written
inside the cover. At trial, Tiffany Frizzell's mother identified the handwriting and signature in the book as Tiffany's, and she identified the camera, the
shorts, the bra, and the purse as items belonging to Tiffany. Tiffany's
fingerprints were found on the book and the magazine. Defendant's fingerprints were found on the book.
On October 18, 1983, defendant sold a personal stereo and a cassette
player to a secondhand goods dealer in Westminster for $70. At trial, Tiffany
Frizzell's mother identified these two articles as property that had belonged
to Tiffany.
The prosecution introduced in evidence a 16-page letter that defendant
wrote and sent to his wife, Linda Anne Kipp, while both were in custody at
the Orange County jail. The letter was found in an envelope postmarked
September 15, 1987. In this letter (hereafter September 15 letter), defendant
admitted he had "raped" and "killed" Tiffany Frizzell.
To further demonstrate consciousness of guilt, the prosecution introduced
evidence that while he was in custody for the murder of Tiffany Frizzell, and
betore he was tried for that offense, defendant made two attempts to escape,
first from the Orange County jail and then from the Los Angeles County jail.
This evidence revealed the following facts.
On April 15, 1987, Tom Giffin, an investigator for the Orange County
Sheriff, met Linda Anne Kipp, defendant's wife, at a restaurant. Giffin was

Pet. App. 188

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 13 of 42 Page ID #:9398

1
!

1112

PEOPLE V. KIPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

working undercover, posing as a narcotics dealer. During that meeting and
other meetings and telephone conversations over the next two days, Linda
Kipp asked Giffin to assist her in helping defendant escape from the Orange
County jaiL Giffin pretended to agree. On April 16, defendant discussed the
escape plan with Giffin during a telephone conversation. Defendant agreed
to pay Giffin $1,000 for his help, with $500 in advance and the rest after the
escape. As defendant described it to Giffin, the plan called for Giffin to
accompany Linda Kipp's son to the jaiL From a public lobby, they would
enter a public restroom. In the restroom, Giffin would remove the ceiling
grate covering the air conditioning duct and assist Linda Kipp's son to climb
into the duct. The son would then somehow make his way to defendant
through the ducts and guide him back to the public restroom. Giffin would
wait in the restroom until Linda Kipp' s son returned with defendant. The
three of them-defendant, Giffin, and Linda Kipp's son-would then leave
the restroom and walk out of the jaiL On April 17, Linda Kipp gave Giffin
$500 in cash. The next day, Linda Kipp was arrested for her role in the
planned escape.
On January 1, 1988, around II :30 p.m., a guard at the Los Angeles
County jail heard a loud noise from the vicinity of defendant's cell. Upon
investigation, he found that defendant was not in the cell, and he saw a rope
hanging from a hole in the ceiling of the cell. After summoning assistance,
the guard called for defendant to come down. Eventually defendant lowered
himself through the hole and was immediately grabbed by the legs. Defendant was combative but was quickly subdued. Defendant then told the guards
it was lucky they had caught him because he would have been gone by
morning.
B.

Defense Case at the Guilt Phase

The defense called no witnesses and offered no exhibits at the guilt phase.
C.

Guilt Verdicts

The jury returned verdicts finding defendant guilty. of the charged offenses
of robbery, rape, and murder. The jury found the murder to be of the first
degree, and it found true the special circumstance allegation that the murder
occurred during a rape. The jury was unable to reach a verdict on another
spedal circumstance allegation, that the murder occurred during a robbery.
D.

Prosecution's Penalty Phase Case in Aggravation

For its case in aggravation, the prosecution presented evidence that defendant assaulted and raped June M. in June 1981, that he was convicted of rape

Pet. App. 189

I
I

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 14 of 42 Page ID #:9399

v.

PEOPLE

1]

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

ld

in December 1981, that he assaulted and threatened to kill Loveda N. in
November 1983, that he sexually assaulted and murdered Antaya Yvette
Howard in December 1983, and that he threatened to kill a sheriff's sergeant
after his unsuccessful attempt to escape from the Los Angeles County jail in
January 1988. The following is a summary of this evidence.

la
~e

n
le

~s

n

d
lls
y

~s

KIPP

1113

>p

Between 10:30 and 11:00 p.m. on June 13, 1981, June M. went to a bar on
Pacific Coast Highway in Long Beach. There she met defendant, with whom
she had no prior acquaintance, and they began talking about custom pickup
trucks. Defendant invited her outside to inspect his truck, and she accepted.
A windowless shell had been welded to the bed of defendant's truck, making
it similar to a van. As they were sitting in the truck, with defendant in the
driver's seat and June M. in the passenger seat, defendant turned on the
stereo and told June M. to shut the door on her side so she could hear the
music better. As soon as she shut her door, defendant drove off, hitting a car
on his way out of the parking lot.
Defendant stopped the truck in a residential area. June M. asked to be
taken back, but defendant said they were going to a party and told her to
remove her shoes. She noticed there was no inside door handle on the
passenger side. Vise grips appeared to function as a makeshift door handle,
but they came off when she grasped them. Defendant pushed her into the
back of the truck and started to remove her clothes. When she screamed,
defendant put a hand in her mouth, and when she bit his hand he began to
strangle her. Defendant finished removing her clothes and raped her. Eventually her body went limp. She was unable to breathe and believed she was
dying. Defendant demanded she orally copulate him. She said she would if
defendant gave her some fresh air. When defendant opened the door, she
jumped out and ran away, eventually flagging down a motorist and reporting
the incident to the police. June M. had severe bruises on her neck and wore
a neck brace for two weeks after this incident.
The parties stipulated that for his conduct in this incident defendant was
convicted of rape, a felony, on December 4, 1981.

~t
~r
~r

le

On November 10, 1983, defendant and Loveda N. had an intimate relationship and were sharing a room at a motel in Coos Bay, Oregon. During
th~ early morning hours, after they had been drinking together at a bar near
the motel, they began to argue. When Loveda N. refused to have sex with
defendant, he started hitting her in the head with his fists and choking her.
Thinking she was about to lose consciousness, Loveda N. told defendant she
needed to go to the bathroom because she was about to vomit. Once inside
the bathroom, she locked the door and climbed through the window. As she

Pet. App. 190

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 15 of 42 Page ID #:9400

1114

PEOPLE V. .KJpp

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

was leaving, she heard defendant kicking down the door. She ran to the
manager's office, and the police came and took defendant into custody.
Loveda N. did not press charges against defendant because he told her that if
she did he would kill her and her son. After the assault, Loveda N. had
bumps on her head in the temple area where defendant had hit her, her throat
was bruised where defendant had choked her, and she had difficulty speaking for around two weeks.
On December 29, 1983, Antaya Yvette Howard, who was then 19 years
old, left her home in Huntington Beach, California, after 10:00 p.m. She was
driving her car, a small hatchback model. At 3:00 a.m. the next day, she was
seen drinking champagne with defendant at a restaurant in Newport Beach.
Four hours later, a woman noticed a car, later identified as Howard's, parked
in an alley in Huntington Beach. The woman telephoned the police on
January 4, 1984, because the car had not moved and was emitting a foul
odor.
The police found Howard's badly decomposed body, covered by a blanket, in the hatchback area of the car. Her blouse was open and missing two
buttons. Her bra had been rolled up exposing her breasts. Her jeans and
underpants were around her ankles. The jeans were muddy, especially on the
left side. Defendant's fingerprints were found on the exterior window glass
of the car's two front doors and on a beer can found on the front passenger
floorboard.
An autopsy of Howard's body indicated that the cause of her death was
asphyxiation due to strangulation, with trauma to the head as a contributing
cause. Abrasions were found on her left forehead, left eyebrow, left thigh,
and lower back. Bruises were found on her left eyebrow, left cheek, the back
left side of her head, her left shoulder blade, and left thigh. There was
internal bleeding, called ecchymosis, in her eyes. Internal bleeding was also
noted in her head and neck. The injuries were consistent with having been
struck on the back of the head with a blunt object and with strangulation by
pressure to the front of the neck.
Huntington Beach police officers interviewed defendant on January 10,
1984. Defendant denied knowing Antaya Howard and could not explain the
P.,resence of his fingerprints on her car.
In January 1988, when defendant was handcuffed immediately after his
unsuccessful attempt to escape from the Los Angeles County jail, defendant
said he would kill a sheriff's sergeant who had assisted in subduing him, and
that he would do it in a "big way" and a "humiliating way" because he had

Pet. App. 191

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 16 of 42 Page ID #:9401

v.

PEOPLE

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

, the
:ody.
1at if
had
1roat
'eak-

"nothing to lose." In the ceiling area above defendant's cell, investigators
found objects that could be used as tools or weapons, including two dinner
knives (one of which had been sharpened) and two sharpened pieces of sheet
metal.

rears
was
was
~ach.

rked
~ on
foul

>Iantwo
and
1 the
~lass

nger

was
tting

ligh,
tJack
was
also

)een
n by
10,

KIPP

1115

KIPP

2001]

The prosecution also presented the expert testimony of a martial arts
instructor on the meaning of the term "dim mak." In the September 15 letter
that defendant had sent to his wife, and that jail authorities had intercepted,
defendant had written that he had killed Antaya Howard with a "Dim-Mak
technique." The witness testified that "dim mak" literally means "death
touch" and that in martial arts it refers to striking blows to certain pressure
points on the body, resulting in unconsciousness or death.
E.

Defense Penalty Phase Case in Mitigation

For its case in mitigation, the defense presented expert testimony about
the history of the Blackfeet Tribe, of which defendant is a member, and
evidence concerning defendant's life history. Psychologist Craig William
Haney provided expert opinions on how certain aspects of defendant's
history had affected his development.
According to the testimony, the Blackfeet in the late 1700's were divided
into three major subgroups: the Piegan or Southern Blackfeet, the Blood or
Kiowa, and the Northern Blackfeet. At this time, the Blackfeet were a
nomadic, buffalo-hunting, teepee-dwelling Plains tribe, with a warrior culture. Work was divided by sex, with certain tasks performed exclusively by
men and others exclusively by women. Social conformity was achieved, and
misbehavior curbed, by a process of public shaming. The Blackfeet had
contacts with the Spanish in New Mexico, from whom they acquired horses,
and with the British in Canada, with whom they traded furs. Their first
contact with Americans occurred in 1805 or 1806, when they met members
of the Lewis and Clark survey expedition. After this, the Americans tended
to align with the Crow Tribe, enemies of the Blackfeet, while the Blackfeet
were aligned with the British. Around 1832, however, the Americans took
over the fur trade and the Blackfeet's contact with Canada dwindled. From
this time, disease and alcohol began to plague the Blackfeet and reduced
their population.

1 the

· his
dant
and
had

• In 1855, the Blackfeet's territory was defined by treaty with the United
States, but the discovery of gold in Montana in 1862 caused an increase in
the non-Indian population, resulting in invasion of and encroachments on the
Blackfeet's treaty lands. The Blackfeet resisted this encroachment, but their
resistance largely ended in December 1869 when a group of soldiers attacked and massacred a peaceful encampment of Blackfeet under Chief

Pet. App. 192

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 17 of 42 Page ID #:9402

1116

PEOPLE

v.

KlPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

Heavy Runner, mistaking them for a different group, under Mountain Chief,
that had engaged in armed resistance. Joe Kipp, whose mother was a Native
American, was a scout who assisted the soldiers during this attack, which is
known as the massacre on the Marias River. He attempted to stop the attack
when he realized, at the last minute, that the group being attacked was
peaceful rather than hostile. After the massacre, in which Chief Heavy
Runner was killed, Joe Kipp adopted one of Heavy Runner's sons, who was
known both as Night Gun and as Cut Bank John. This adopted son was the
grandfather of John Kipp, defendant's father by adoption.
The buffalo had largely disappeared from Blackfeet territory by 1882, and
at least 600 Blackfeet died of starvation during the winter of 1882-1883,
reducing the tribe's population to around 2,500. Boundaries for the Blackfeet
Reservation in Montana were drawn in 1888, but the reservation's size was
later reduced. In 1884, the Bureau of Indian Affairs (BIA) adopted regulations to discourage or prohibit Indian customs, ceremonies, and languages,
with the intent to thereby accelerate the Indians' assimilation into White
society. Indian children were required to attend boarding schools where
Indian languages could not be spoken. The BIA encouraged the Blackfeet to
farm their land, but the land was generally unsuitable for farming. When
agriculture failed, many Blackfeet families sold the land assigned to them to
obtain money for subsistence, causing further diminution of tribal lands.
After World War II, the BIA allowed tribes to decide whether alcohol ·
would be sold on their lands, and the Blackfeet decided to allow sales of
alcohol on the Blackfeet Reservation. Many Blackfeet who returned to the
reservation after the war had acquired drinking habits while serving in the
military or working in war-related industries. From this time, alcoholism
became an increasingly serious problem on the reservation. At the time of
trial in 1989, 6,000 Blackfeet lived on the reservation in Montana, with an
unemployment rate of 60 to 70 percent and annual family income of around
$5,000 per year, compared to $18,000 per year for Montana generally.
According to defendant's witnesses, Blackfeet and other Native Americans who leave their reservations often experience low self-esteem and lose
the support of their communities. They may lack internal controls on their
behavior. For this reason, Indians who experience problems after leaving the
..reservation may quickly fall apart.
Defendant was born on the Blackfeet Reservation in 1958. His birth
mother was Mary Still Smoking, also known as Baby Girl Sherman or Sister
Girl, who was an alcoholic and also "nervous" and "paranoid." She was "out
drinking most of the time." Defendant's birth father was Curly Carpenter. At

Pet. App. 193

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 18 of 42 Page ID #:9403

PEOPLE

v. KIPP

1117

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

first, defendant lived in the home of his maternal grandmother, Mary Still
Smoking, known as Old Mary. Around 12 to 14 children lived in a two-room
house. Inebriation and fighting were common in the house, which was filthy,
and the children living there were neglected. According to Haney, the
psychologist who testified as a defense expert, this experience of neglect
would tend to cause defendant to view the world as an insecure and
threatening place, and it would cause him to develop a basic distrust and fear
of people and a great sensitivity to rejection or abandonment.
Defendant was 23 months old in January 1960 when child welfare workers
removed him from his grandmother's home and placed him with John and
Mildred Kipp, who were also members of the Blackfeet Tribe. Mildred Kipp,
also known as Bobbie, had two daughters, Muma and Margie, who were not
John's children and who at this time were grown and living in Chicago.
John Kipp was very large (his height was estimated at three to six inches
over six feet, and his weight at 240 to 290 pounds), handsome and muscular.
John was the leader of his family and ran the family ranch on Cut Bank
Creek within the reservation. Because they lived on the ranch, John and
Bobbie were somewhat isolated from the rest of the Blackfeet community.
During World War II, John had served in the United States Marine Corps
and was decorated for saving a wounded Japanese soldier by carrying him to
medical aid. He was an excellent hunter, fisher, and trapper. He was
demanding, a perfectionist, always wanting things done his way.
When he was placed with the Kipps, defendant was small and appeared
malnourished. His hair had been shaved off and he had impetigo (a skin
disease) and lice. At first, John Kipp seemed unwilling to accept defendant
into his family, referring to him as "Bobbie's foster kid," but after about six
months his attitude changed and he began to treat defendant as his son.
As a young child, defendant followed Bobbie everywhere and cried if he
was separated from her. Defendant attended primary school in Cut Bank, a
town just outside the reservation boundary. If the weather was bad, or if
John and Mildred were busy taking care of their crops, defendant would stay
in Cut Bank with Fron and Dorothy Froman, who were friends of John and
Mildred Kipp.
During his boyhood and teenage years, defendant was a good worker. He
idolized John and tried to live up to John's expectations, although he was
never able to do so because of John's perfectionism. Defendant and John
went hunting and fishing together, and John taught defendant to operate all
the farm tractors. According to defense expert Haney, John did not give

Pet. App. 194

'

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 19 of 42 Page ID #:9404

1118

PEOPLE V. KlPP

26 Cal.4th l 100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

defendant the freedom needed for development of internal controls, and
defendant had difficulty distinguishing his own wants and values from
John's wants and values.
John organized or joined a boxing club and trained defendant in boxing.
At this time, defendant was "friendly and well mannered," honest and a hard
worker. Defendant went to high school in Browning, Montana, on the
Blackfeet Reservation. In high school, he was a gentle person who was shy
with girls. He was "a warm, loving, and respectful young man." Defendant
competed in cross-country, and his coach described him as then being
courteous, trustworthy, and "an all-around good kid to coach."
In 1973, Billy Kipp, son of Max Kipp, the younger brother of John Kipp,
died in an automobile accident on the reservation. Defendant (who was then
15) and Billy (then 11) were passengers in a car driven by Jimmy Kipp,
Billy's older brother, when the car went out of control, hit an embankment,
and turned over. Billy was thrown from the car and died. Defendant was
hospitalized for an injury to his leg. John had sent the boys to get some seed
grain, and he felt somehow responsible. He begged his brother Max to sue
him, but Max refused. Because of his large size and easy disposition, Billy
had been a particular favorite of John's, and John had invited him to stay at
the ranch. After the accident, John began to drink whiskey excessively and
suffered a stroke.
When John lost control of his drinking, his relations with other members
of his family suffered. He became estranged from his brother Max after Max
confronted him about his abuse of alcohol. His marriage to Bobbie broke
down. He physically abused both Bobbie and defendant. He broke two of
Bobbie's fingers when he jerked a door shut on her hand. He spent more
time away from the ranch, much of it in bars, and became involved with
another woman. He became aggressive and rough, and even old friends
avoided him. Eventually Bobbie moved away from the ranch and divorced
John, who then remarried.
According to psychologist Haney, John had provided defendant with his
sense of identity, and John's deterioration was profoundly frightening to
defendant, who was in a constant state of emotional turmoil. The fears and
insecurities from his first two years of life returned, and he began to doubt
that John's way of living was the right way. Defendant became discouraged
and "lost heart." He gave up boxing and lacked a sense of direction.
Defendant went to Spokane, Washington, to live with Max Kipp, John
Kipp's brother, during the fall of defendant's senior year in high school. He

Pet. App. 195

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 20 of 42 Page ID #:9405

pp

PEOPLE

H]

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

nd
•m

was there in 1977 when, at the age of 19, he received news that John had
died. During the previous year, defendant had taken charge of operating the
ranch, but he was working as a bricklayer in Spokane when he received the
news of John's death. Defendant left immediately and drove all night to
return to the ranch. After John's death, there was a dispute over ownership
of the ranch between the Kipp family and John's widow. Defendant was in
the middle of this conflict and unprepared to deal with it. In the end, Bobbie
got nothing, while defendant received $13,000.

tg.
.rd
he
hy

v.

KJpp

1119

mt

ng

>p,

en
>p,
nt,
·as
ed
ue
Lly

at
nd

::rs
ax
,ke
of
)re
ith
tds

:ed

his
to
.nd
Jbt
~ed

hn
He

Defendant enlisted in the United States Marine Corps. Because of the
discipline and the high standards and expectations, being in the Marines was
similar to defendant's previous experience as John's son. A defense witness
testified that the percentage of American Indians who have served in the
military is about twice that for the population as a whole. Among the Plains
tribes, with a warrior tradition, combat experience is highly valued and
members of these tribes tend to join elite combat units like the Marines and
the Rangers. Those who join the military but do not have combat experience
tend to feel shame and dissatisfaction.
Defendant was considered an outstanding recruit during boot camp, but
then he was assigned to a desk job in Okinawa. According to defense expert
Haney, once the challenge was gone, defendant was disappointed and unprepared for office work on a military base in a foreign country. He developed
an attitude problem, stole some items, spent time in the brig, and began to
abuse alcohol, cocaine, and methamphetamine. Defendant was transferred to
California, where he raped June M. in June 1981. After the rape, defendant
left his military post without leave and went back to the Blackfeet Reservation in Montana. There, in July 1981, defendant dated Coleen Cooper, who
described him as a "gentleman" who was "really good to her."
Defendant was arrested for the rape of June M. in August 1981. While in
custody in the Los Angeles County jail awaiting trial, he was sexually
assaulted by other inmates. According to defense expert Haney, the experience was profoundly frightening, and defendant learned not to show any
weakness or vulnerability to other inmates. Bobbie visited defendant at the
state prison in Susanville, where defendant adjusted well. After his release
from prison in 1983, defendant continued to deteriorate because he had no
sense of direction or identity, and no one with whom he felt able to discuss
his feelings and problems. He was abusing alcohol, cocaine, and methamphetamine. A psychopharmacologist testified that chronic use of either
cocaine or methamphetamine can result in paranoia and that this effect is
associated with violence and suicide.
Psychologist Haney interviewed defendant five times between 1984 and
1989, when Haney testified. Defendant admitted killing Tiffany Frizzell and

Pet. App. 196

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 21 of 42 Page ID #:9406

PEOPLE

1120

v.

KJpp

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

Antaya Howard, and he expressed shame, sorrow, and regret for his actions.
Defendant told Haney that when he wrote the September 15 letter to his wife
that the prosecution introduced at the guilt phase, in which he denied any
remorse for the murders, he was very upset and angry about what had
occurred during the Orange County trial for the murder of Antaya Howard.
Many of the witnesses, defendant's friends and relatives, expressed their
love for defendant and urged the jury to spare his life.
A professor of sociology testified about the California prison system.
Persons sentenced to life imprisonment without possibility of parole are
assigned to closed custody prisons, where prisoners spend the whole day
confined in a small area known as a module. In these modules, no more than
20 or 30 prisoners are ever together. Surveillance is constant and escape
virtually impossible. In segregated housing units, prisoners are allowed to
leave their cells only three to four hours per week. Individuals sentenced to
life terms tend to be model prisoners, particularly after the age of 40.
F.

Penalty Phase Rebuttal

In rebuttal, the prosecution presented evidence that on September 9, 1987,
a sheriff's deputy at the Orange County jail read and copied a letter that
defendant had written to his wife, Linda Kipp, who was then also in custody.
This occurred about one week before jail authorities intercepted the September 15 letter from defendant to his wife that the prosecution introduced at the
guilt phase. In this earlier letter (hereafter September 9 letter), defendant
expressed a desire to rape, sodomize, and gouge the eyes out of every
woman deputy serving as a guard at the jail. He said that if he escaped he
would associate with a terrorist group and "really go on a spree," and that he
would kill every district attorney and their families. He also said that he no
longer believed in God and that Satan had helped him rejuvenate his
energies.
ISSUES RELATING TO GUILT

1. 2

Admission of the September 15 Letter

(la) At the outset of the guilt phase of the trial, the defense objected to
admission in evidence of any part of the September 15 letter defendant wrote
and sent to his wife, Linda Kipp, containing defendant's admissions that he
had "raped" and "killed" both Tiffany Frizzell and Antaya Howard. The
defense argued that the September 15 letter was inadmissible under Evidence Code section 352 because its probative value was substantially outweighed by the probability that its admission would create a substantial
2

For the parties' convenience, the issues are numbered as in the appellant's opening brief.

Pet. App. 197

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 22 of 42 Page ID #:9407

p
I]

e
y
d
l.
tr

1.

·e
.y
.n

1e
:o
:o

7,
at

y.
1-

le

nt
ry
1e
1e
10

is

to
'te
ile
ile
11-

lt-

al
ef.

PEOPLE V. KJpp

1121

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

danger of undue prejudice. The trial court overruled the objection under
Evidence Code section 352, stating that "the letter will be admitted in some
form."
The prosecutor proposed to have a deputy sheriff testify that jail authorities in Orange County had intercepted the September 15 letter from defendant to his wife, and to have this deputy then read only an edited portion of
one page, including the admission that defendant had raped and killed
Frizzell, without giving the jury access to the actual letter. Defense counsel
noted that the prosecutor had announced his intention to introduce the entire
letter at the penalty phase, adding that for tactical reasons the defense
preferred to introduce at the guilt phase every part of the September 15 letter
that would eventually be admissible for guilt or penalty. Defense counsel
explained that the additional parts of the letter were necessary at the guilt
phase to explain the context in which defendant had made the statements and
to reduce the letter's impact at the penalty phase. Defense counsel suggested
deleting only certain racial epithets, references to "Satan," and derogatory
references to female deputies working at the jail. The trial court agreed to
delete the racial epithets and the derogatory references to female deputies,
but the court ruled that the references to "Satan" would be admissible at the
penalty phase and therefore would not be deleted if the defense insisted that
every part of the letter admissible at the penalty phase be received in
evidence at the guilt phase. As so redacted, the September 15 letter was
received in evidence.
(2) We apply the deferential abuse of discretion standard when reviewing a trial court's ruling under Evidence Code section 352. (People v. Cudjo
(1993) 6 Cal.4th 585, 609 [25 Cal.Rptr.2d 390, 863 P.2d 635].) (lb) Defendant's admission in the letter that he had raped and killed Tiffany Frizzell
had substantial probative value and was not unduly prejudicial within the
meaning of Evidence Code section 352. (3) For this purpose, "prejudicial" is not synonymous with "damaging," but refers instead to evidence that
" 'uniquely tends to evoke an emotional bias against defendant' " without
regard to its relevance on material issues. (People v. Bolin (1998) 18 Ca1.4th
297, 320 [75 Cal.Rptr.2d 412, 956 P.2d 374]; see also People v. Edelbacher
(1989) 47 Cal.3d 983, 1016 [254 Cal.Rptr. 586, 766 P.2d 1].)
. (lc) Defendant's spontaneous, uncoerced admission to his wife that he
had raped and killed Tiffany Frizzell was highly probative on the material
disputed issue of his identity as the perpetrator of the charged offenses of
rape and murder. Defendant fails to persuade us that this probative value was
greatly diminished by the timing of the admission, coming around three
weeks after a jury had returned a penalty verdict of death against defendant

Pet. App. 198

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 23 of 42 Page ID #:9408

1122

PEOPLE

v.

KIPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

for the murder of Antaya Howard, and three days before the sentencing
hearing for that crime. Although defendant may well have been angry,
frustrated, and discouraged at that time, defendant does not plausibly explain
why any of these emotions would cause him to falsely admit culpability for
crimes he had not committed. Nor do we agree that the probative value of
the admissions was substantially weakened by defendant's statements in the
same letter that he had sodomized both Frizzell and Howard. Although the
prosecution's evidence did not establish that either victim had been sodomized, neither did the evidence eliminate that possibility. Moreover, even if
we assume that defendant did not sodomize either victim, defendant's false
statements to the contrary could be attributed to exaggeration or embellishment without substantially detracting from defendant's admission that he,
and not someone else, sexually assaulted and killed the two victims.
The trial court could reasonably determine that the probative value of the
admissions was not substantially outweighed by the danger of undue prejudice. Both the prosecutor and the trial court indicated a willingness to redact
the letter to remove material that was irrelevant and prejudicial (in the sense
of being likely to evoke an emotional bias against defendant unrelated to its
relevance on material issues), but the defense insisted that the entire letter be
admitted with only a few deletions. Although defendant now objects to a
highly vulgar reference to the victim, at trial the defense never suggested
deletion of this reference. The trial court agreed to each of the specific
deletions the defense requested at the guilt phase, although it ruled that the
letter's various references to Satan would be admissible at the penalty phase.
We consider below, as a penalty phase issue, defendant's separate claim that
the trial court erred in overruling the objections to the references to Satan for
purposes of the penalty phase. We conclude that the trial court did not abuse
its discretion under Evidence Code section 352 in denying the defense
motion to exclude the September 15 letter in its entirety.
Although defendant contends that the ruling denied him various rights
under the state and federal Constitutions, he did not object on these grounds
in the trial court, and thus he has not preserved these constitutional claims
for appellate review. (People v. Earp (1999) 20 Cal .4th 826, 878 [85
Cal.Rptr.2d 857, 978 P.2d 15].)
Wt; reject also defendant's related contention that his trial counsel, by
failing to base the objection on constitutional as well as statutory grounds,
denied him his constitutional right to the effective assistance of counsel.
(4) To establish a violation of the constitutional right to effective assistance of counsel, a defendant must show both that his counsel's performance
was deficient when measured against the standard of a reasonably competent

Pet. App. 199

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 24 of 42 Page ID #:9409

KIPP

2001]

.cing
lgry,
Jlain
y for
1e of
1 the
1 the
lornen if
false
lisht he,
f the

reju:dact
ense
:o its
er be
to a
~sted

cific
t the
1ase .
. that
n for
buse
·ense

ights
unds
rums

[85

PEOPLE

v.

KIPP

1123

26 Cal4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

attorney and that this deficient performance caused prejudice in the sense
that it "so undermined the proper functioning of the adversarial process that
the trial cannot be relied on as having produced a just result." (Strickland v.
Washington (1984) 466 U.S. 668, 686 [104 S.Ct. 2052, 2064, 80 L.Ed.2d
674]; see also People v. Wader (1993) 5 Ca1.4th 610, 636 [20 Cal.Rptr.2d
788, 854 P.2d 80].) If a defendant has failed to show that the challenged
actions of counsel were prejudicial, a reviewing court may reject the claim
on that ground without determining whether counsel's performance was
deficient. (Strickland v. Washington, supra, 466 U.S. at p. 697 [104 S.Ct. at
p. 2064].)
(ld) Here, defendant fails· to establish either deficient performance or
prejudice from counsel's failure to cite constitutional grounds when objecting to the September 15 letter. Defendant does not argue here that there are
constitutional standards of admissibility more exacting than the statutory
standards imposed by the Evidence Code. Because, as we have concluded,
the September 15 letter satisfied applicable statutory admission standards,
adding constitutional grounds to the objection would not have altered the
trial court's ruling or our conclusion on review that the ruling was correct.
Accordingly, defendant was not denied his right to effective assistance of
counsel by counsel's failure to cite constitutional grounds in making his
objection.

II.

Evidence of Why Tiffany Frizzell Was in Long Beach

(Sa) The defense objected at the guilt phase of trial to evidence that
Tiffany Frizzell was in Long Beach to attend Brooks College, arguing that
the purpose of her presence in Long Beach was irrelevant to any material
issue. The prosecution argued that the evidence was relevant on the rape
charge to establish that Tiffany Frizzell did not consent to sexual intercourse
with defendant. The trial court overruled the objection but cautioned the
prosecutor not to "go into great detail on it." Joan Frizzell, Tiffany's mother,
then testified that Tiffany's purpose in traveling to Long Beach was to attend
college.

We apply the deferential abuse of discretion standard when reviewing a trial court's ruling on a relevance objection. (People v. Waidla (2000)
22 Cal.4th 690, 717-718 [94 Cal.Rptr.2d 396, 996 P.2d 46]; People v.
Sanders (1995) 11 Cal.4th 475, 554-555 [46 Cal.Rptr.2d 751, 905 P.2d
420].) (Sb) We discern no abuse of discretion here. (6b) "Evidence is
relevant if it has any tendency in reason to prove or disprove a disputed fact
at issue." (People v. Mayfield (1997) 14 Cal.4th 668, 749 [60 Cal.Rptr.2d 1,
928 P.2d 485]; see Evid. Code, § 210.) (Sc) In a prosecution for forcible
(6a)

I, by
mds,
nsel.
;sist.ance
etent

Pet. App. 200

"!

!
Case 2:03-cv-08571-PSG
Document 13-40 Filed 06/01/04 Page 25 of 42 Page ID #:9410

1124

PEOPLE V. KJpp

26 Cal.4th llOO; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

rape, evidence is relevant if it establishes any circumstance making the
victim's consent to sexual intercourse less plausible. (See, e.g., People v.
Rowland (1992) 4 Ca1.4th 238, 264 [14 Cal.Rptr.2d 377, 841 P.2d 897]
[evidence that victim had a "terrible headache" and had to get to work early
the next morning was "clearly probative of rape"].) In determining whether
Tiffany Frizzell had consented to intercourse with defendant, with whom she
had no prior acquaintance, the jury might be assisted by the information that
she was not traveling on a holiday or vacation, but had arrived to begin her
college education. This information also prevented any speculation by the
jury that a young woman alone in a motel room might be a prostitute who
consented to intercourse with defendant on a promise of compensation.
Although the probative value of the evidence was not great, we cannot say
that it lacked any tendency in reason to prove that Frizzell did not consent to
sexual intercourse with defendant.
(7) Defendant also contends the trial court should have excluded the
evidence of the reason for Tiffany Frizzell's presence in Long Beach under
Evidence Code section 352 because the probative value of this evidence was
substantially outweighed by the probability that its admission would create a
substantial danger of undue prejudice. Because the defense did not object on
this ground at trial, the issue is not preserved for appellate review. (Evid.
Code, § 353, subd. (a).) Although defense counsel made two isolated references to the evidence being "inflammatory," counsel neither mentioned
Evidence Code section 352 nor argued that the probative value of the
evidence was substantially outweighed by a risk of undue prejudice. Instead,
counsel argued consistently and exclusively that the evidence was entirely
irrelevant and immaterial. This was insufficient to preserve a claim of error
under Evidence Code section 352. (See People v. Barnett (1998) 17 Cal.4th
1044, 1130 [74 Cal.Rptr.2d 121, 954 P.2d 384]; People v. Champion (1995)
9 Cal.4th 879, 913 [39 Cal.Rptr.2d 547, 891 P.2d 93]; People v. Kirkpatrick
(1994) 7 Cal.4th 988, 1014-1015 [30 Cal.Rptr.2d 818, 874 P.2d 248].)
(Sd) Were the claim preserved for our review, we would reject it on the
merits. Although the probative value of the evidence was relatively slight,
this probative value was not substantially outweighed by the risk of undue
prejudice. The testimony about Tiffany Frizzell's purpose in traveling to
Long Beach to attend college was brief and apparently without any display
of emotion. The trial court could reasonably conclude, in the exercise of its
-broad discretion, that this testimony would not so inflame the jurors' emotions as to interfere with their fair and dispassionate assessment of the
evidence of defendant's guilt.

Defendant argues that admission of the testimony that Tiffany Frizzell
was in Long Beach to begin her college studies denied him various rights

Pet. App. 201

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 26 of 42 Page ID #:9411

1!. KIPP

1125

PEOPLE V. KIPP

{. 2001]

26 Cal.4th llOO; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

1g the

1ple v.
l 897]

under the state and federal Constitutions, but he did not object on these
grounds in the trial court, and thus these constitutional issues are not
preserved for appellate review. (People v. Earp, supra, 20 Ca1.4th at p. 878.)

:early
hether
m she
m that
in her
JY the
e who
;ation.
ot say
:ent to

We reject also defendant's related contention that his trial counsel, by
failing to base his objection on constitutional grounds, denied him his
constitutional right to the effective assistance of counsel. Defendant does not
argue here that there are constitutional standards of admissibility more
exacting than the statutory standards imposed by the Evidence Code. Because the evidence satisfied applicable statutory admission standards, an
objection on constitutional grounds would have lacked merit. Accordingly,
defendant was not denied his right to effective assistance of counsel by
counsel's failure to cite constitutional grounds in making his objection.
III.

the
under
:e was
eate a
ect on

Evidence and Instruction Concerning Escape Attempts

~d

~Evid.

refer:ioned
>f the
stead,
ttirely
error
al.4th
1995)
atrick
)

At the guilt phase, the defense requested an offer of proof from the
prosecution on evidence of defendant's attempted escape from the Los
Angeles County jail. After the prosecutor described the testimony he proposed to introduce on this incident, the defense objected to the proposed
evidence, citing Evidence Code section 352 and objecting with particular
vehemence to evidence of any statements defendant had made. The trial
court ruled that the prosecution could introduce defendant's statement that
he would have been gone by morning if the deputies had not stopped him,
but the trial court ruled inadmissible at the guilt phase any statements by
defendant threatening harm to the deputies. Otherwise, the trial court overruled the defense objection to evidence of the attempted escape. The trial
court instructed the jury that an attempted escape, although not sufficient to
establish guilt, could be considered in deciding the question of guilt or
innocence.

;light,
mdue
ng to
.splay
of its
emo•f the

(8) Defendant contends that the trial court erred in admitting evidence of
the attempted escape from the Los Angeles County jail, that the trial court
should also have excluded evidence of defendant's planning for an escape
from the Orange County jail, and that the trial court should not have
instructed the jury it could consider escape attempts in deciding his guilt or
innocence. Recognizing that the defense did not object at trial to evidence of
the Orange County jail incident, defendant contends that his trial counsel
rendered constitutionally ineffective assistance by failing to make this
objection.

izzell
rights

We apply the deferential abuse of discretion standard when reviewing a
trial court's ruling under Evidence Code section 352. (People v. Cudjo,

m the

Pet. App. 202

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 27 of 42 Page ID #:9412

1126

PEOPLE

v.

KIPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

supra, 6 Cal.4th at p. 609.) Applying that standard, we discern no abuse of
discretion in the trial court's guilt phase ruling allowing evidence of the Los
Angeles County jail escape attempt but excluding evidence of defendant's
accompanying threats against jail personnel.

Defendant concedes that ordinarily an attempt or plan to escape from jail
pending trial is relevant to establish consciousness of guilt (People v. Morris
(1991) 53 Cal.3d 152, 196 [279 Cal.Rptr. 720, 807 P.2d 949], disapproved
on another ground in People v. Stansbury (1995) 9 Cal.4th 824, 830, fn. 1 [38
Cal.Rptr.2d 394, 889 P.2d 588]; People v. Terry (1970) 2 Cal.3d 362, 395
(85 Cal.Rptr. 409, 466 P.2d 961]), but he argues that any such relevance is
diminished here to the point of insignificance because at the time of the
attempted escape defendant was under a judgment of death for the Orange
County murder of Antaya Howard, and so his desire to escape execution for
that crime provided a complete and powerful motive for the escape attempt,
quite apart from any consciousness of guilt on the capital charge for the
murder of Tiffany Frizzell. We agree that the existing death judgment
diminished the probative value of the attempted escape as evidence of
consciousness of guilt on the charges at issue here, but we do not agree that
the probative value was so diminished as to lack any practical significance.
Defendant was not facing imminent execution. Rather, as defendant surely
knew, his automatic appeal, petitions for habeas corpus in the state and
federal courts, and application for executive clemency would prevent execution for a period of years and afforded defendant some reason to hope that
the execution would never occur. In this situation, defendant's decision to
attempt an escape might well have been significantly influenced by consciousness that he was guilty of the charged capital murder of Tiffany
Frizzell and would likely incur a second death judgment.
Balanced against this probative value, the risk of undue prejudice was
slight. Apart from a brief resistance when defendant reentered his cell, the
escape attempt involved no overt violence. The trial court could reasonably
conclude, in the exercise of its broad discretion, that this evidence, would not
so inflame the jurors' emotions as to interfere with their fair and dispassionate assessment of the evidence of defendant's guilt. The trial court did not
abuse its discretion in admitting the evidence or in instructing the jury that it
could consider this evidence as one factor in deciding defendant's guilt or
innoc~nce of the charged offenses.
Defense counsel's failure to object to evidence of defendant's earlier
planning efforts for an escape from the Orange County jail does not establish
ineffective assistance of counsel, because defendant fails to establish prejudice. Had counsel objected under Evidence Code section 352, the trial court

Pet. App. 203

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 28 of 42 Page ID #:9413

K.Jpp

PEOPLE V. K.Jpp

2001]

26 Cal.4th 1100; 113 CaLRptr.2d 27; 33 P.3d 450 [Nov. 2001]

1127

could have overruled the objection, reasonably concluding, in the exercise of
its broad discretion, that this evidence, like the evidence of the attempted
escape from the Los Angeles County jail, had significant probative value and
would not so inflame the jurors' emotions as to interfere with their fair and
dispassionate assessment of the evidence of defendant's guilt. This escape
never got beyond the planning stage, and the plans did not include any acts
of violence. Thus, this evidence had even less potential to inflame the jurors'
emotions than the evidence of the attempted escape from the Los Angeles
County jail.
Moreover, even if we assume the trial court would have exercised its
discretion under Evidence Code section 352 to exclude evidence of the
escape attempt at the guilt phase, it is not reasonably probable that the jury
would have returned guilt verdicts more favorable to defendant. The evidence of defendant's guilt included his own admissions that he raped and
killed Tiffany Frizzell, the presence of his fingerprint in her motel room and
on her book inside the bag discarded in an alley, and his possession and sale
of Frizzell's personal stereo and cassette player. Given the strength of the
prosecution's case, and the absence of any affirmative defense evidence of
innocence, the jury's knowledge of the escape would not have contributed in
any significant way to the guilt verdicts.

was
the

Defendant argues that counsel should at least have moved to exclude
references to the planned participation of Linda Kipp's son in the escape
attempt because evidence that defendant intended to involve a child was
particularly inflammatory. We do not agree that counsel's failure to so move
establishes a violation of the constitutional right to the effective assistance of
counsel. Having reviewed the trial evidence and the prosecutor's argument
on this point, we find nothing to indicate to the jury that Linda Kipp's son
was a minor rather than an adult. Because the jury was never told that Linda
Kipp's son was not an adult, and because there was no evidence that he was
even aware of the planned escape, much less participated in the planning,
there was no sound basis for a motion to exclude reference to his planned
participation in the escape attempt, and trial counsel's performance was not
deficient by reason of their failure to make this groundless motion.
Defendant's claimed instructional error is contingent on his claim of error
• in admission of the evidence of the attempted escapes. In other words, he
argues only that if the trial court had excluded the attempted escape evidence, the instruction concerning the jury's consideration of that evidence
would not have been proper. Because we have found no error in the
admission of the evidence, we reject the related claim of instruction error.
The instruction correctly states the law. (See People v. Carrera (1989) 49

Pet. App. 204

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 29 of 42 Page ID #:9414
1128

PEOPLE

v.

KJ:pp

26 Cal.4th 1100; 113 Cai.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

Cal.3d 291, 313-314 [261 Cal.Rptr. 348, 777 P.2d 121]; People v. Williams
(1988) 44 Cal.3d 1127, 1144-1145 [245 Cal.Rptr. 635, 751 P.2d 901].)
IV.

Sufficiency of the Evidence of Robbery

(9a) Defendant contends the evidence at trial was insufficient to support
the verdict finding him guilty of robbery. In particular, he argues that there
was no substantial evidence· that he formed the intent to steal before or
during, rather than after, he applied force to the victim, Tiffany Frizzell. He
also argues that this deficiency requires reversal of his first degree murder
conviction, because felony murder in the commission of a robbery was one
of the theories under which the charge of murder was submitted to the jury.
(10) To determine the sufficiency of the evidence to support a conviction, an appellate court reviews the entire record in the light most favorable
to the prosecution to determine whether it contains evidence that is reasonable, credible, and of solid value, from which a rational trier of fact could
find the defendant guilty beyond a reasonable doubt. (People v. Marshall
(1997) 15 Cal.4th 1, 34 [61 Cal.Rptr.2d 84, 931 P.2d 262]; People v. Wader,
supra, 5 Cal.4th at p. 640.)

(9b) "To support a robbery conviction, the evidence must show that the
requisite intent to steal arose either before or during the commission of the
act of force." (People v. Marshall, supra, 15 Cal.4th at p. 34.) Here, we are
satisfied that a rational trier of fact could have found beyond a reasonable
doubt that defendant intended to steal from Tiffany Frizzell when he
strangled her to death. We have explained that when presented with evidence
that a defendant killed another and took substantial property from the victim
at the time of the killing, a jury ordinarily may reasonably infer that the
defendant killed for the purpose of robbery. (People v. Turner (1990) 50
Cal.3d 668, 688 [268 Cal.Rptr. 706, 789 P.2d 887].) We have recognized
that a jury may reasonably draw this inference when the evidence shows that
the defendant also raped or attempted to rape the victim at the time of the
killing. (People v. Kelly (1992) 1 Cal.4th 495, 529 [3 Cal.Rptr.2d 677, 822
P.2d 385].) In that situation, a jury may infer that the defendant killed for
purposes of both rape and robbery. (Ibid.)

Here, there was evidence that when defendant strangled Tiffany Frizzell,
he took her personal stereo and her cassette player, both of which he later
sold to ,a secondhand goods dealer for $70. From this evidence, the jury
could reasonably infer that at least one reason defendant killed Frizzell was
to accomplish the taking of these items.
We are unpersuaded by defendant's argument that this inference is unreasonable in light of defendant's failure to take other property of value from

Pet. App. 205

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 30 of 42 Page ID #:9415

PEOPLE

v.

KJpp

1129

26 Cal.4th llOO; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

the victim, including $130 in cash found in a dresser in her motel room. The
relatively undisturbed condition of the bed on which the victim's body was
found, and the absence of any indication of a struggle having taken place in
the room suggests that defendant killed the victim elsewhere. (See People v.
Kipp, supra, 18 Ca1.4th at p. 370.) When defendant returned the victim's
body to her motel room, he evidently did not search the room, perhaps
because he feared detection and was in a hurry, or perhaps because he did
not suspect that it contained anything of value. Defendant's failure to search
the motel room for additional property to steal after he had killed Frizzell at
another location does not establish that he lacked the intent to steal when he
killed her.
We note in addition that even were we to conclude that the evidence is
insufficient to support the robbery charge, this conclusion would not affect
the validity of the first degree murder conviction. Because the jury found
true the special circumstance allegation that defendant killed Frizzell during
the commission of rape (while being unable to reach a verdict on the special
circumstance allegation of murder during the commission of robbery), we
may be confident that the jury rested its first degree murder verdict on the
theory of felony murder in the commission of rape, and not on the theory of
felony murder during the commission of robbery. (See People v. Marshall,
supra, 15 Cal.4th at pp. 37-38; People v. Kelly, supra, 1 Cal.4th at p. 531.)
Defendant claims that his conviction of robbery on insufficient evidence
violated his rights under the state and federal Constitutions to due process, to
present a defense, and to a reliable verdict. Having concluded that the
evidence of robbery is sufficient, we reject these derivative constitutional
claims.
V.

Prosecutorial Misconduct in Argument

(lla) During closing argument for the guilt phase, the prosecutor said:
"So when you think about the elements of the offense of murder, as you will
when you go back to deliberate, and as we, perhaps in somewhat of a legal
abstract sense, the element satisfied a human being was killed. [~] If you
would, think for a moment about what it means. A living, breathing human
being had all of that taken away."

Defense counsel promptly objected and, at the bench, stated that the
argument was "an appeal to sympathy." The prosecutor replied that the jury
should understand that murder is "a grim business" but also that he was
"done with that part of [his] argument" and would move on to another point.
The trial court said the prosecutor "would be well advised to do that," adding

Pet. App. 206

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 31 of 42 Page ID #:9416

1130

PEOPLE

v.

KIPP

26 Cal.4th llOO; ll3 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

that the court had been "a little concerned" about the direction of the
prosecutor's argument and noting that the jury would be instructed not to be
guided by passion or sympathy. The prosecutor then resumed the argument
by addressing a different point.
"[A]n appeal for sympathy for the vtchm is out of place during an
objective determination of guilt." (People v. Stansbury (1993) 4 Cal.4th
1017, 1057 [17 Cal.Rptr.2d 174, 846 P.2d 756], revd. on other grounds sub
nom. Stansbury v. California (1994) 511 U.S. 318 [114 S.Ct. 1526, 128
L.Ed.2d 293]; accord, People v. Arias (1996) 13 Cal.4th 92, 160 [51
tal.Rptr.2d 770, 913 P.2d 980]; People v. Pensinger (1991) 52 Cal.3d 1210,
1250 [278 Cal.Rptr. 640, 805 P.2d 899]; People v. Fields (1983) 35 Cal.3d
329, 362 [197 Cal.Rptr. 803, 673 P.2d 680].) The prosecutor's argument,
inviting the jury to reflect on all that the victim had lost through her death,
was an appeal for sympathy for the victim, and therefore it was improper at
the guilt phase of this capital trial.
(12) "To preserve for appeal a claim of prosecutorial misconduct, the
defense must make a timely objection at trial and request an admonition;
otherwise, the point is reviewable only if an admonition would not have
cured the harm caused by the misconduct." (People v. Price (1991) 1 Cal.4th
324, 447 [3 Cal.Rptr.2d 106, 821 P.2d 610].) (llb) Here, the defense
made a timely objection to the prosecutor's improper argument but did not
request an admonition. Because the trial court indicated that the jury would
be instructed "not to be guided by passion or sympathy," the defense may
have concluded that the instruction would function as an admonition.

In any event, reversal is not required. The prosecutor's comment was
brief, mild, and not repeated. It did not "add cumulative impact to other
errors in a crucial area of the case." (People v. Pensinger, supra, 52 Cal. 3d at
p. 1250.) The evidence that defendant raped and killed Tiffany Frizzell was
very strong and generally uncontradicted. It is not reasonably probable that
the jury would have reached a result more favorable to defendant absent the
prosecutor's misconduct. (See People v. Fields, supra, 35 Cal.3d at p. 363.)
Defendant claims that the prosecutor's misconduct deprived him of his
rights under the federal and state Constitutions to due process, equal protection, an impartial jury, and reliable guilt and penalty verdicts. Because he did
not object on these grounds in the trial court, the constitutional claims are
not preserved for appellate review. (People v. Earp, supra, 20 Ca1.4th at p.
878.) In any event, the prosecutor's comment did not infect the trial with
such unfairness as to make defendant's conviction a denial of due process
(see Darden v. Wainwright (1986) 477 U.S. 168, 181 [106 S.Ct. 2464,
2471-2472, 91 L.Ed.2d 144]) or to render the verdicts unreliable.

Pet. App. 207

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 32 of 42 Page ID #:9417

v.

KJpp

PEOPLE

2001]

26 Cal.4th llOO; ll3 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

~ the
to be
ment

VI.

KJpp

1131

Felony-murder Instruction

(13) Defendant contends that the trial court erred in instructing the jury
on felony murder when the information charged only murder with malice.
We disagree.

g an

1.4th
; sub
128
[51
210,
d.3d
1ent,

The information charged defendant with murder in these terms: "The said
MARTIN JAMES KIPP is accused . . . of the crime of MURDER, in violation of
Section 187, of the California Penal Code, a felony, committed as follows:
That the said MARTIN JAMES KIPP . . . did willfully, unlawfully, and with
malice aforethought murder Tiffany Frizzell, a human being."
A pleading charging murder in these terms adequately notifies a defendant
of the possibility of conviction of first degree murder on a felony-murder
theory. (People v. Gallego (1990) 52 Cal.3d 115, 188 [276 Cal.Rptr. 679,
802 P.2d 169].) Defendant mistakenly relies on a statement in the plurality
opinion in People v. Dillon (1983) 34 Cal.3d 441 [194 Cal.Rptr. 390, 668
P.2d 697] that the "two kinds of murder"-that is, felony murder and murder
with express or implied malice-"are not the 'same' crimes." (ld. at p. 476,
fn. 23 (plur. opn. of Mosk, J.).) As we have since explained, however, this
means only that the two forms of murder have different elements even
though there is but a single statutory offense of murder. (People v. Carpenter
(1997) 15 Cal.4th 312, 394-395 [63 Cal.Rptr.2d 1, 935 P.2d 708]; People v.
Pride (1992) 3 Cal.4th 195, 249 [10 Cal.Rptr.2d 636, 833 P.2d 643].)
"Felony murder and premeditated murder are not distinct crimes . . . ."
(People v. Davis (1995) 10 Cal.4th 463, 514 [41 Cal.Rptr.2d 826, 896 P.2d
119].)

~ath,

er at
. the
tion;
1ave
l.4th
ense
not
ould
may
was
d at
was
that
the
.)

e

Because of the different forms or varieties of murder, we have acknowledged that an information charging murder without elaboration may not
always provide notice sufficient to afford the due process of law guaranteed
by the Fourteenth Amendment to the federal Constitution. (People v. Gallego, supra, 52 Cal.3d at p. 189; People v. Murtishaw (1981) 29 Cal.3d 733,
751, fn. 11 [175 Cal.Rptr. 738, 631 P.2d 446].) Here, however, defendant
may not complain of inadequate notice. The information charged defendant
with rape and robbery, as well as murder, and it alleged the special circumstances of murder in the commission of rape and robbery. The prosecution
introduced evidence supporting each crime charged and each special circumstance allegation. The defense made no request for a continuance on the
basis of inadequate notice, "[n]or has defendant persuasively explained how
the defense strategy was significantly affected by the addition of the felonymurder rape theory." (People v. Davis, supra, 10 Ca1.4th at p. 513.) In any
event, defendant waived any claim of insufficient notice by not moving to

Pet. App. 208

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 33 of 42 Page ID #:9418

PEOPLE

1132

v.

KJ:pp

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

reopen when he learned that the court would instruct the jury on felony
murder. (People v. Memro (1995) 11 Cal.4th 786, 869 [47 Cal.Rptr.2d 219,
905 P.2d 1305].)
We have previously rejected defendant's contention that the jury must
unanimously agree on a theory of first degree murder as either felony murder
or murder with premeditation and deliberation. (People v. Riel (2000) 22
Cal.4th 1153, 1200 [96 Cal.Rptr.2d 1, 998 P.2d 969]; People v. Millwee
(1998) 18 Cal.4th 96, 160-161 [74 CaLRptr.2d 418, 954 P.2d 990].)
VII.

Cumulative Effect of Asserted Guilt Phase Errors

Defendant argues that even if no single error requires reversal of the jury
verdicts and findings returned at the guilt phase, the cumulative effect of
guilt phase errors must be deemed sufficiently prejudicial to warrant this
remedy. Apart from a single instance of prosecutorial misconduct, which we
have found nonprejudicial, defendant has failed to demonstrate that error
occurred at the guilt phase. Accordingly, there could be no cumulative
effect.
PENALTY PHASE ISSUES

VIII.

Defendant's September 9 Letter to His Wife

(14) As part of its case in rebuttal at the penalty phase, and over defense
objection, the prosecutor introduced a redacted copy of the September 9
letter that defendant wrote to his wife, Linda Kipp, and that was intercepted
by jail personnel approximately one week before they intercepted the September 15 letter that the prosecutor introduced at the guilt phase. In the
September 9 letter, defendant wrote of his desire to rape women deputies and
to kill district attorneys and their families. Defendant contends the trial court
erred in overruling the defense objection to this evidence, arguing that the
probative value of the September 9 letter was overwhelmed by its prejudicial
impact on the jury.

We apply the deferential abuse of discretion standard when reviewing a
trial court's ruling under Evidence Code section 352. (People v. Cudjo,
supra, 6 Ca1.4th at p. 609.) Applying that standard, we discern no abuse of
discretion in the trial court's penalty phase ruling allowing in evidence the
September 9 letter. The letter was relevant to rebut defense evidence that
defendant committed the two capital murders during a relatively brief period
of aberrant behavior, that he had since expressed regret and shame for the
murders, and that he was unlikely to commit additional offenses if imprisoned for life. As with the September 15 letter, defendant fails to persuade us

Pet. App. 209

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 34 of 42 Page ID #:9419

v.

PEOPLE

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

ny
9,

that this probative value was greatly diminished by the timing of the
admission, coming a few weeks after a jury had returned a penalty verdict of
death against defendant for the murder of Antaya Howard. Although defendant may well have been angry, frustrated, and discouraged at that time,
defendant does not plausibly explain why the jury could not properly
consider these emotions in deciding the appropriate weight to give the
evidence. The evidence was properly admitted in rebuttal. (See People v.
Mitcham (1992) 1 Cal.4th 1027, 1072-1073 [5 Cal.Rptr.2d 230, 824 P.2d
1277].)

1St

ler

22
ee

ry
of
liS

'!ole

·or
ve

Defendant contends that the trial court's ruling admitting the September 9
letter into evidence denied him various rights under the state and federal
Constitutions, but he did not object on these grounds in the trial court, and
he does not argue here that there are constitutional standards of admissibility
more exacting than the statutory standards imposed by the Evidence Code.
Having concluded that the evidence was properly admitted under Evidence
Code section 352, we also reject these belated and derivative constitutional
claims.
IX.

se
9
ed
phe
nd
lrt
he

tal
a
;0,

of
he
tat

ld
lle

.sus

KIPP

1133

PP

)1]

Evidence of Threat to Sheriff's Sergeant

(15) During the penalty phase, the defense moved to exclude evidence
that defendant threatened to kill a sheriff's sergeant who assisted in subduing
him after his attempted escape from the Los Angeles County jail. The
defense argued that the threat did not violate any law and thus was not
"criminal activity" within the meaning of section 190.3, factor (b). The
prosecution argued in reply that the threat was relevant as part of the escape
attempt. The trial court denied the motion. Defendant contends the ruling
was reversible error.

At the penalty phase, the jury is permitted to consider "[t]he presence or
absence of criminal activity by the defendant which involved the use or
attempted use of force or violence or the express or implied threat to use
force or violence." (§ 190.3, factor (b).) As used in this factor, the term
"criminal activity" includes only conduct that violates a penal statute.
(People v. Rodrigues (1994) 8 Cal.4th 1060, 1169 [36 Cal.Rptr.2d 235, 885
P.2d 1]; People v. Boyd (1985) 38 Cal.3d 762, 772 [215 Cal.Rptr. 1, 700 P.2d
782].) Here, respondent does not argue that defendant's threat to kill the
sheriff's sergeant, by itself, violated a penal statute, 3 but instead that the
threat was admissible as part of the attempted escape, which did. We agree.
Under section 190.3, factor (b), the prosecution may introduce evidence to
show not only the conduct establishing the criminal violation, but also
3

Section 422, which defines the offense of making criminal threats, took effect on September 26, 1988, some nine months after defendant made the threats at issue here.

Pet. App. 210

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 35 of 42 Page ID #:9420

PEOPLE

1134

v. KlPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

evidence of any relevant surrounding circumstances. (People v. Kirkpatrick,
supra, 7 Cal.4th at pp. 1013-1014; People v. Ashmus (1991) 54 Cal.3d 932,
985 [2 Cal.Rptr.2d 112, 820 P.2d 214].) In particular, threats made while in
custody immediately after an otherwise admissible violent criminal incident
are themselves admissible under factor (b). (People v. Welch (1999) 20
Cal.4th 701, 759 [85 Cal.Rptr.2d 203, 976 P.2d 754]; People v. Montiel
(1993) 5 Ca1.4th 877, 916-917 [21 Cal.Rptr.2d 705, 855 P.2d 1277].) Here,
defendant's threats against the sheriff's sergeant were relevant to an understanding of the violent potential of defendant's attempted escape.
Defendant contends that the trial court's ruling admitting evidence of
these threats denied him various rights under the state a1;1d federal Constitutions, but he did not object on these grounds in the trial court, and he does
not argue here that there are constitutional standards of admissibility more
exacting than the statutory standards imposed by the Evidence Code. Having
concluded that the evidence was properly admitted under statutory evidence
standards, we also reject these belated and derivative constitutional claims.
X.

Evidence of Defendant's References to Satan

(16) Defendant contends the trial court erred in admitting evidence that
he regarded Satan as his savior. We disagree.

At the guilt phase, the trial court agreed to delete references to Satan in
the September 15 letter, but the court also ruled that these references would
be admissible at the penalty phase. (See ante, at pp. 1121, 1122.) Defendant
contends that this ruling is erroneous because the references to Satan do not
tend to establish any circumstance in aggravation. When this issue was
discussed in the trial court, the defense argued that the references to Satan
were not relevant to any statutory aggravating factor. The prosecutor replied
that the defense would place defendant's character in issue at the penalty
phase, and that evidence about defendant's favorable regard for Satan would
then be admissible in rebuttaL The court ruled it would allow the references
to Satan "at the penalty phase under factor k."
Defendant is correct that character evidence under section 190.3, factor
(k), can only be mitigating, and therefore the prosecution may not introduce
evidence of defendant's bad character as part of its case in aggravation at the
penalty phase. (People v. Boyd, supra, 38 Cal.3d at pp. 774-775.) Once the
defendant puts his general character in issue at the penalty phase, however,
the prosecutor may rebut "with evidence or argument suggesting a more
balanced picture of his personality." (People v. Rodriguez (1986) 42 Cal.3d
730, 791 [230 Cal.Rptr. 667, 726 P.2d 113].) Here, it was understood that

Pet. App. 211

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 36 of 42 Page ID #:9421

lPP
101]

ck,
32,
in
:mt
20
'iel
re,
er-

of
tules
>re
ng

PEOPLE

v.

KlPP

1135

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

defendant intended to place his general character in issue at the penalty
phase, and in this context the trial court's ruling properly permitted the
prosecution to respond with rebuttal evidence about defendant's views on
Satan.
The prosecution elicited additional evidence about defendant's view of
Satan during questioning about defendant's threats in January 1988, immediately after his unsuccessful attempt to escape from the Los Angeles County
jail, to kill a sheriff's sergeant who had assisted in subduing him. The
witness testified, without defense objection, that defendant "swore . . . to
his savior, Satan," that he would kill the sergeant "in a very big way."
Absent an objection, the admissibility of this brief reference to Satan is not
preserved for appellate review. (Evid. Code, § 353, subd. (a).) In any event,
the evidence was admissible as part of the circumstances of the escape
attempt and threats. (People v. Kirkpatrick, supra, 7 Cal.4th at pp. 10131014.)

tCe

lS.

1at

in
tld
mt
tOt

as
an
ed
ty
ld
es
or
ce
1e
1e
~r.

re
~d

at

Defendant's September 9 letter to his wife, admitted at the penalty phase,
included two references to Satan, including a statement that "Satan has
helped me rejuvanate my energie's in a working way." In objecting to the
September 9 letter in its entirety, defense counsel argued that the prosecutor
was "seeking to get in some enormous prejudicial evidence about Satan
which is [sic: has] virtually no probative value."
Assuming that this remark is sufficient to preserve a specific objection
under Evidence Code section 352 to the September 9 letter's references to
Satan, we conclude that the trial court did not err in overruling the objection.
Defendant wrote the September 9 and September 15 letters in 1987, four
years after killing Tiffany Frizzell and around 15 months before trial began.
Thus, the jury could properly consider these letters as bearing on defendant's
claimed feelings of remorse at the time of trial. A favorable view of the
biblical figure of Satan is generally understood as a symbolic rejection of the
values of love and compassion, and as indicating acceptance of the contrary
values of hatred and violence, with a consequent rejection of all moral
restrictions on crimes such as murder and rape. (See McCorkle v. Johnson
(11th Cir. 1989) 881 F.2d 993, 995-996.) This abhorrent value system is
inconsistent with defendant's claimed remorse and shame for the murders of
his two victims, and thus the evidence was properly admitted in rebuttal.
(See People v. Jones (1998) 17 Cal.4th 279, 306-307 [70 Cal.Rptr.2d 793,
949 P.2d 890].) If defendant's conception of Satan encompassed qualities
eonsistent with an attitude of remorse, he was free to articulate them.
XI.

Photograph of Antaya Howard's Body

(17) At the penalty phase, the prosecution sought to introduce in evidence two photographs of Antaya Howard's body as police officers found it

Pet. App. 212

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 37 of 42 Page ID #:9422

1136

PEOPLE

v.

KJ:pp

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

in her car. The prosecutor explained that he was offering one photograph to
show the blood on the forearm and the other to show both the position of the
clothing on her body and the position of the body in the hatchback area of
the car. The defense objected to both photographs under Evidence Code
section 352, remarking that the defense was not disputing that defendant had
killed Howard. The trial court sustained the objection to the first photograph
because "it's pretty grotesque as far as the face" and "the neck is extremely
black and bloated." But the court overruled the objection as to the second
photograph, remarking that it was a "very close question."
"The admission of photographs of a victim lies within the broad discretion
of the trial court when a claim is made that they are unduly gruesome
or inflammatory." (People v. Crittenden (1994) 9 Cal.4th 83, 133 [36
Cal.Rptr.2d 474, 885 P.2d 887].) On appeal, we apply the deferential abuse
of discretion standard when reviewing the trial court's ruling. (People v.
Cudjo, supra, 6 Cal.4th at p. 609.) Applying that standard here, we find no
abuse of the trial court's discretion. By showing the position of the victim's
clothing on her body, some of her injuries, and the position of her body as it
was folded into the small hatchback area behind the rear seat of the car, the
photograph was relevant to assist the jury in assessing the aggravating force
of the murder and rape or attempted rape of Antaya Howard. (See People v.
Wader, supra, 5 Cal.4th at p. 655.) Although the photograph, which we have
reviewed, is somewhat gruesome, as murder victim photographs almost
invariably are, it is not shocking or inflammatory. The trial court carefully
weighed the potential prejudice and excluded another photograph that was
more gruesome in its depiction of the victim's face.
Defendant contends that the trial court's ruling admitting the photographs
denied him various rights under the state and federal Constitutions, but he
did not object on these grounds in the trial court, and he does not argue here
that there are constitutional standards of admissibility more exacting than the
statutory standards imposed by the Evidence Code. Having concluded that
the evidence was properly admitted under statutory evidence standards, we
also reject these belated and derivative constitutional claims.
XII.

California Death Eligibility Law

Defendant contends that California's death penalty law violates the state
and f~deral Constitutions because it fails to adequately narrow the class of
death-eligible defendants. We have repeatedly rejected this contention (e.g.,
People v. Mendoza (2000) 24 Cal.4th 130, 191-192 [99 Cal.Rptr.2d 485, 6
P.3d 150]; People v. Lucero (2000) 23 Cal.4th 692, 740 [97 Cal.Rptr.2d 871,
3 P.3d 248], and cases cited) and defendant does not persuade us to
reconsider our previous rulings on this issue.

Pet. App. 213

,

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 38 of 42 Page ID #:9423

PEOPLE

v.

KIPP

1137

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

Defendant argues in particular that California's death penalty law fails to
appropriately narrow the death-eligible class because it gives prosecutors
unreviewable discretion in charging special circumstances and electing to
seek the death penalty. For reasons we have previously explained, we
disagree. (People v. Earp, supra, 20 Cal.4th at p. 905; People v. Carpenter,
supra, 15 Cal.4th at p. 421; People v. Arias, supra, 13 Cal.4th at pp. 189-190;
People v. Crittenden, supra, 9 Cal.4th at p. 152; People v. Kirkpatrick, supra,
7 Cal.4th at p. 1024.)
XIII.

Instructions on Penalty Detennination

Defendant contends that the standard penalty phase jury instructions given
in this case did not provide the jury with an adequate framework for
resolving the capital sentencing decision. We have rejected each of the
arguments defendant makes in support of this contention. In particular, we
have held that the trial court need not instruct the jury that there is a
"presumption of life" (People v. Carpenter (1999) 21 Cal.4th 1016, 1064 [90
Cal.Rptr.2d 607,988 P.2d 531]; People v. Arias, supra, 13 Cal.4th at p. 190);
that the prosecution has the burden of persuasion on the issue of penalty
(People v. Kipp, supra, 18 Cal.4th at p. 381); that the prosecution must prove
the existence of particular aggravating circumstances beyond a reasonable
doubt (People v. Box (2000) 23 Cal.4th 1153, 1216 [99 Cal.Rptr.2d 69, 5
P.3d 130]; People v. Lucero, supra, 23 Cal.4th at p. 741); that the jury must
be persuaded beyond a reasonable doubt that death is the appropriate penalty
(People v. Bemore (2000) 22 Cal.4th 809, 859 [94 Cal.Rptr.2d 840, 996 P.2d
1152]; People v. Kipp, supra, at p. 381); or that the jurors must unanimously
agree on the existence of particular aggravating circumstances (People v.
Kipp, supra, at p. 381).
XIV.

Death Selection Process

Defendant challenges California's sentencing process in capital cases,
claiming it "suffers from a wide variety of statutory, procedural and substantive defects." We have previously rejected each of the arguments defendant
raises in support of this contention.
The use of section 190.3, factor (a), which permits the jury to consider in
aggravation "[t]he circumstances of the crime of which the defendant was
convicted in the present proceeding and the existence of any special circumstance found to be true," is not unconstitutionally vague or imprecise, nor
does it improperly weight the scales in favor of death. (People v. Mendoza,
supra, 24 Cal.4th at p. 192; People v. Jenkins (2000) 22 Cal.4th 900,
1050-1053 [95 Cal.Rptr.2d 377, 997 P.2d 1044]; People v. Hawkins (1995)

Pet. App. 214

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 39 of 42 Page ID #:9424

1138

PEOPLE V. KJpp

26 Cal.4th llOO; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

10 Cal.4th 920, 964 [42 Cal.Rptr.2d 636, 897 P.2d 574].) Section 190.3,
factor (b), which permits the jury to consider in aggravation "[t]he presence
or absence of criminal activity by the defendant which involved the use or
attempted use of force or violence or the express or implied threat to use
force or violence," does not violate state or federal constitutional requirements of due process, equal protection, or reliability in death sentencing
(People v. Anderson (2001) 25 Cal.4th 543, 584 [106 Cal.Rptr.2d 575, 22
P.3d 347]; People v. Jenkins, supra, 22 Cal.4th at p. 1054; People v. Barnett,
supra, 17 Cal.4th at p. 1178), and the standard jury instructions given here
provided adequate guidance on the use of this factor (People v. Seaton
(2001) 26 Cal.4th 598, 687 [110 Cal.Rptr.2d 441, 28 P.3d 175]). Section
190.3, factors (d) (mental or emotional disturbance) and (h) (mental disease
or defect, or intoxication), in their use of the word "extreme" and in their
limitation to the time of the offense, do not impermissibly restrict the jury's
consideration of relevant mitigating circumstances or make the factors impermissibly vague. (People v. Anderson, supra, at p. 601; People v. Riel,
supra, 22 Cal.4th at p. 1225; People v. Jenkins, supra, at pp. 1054-1055;
People v. Welch, supra, 20 Cal.4th at pp. 768-769.)
The trial court is not required to omit inapplicable factors when instructing the jury. (People v. Riel, supra, 22 Cal.4th at p. 1225; People v. Kipp,
supra, 18 Cal.4th at p. 381.) Nor is the court ,required to instruct on the
meaning of a sentence of life imprisonment without possibility of parole.
(People v. Sakarias (2000) 22 Cal.4th 596, 641 [94 Cal.Rptr.2d 17, 995 P.2d
152]; People v. Holt (1997) 15 Cal.4th 619, 688-689 [63 Cal.Rptr.2d 782,
937 P.2d 213].)
'
{18) The trial court instructed the jury in these terms: "To return a
judgment of death, each of you must be persuaded that the aggravating
factors are so substantial in comparison with the mitigating factors that it
warrants death instead of life without parole." When the jury is instructed in
this way, the trial court need not also instruct the jury to return a verdict of
life without parole if the aggravating circumstances do not outweigh the
mitigating circumstances. (People v. Kipp, supra, 18 Cal. 4th at p. 381.)

Defendant contends the jury instructions were defective in failing to state
that the jury could return a verdict of life without parole even if the
circumstances in aggravation outweighed those in mitigation. Although such
an instruction is not required (People v. Kipp, supra, 18 Ca1.4th at p. 381),
the trial court gave a special instruction so stating: "Each juror is free to
assign whatever moral or sympathetic value he or she deems appropriate to
each and all the various factors before him. You are free to reject death as
inappropriate under the circumstances, even if you believe that the aggravating evidence predominates over the mitigating."

Pet. App. 215

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 40 of 42 Page ID #:9425

PEOPLE

v. KJpp

1139

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

XV.

Appellate Review Process

(19) Defendant raises various challenges to the process for appellate
review of death judgments in this state. As we have previously explained,
the process is not constitutionally defective in failing to provide for comparative or intercase proportionality review. (People v. Lucero, supra, 23
Cal.4th at p. 741.) Although a death sentence is subject to intracase proportionality review (id. at pp. 739-740), defendant makes no claim that his
sentence is grossly disproportionate to his moral culpability for the crimes he
committed, and we conclude that it is not.

Defendant contends that the attorney appointed to represent him on this
appeal is "burdened by an unconstitutional conflict of interest" because the
same attorney was also appointed to investigate potential claims to be raised
in a petition for a writ of habeas corpus. 4 Defendant analogizes this dual
representation on appeal and in a proceeding on a habeas corpus petition to
representation by the same attorney at trial and on appeal, a situation in
which courts have recognized "an inherent conflict" because counsel "is in
the untenable position of urging his own incompetency." (People v. Bailey
(1992) 9 Cal.App.4th 1252, 1254-1255 [12 Cal.Rptr.2d 339]; see also Bums
v. Gammon (8th Cir. 1999) 173 F.3d 1089, 1092.)
Defendant's argument explains why habeas corpus counsel might potentially be burdened by a conflict of interest if placed in the position of urging
counsel's own incompetence as appellate counsel, 5 but it does not explain
how this dual appointment could in any way interfere with counsel's effective representation on the appeal. Thus, defendant has failed to demonstrate
that appellate counsel is burdened by an actual or potential conflict of
interest.
Defendant's claim that habeas corpus counsel is burdened by a conflict of
interest is not cognizable here on direct appeal. Moreover, it lacks merit in
any event as defendant has no right under the federal Constitution to the
4
This court no longer routinely appoints the same attorney to represent a defendant under
judgment of death on both the automatic appeal and on a petition for a writ of habeas corpus.
(See Gov. Code, § 68663 ["No counsel appointed to represent a state prisoner under capital
sentence in state postconviction proceedings shall have previously represented the prisoner at
trial or on direct appeal in the case for which the appointment is made, unless the prisoner and
counsel hpressly requests [sic] continued representation."]; Supreme Ct. Policies Regarding
Cases Arising From Judgments of Death, policy 3, std. 2-1 ["This court's appointment of
habeas corpus counsel for a person under a sentence of death shall be made simultaneously
with appointment of appellate counsel or at the earliest practicable time thereafter."]; In re
Robbins (1998) 18 Cal.4th 770, 792, fn. 13 [77 Cal.Rptr.2d 153, 959 P.2d 311].)
5
We observe, however, that this court has received petitions for writ of habeas corpus in
which counsel have asserted their own ineffectiveness on appeal.

Pet. App. 216

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 41 of 42 Page ID #:9426

1140

PEOPLE

v. KlPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001)

effective assistance of counsel in a state habeas corpus proceeding (Coleman
v. Thompson (1991) 501 U.S. 722, 756-757 [Ill S.Ct. 2546, 2568-2569, 115
L.Ed.2d 640]; Murray v. Giarratano (1989) 492 U.S. 1, 10 [109 S.Ct. 2765,
2770-2771, 106 L.Ed.2d 1] (plur. opn. of Rehnquist, C. J.); id. at pp. 14-15
[109 S.Ct. at pp. 2772-2773] (cone. opn. of Kennedy, J.)), although the
alleged deficiencies of habeas corpus counsel, whether the result of a
conflict of interest or some other cause, may be considered when determining the applicability of procedural bars (In re Sanders (1999) 21 Cal.4th 697,
719 [87 Cal.Rptr.2d 899, 981 P.2d 1038]). Thus, the appointment of a single
attorney to represent defendant on direct appeal and on any petition for writ
of habeas corpus does not violate the state or federal Constitution.
XVI.

Political Influences on California Appellate Review Process

(20) Defendant contends that the process for appellate review of death
judgments in California is dominated by political considerations and for this
reason violates the due process and equal protection guarantees of the state
and federal Constitutions. He notes that between 1979 and 1986, this court
reversed 95 percent of the death judgments it reviewed. In 1986, there was a
"strenuous and well publicized campaign to unseat [three members of this
court] at the impending retention election.'' (People v. Cox (1991) 53 Cal.3d
618, 696 [280 Cal.Rptr. 692, 809 P.2d 351].) This campaign "coalesced
around the high percentage of death penalty reversals.'' (Ibid.) The campaign
was successful, and the Chief Justice and two associate justices were removed from office and replaced by new appointees. Between July 1987 and
December 1994, this court affirmed 84 percent of death penalty cases, and
between 1990 and 1994 the affirmance rate was 94 percent.

Under the due process clause of the federal Constitution, defendant is
entitled to an impartial trial judge (Arizona v. Fulminante (1991) 499 U.S.
279, 309 [111 S.Ct. 1246, 1264-1265, 113 L.Ed.2d 302]; People v. Brown
(1993) 6 Cal.4th 322, 332 [24 Cal.Rptr.2d 710, 862 P.2d 710]), and we
assume that defendant is also entitled to have his automatic appeal decided
by appellate justices who are impartial. He is not, however, entitled to have
his appeal decided by justices who have never formed or expressed opinions
or thoughts on general topics such as the propriety of the death penalty.
"'Bias in the sense of crystallized point of view about issues of law or
policy is almost universally deemed no ground for disqualification.' " (Andrews v. Agricultural Labor Relations Bd. (1981) 28 Cal.3d 781, 790 [171
Cal.Rptr. 590, 623 P.2d 151], quoting 2 Davis, Administrative Law Treatise
(1st ed. 1958) p. 131; see also Aetna Life Insurance Co. v. Lavoie (1986) 475
U.S. 813, 821 [106 S.Ct. 1580, 1585, 89 L.Ed.2d 823]; U.S. v. Payne (9th
Cir. 1991) 944 F.2d 1458, 1476-1477.)

Pet. App. 217

Case 2:03-cv-08571-PSG Document 13-40 Filed 06/01/04 Page 42 of 42 Page ID #:9427

PEOPLE

v.

1141

KIPP

26 Cal.4th 1100; 113 Cal.Rptr.2d 27; 33 P.3d 450 [Nov. 2001]

Defendant argues, however, that the members of this court each have an
actual conflict of interest because, as defendant puts it, "for a justice of this
Court to keep his or her job, death sentences must be affirmed." Even if we
assume for argument's sake that there is some relationship between affirmance of death sentences and retention in office, defendant fails to demonstrate that a justice of this court must affirm every death sentence or any
particular death sentence, much less defendant's own sentence. Thus, defendant does not persuade us that members of this court have a disabling conflict
of interest in determining this appeal. Even if such a conflict of interest
existed, moreover, it would apply equally to all California judges and, under
the common law rule of necessity, the justices of this court would not be
disqualified. (Olson v. Cory (1980) 27 Cal.3d 532, 537 [178 Cal.Rptr. 568,
636 P.2d 532].)
XVII.

Cumulative Effect of Asserted Penalty Phase Errors

Defendant argues that even if no single error requires reversal of the
penalty verdict of death, the cumulative effect of the errors at the guilt and
penalty phases must be deemed sufficiently prejudicial to warrant this
remedy. Apart from a single instance of guilt phase prosecutorial misconduct, which we have found nonprejudicial, defendant has failed to demonstrate that error occurred at either the guilt or the penalty phase. Accordingly, there could be no cumulative effect.
DISPOSITION

The judgment is affirmed.
George, C. J., Baxter, J., Werdegar, J., Chin, J., Brown, J., and Kremer,
J., * concurred.
Appellant's petition for a rehearing was denied January 29, 2002.

*Presiding Justice of the Court of Appeal, Fourth Appellate District, Division One,
assigned by the Chief Justice pursuant to article VI, section 6, of the California Constitution.

Pet. App. 218

Pet. App. 219

Pet. App. 220

Pet. App. 221

Pet. App. 222

Pet. App. 223

Pet. App. 224

Pet. App. 225

Pet. App. 226

Pet. App. 227

Pet. App. 228

Pet. App. 229

Pet. App. 230

Pet. App. 231

Pet. App. 232

DECLARATION OF ALAN DEAN CLOW
I, Alan Dean Clow, declare:
1.

I am currently an investigator working in the Orange County Public

Defender's Office. In 1984, I was a licensed private investigator. I was hired to
work as an investigator on Martin Kipp's capital trial ·cases.
2.

After Martin Kipp's trial in Los Angeles County, I contacted and

interviewed ten of the jurors and alternates who served at that trial. Below are some
of the details of those interviews.
3.

On February 9, 1989, I spoke with Juror Otis Carl Clayton, Jr. Mr.

Clayton told me that there were somewhere between five and ten votes during
penalty phase deliberations. InitialIy, he voted as undecided.
4.

On February 9, 1989, I spoke with Juror Algertha Rivers. Ms. Rivers

told me that there were five or six votes during penalty phase deliberations. The
very first vote the jurors took, before they began deliberating, indicated there were
two jurors for death, two for life and eight who were undecided. On the final day,
the jurors took three votes. The tally on the penultimate vote was eight for death,
three for life and one undecided.
5.

On February 14, 1989, I spoke with Juror Sharon Heffher. Ms.

Heffner told me that she was a Christian and was one of the two jurors who were

1

4
I

012114

.,j:
Pet. App. 233

the last ones to change their votes from life to death. She remembered that the first
vote during penalty phase deliberations was one person for death, one for life and
ten undecided. The next day, there were five for death, four for life and three
undecided. The last day there were eleven votes for death and one for life.
6.

When asked why she voted for death, Ms. Heffuer responded" by telling

me that she researched in the Bible for the types of crimes that the defendant
committed, the Bible said individuals do not have the right to take a life, and
according to the Bible the crimes of rape and murder deserve the death penalty.
7.

Ms. Heffner felt the letters written by Mr. Kipp that were introduced

during the trial hurt his case. She learned through his letters that he planned on
killing 400 to 500 people when he got out, and she did not want to vote for life and
then have any other murders he committed on her conscience. She felt his admitted
Satanism also hurt his case. She was happy because a lot of his friends who were
brought to the trial to testify had changed their ways and were now successful
Christians.
8.

Ms. Heffner also told me that after the trial she contacted someone in

the prison ministry to see if they could visit Mr. Kipp. She felt he might be ready to
ask for God's forgiveness. During the trial, she prayed for the defendant.

2

012115

Pet. App. 234

9.

On February 13, 1989, I spoke with Linda Mora, who was an alternate

juror. Although she did not participate in deliberations, she stated that during the
trial, there were times when she felt she would have voted for life and other times
when she would have voted for death.
10.

I met with an investigator from the Office of the Federal Public

Defender, who currently represent Martin Kipp. I have read and reviewed this

2

page declaration.
I declare under penalty of perjury under the laws of the United States of
America and the State of California that the foregoing is true and correct to the best
of my recollection. Signed this L

day of August, 2007 at SA-(\! rfr Ar$,t-

California.

£tJN
Alan Dean Clow

3

012116

Pet. App. 235

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 215 of 246

ER 394

Pet. App. 236

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 216 of 246

ER 395

Pet. App. 237

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 217 of 246

ER 396

Pet. App. 238

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 108 of 243
Case 2:03-cv-08571-PSG Document 13-29 Filed
Page 269 of 280 Page ID
KIPP06/01/04
v. WOODFORD
#:7864
CV 03-08571-GLT
LODGMENT2

SUPREME COURT OF

1111;;

.;>11"\lt:

vr \.ALIFORNlA

)

THE PEOPLE OF THE STATE OF CALIFORNIA, )
)

PLAINTIFF-RESPONDENT, )
)

vs.

)

SUPERIOR COURT
NO. A028286

)

MARTIN JAMES KIPP,

)
)

DEFENDANT-APPELLANT. ))
__________________________________________

··APR 1 o 1§00

APPEAL FROM THE SUPERIOR COURT OF LOS ANGELES COUNTY
HONORABLE MICHAEL G. NOTT, JUDGE PRESIDING
REPORTERS' TRANSCRIPT ON APPEAL

~ [·~

APPEARANCES:

"',·~ED~'
"~;J

l_.. \.,. .i

. . .":;,

f~v--·-•.-~--·
~

:; '. .-_,

HN:,:~l· VAN DE KAMP
I
S ATE~ TORNEY GENERAL
L--·~. d:' tU SHIRE BOULEVARD
CLt-;'11<., b.'.3 DiSTRICT C
.ii.·N LES, CALIFORNIA 90010
C'.' ··• ·~·· ' o:,:::--q.,~rr OF c...LJ..-...nn"''
;;:·~, , . ':"11\1 ;.:;i'JISlCJN AT SANTA ANA
FOR DEFEND AN ...:.'.AI?PJ:!,.. LANh===::ti.:::l5:i~ lA PERSONA
FOR PLAINT IF -RESPPNP\§!{}J"F-: I

2004 J

VOLUME 24 OF 24 VOLUMES
PAGES 5014 TO

~'

INCL.

PAMELA KIRKNER, CSR #2336
GLORIA ALDRIDGE, CSR #1178
FRANCES M. GERBER, CSR #2851
BARBARA CROOKER, CSR #1886
CAROL A. MC NEIL, CSR #4887
LAURIE TURK, CSR #4459
JOANNE LEONG, CSR #1819
GLENDA LEE ERLEY, CSR #2695
SUZANNE ECHANTE, CSR #2164
VICKI FRASER, CSR #6737
CHRISTINA ARCHA~BEAU, CSR #3416
OFFICIAL REPORTERS

.)3 g~

ER 1054

Pet. App. 239

I

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 109 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 130 of 275 Page ID
#:8005

1

SUPERIOR COURT OF THE STATE OF CALIFORNIA

2

FOR THE COUNTY OF LOS ANGELES

(J'

3

DEPARTMENT

HON.

SOUTH "L".

MICHAEL G. NOTT, JUDGE

4
5

THE PEOPLE OF THE STATE OF CALIFORNIA,

)
)

PLAINTIFF,

6

vs.

7
8

·No·. A 028286 :.

-FILED

MARTIN JAMES KIPP,

9

~ ·•

DEFENDANT,

> JAN23 1989
~~K~~

10

DEPUTY

11

REPORTERS' DAILY TRANSCRIPT

12

TUESDAY, JANUARY 24, 1989

.

13
14

ll

APPEARANCES:
FOR THE PEOPLE:

IRA REINER
DISTRICT ATTORNEY
BY: WILLIAM HODGMAN, DEPUTY
18-709 CRIMINAL COURTS BUILDING
210 WEST TEMPLE STREET
LOS ANGELES, CALIFORNIA 90012
(213) 974-3611

FOR THE DEFENDANT:

JOHN YZURDIAGA, ESQ.
970 WEST 190TH STREET
SUITE 605
LOS ANGELES, CALIFORNIA
( 213) 515-7 6 3 3

15
16
17
18
19
20

21

V 0 L U M E

22

PAGE:

42

BRODEY & PRICE
BY: JEFFREY BRODEY, ESQ.
9777 WILSHIRE BOULEVARD
SUITE 900
BEVERLY HILLS, CALIFORNIA 90212
(213) 277-8438

24
25

27
28

-AND-

5149 - 5251

23

26

90502

ORIGINAL

VICKI FRASER, CSR #6737
CHRISTINA ARCHAMBEAU, CSR #3416
OFFICIAL REPORTERS

ER 1055

Pet. App. 240

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 110 of 243
5150
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 20 of 72 Page ID #:8964

1

ALTERNATE JUROR PLELL:

2

THE COURT:

THANK YOU.

MR. HODGMAN READY TO PROCEED.

3

4
5

NO, SIR.

MR. HODGMAN:

I AM, YOUR HONOR.

THANK YOU, VERY

MUCH.

6
7

REOPLE'S ARGUMENT

8
9
10

MR. HODGMAN:

YOUR HONOR, FELLOW COUNSEL, GOOD

MORNING LADIES AND GENTLEMEN OF THE JURY.

11

SATURDAY, SEPTEMBER 17TH, 1983, WAS A VERY HOT

12

DAY.

IT WAS A HOT DAY LIKE ONE OF THOSE DAYS THAT WE HAVE

13

HERE IN SOUTHERN CALIFORNIA IN SEPTEMBER.

14

FOUR MONTHS AGO, APPROXIMATELY.

15

IT WAS FIVE YEARS

MORE THAN LIKELY YOU MIGHT BE ABLE TO RECALL

16

WHERE YOU WERE AT THE TIME.

17

BE ABLE TO RECALL PRECISELY WHAT YOU WERE DOING AT THE TIME.

18

AND MOST CERTAINLY YOU DID NOT REALIZE THAT ON THAT DATE OF

19

SEPTEMBER 17TH, 1983, THE EVENTS HAD BEEN SET IN MOTION THAT

20

WERE TO BRING YOU, AND ME, THE DEFENDANT AND HIS ATTORNEYS

21

HERE IN THIS COURTROOM TODAY, JANUARY 24TH, 1989.

22

MORE THAN LIKELY YOU WILL NOT

FOR ON THAT DATE OF SEPTEMBER 17TH, 1983, IN

23

ROOM 162 OF THE RAMADA INN ON PACIFIC COAST HIGHWAY IN LONG

24

BEACH, LAY THE BODY OF A YOUNG WOMAN.

25

WELL KNOW, WAS THE DECEASED BODY OF 18 YEAR OLD TIFFANY

26

FRIZZELL.

27

BEEN STRANGLED OUT OF HER.

28

SIMPLE WHITE CLOTH COTTON BELT.

IN THAT ROOM, AS YOU

SHE HAD BEEN DEAD FOR SOME TIME.

THE LIFE HAD

WOUND AROUND HER NECK WAS A

ER 1056

A BELT FROM

ONE~OF

HER

Pet. App. 241

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 111 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 21 of 72 Page ID #:8965

1'

VERY OWN OUTFITS.

2

LIGATURE AROUND HER NECK AND WAS EVIDENCE OF WHAT HAD

3

HAPPENED TO HER.

4

AND THAT BELT WAS WOUND TIGHTLY AS A

SHE HAD BEEN RAPED.

AND AS YOU RECALL HER BODY

5

WAS FOUND PARTIALLY NUDE.

6

DATE THE PROCESSES, THE PHYSIOLOGICAL PROCESSES OF DEATH

7

WERE ALREADY BEGINNING TO TAKE PLACE.

8

BEGINNING TO SETTLE IN HER BODY, HER BODY HAD BECOME STIFF

9

OF RIGORMORTIS.

10

~EFT ~EHIN~~T
im
W~a-\ur l;lf-:;

i1

f'..-,

AND AS IT APPROACHED NOON OF THAT

THE BLOOD WAS

THE DEFENDANT WAS ALREADY GONE.

BUT HE HAD

ONLY A PARTIAL FINGERPRINT, BUT HIS

'i:NCRHH'PER- OF DEATH UPON TIFFANY FRIZZELL.

12

AND IT WAS THOSE EVENTS AND THE DISCOU$RY OF

Ca.4c:t.l vs+(Q!:?

13

TIFFANY FIRZZELL'S BODY WHICH SERVED AS A GATALIST FOR, IN A

14

SENSE, BRINGING US ALL TOGETHER IN THIS COURTROOM TODAY.

15

SINCE THE END OF NOVEMBER ALL OF US HAD BEEN

16

ENGAGED IN A POSSESS.

17

DETERMINING WHETHER OR NOT THE DEFENDANT WAS GUILTY OF THESE

18

CHARGES.

19

YOU, AND THAT DECISION IS TO DETERMINE WHAT IS TO BE THE

20

JUST PUNISHMENT FOR THE DEFENDANT IN THIS CASE;

21

WITHOUT POSSIBILITY OF PAROLE OR THE DEATH PENALTY.

22

INITIALLY A FACTUAL PROCESS OF

NOW YOU HAVE A MUCH MORE IMPORTANT DECISION BEFORE

LIFE

AND BEFORE I BEGIN TO ADDRESS MYSELF TO THIS

23

ISSUE IN THIS PHASE OF THE CASE, I WOULD LIKE TO SAY ONE

24

THING PRELIMINARILY.

25

I SPEAK ON BEH~ OF THE COURT AND ALL COUNSEL, FOR YOUR
c__o Y\SCJ e liti ou.s@.t?
~ ADHERENCE TO YOUR DUTY AS JURORS IN THIS CASE.

26

27
28

I WOULD LIKE TO THANK YOU, AND I THINK

JURY SERVICE IS ONE OF THOSE OBLIGATIONS AND
DUTIES OF CITIZENSHIP THAT SOMETIMES IS NOT ALWAYS WELCOME.

ER 1057

Pet. App. 242

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 112 of 243

5152
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 22 of 72 Page ID #:8966

1

HOWEVER, IN THIS CASE BY THE VERY FACT THAT ALL OF YOU HAVE

2

REMAINED HERE THROUGHOUT ALL OF THE PROCEEDINGS AND THAT YOU

3

HAVE BEEN ATTENTIVE THROUGHOUT &iRVICE, I THINK AS A VERY

4

STRONG TESTIMONIAL TO YOUR ADHERENCE TO THAT DUTY.

5

HAVE TO SAY TO YOU, THANK YOU.

~ru~@

6

SO I

NOW, ON JANUARY 3RD OF THIS YEAR, 1989, I SPOKE

7

TO YOU.

AND I OUTLINED FOR YOU AT THAT TIME THE EVIDENCE

8

THAT I WOULD BE PRESENTING IN THE PENALTY PHASE OF THIS

9

CASE.

AND AT THE CONCLUSION OF MY REMARKS, I INDICATED TO

10

YOU THAT WHEN THIS PHASE OF THE CASE WAS OVER I WOULD BE

11

URGING YOU TO FIND THAT THE APPROPRIATE PENALTY FOR THIS

12

DEFENDANT IN THIS CASE WAS THE DEATH PENALTY.

13

AND IN LIGHT OF THE EVIDENCE THAT IS TRANSPIRED

14

IN THESE INTERVENING THREE WEEKS, I THINK THAT IT STANDS NOW

15

.MORE CLEAR AND MORE COMPELLING THAN EVER THAT THERE IS

16

INDEED ONLY ONE JUST PENALTY IF THIS CASE, AND THAT PENALTY

17

IS INDEED THE DEATH PENALTY.

18
19
20

21
22
23

24

25

26
27

28

ER 1058

Pet. App. 243

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 113 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 137 of 275 Page ID
5153
#:8012

1

I WOULD LIKE TO SHARE WITH YOU SOME

2

OBSERVATIONS THIS MORNING BEFORE I BEGIN TO REVIEW WITH YOU

3

SOME OF THE EVIDENCE

4

SHOWS THAT THE DEATH PENALTY IS INDEED THE APPROPRIATE

5

PENALTY IN THIS CASE.

6

WH~CH

I SUBMIT TO YOU COMPELLINGLY

AS JUDGE NOTT INDICATED, I WILL BE SPEAKING TO

7

YOU ONE TIME, AND ONE TIME ALONE.

I WILL NOT BE STANDING IN

8

REBUTTAL TO ANYTHING THAT EITHER MR. BRODEY OR MR. YZURDIAGA

9

SAY TO YOU THIS MORNING.

AND IS THIS HAPPENS FOR A NUMBER

10

OF REASONS.

11

HAPPENS BECAUSE I FEEL IN THIS TYPE OF CASE WHAT I HAVE TO

12

SAY, BASICALLY, CAN BE SAID ONCE.

13

IT HAPPENS AS A MATTER OF PROCEEDING, AND IT

SO THIS MORNING I'M GOING TO HAVE MY SAY, I'M

14

GOING TO IMPART TO YOU AS BEST AS I CAN THE POINTS THAT I

15

THINK ARE IMPORTANT FOR YOU TO CONSIDER IN THIS PHASE OF THE

16

CASE, AND THEN I WILL SIT DOWN.

17

SECONDLY, I THirn< IT IS NECESSARY FOR ME TO

18

SPEAK ONLY ONCE BECAUSE IN THIS PHASE OF THE CASE THE POWER

19

OF WORDS I FEEL ONLY HAS SOME LIMITED APPLICATION.

20

NOW, IN THESE STAKES AND IN THESE TIMES WE ARE

21

AWARE OF HOW THE POWER OF WORDS CAN MOVE PEOPLE.

22

HAVE EVIDENCE OF CERTAIN ELOQUENT SPEAKERS IN OUR

23

CONTEMPORARY LIVES THAT CAN MOVE PEOPLE BY THEIR VERY WORDS.

24

AND WE

BUT IN A CASE LIKE THIS, AS POWERFUL AS WORDS

25

CAN BE, I SUBMIT TO YOU THERE'S A FORCE THAT IS EVEN

26

GREATER.

27

WHEN I HAVE DONE, OR WHEN I AM DONE SPEAKING AND WHEN THE

28

DEF~NSE ATTORNEYS ARE DONE SPEAKING AND YOU

AND THAT FORCE IS THE FORCE OF EVIDENCE.

ER 1059

BECAUSE

12 JURORS RETIRE

Pet. App. 244

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 114 of 243

5154
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 23 of 72 Page ID #:8967

Lt.;
_,~-

'

.

1

TO THAT JURY DELIBERATION ROOM, OUR WORDS WILL NO LONGER BE

2

WITH YOU.

3

CARRY WITH YOU IS THE EVIDENCE.

4

THIS CASE WHICH SPEAKS MOST POWERFULLY, MOST COMPELLINGLY IN

5

FAVOR OF THE DEATH PENALTY.

WE WILL NO LONGER BE SPEAKING.

6

WHAT YOU WILL

AND IT IS THE EVIDENCE IN

NOW, THERE ARE SOME ADDITIONAL OBSERVATIONS TO

7

MAKE WITH REGARD TO THIS TYPE OF CASE.

8

UNIQUE TYPE OF PROCEEDING.

9

PROCEEDING IN LAW.

BECAUSE THIS IS A

IT IS AN UNIQUE TYPE OF

VERY RARELY DO JURORS SUCH AS YOURSELVES

10

GET TO MAKE THE DETERMINATION AS TO WHAT PENALTY IS

11

APPROPRIATE.

12

PROCEEDING, THERE ARE CERTAIN PHENOMENA WHICH OCCUR WHICH I

13

THINK YOU SHOULD BE ALERT TO AS YOU BEGIN YOUR

14

DELIBERATIONS.

~

Ph-e/n c>me..\'\oif-IJY

15
16

AND AS A RESULT OF THIS UNIQUE TYPE OF

...pfH:lNOMENA NUMBER ONE THAT I WOULD LIKE YOU TO

BE ALERT TO IS THE FOLLOWING:
'(1\

~

THIS IS THE PHENOMENA OF

ll"" v(.:1.5Y

17

TIME PASSING.

18

OF CASES THE PRESENTATION OF EVIDENCE TENDS TO BE QUITE

19

PROTRACTED.

AND I WOULD

20

FOR YOU AND HAVE YOU

21

I MEAN.

22

I~BY

AND WHAT

LIKE~O

THIS IS THAT IN THESE TYPES

POINT OUT A COUPLE EXAMPLES

\b "'-d. e'('&V

PONDE~ED

JUST FOR A MOMENT EXACTLY WHAT

FOR INSTANCE, IF YOU WILL THINK ABOUT IT, IT

23

HAS BEEN 48 DAYS SINCE THE MOTHER OF TIFFANY FRIZZELL

24

TESTIFIED IN THIS CASE.

25

JOAN FRIZZELL TESTIFIED.

26

JUNE MARTINEZ TESTIFIED FOR YOU.

27

MAXINE BRITTON TESTIFIED BEFORE YOU.

28

FOURTY-EIGHT DAYS SINCE
IT HAS BEEN 21 DAYS SINCE
IT HAS BEEN 20 DAYS SINCE

AND WHAT CAN HAPPEN IS THIS.

ER 1060

WITH THE PASSAGE

Pet. App. 245

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 115 of 243

5155
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 24 of 72 Page ID #:8968

5

..,

1

OF TIME THE IMPACT OF THAT TESTIMONY CAN BE DIMINISHED

2

SOMEWHAT.

3

AND WHAT I AM CAUTIONING YOU ABOUT IS THIS:

IT

4

IS IMPORTANT FOR THIS TESTIMONY AND THE TESTIMONY OF THESE

5

WITNESSES, AND WITNESSES JUST LIKE THEM, TO BE AS MEANINGFUL

6

FOR YOU IN THIS PHASE OF THE CASE AS IT WAS ON THE DAY YOU

7

HEARD THAT TESTIMONY.
SO AS YOU REVIEW ALL OF THE EVIDENCE IN THIS

8
9

CASE, PLEASE BE

MIND~~

fhe.:nomenoYl~

OF THE FACT THERE IS A CERTAIN

10

NATURAL PHENOMENA OCCURRING HERE.

11

MERE PASSAGE OF TIME.

12
13

SE.C9W)LY, A ~ENOM:EN-Pr- YOU SHOULD BE AWARE OF IS
l1\€."<\om~noYI
~-·
bmc h 011 ~
THEIIENOME-NA OF A P40'PION. AND I CAN TELL YOU RIGHT NOW ON

14

BEHALF OF MYSELF THAT I THINK I CAN SPEAK ON BEHALF OF THE

15

DEFENSE ATTORNEYS, WITHIN US THIS MORNING AS WE ADDRESS YOU

16

THERE IS A CERTAIN EMOTIONAL TENSION.

17

EMOTIONAL TENSION WILL NOT INTERFERE WITH OUR ABILITY TO

18

IMPART WHAT WE WANT TO IMPRESS UPON YOU.

19

TIME THIS IS AN EMOTIONALLY CHARGED PHASE OF THE CASE.

AND THAT PHENOMENA IS THE
~

Phe.no'l'l\€Y'OY1

°

t

20

AND HOPEFULLY THIS

BUT AT THE SAME

AND WHAT CAN OCCUR DURING THIS POINT IN TIME,

21

AND QUITE OFTEN DOES, IS THAT THERE CAN BE, PARTICULARLY

22

FROM THE DEFENSE, VERY STRONG ELOQUENT EMOTIONAL APPEALS TO

23

YOU.

24

PUNISHMENT IS LIFE WITHOUT THE POSSIBILITY OF PAROLE.

25

APPEALS TO PERSUADE YOU THAT THE APPROPRIATE

AND IN THIS REGARD, QUITE OFTEN DEFENSE

26

ATTORNEYS MAY QUOTE PASSAGES FROM THE BIBLE, THEY MAY QUOTE

27

FROM LITERATURE, SOMETIMES THEY RECITE POETRY.

28

THERE'S AN EFFORT TO ACHIEVE THE CERTAIN HIGHER LEVEL,

ER 1061

AND, AGAIN,

Pet. App. 246

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 116 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 140 of 275 Page ID
5156
#:8015

1

ELOQUENCE.

2

AND, IN ADDITION, THERE IS ALSO AN EFFORT TO

3

ACHIEVE A CERTAIN HIGHER EMOTIONAL LEVEL IN AN ATTEMPT TO

4

MOVE YOU.

5

THEMSELVES BECOME QUITE EMOTIONAL.

6

AND QUITE OFTEN IN THIS REGARD ATTORNEYS

IT HAS BEEN KNOWN, IN FACT, WHERE MEMBERS OF

7

THE DEFENDANT'S FAMILY AND FRIENDS ARE PRESENT FOR ATTORNEYS

8

TO EVEN GO INTO THE AUDIENCE AND TO HUG THE DEFENDANT'S

9

FAMILY AND FRIENDS AS PART OF THIS EMOTIONAL APPEAL TO YOU.

10

AND THIS IS NOT TO SAY THAT THIS IS WRONG.

BUT

11

IT IS SIMPLY TO PREPARE YOU THAT THESE SORT OF THINGS HAPPEN

12

IN THIS EMOTIONALLY CHARGED PHASE OF THE CASE.

13

MAY EXPECT IT.

14

PREPARED FOR IT.

AND IF IT

AND THAT YOU

DOES OCCUR, YOU SHOULD BE

15
16
17

18

19
20
21
22

23
24

25
26

27
28

ER 1062

Pet. App. 247

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 117 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 25 of 72 Page ID #:8969
5157
·J

lltl.

@
the.
IS A THIRDIISNOMiNA WHICH OCCURS AS
Y'O~Y'Ib\ll

NOW, THERE

1

AND THIS IS THE

J:~~~~noiPPUNISHMENT.

BECAUSE AS

2

WELL.

3

I STATED, THIS PHASE OF THE CASE IS UNIQUE IN JURIS

4

PRUDENCE.

5

DECIDING WHAT IS THE APPROPRIATE PENALTY.

6

CALLED UPON TO MAKE A DECISION BETWEEN LIFE WITHOUT THE

7

PROBABILITY OF PAROLE ON THE ONE HAND AND DEATH.

8

OFTEN THE DEFENSE IS GOING TO PRESENT THIS ARGUMENT TO YOU

9

THAT LIFE WITHOUT POSSIBILITY OF PAROLE IS AN EXTREME,

IT IS UNIQUE BECAUSE YOU THE JURY WILL BE
AND YOU WILL BE

10

SEVERE PENALTY.

11

OUT OF PRISON.

12

PRISON.

13

PRISON IF YOU DETERMINE THAT THE DEATH PENALTY IS

14

APPROPRIATE.

IT MEANS THAT THE DEFENDANT WILL NEVER GET
IT MEANS THAT THE DEFENDANT WILL DIE IN

HE WILL DIE OF NATURAL CAUSES OR BE EXECUTED IN

15
16

AND QUITE

AND THEY WILL TALK ABOUT THE LIMITED LIVING
SPACE THAT THE

~PENDANT

HAS.

THE FACT THERE MAY BE A

steel~

17

STAINLESS~PEAn

18
19

OF THEIR PRIVACY IS EXTREMELY LIMI~D.
fhe:novnehon.~
AND THIS ci!:aiNOPiENA OF PUNISHMENT IS SOMETHING

20

THAT IS ARGUED.

21

FOLLOWING, AND THESE ARE THINGS THAT WERE ELICITED THROUGH

22

EVIDENCE IN THIS CASE.

23

TOILET IN THE MIDDLE OF THE ROOM.

THE FACT

TO TEMPER THIS I ASK YOU TO RECALL THE

PLEASE RECALL THAT AS THE DEFENDANT STATED TO

25

"PRISON IS LIKE A C~."
IT IS A SOCIETY.
soc.. \eA-l.r- 0
ALBEIT, AN INCARCERATED "'SOU'f'H~ A SOCIETY BEHIND BARS.

26

SOCIETY BEHIND WALLS.

24

27
28

MR. HANEY,

A

BUT IT IS A SOCIETY, NONETHELESS.

AND THERE IS A TENDENCY, I THINK, FOR US TO
CONSIDER THAT WHEN SOMEONE IS IN JAIL OR SOMEONE IS IN

ER 1063

Pet. App. 248

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 118 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 26 of 72 Page ID #:8970
5158

•

BUT

1

PRISON THAT THEY ARE OUT OF SIGHT, OUT OF MIND.

2

ACTUALLY, THE PERSON IN QUESTION, PERHAPS THE DEFENDANT, IS

3

SIMPLY IN A DIFFERENT TYPE OF SOCIETY.

4

THERE ARE MANY OF THE CONCERNS THAT PLAGUE SOCIETY OUTSIDE

5

OF PRISON.

A SOCIETY WHERE

6

FOR INSTANCE, ALCOHOL, DRUGS, VIOLENCE, AND AS

7

WE LEARNED IN THIS CASE TO THE EXTENT THE TELEVISION CAN BE

8

CONSIDERED A CONCERN, TELEVISION EXISTS WITHIN THE WALLS OF

9

PRISON.

10

INMATES WITHIN PRISON CAN COMMUNICATE WITH

11

PEOPLE ON THE OUTSIDE, AND THEY HAVE A LIFE.

12

POSSIBILITY OF PAROLE MEANS THAT THERE IS LIFE.

13

THERE IS LIFE, THERE IS HOPE.

14

A LIFE WITHOUT
AND WHERE

AND I WOULD LIKE YOU TO CONSIDER THE PARTING

15

WORDS OF DEPUTY MARTIN KOETH WHEN HE TESTIFIED WITH REGARD

16

TO WHAT THIS MEANS, AND HE STATED IN CONNECTION WITH THIS

17

DEFENDANT, AS WELL AS GENERALLY, THAT THESE INMATES LIVE

18

WITH THE HOPE OF ESCAPE.

19

~

sPe~i-re

AND IN THIS PARTICULAR CASE THE BPECTOR OF

20

ESCAPE IS CERTAINLY PREVALENT.

21

PENALTY OF LIFE WITHOUT THE POSSIBILITY OF PAROLE AND DEATH,

22

BE MINDFUL OF THE FACT THAT WHEN THE DEFENSE ATTORNEYS ARGUE

23

HOW TERRIBLE LIFE WITHOUT POSSIBILITY OF PAROLE CAN BE, BE

24

MINDFUL OF THE FACT THESE CONSIDERATIONS EXIST.

25

SO AS YOU CONSIDER THE

I DON'T MEAN TO DIMINISH THE SEVERITY OF LIFE

26

WITHOUT THE POSSIBILITY OF PAROLE, HOWEVER IN CERTAIN CASES

27

LIFE WITHOUT POSSIBILITY OF PAROLE IS SIMPLY NOT ENOUGH.

28

AND IN LIGHT OF THE AGGRAVATING EVIDENCE PREVENTED IN THIS

ER 1064

Pet. App. 249

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 119 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 27 of 72 Page ID #:8971
5159

1

~

CASE, THIS IS ONE OF THOSE CASES.
THERE IS ONE ADDITIONAL

2

~~i~&:rr~Y"ITO

3

DISCUSSED WITH YOU BEFORE I TURN TO THE

4

IS REALLY PART AND PARCEL OF THE

5

OCCURS IN THIS PHASE OF THE CASE.

6

EVI~CE.

BE
AND THIS

~I~~~HfAl1 ~; EMOTION

THAT

DURING THE JURY SELECTION PROCESS I ASKED SOME

7

OF YOU IF YOU DETERMINED THAT THE DEATH PENALTY WAS THE

8

APPROPRIATE PENALTY IN THIS CASE WOULD YOU BE ABLE TO COME

9

HERE INTO OPEN COURT IN FRONT OF THE DEFENDANT'S FAMILY AND

10

DEFENDANT'S FRIENDS AND INDICATE THAT, YES, INDEED THE DEATH

11

PENALTY WAS YOUR VERDICT.

12

THAT FOR A MOMENT, BUT ULTIMATELY THE RESPONSE WAS, "YES, I

13

COULD DO THAT."

14

AND MANY OF YOU HAD TO PONDER

NOW, THE THING THAT OCCURRED DURING THAT PHASE

15

OF THE JURY SELECTION PROCESS IS THAT WE WERE DISCUSSING

16

SOMETHING IN THE ABSTRACT.

17

HALF MONTHS AGO.

18

THIS WAS APPROXIMATELY TWO AND A

AND NOW WE ARE DOWN TO THE VERY REAL ASPECT OF

19

PERHAPS YOU FACING THE DEFENDANT'S FAMILY AND FRIENDS AND

20

INDICATING THAT THE DEATH PENALTY IS INDEED APPROPRIATE.

21

AND IT IS A NATURAL THING, IF THAT IS INDEED YOUR VERDICT,

22

FOR THE DEFENDANT'S FAMILY AND FRIENDS TO BE HURT AND

23

SADDENED.

24

TYPE OF EMOTION IS PART AND PARCEL OF THIS TYPE OF CASE.

AND I THINK YOU CAN EXPECT THAT.

AGAIN, THIS

BUT I WOULD LIKE YOU TO BEAR IN MIND ONE THING

25
26

WITH REGARD TO THAT:

27

RESPONSIBLE FOR THE DEFENDANT'S FAMILY AND FRIENDS FOR BEING

28

HERE.

YOU, THE MEMBERS OF THE JURY, ARE NOT

THE PERSON WHO IS RESPONSIBLE FOR ALL OF US BEING

ER 1065

Pet. App. 250

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 120 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 144 of 275 Page ID
5160
#:8019

1

HERE IS SEATED RIGHT OVER THERE.

IT'S THE DEFENDANT IN THIS

2

CASE, MARTIN KIPP.

3

LIFE YOU WOULD NOT BE HERE, NOR WOULD HIS FAMILY.

4

THE DEFENDANT RAPED, AND RAPED AND KILLED, AND THEN KILLED

5

AGAIN, YOU WOULD NOT BE PUT IN THE POSITION OF MAKING THAT

6

JUDGMENT UPON HIM.

HAD HE LIVED A LAW ABIDING, BLAMELESS
HAD NOT

-

7

SO IT IS SOMETHING THAT CAN BE HURTFUL.

IT IS

8

SOMETHING THAT CAN BE HURTFUL TO THE DEFENDANT'S FAMILY.

9

AND AS I WATCHED MRS. KIPP TESTIFY IN THIS CASE, THERE WAS A

10

POIGNANT, TOUCHING MOMENT.

11

YOU WERE TOUCHED AND MOVED AS SHE SPOKE.

12

NATURAL FEELING AND IT'S OKAY TO FEEL SYMPATHY FOR HER.

13

PLEASE DO NOT CONFUSE SYMPATHY FOR THE DEFENDANT'S FAMILY

14

AND FRIENDS WITH SYMPATHY FOR THE DEFENDANT.

15
16

MR. BRODEY:

AND I NOTICE THAT HAD -- SOME OF
AND THAT IS A

I'M GOING TO OBJECT, YOUR HONOR.

BUT

THAT'S

IMPROPER.

17

THE COURT:

18

MR. BRODEY:

WANT TO BE HEARD AT THE SIDE BENCH?
YES.

19

20
21
22

23
24
25
26
27

28

ER 1066

Pet. App. 251

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 121 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 145 of 275 Page ID
5161
#:8020

(THE FOLLOWING PROCEEDINGS WERE HELD AT THE

1

2

BENCH.)

3

4

MR. HODGMAN IS ARGUING THAT SYMPATHY FOR

5

THE FAMILY AND FRIENDS DOESN'T COME WITHIN THE PREVIEW OF

6

MITIGATING CIRCUMSTANCES, AND IT CERTAINLY

7

INSTRUCTIONS REALLY PROVIDE THAT HIS BACKGROUND, HIS LIFE

8

AND OBSERVATIONS ARE CONSIDERATIONS THAT YOU CAN TAKE INTO

9

YOUR THOUGHT PROCESS.

10
11
12
13
14

THE COURT:

DOES.

THE

HAVE YOU GOT A CASE CITATION THAT

SYMPATHY FOR FRIENDS IS A FACTOR?
MR. BRODEY:

NOT SYMPATHY FOR FRIENDS, BUT CERTAINLY

SYMPATHY FOR FAMILY.
MR. YZURDIAGA:

I THINK THE INSTRUCTIONS SAYS ANY

15

FACTOR WHICH AROUSES SYMPATHY IN THE DEFENDANT'S BACKGROUND.

16

AND THAT'S IN "K."

17
18
19

THE COURT:

I THINK ALL HE ASKED WAS YOU JUST DON'T

CONFUSE THE TWO.
IN OTHER WORDS, WHAT HE'S SAYING IS -- HE

20

HASN'T SAID THAT IT'S NOT ALL RIGHT TO FEEL SYMPATHY.

21

HE'S SAYING IS MAKE SURE YOU DON'T CONFUSE SYMPATHY WITH THE

22

FAMILY FOR SYMPATHY FOR MARTIN KIPP.

23

DON'T UNDERSTAND.

24

.

MR. BRODEY:

MR. BRODEY:

WHAT

HE'S NOT SAYING -- I

I BELIEVE THAT THE JURY CAN CONSIDER

25

SYMPATHY FOR THE FAMILY AND VOTE FOR LIFE OUT OF SYMPATHY

26

FOR THE FAMILY.

AND WHAT HE'S --

27

THE COURT:

28

MR. HODGMAN:

HE HASN'T SAID THAT THEY CAN'T •
AND I COULDN'T AGREE WITH YOU MORE.

ER 1067

I

Pet. App. 252

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 122 of 243
5162
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 28 of 72 Page ID #:8972

~

1

WAS TRYING TO MAKE A DISTINCTION THAT THERE IS A DISTINCTION

2

BETWEEN SYMPATHY FOR THE DEFENDANT AND SYMPATHY FOR THE

3

FAMILY, AND THEY SHOULD BE AWARE OF IT

4

THEY DELIBERATE AND NOT

5

TOGETHER.

6

MR. BRODEY:

!~HIS

~d~

NECESSARILYrME~'OR

OWN MIND WHEN

CONFUSE THE TWO

WELL, I THINK IT SHOULD BE MADE CLEAR

7

THAT THEY CAN CONSIDER SYMPATHY FOR THE FAMILY IN REACHING

8

THEIR VERDICT.

9

IT WOULD BE PROPER TO GIVE --

THE COURT:

IF YOU WANT SOMETHING AT THE END OF THE

10

CASE ON THAT I'LL BE HAPPY TO GIVE IT WHEN EVERYONE IS

11

FINISHED.

12

MR. HODGMAN:

13

ARGUMENT, AS WELL.

14

MR. BRODEY:

15

THE COURT:

16

MR. BRODEY:

17

THE COURT:

18

MR. BRODEY:

I'M SURE YOU WILL COVER THAT IN YOUR

WELL, IT MAY BE -BUT YOU NEED IT COMING FROM THE JUDGE.
YES.
ALL RIGHT.
THANK YOU.

19
20
21

(THE FOLLOWING PROCEEDINGS WERE HELD IN OPEN
COURT, IN THE PRESENCE OF THE JURY.)

22
23

THE COURT:

24

MR. HODGMAN:

25

ALL RIGHT.

MR. HODGMAN.

EXCUSE ME FOR THE INTERRUPTION.

THE POINT IS, LADIES AND GENTLEMEN, YOU ARE NOT

26

ULTIMATELY RESPONSIBLE FOR ANY HURT CAUSED TO THE

27

DEFENDANT'S FAMILY.

28

THE DEFENDANT HIMSELF.

THE PERSON RESPONSIBLE FOR THAT HURT IS
THE DEFENDANT'S FAMILY, THE

ER 1068

Pet. App. 253

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 123 of 243
5163
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 29 of 72 Page ID #:8973

1

DEFENDANT'S FRIENDS ARE IN A SENSE ACCIDENTAL VICTIMS OF

2

WHAT THE DEFENDANT HAS DONE.

REALIZATIO~

3

NOW, WITH THAT SAID, WITH THIS

4

THAT THERE ARE CERTAIN LARGER PHENOMENA THAT ARE GOING TO

5

OCCUR IN THIS CASE THAT YOU ARE GOING TO FEEL AS YOU

6

DELIBERATE, WHAT I WOULD LIKE TO DO IS TURN TO A MORE LEGAL

7

ANALYSIS OF THIS PHASE OF THE CASE.
AND IN THIS REGARD I PREPARED THIS CHART WHICH

8
9

APPEARS TO THE RIGHT OF THE JURY BOX.

10

NOW, THESE ARE FACTORS WHICH WERE MENTIONED TO

11

YOU BY JUDGE NOTT YESTERDAY IN HIS INSTRUCTIONS TO YOU.

12

I WOULD LIKE TO TAKE A FEW MOMENTS THIS MORNING AND GO

13

THROUGH THESE VARIOUS FACTORS,

14
15

FACTORS A~GOING TO BE ·SELF EViBENGE. HOWEVER, THERE ARE
Su bt\ e..+\e.=:>(b£J
GUBLTIES INVOLVED WITH VARIOUS OF THESE FACTORS WHICH I

16

THINK YOU SHOULD ABOUT AWARE OF AND PERHAPS YOU WILL FIND

17

ULTIMATELY PERSUASIVE.

BECAUS~ERTAIN

Sel f--eVK!evt~.b'

18

AND

OF THESE

FACTOR NUMBER ONE AS MENTIONED IN THE

19

INSTRUCTIONS GIVEN BY JUDGE NOTT STATES THAT IN DETERMINING

20

THIS PHASE OF THE CASE YOU CAN TAKE INTO CONSIDERATION THE

21

CIRCUMSTANCES OF THE CRIME OF WHICH THE DEFENDANT WAS

22

CONVICTED, AND THE EXISTENCE OF ANY SPECIAL CIRCUMSTANCE

23

FOU~ID

TO BE TRUE.

24

WHAT THIS MEANS, QUITE SIMPLY, IS THIS:

THAT

25

THE RAPE, ROBBERY AND MURDER OF TIFFANY FRIZZELL IS NOT TO

26

BE FORGOTTEN.

27

CONSIDER IN EVALUATING WHAT PENALTY IS APPROPRIATE FOR THE

28

DEFENDANT.

IT IS SOMETHING THAT YOU CAN LEGITIMATELY

ER 1069

Pet. App. 254

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 124 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 30 of 72 Page ID #:8974
5164

1

NOW, YOU HAVE DETERMINED THAT THE DEFENDANT IS

2

GUILTY OF THE RAPE, ROBBERY AND MURDER OF TIFFANY FRIZZELL,

3

AND YOU HAVE FOUND THAT THE SPECIAL CIRCUMSTANCE THAT

4

TIFFANY FRIZZELL WAS MURDERED, IN THE COMMISSION OF A RAPE,

5

TO BE TRUE.

6

WHAT I WOULD LIKE TO DO IN THIS PHASE OF THE

7

CASE IS TO HIGHLIGHT A COUPLE POINTS THAT I MADE TO YOU

8

INITIALLY DURING THE TRIAL PHASE OF THE CASE, AND THEN

9

EXPAND UPON THEM JUST A LITTLE BIT.

10
11

FIRST OF ALL, TO CONSIDER JUST BRIEFLY THE
NATURE OF THE VICTIM.

TIFFA~FRIZZELL

IS AN 18 YEAR OLD

+h resl1o 11 ~)

12

YOUNG WOMAN ON THE -l±!tiRUSHOJ::B OF ADULTHOOD, WHO CAME TO

13

SOUTHERN CALIFORNIA TO LONG BEACH TO ATTEND BROOKS COLLEGE

14

AND IN A SENSE TO BEGIN REALIZING HER

15
16

SHE WAS AN INNOCENT.

19

AND AS

A ADULT.

A~INNOCENT

HER

LIFE WAS BRUTALLY TAKEN.

17
18

FUTUR~AS

MR. YZURDIAGA:
HONOR.

I'M GOING TO OBJECT TO THIS, YOUR

MAY WE APPROACH THE BENCH?
MR. HODGMAN:

YOUR HONOR --

20

21
22
23
24

25
26

27
28

ER 1070

Pet. App. 255

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 125 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 149 of 275 Page ID
5165
#:8024

THE COURT:

1

2

YOU CAN LET ME KNOW THE OBJECTION

AFTERWARDS.

3

GO AHEAD, MR. HODGMAN.

4

MR. HODGMAN:

5

THANK YOU VERY MUCH, YOUR HONOR.

AS IMPORTANT AS IT IS TO REALIZE THE NATURE OF

6

TIFFANY FRIZZELL AS A VICTIM, IT IS IMPORTANT TO REEMPHASIZE

7

THE NATURE IN WHICH TIFFANY FRIZZELL'S LIFE WAS TAKEN.

8

DISCUSSED IN THE TRIAL PHASE OF THIS CASE HOW THE MURDER OF

9

TIFFANY FRIZZELL WAS A MURDER OF THE FIRST DEGREE.

10

WE

IT WAS A MURDER OF THE FIRST DEGREE IN ONE

ll

SENSE BECAUSE THE DEFENDANT KILLED TIFFANY FRIZZELL DURING

12

THE COMMISSION OF A FELONY INHERENTLY DANGEROUS TO HUMAN

13

LIFE.

14

RULE.

THAT IS A RAPE.

OTHERWISE KNOWN AS THE FELONY MURDER

15

THE SECOND AVENUE OF FIRST DEGREE MURDER I

16

THINK BECOMES MORE IMPORTANT IN THIS PHASE OF THE CASE.

17

THAT IS THAT THIS MURDER WAS A WILLFUL, DELIBERATE,

18

PREMEDITATED MURDER.

19

AND I THINK THE POINT THAT BEARS EMPHASIS IS

20

THIS:

21

THAT WAS AS INTENTIONAL AS YOU CAN GET.

22

COLD-BLOODED, CALCULATED MURDER.

23

AND

THIS WAS AN INTENTIONAL MURDER.

THIS WAS A MURDER
IT WAS A MALICIOUS,

AND WHEN YOU RECALL THE TESTIMONY OF DOCTOR

24

GARBER AND DOCTOR FUKUMOTO AND REALIZE WHAT IS INVOLVED WITH

25

A STRANGULATION MURDER, YOU CAN SEE QUITE READILY THAT THIS

26

INTENTIONAL MURDER, THE INTENT TO KILL, IS SOMETHING THAT IS

27

VERY STRONGLY EVIDENT WITH THE MURDER OF TIFFANY FRIZZELL.

28

RECALL DOCTOR GARBER AND DOCTOR FUKUMOTO

ER 1071

TO~D

Pet. App. 256

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 126 of 243
•'
Case 2:03-cv-08571-PSG
Document 13-36 Filed 06/01/04 Page 31 of 72 Page ID #:8975
5166

'

1

YOU THAT WITH THE STRANGULATION A PERSON CAN BE RENDERED

2

UNCONSCIOUS IN AS FEW AS, PERHAPS, 15 SECONDS OR SO.

3

KILL, TO KILL BY MEANS OF STRANGULATION CAN TAKE ANYWHERE

4

FROM A FIVE TO SEVEN MINUTES.
WHEN YOU'RE IN THAT JURY ROOM YOU MIGHT EVEN

5
6

TAKE FIVE MINUTES OF SILENCE TO UNDERSTAND WHAT HAD TO HAVE

7

BEEN

8

"

i(

I
F
1<:~

BUT TO

GOIN~N

~~h-te"'eJ W

IN THE DEFENDANT'S

MIND~S

HE COMPRESSED AND

.-'PI IIT:SNir THAT LIGATURE AROUND TIFFANY FRIZZELL'S NECK.
LADIES AND GENTLEMEN, THAT WAS AN

9

AND AN INTENTIONAL KILLING IN ALL

INTE~NAL

<tc p\~~ls

<&AND

10

KILLING.

11

THAT TYPE OF KILLING IS VERY IMPORTANT FOR YOU TO CONSIDER

12

AS YOU EVALUATE APPROPRIATE PENALTY IN THIS CASE.

13

NOT A QUICK ONE BULLET TO THE HEAD, SOMETHING LIKE THAT,

14

THIS TOOK TIME TO KILL TIFFANY.

15

IN THIS SORT OF INTENTIONAL KILLING THAT I WANT TO IMPRESS

16

UPON YOU.

C~~I~

THIS WAS

~t

;,-

~

17

AND THAT TIME IS EVIDENCED

SO THE DEFENDANT HAD TO PONDER THE DECISION TO

18

KILL.

19

I KILL, OR DO I LET HER GO, ' MUCH AS HE DID WITH JUNE

20

MARTINEZ.

21

COMPRESS, TO TIGHTEN THAT LIGATURE.

22

LIFE OUT OF TIFFANY FRIZZELL.

AND IN THOSE INTERVENING MINUTES HE COULD THINK, 'DO

23

HE MADE THE DECISION TO KILL.

TO CONTINUE TO

TO KILL AND CHOKE THE

SO AS YOU CONSIDER THAT PARTICULAR

24

CIRCUMSTANCE, CIRCUMSTANCE "A" AND THE JURY INSTRUCTIONS

25

GIVEN TO YOU BY JUDGE NOTT, THINK VERY CAREFULLY ABOUT HOW
THAT

~IDRDER

WAS CONDUCTED.

THE FACT THAT IT WAS A WILLFUL,

DELIBERATE, PREMEDITATED MURDER.
AN INTENTIONAL KILLING.

AND THAT IT IS EVIDENCE OF

NOT AN ACCIDENTAL, UNINTENTIONAL

ER 1072

Pet. App. 257

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 127 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 151 of 275 Page ID
5167
#:8026

1

KILLING, BUT AN INTENTIONAL KILLING.

2

WE MOVE ONTO CONSIDER FACTOR "B."

FACTOR "B"

3

STATES THAT YOU CAN CONSIDER OTHER CRIMINAL ACTIVITY BY THE

4

DEFENDANT WHICH INVOLVED THE USE OR ATTEMPTED USE OF FORCE

5

OR VIOLENCE OR THE EXPRESS OR IMPLIED THREAT TO USE FORCE OR

6

VIOLENCE.

7

AND THERE WERE A NUMBER OF PIECES OF EVIDENCE

8

THAT WERE PRESENTED TO YOU IN CONNECTION WITH THIS FACTOR.

9

MOVING CHRONOLOGICALLY, WE HAVE THE MURDER OF

10

JUNE SASSER AS SHE WAS KNOWN BACK IN 1981, NOW JUNE

11

MARTINEZ.

12

AND AS YOU RECALL, THREE WEEKS AGO ON THIS DATE

13

JUNE MARTINEZ TESTIFIED BEFORE YOU.

SHE TESTIFIED HOW SHE

14

WENT TO THE WAGON WHEEL RESTAURANT ON PACIFIC COAST HIGHWAY

15

HERE THIS LONG BEACH, HOW SHE MET THE DEFENDANT, HOW SHE

16

WENT OUT TO THE DEFENDANT'S VEHICLE IN THE PARKING LOT, HOW

17

SHE GOT INSIDE THAT VEHICLE, AND UNDER THE PRETEXT OF

18

HEARING A CAR STEREO SYSTEM THE DEFENDANT MANAGED TO

19

CONVINCE JUNE TO SHUT THAT DOOR.

20

DEFENDANT TOOK OFF IN THAT VEHICLE.

AND THEN IMMEDIATELY THE

JUNE, IN THE COURSE OF THESE EVENTS, REALIZED A

21
22

COUPLE THINGS.

ONE, THERE WAS NO DOOR OR WINDOW HANDLE ON

23

THE PASSENGER SIDE OF THAT DOOR.

24

FOR HER LIFE LATER, SHE REALIZED THAT THE DEFENDANT WAS

25

WEARING A LONG-HAIR WIG.

SECONDLY, AS SHE FOUGHT

NOW, CONSIDER THOSE CIRCUMSTANCES IN CONNECTION

26
27

WITH THIS PARTICULAR ACT OF VIOLENCE ON THE PART OF THE

28

DEF~NDANT.

THIS PARTICULAR ACT OF VIOLENCE REPRESENTS TWO

ER 1073

Pet. App. 258

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 128 of 243
5168
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 32 of 72 Page ID #:8976

1

THINGS.

2

JUNE MARTINEZ TESTIFIED FOR YOU, THE DEFENDANT WAS CHOKING

3

HER.

SHE WAS

4

HER.

HE CHOKE~HER TO THE POINT THAT HER BODY BEGAN TO GO

5

LIMP, HER EYES STARTED TO ROLL BACK IN HER HEAD, AND SHE HAD

6

ONE REMAINING THOUGHT WHICH WAS "DEAR GOD, PLEASE DON'T LET

7

ME DIE LIKE THIS."

8
9

ONE, IT IS AN EXTREME ACT OF VIOLENCE BECAUSE, AS

~YING

TO BITE HIS HAND, HE CONTINUED TO CHOKE

SO THE EXTREME VIOLENCE OF THIS PARTICULAR
INCIDENT IS IMPORTANT FOR YOU TO CONSIDER.

10

SECONDLY, IT IS

I~ORTANT

BECAUSE THIS INCIDENT

Porte.VIT

11

IS A RATHER TERRIFYING-PoRSHO'l' ON THE GROUND OF THINGS THAT

12

WERE TO OCCUR JUST OVER TWO YEARS LATER.
JUNE SASSER LIVED TO TELL YOU ABOUT WHAT

13
14

HAPPENED TO HER.

15

NOT.

TIFFANY FRIZZELL AND ANTANYA HOWARD DID

16

17
18
19

20

21
22
23

24

25
26

27

28

ER 1074

Pet. App. 259

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 129 of 243

5169
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 33 of 72 Page ID #:8977

HOWEVER, WE CAN INFER FROM WHAT HAPPENED TO

1
2

JUNE

3

~~

4

WERE AT THE HANDS OF THIS DEFENDANT.

5

~

'

1

MA~INEZ

SOME OF THE TERROR THAT TIFFANY FRIZZELL AND

HOWARD WENT THROUGH WHEN THEY WERE CONFRONTED AND

AS WE THINK ABOUT JUNE MARTINEZ AS A VICTIM,

6

RECALL THE PHYSICAL TRAUMA.

7

COULDN'T SPEAK, SHE HAD TO WEAR A NECK BRACE, SHE HAD BURNS

8

ON HER BACK AND SHOULDER AS A RESULT OF TRYING TO GET AWAY

9

FROM THE DEFENDANT.

10

AFTER THIS WAS OVER SHE

AND, OBVIOUSLY, THERE WAS EMOTIONAL

TRAUMA AS WELL.

11

AND I DON'T THINK ANYONE CAN FORGET THE RAW

12

EMOTION, ALMOST STILLNESS CREATED BY THAT RAW EMOTION AS

13

JUNE MARTINEZ TESTIFIED IN THIS CASE.

14

TIFFANY FRIZZELL AND ANTANYA HOWARD CAN NO

15

LONGER SPEAK BECAUSE OF WHAT THE DEFENDANT DID TO THEM.

16

IN A SENSE, BY VIRTUE OF THIS VIOLENT ACT UPON JUNE

17

MARTINEZ, JUNE MARTINEZ SPEAKS FOR THEM IN A WAY.

18

BUT

AS TO THE NEXT EVENT, CHRONOLOGICALLY WE HAVE

19

THE ATTEMPTED RAPE OF LOVEDA NEWMAN.

20

NOVEMBER OF 1983 IN COOS BAY, OREGON, THE DEFENDANT AND

21

LOVEDA NEWMAN WERE AT A HOTEL TOGETHER.

22

INDICATED IN A CERTAIN WAY THAT HE WANTED SEX.

23

SAYING, NO, AND THE DEFENDANT BEGAN TO CHOKE LOVEDA.

24

TORE AT HER CLOTHES AND HE CHOKED HER TO THE POINT WHERE A

25

FEW MINUTES LATER LOVEDA NEWMAN. WAS PHYSICALLY SICK.

26

TRIED TO GET AWAY FROM THE DEFENDANT.

27

DEFENDANT KICKED THE DOOR DOWN TO THAT BATHROOM OF THAT

28

MOTEL ROOM, CHASED LOVEDA, DRAGGED HER BACK TO THE ROOM, SHE

ER 1075

AND IF YOU RECALL IN

THE DEFENDANT
LOVEDA WAS
HE

SHE

AS YOU KNOW, THE

Pet. App. 260

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 130 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 154 of 275 Page ID
#:8029
5170

1

TRIED TO GET AWAY AGAIN, AND

2

INTERVENED.

UL~IMATELY

NOW, IN THIS INCIDENT THERE WAS A CERTAIN

3

4

UNFORTUNATE ASPECT.

5

NOT PRESSED AGAINST THE DEFENDANT.

6

YOU WHY.

7

EVENTS WOULD HAVE TURNED OUT DIFFERENT.

AND THAT ASPECT WERE THAT CHARGES WERE
AND LOVEDA NEWMAN TOLD

HAD CHARGES BEEN PRESSED, PERHAPS SUBSEQUENT

8
9

THE POLICE

BUT IT IS IMPORTANT FOR YOU TO CONSIDER WHY
LOVEDA NEWMAN DID NOT PRESS CHARGES.

10

DEFENDANT SAID TO HER?

11

WILL KILL YOU AND YOUR SON."

12

RECALL WHAT THE

HE SAID, "IF YOU PRESS CHARGES, I

NOW, ABSENT EVERYTHING ELSE YOU KNOW IN THIS

13

CASE, SUCH A THREAT MIGHT SEEM LIKE AN IDLE THREAT.

14

HOWEVER, IN CONJUNCTION WITH WHAT YOU HAVE RECEIVED AS

15

EVIDENCE IN THIS CASE, THAT THREAT BECOMES EVEN MORE

16

CHILLING.

17

AND, AGAIN, AN AWFUL FORTENSE OF THINGS TO COME.
BECAUSE AS WE MOVE TO THE NEXT VIOLENT EVENT ON

18

DECEMBER ·29TH, 1983, MAXINE BRITTON SEES HER DAUGHTER

19

ANTANYA YVETTE HOWARD FOR THE LAST TIME.

20

ON JANUARY 4TH, 1984, ANTANYA HOWARD'S BODY IS

21

FOUND.

22

EVIDENCE WHICH DEPICTS HOW ANTANYA LOOKED WHEN SHE WAS

23

FOUND.

24

INSTANCE OF WHERE A PICTURE SPEAKS A THOUSAND WORDS, THIS IS

25

THAT INCIDENT.

26

THIS IS HOW ANTANYA HOWARD WAS FOUND IN THE HATCH BACK OF

27

HER CAR.

28

NOW, THERE WAS A PICTURE THAT WAS INTRODUCED IN

AND LADIES AND GENTLEMEN,

IF THERE WAS EVER AN

THIS IS PEOPLE'S 54 NOW IN EVIDENCE.

AND

AS YOU CAN SEE, THERE IS CERTAIN OBVIOUS

ER 1076

Pet. App. 261

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 131 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 155 of 275 Page ID
5171
#:8030

1

CIRCUMSTANCIAL EVIDENCE OF ATTEMPTED RAPE.

2

PUSHED UP OVER HER BREAST, HER JEANS ARE DOWN AT ABOUT HER

3

ANKLES.

4

ELICITED EVIDENCE IN THIS CASE, THERE MAY BE SOME REFERENCE

5

TO THE FACT THAT ANTANYA.HAD A ROACH CLIP IN HER CAR, HAD

6

SOME STICKERS HANGING FROM THE REAR VIEW MIRROR.

7

ANTANYA'S BRA IS

AND I SUSPECT B£CAUSE OF THE WAY THE DEFENSE

I SUBMIT TO YOU IN LIGHT OF THAT PHOTOGRAPH AND

8

IN LIGHT OF WHAT HAPPENED TO HER, ANTANYA HOWARD IN NO WAY

9

DESERVED WHAT THE DEFENDANT DID TO HER.

10

IN NO WAY AT ALL.

NO ONE, NO ONE, NO ONE DESERVED THAT.

11

WITH REGARD TO THE MURDER OF ANTANYA HOWARD,

12

THERE IS SOME ANALYSIS FOR YOU TO DO WHICH IS VERY SIMILAR

13

TO THE ANALYSIS YOU UNDERTOOK IN DETERMINING THE GUILT OF

14

THE DEFENDANT AS TO THE MURDER OF TIFFANY FRIZZELL.

15

AGAIN, THERE IS EVIDENCE AS DEMONSTRATED BY

16

THIS PICTURE AS WELL AS DEMONSTRATED BY THE TESTIMONY OF

17

VARIOUS WITNESSES TO SUGGEST THAT ANTANYA HOWARD WAS KILLED

18

BY THE DEFENDANT DURING THE -- OF AN ATTEMPTED RAPE.

19

THEY'RE GO GIVING RISE TO THE FELONY MURDER RULE.

20

I THINK MORE IMPORTANTLY FOR YOU AT THIS PHASE

21

OF THE CASE IS THE MANNER IN WHICH ANTANYA HOWARD WAS

22

KILLED.

23

WAS STRANGLED TO DEATH.

24

BECAUSE JUST LIKE TIFFANY FRIZZELL, ANTANYA HOWARD

DISTINCT FROM WHAT HAPPENED TO TIFFANY

25

FRIZZELL, ANTANYA HOWARD HAD SUFFERED A GREAT DEAL OF HEAD

26

TRAUMA AT THE HANDS OF THE DEFENDANT.

27

A BIT ABOUT THE HEAD, AND I THINK YOU RECALL DOCTOR

28

FUKUMOTO'S TESTIMONY TO THE FACT THERE WAS EVEN BLOOD IN.

ER 1077

SHE WAS BEATEN QUITE

Pet. App. 262

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 132 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 156 of 275 Page ID
5172
#:8031

~RAIN

1

THAT FLUID WHICH ENVELOPES THE

2

HAD BEEN BEATEN SEVERELY AND SHE HAD BEEN STRANGLED.
AND WHAT

3

INSIDE HER SKULL.

DOES THIS EVIDENCE TO YOU?

SHE

IT

4

EVIDENCES THAT NOT ONCE, BUT TWICE THE DEFENDANT FORMULATED

5

AN INTENT TO KILL.

6

DECISION TO TAKE ANOTHER HUMAN BEING'S LIFE.

7

IN WHICH HE KILLED ANTANYA BY MEANS OF STRANGULATION, JUST

8

AS WITH TIFFANY FRIZZELL, IS VERY STRONG DAMAGING EVIDENCE

9

OF THAT TYPE OF INTENT.

HE MADE A COLD, CALCULATED, MALICIOUS
AND THE MANNER

-

10

THE POINT IS THE DEFENDANT ON TWO OCCASIONS

11

WITHIN A PERIOD OF APPROXIMATELY FOUR MONTHS DETERMINED THAT

12

HE WAS GOING TO TAKE ANOTHER LIFE.

13

AND TWICE HE DID THAT.

THERE'S ONE ADDITIONAL ASPECT AS WE CONSIDER

14

THE MURDER OF TIFFANY FRIZZELL AS WELL AS ANTANYA HOWARD

15

THAT DISTINGUISHES IT FROM THE RAPE OF JUNE SASSER.

16

THAT IS IT APPEARS THAT THE DEFENDANT LEARNED SOMETHING

17

AFTER THE RAPE OF JUNE SASSER-MARTINEZ.

18

THE LESSON THE DEFENDANT LEARNED WAS, DON'T LEAVE A LIVING

19

VICTIM WHO CAN COME BACK TO POSSIBLY TESTIFY AGAINST YOU IN

20

COURT.

AND

AND IT APPEARS THAT

21
22
23

24
25

26
27

28

ER 1078

Pet. App. 263

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 133 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 157 of 275 Page ID
5173
#:8032

FORTUNATELY FOR US_, THE DEFENDANT LEFT

1

UNFORTUNATELY FOR TIFFANY, UNFORTUNATELY FOR

2

FINGERPRINTS.

3

ANTANYA, HE DID NOT LEAVE HIS VICTIM'S ALIVE.

4

DISTINGUISHED FROM WHAT HAPPENED TO JUNE MARTINEZ.

A POINT TO

WE HAVE ONE LAST ACT, A CRIMINAL ACT WHICH

5
6

INVOLVED THE THREAT OF VIOLENCE.

AND THIS IS THE JANUARY

7

1ST, 1988, ATTEMPTED SCRAPE FROM THE LOS ANGELES COUNTY

8

JAIL.

-

9

AND I THINK YOU WILL RECALL QUITE CLEARLY THE

10

TESTIMONY OF MARTIN KOETH, AS WELL AS DEPUTY MARK STAMANT

11

WITH REGARD TO THAT ESCAPE.

12

GLEENED FROM THAT PARTICULAR INCIDENT ARE AS FOLLOWS:

13

I THINK THE TWO POINTS TO BE

ONE IS THE EVIDENCE OF POTENTIAL WEAPONS.

AND

14

WHEN YOU GO BACK IN THIS JURY ROOM FOR THE FIRST TIME YOU

15

WILL HAVE AN OPPORTUNITY TO EXAMINE THE PANOPLY, THE

16

ARSENAL, IF YOU WILL, OF WEAPONS

17

HIS DISPOSAL INSIDE THE HIGH POWERED, SECURED AREA OF THE

18

LOS ANGELES COUNTY JAIL.

19
20

THA~

THE DEFENDANT HAD IN

IT DEMONSTRATES THAT EVEN WHILE IN CUSTODY THE
DEFENDANT HAS A CERTAIN RESOURCEFULNESS AND INTEGRITY.
WE CAN ALL ASK OURSELVES HOW IS IT THAT THE

21
22

DEFENDANT CAN OBTAIN A KNIFE FROM THE OFFICERS' MESS WITHIN

23

THE COUNTY JAIL, WHEN ALL HE GETS TO EAT WITH IS A PLASTIC

24

SPOON?

25

BUT THE FACT REMAINS, HOWEVER, HE GOT IT.

26

HOWEVER HE OBTAINED THAT KNIPE AND OTHER KNIVES, HE GOT THEM

27

WITHIN A CUSTODIAL SETTING.

28

SO WE HAVE CONTAINED WITHIN THAT INCIDENT AN

ER 1079

Pet. App. 264

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 134 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 158 of 275 Page ID
5174
#:8033

l

IMPLIED THREAT OF VIOLENCE.
IN ADDITION, WE HAVE A MORE EXPRESS THREAT OF

2
3

VIOLENCE WHEN WE CONSIDER THE DEFENDANT'S WORDS UPON HIS

4

CAPTURE WHEN HE WAS BROUGHT DOWN OUT OF THE CEILING.

5

IF YOU'LL RECALL WHAT HE TOLD TO DEPUTY MARTIN

6

KOETH, AND IT WAS WORDS TO THE EFFECT OF, "YOU'RE LUCKY YOU

7

CAUGHT ME.

8

SAY, "I WAS GOING TO KILL," AND "I'M GOING TO KILL," A

9

SERGEANT BAEMAN.

YOU'RE LUCKY YOU CAUGHT ME."

AND HE GOES ON TO

AND HE TALKS ABOUT, "ON MY SAVIOR SATAN,

10

I'M GOING TO KILL SERGEANT BAEMAN IN AWAY THAT WOULD BE MOST

11

HUMILIATING TO HIM AND TO HIS FAMILY."

12

RECALL THE TESTIMONY OF DEPUTY MARTIN KOETH IN

13

THAT REGARD.

14

THREAT OF VIOLENCE, BUT AN EXPRESSED THREAT OF VIOLENCE AS

15

WELL.

16
17

BECAUSE THIS INCIDENT IS NOT ONLY THE IMPLIED

WE MOVE ON, LADIES AND GENTLEMEN, RATHER
QUICKLY THROUGH SOME OF THE REMAINING FACTORS.

18

FACTOR "C," THE PRESENCE OR ABSENCE OF PRIOR

19

FELONY CONVICTIONS.

20

DEFENDANT'S PRIOR RAPE CONVICTION.

21

OF JUNE MARTINEZ.

22

WE HAVE A STIPULATION TO THE
THIS INVOLVING THE RAPE

IT IS STIPULATED TO, IT IS A FACT WHICH YOU CAN

23

CONSIDER.

24

CONVICTION.

25

THERE IS NO DOUBT AS TO THE PROOF OF THAT

THERE ARE OTHER THINGS FOR YOU TO CONSIDER.
11

26

HAVE FACTOR "D.

27

WHILE THE DEFENDANT WAS UNDER THE INFLUENCE OF EXTREME

28

ME~AL

WE

WHETHER OR NOT THE OFFENSE WAS COMMITTED

OR EMOTIONAL DISTURBANCE.

ER 1080

Pet. App. 265

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 135 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 159 of 275 Page ID
5175
#:8034

1

NOW, I IMAGINE

THA~

THE DEFENSE IS GOING TO

2

PRESENT SOME ARGUMENT TO YOU ALONG THIS LINE.

THE QUESTION

3

FOR YOU, THE JURY, IS WHAT WEIGHT, WHAT MORAL OR SYMPATHETIC

4

VALUE, ARE YOU TO GIVE IT IN LIGHT OF ALL THE OTHER EVIDENCE

5

IN THIS CASE?
AND, ALSO, I THINK IT IS WORTHY OF QUESTION

6
7

WHETHER OR NOT ANYTHING GOING ON IN THE DEFENDANT'S MINDS

8

COULD EVEN BE CONSTITUTED EXTREME AT THE TIME.
SUBFACTOR

9

11

E."

WE HAVE THE FACTOR OF WHETHER

10

OR NOT THE VICTIM WAS A PARTICIPANT IN THE DEFENDANT'S

11

HOMICIDE, CONDUCT OR CONSENTED TO THE HOMICIDAL ACT.

12
13

IN THIS CASE, LADIES AND GENTLEMEN, THERE IS NO
EVIDENCE.

I SUBMIT TO YOU THAT THAT FACTOR DOES NOT APPLY.

14

FACTOR "F, n WHETHER OR NOT THE OFFENSE

~vAS

15

COMMITTED UNDER CIRCUMSTANCES WHICH THE DEFENDANT REASONABLY

16

BELIEVED TO BE MORAL JUSTIFICATION OR EXTINUATING SITUATION

17

FOR HIS CONDUCT.

18
19

IN THIS CASE THERE APPEARS TO BE NO EVIDENCE OF
THAT FACTOR.

AND I SUBMIT TO YOU IT

DOES NOT APPLY.

20

FACTOR nG," WHETHER OR NOT THE DEFENDANT ACTED

21

UNDER EXTREME DURESS OR UNDER THE SUBSTANTIAL DOMINATION OF

22

ANOTHER PERSON.

23

THERE IS NO EVIDENCE OF THAT IN THIS CASE.

ALL

24

THE EVIDENCE SUGGESTS IS THAT THE DEFENDANT ACTED ALONE IN

25

KILLING TIFFANY FRIZZELL.

26

SUBFACTOR "H," WHETHER OR NOT AT THE TIME OF

27

THE OFFENSE, THE CAPACITY OF THE DEFENDANT TO APPRECIATE THE

28

CRLMINALITY OF HIS CONDUCT TO CONFORM HIS CONDUCT TO THE.

ER 1081

Pet. App. 266

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 136 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 160 of 275 Page ID
#:8035
5176

1

REQUIREMENTS OF THE LAW WAS

2

DISEASE OR DEFECT, OR THE EFFECT OF INTOXICATION.

IMP~IRED

AS A RESULT OF MENTAL

3

WITH REGARU TO THIS, I SUBMIT TO YOU THAT THE

4

DEFENSE WILL PROBABLY BE ARGUING CERTAIN FACTORS CONTAINED

5

IN THIS FACTOR.

6

SYMPATHETIC VALUE YOU ARE TO ATTRIBUTE TO THE DEFENDANT'S

7

APPARENTLY PREVASIVE PATTERN OF VOLUNTARY INTOXICATION BY

8

MEANS OF ALCOHOL OR DRUGS.

SOMETHING TO THE EFFECT WHAT MORAL OR

· AGAIN, BASED UPON THE TESTIMONY OF DOCTOR

9

10

HANEY, WE KNOW THAT THE DEFENDANT WAS A RELATIVELY

11

INTELLIGENT, ORIENTED YOUNG MAN.

12

ANY SORT OF ORGANIC BRAIN DAMAGE AND AS FAR AS ANY MENTAL

13

DISEASE OR DEFECT.

14

ALL.

HE APPEARED TO BE FREE OF

EVIDENCE OF THAT WAS SLIGHT, IF ANY AT

15
16
17
18
19
20

21
22
23
24

25
26
27

28

ER 1082

Pet. App. 267

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 137 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 161 of 275 Page ID
#:8036
5177

1

THE THRUST OF THE DEFENSE ARGUMENT HERE WILL BE

2

ALONG THE LINES OF VOLUNTARY INTOXICATION.

3

YOU, IT IS UP TO YOU TO

4

VALUE YOU ARE TO ATTRIBUTE TO THAT FACTOR IN LIGHT OF WHAT

5

THE DEFENDANT HAS DONE.

6

~ETERMINE

AND I SUBMIT TO

WHAT MORAL OR SYMPATHETIC

SUBFACTOR "I, THE AGE OF THE DEFENDANT AT THE

7

TIME OF THE CRIME.

THIS MEANS AT THE TIME OF THE RAPE,

8

ROBBERY AND MURDER OF TIFFANY FRIZZELL.

9

OLD.

HE WAS 25 YEARS

10

YOU CAN MAKE OF THAT WHAT YOU WILL.

11

SUBFACTOR "J," WHETHER OR NOT THE DEFENDANT WAS

12

A ACCOMPLICE TO THE OFFENSE AND HIS PARTICIPATION IN THE

13

COMMISSION OF THE OFFENSE IS RELATIVELY MINOR.

14
15
16

THERE IS NO EVIDENCE TO SUGGEST THAT IN THIS
CASE.

I SUBMIT TO YOU THAT THAT FACTOR DOES NOT APPLY.
THE LAST FACTOR READS AS FOLLOWS:

"ANY OTHER

17

CIRCUMSTANCE WHICH EXTENUATES THE GRAVITY OF THE CRIME, EVEN

18

THOUGH IT IS NOT A LEGAL EXCUSE FOR THE CRIME, AND ANY

19

SYMPATHETIC OR OTHER ASPECT OF THE DEFENDANT'S CHARACTER OR

20

RECORD THAT THE DEFENDANT OFFERS AS A BASIS FOR A SENTENCE

21

LESS THAN DEATH.

22

AND IT SEEMS HERE, LADIES AND GENTLEMEN, THAT

23

THE DEFENSE IS MAKING IT'S PRIMARY THRUST, BECAUSE THEY HAVE

24

PRESENTED TO YOU 33 WITNESSES IN THE COURSE OF THEIR

25

PRESENTATION OF THE PENALTY PHASE EVIDENCE, MOST OF WHICH

26

APPEARED TO BE GEARED TOWARDS THIS FACTOR RIGHT HERE.

27

IT IS TO THIS FACTOR THAT I WISH TO ADDRESS SOME OF MY

28

REMAINING COMMENTS TO YOU THIS MORNING.

ER 1083

AND

Pet. App. 268

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 138 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 162 of 275 Page ID
#:8037
5178

1

I AM NOT GOING TO

~0

OVER THE TESTIMONY OF EACH

2

OF THOSE 33 DEFENSE WITNESSES ONE BY ONE.

3

WOULD SERVE NO USEFUL PURPOSE.

4

I THINK THAT

WHAT I WOULD LIKE TO DO IS SANITIZE CERTAIN OF

5

THEIR TESTIMONY AND OFFER THEM TO YOU FOR YOUR CONSIDERATION

6

AS YOU DELIBERATE.
4

7

FIRST OF ALL, WE HAVE TO CONSIDER THE FACT

8

THERE WERE 33 WITNESSES CALLED BY THE DEFENSE.

9

WITNESSES THERE WERE APPROXIMATELY A HALF DOZEN THAT DID NOT

10

OUT OF THOSE

EVEN KNOW THE DEFENDANT.

11

OUT OF THE REMAINDER OF THOSE WITNESSES, THERE

12

WERE MANY OF THOSE WITNESSES WHO HAD NOT SEEN THE DEFENDANT

13

FROM ANYWHERE FROM TEN TO 15 YEARS.

14
15
16

SO AS YOU CONSIDER THE IMPACT AND THE WEIGHT TO
BE ATTRIBUTED TO SUCH TESTIMONY, PLEASE CONSIDER THAT FACT.
I SUBMIT TO YOU THAT AS THOSE WITNESSES CAME IN

17

HERE TO OSTENSIBLY TALK TO YOU ABOUT THE REAL MARTIN KIPP,

18

THAT IN THE FORM OF TIFFANY FRIZZELL, ANTANYA HOWARD, JUNE

19

MARTINEZ AND LOVEDA NEWMAN, WE HAD MORE ACCURATE AND

20

UP-TO-DATE WITNESSES AS TO WHO THE REAL MARTIN KIPP WAS.

21

SECONDLY, THERE IS A THEME EMBODIED IN THAT

22

LAST FACTOR THAT SOMEHOW THIS WAS NOT THE DEFENDANT'S FAULT.

23

THAT THE KILLING, THE RAPE THE ROBBERY AND MURDER OF TIFFANY

24

FRIZZELL WAS NOT HIS FAULT, THAT IT WAS THE PRODUCT OF

25

SOCIAL FORCES WHICH ACTED UPON HIM FROM THE AGE OF BIRTH

26

RIGHT UP UNTIL THE TIME HE COMMITTED THE OFFENSE.

27
28

AND I WOULD LIKE TO OFFER YOU THIS ABOUT THAT
SORT OF ARGUMENT.

THE DEFENDANT IN A SENSE IS POSTING THE

ER 1084

Pet. App. 269

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 139 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 34 of 72 Page ID #:8978
'

5179

1

THEORY TO YOU THAT HIS UPBRINGING IN MONTANA, THE ABUSE OF

2

ALCOHOL AND DRUGS, HIS EXPERIENCES IN THE AMERICAN CORP, AS

3

WELL AS HIS EXPERIENCE IN PRISON SOMEHOW ALL CONTRIBUTED TO

4

HIM BECOMING WHAT HE WAS.

5

COURTROOM TODAY, THE DEFENSE HAS SUGGESTED THAT TO YOU SENSE

6

THEIR OPENING STATEMENT IN THIS PARTICULAR PHASE OF THE

7

CASE.
WELL, I WOULD LIKE TO HAVE YOU THINK ABOUT WHAT

8
9

TO HIM SITTING THERE IN THIS

I CALL THE PHENOMENA OF PARALLEL LIVES.

AND I WOULD LIKE

10

YOU TO THINK ABOUT THIS AS YOU EVALUATE THE WEIGHT TO BE

11

GIVEN TO THE TESTIMONY OF ALL THESE VARIOUS WITNESSES THAT

12

TESTIFIED.

13
14

AND BY PARALLEL LIVES I MEAN THE FOLLOWING:
LET'S

CON~DER

J3fQ~.<.;('I\_'fl~ ~':!'

THE FACT OF GROWING UP IN THE RIGORS OF

15

~

16

THERE ANYONE ELSE WHO GROW UP UNDER THOSE'SAME

17

CIRCUMSTANCES, YET WHO DID NOT TURN OUT TO BE A RAPIST

18

KILLER LIKE THE DEFENDANT?

19

MONTANA.

THE DEFENDANT WAS SUBJECT TO THAT.

THE DEFENSE PRESENTED A WITNESS FOR YOU.

WAS

BY

20

WAY OF EXAMPLE, MARILYN ST. GERMAINE WAS HER NAME.

21
22

ST. GERMAINE GREW UP UNDER CIRCUMSTANCES, AS ~aE TESTIFIED,
orve.S ~
TO WHICH WERE EVEN MORE HARSH THAN THE ffiiB'S THAT THE

23

DEFENDANT HAD TO ENDURE.

24

AND YET WHAT HAPPENED TO MARILYN ST.

25

SHE OVERCAME THOSE HARDSHIPS.

26

WORKER.

27

POSITIVE FORCE IN SOCIETY.

28

KILLER LIKE THE DEFENDANT IN THIS CASE.

MARILYN

GERMAINE?

SHE HAS BECOME A SOCIAL

SHE IS TRYING TO HELP HER PEOPLE.

SHE HAS BECOME A

SHE HAS NOT BECOME A RAPIST

ER 1085

Pet. App. 270

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 140 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 164 of 275 Page ID
#:8039
5180

1

SO IS IT THE FACT

~HAT

GROWING UP IN THAT PART

2

OF MONTANA MAKES ONE A RAPIST KILLER?

3

WE HAVE PARALLEL LIVES

4

YOU OTHERWISE.

5

L~KE

WELL, IS IT ALCOHOL AND DRUG, THEN, THAT MAKE
THE DIFFERENCE?

7

LIKE MARTIN KIPP INTO A RAPIST KILLER?

9
10
11

BECAUSE

MARILYN ST. GERMAINE WHICH TELL

6

8

I THINK NOT.

IS IT ALCOHOL AND DRUGS THAT TURNS SOMEONE

WELL, IS THERE A PARALLEL LIFE, A W1TNESS WHO
DEMONSTRATES FOR YOU OTHERWISE IN THIS CASE?

AND THERE IS.

AND IT WAS A WITNESS PRESENTED BY THE DEFENSE.
JUST TO CITE AN EXAMPLE, WE HAD

12

HAROLD ST. GODDARD.

AND MR. ST. GODDARD TESTIFIED TO HIS

13

EXPERIENCES WITH ALCOHOL AND DRUGS.

14

SAME PART OF MONTANA.

AND HE GREW UP IN THE

15
16

17
18

19
20
21
22

23
24

25
26
27

28

ER 1086

Pet. App. 271

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 141 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 35 of 72 Page ID #:8979
5181

BUT WHAT IS MR. ST. GODDARD TODAY?

1

2

PRODUCTIVE MEMBER OF SOCIETY IN MONTANA.

3

BUSINESS.

4

ABIDING FORCE IN THE COMMUNITY UP IN MONTANA.

5

BECOME A RAPIST KILLER.

HE IS MARRIED.

6

7

8

HE IS A

HE IS WORKING IN A

HE HAS BECOME A POSITIVE LAW
HE DID NOT

@J

WELL, IS IT THE MARINE CORPjTHEN?
ATTRIBUTE THE DEFENDANT'S

EVOLUT~

eor~QtY
TO THE UNITED STATES MARINE CORP?

ARE WE TO

INTO A RAPIST AND KILLER

WELL, I THINK BY WAY OF GENERALITY, ALL OF YOU

9
10

CAN THINK OF COUNTLESS EXAMPLES OF MEN AND WOMEN WHO HAVE

11

SERVED OUR COUNTRY IN THE UNITED STATES MARINE

12

NOT EVOLVE INTO RAPIST KILLERS.

13

c2J

COR~WHO

DID

IN THIS PARTICULAR CASE A WITNESS WHO

14

TESTIFIED, MR. HOLM.

15

ARIZONA

16

MARINE

17

EDUCATION AND BECAME AN EDUCATOR HIMSELF.

18

POSITIVE FORCE IN SOCIETY, NOT A NEGATIVE FORCE IN SOCIETY.

19

NOT A RAPIST KILLER LIKE THE DEFENDANT MARTIN KIPP.

20

BUT WAS IT PRISON, THEN?

WA~NE

COR~~

MR. TOM HOLM, THE PROFESSOR FROM

SUCH INDIVIDUAL.

HE HAD SERVED IN THE

HAD ACTUALLY SEEN COMBAT.

AND YET HE GOT AN
HE BECAME A

THE DEFENSE IS GOING

21

TO TALK TO YOU ABOUT PRISON.

22

PRISON, AND HE WAS OUT OF CONTROL, HE HAD LOST FOCUS.

23

WELL,

HOW THE DEFENDANT CAME OUT OF

DOES PRISON AUTOMATICALLY DICTATE WHEN

24

SOMEONE GETS OUT OF PRISON THEY ARE GOING TO BECOME THE TYPE

25

OF RAPIST MURDERER THAT THE DEFENDANT IS?

26

LADIES AND GENTLEMEN, I SUBMIT TO YOU I THINK

27

NOT.

AND WE HAD A LIVING EXAMPLE A PARALLEL LIFE, IF YOU

28

WILL, PRESENTED BY THE DEFENSE IN THIS CASE IN THE FORM OF

ER 1087

Pet. App. 272

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 142 of 243 5182
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 36 of 72 Page ID #:8980

1'

~-

JOHN IRWIN.

2

NOW, THE DEFENDANT DID APPROXIMATELY 21 MONTHS

f

'

t

~~
j

3

AT SUSANVILLE.

JOHN IRWIN DID FIVE YEARS AT A TOUGHER, MORE

4

SEVERE PRISON HERE IN THE STATE OF CALIFORNIA.
NOW, WHAT DID JOHN IRWIN DO WHEN HE GOT OUT OF

5
6

PRISON?

7

HAS BECOME AN EDUCATOR.

8

PUTTING SOMETHING BACK INTO SOCIETY INSTEAD OF TAKING AWAY

9

FROM SOCIETY.

HE WENT TO COLLEGE.

10

HE GOT AN EDUCATION.

HE, TOO, HAS BECOME SOMEONE WHO IS

SO IS IT PRISON, THEN, THAT IS THE DETERMINANT

11

THAT MAKES ONE A RAPIST KILLER LIKE THE DEFENDANT?

12

NOT.

13
14

HE, TOO,

I THINK

IS IT PERHAPS, THEN, A COMBINATION OF ALL OF
THESE VARIOUS FACTORS?

15

WELL, I THINK WE CAN CITE TO YOU A WITNESS WHO

16

WAS PRESENTED BY THE DEFENSE YESTERDAY AS A STRONG COUNTER

17

POINT TO THAT SORT OF THEORY.

18
19

AND THAT WAS MR. KEN WHEELER.

KEN WHEELER, A PARALLEL LIFE, I SUBMIT TO YOU,
GREW UP IN THE SAME AREA AS THE DEFENDANT.

@

HE WENT INTO THE

20

MARINE CORP$J SAME AS THE DEFENDANT.

21

ABUSED DRUGS AND ALCOHOL, SAME AS THE DEFENDANT.

22

BY HIS OWN ADMISSION HE

AND WHAT IS KEN WHEELER TODAY?

IS HE SITTING

23

IN COURT AS A DEFENDANT ACCUSED OF AND CONVICTED OF RAPES

24

AND MURDERS?

25

MAN.

26

THESE FORCES THAT ACTED UPON HIS LIFE, KEN WHEELER HAS

27

BECOME A POSITIVE CONTRIBUTING MEMBER OF SOCIETY.

28

NOT BECOME A RAPIST KILLER LIKE THE DEFENDANT.

YOU SAW HIM TESTIFY.

A WELL DRESSED YOUNG

AN ENGINEER AT A LOCAL AEROSPACE FIRM.

ER 1088

DESPITE ALL OF

HE DID

Pet. App. 273

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 143 of 243 5183
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 37 of 72 Page ID #:8981

THE DEFENDANT STOOD AT THE CROSS ROADS WHEN HE

1
2

GOT OUT OF PRISON IN JULY OF 1983.

3

THE PATH AFTER THAT.

4

DO.

5

ROADS.

6

AND THE DEFENDANT CHOSE

FORCES DID NOT DICTATE WHAT HE WAS TO

THE DEFENDANT CHOSE THE PATH AS HE STOOD AT THOSE CROSS

WHEN THE DEFENDANT GOT OUT OF PRISON HE HAD

7

MORE OPPORTUNITY THAN MOST INMATES WHO GET OUT OF PRISON.

8

HE HAD, AS EVIDENCED BY THE DEFENSE CASE IN THIS PENALTY

9

PHASE, HE HAD FAMILY AND FRIENDS WHO LOVED AND SUPPORTED

'.

10

HIM.

11

AWAITING HIM IN MONTANA.

12

THROUGH ONE OF THE DEFENSE WITNESSES.

13

AVAILABLE TO HIM.

14

DO.

15

WELDING WHILE IN STATE PRISON.

HE HAD A READY-MADE FOUNDATION AND SUPPORT GROUP
HE HAD MONEY, AS WAS BROUGHT OUT
HE HAD $13,000

NOT ONLY THAT, HE HAD SOMETHING HE COULD

HE PUT IN TWO THOUSAND HOURS TO LEARN THE TRADE OF

16

AND THE DEFENDANT CAME OUT OF PRISON, STOOD AT

17

THAT CROSS ROADS WITH THOSE SORTS OF RESOURCES AVAILABLE TO

18

HIM, AND HE CHOSE THE PATH AFTER THAT.

19

TOWARDS MURDER AND RAPE, AS YOU WELL KNOW NOW.

20

AND HIS PATH LED

LADIES AND GENTLEMEN, AS YOU EVALUATE THESE

21

VARIOUS FACTORS, YOU WILL BE CALLED UPON TO EMPLOY THE LAW.

22

AND THE LAW WILL TELL YOU THAT THIS WEIGHING OF THE VARIOUS

23

FACTORS IS NOT AN ARBITRARY SORT OF PROCEEDING.

24

COULD TAKE-- FACTOR "K,"

25

DEFENDANT OR SYMPATHY FOR THE DEFENDANT'S FRIENDS AND FAMILY

26

OR A COMBINATION THEREOF AND FIND THAT

27

OUTWEIGHS ALL OF THE EVIDENCE IN

28

PRESENTED TO YOU, AND YOU COULD FIND BY LAW THAT THE DEATH

IN FACT,

YOU COULD TAKE SYMPATHY FOR THE

ER 1089

THAT~NGLE

·~~~~~f<Sw ~HAT

FACTOR
I

Pet. App. 274

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 144 of 243

5184
-'
Case 2:03-cv-08571-PSG
Document 13-36 Filed 06/01/04 Page 38 of 72 Page ID #:8982

1

PENALTY IS NOT AN APPROPRIATE VERDICT IN THIS CASE.
I SUBMIT TO YOU THAT THAT IS NOT A PROPER

2
3

ANALYSIS.

I SUBMIT TO YOU THAT THE AGGRAVATING EVIDENCE

4

DOES SUBSTANTIALLY OUTWEIGH THE MITIGATING EVIDENCE IN THIS

5

CASE.

6

THROUGH ALL OF THIS EVIDENCE PRESENTED AT PENALTY PHASE.

AND IT DOES BECAUSE OF CERTAIN SUB-THEMES WHICH RUN

7

AND THESE SUB-THEMES CAN HAVE THREE HEADINGS.

8

ONE IS CERTAINTY.

9

LAST IS CONSIDERATION OF REMORSE.

10

ONE IS MORAL VALUE, IF YOU WILL.

AND THE

AND WITH REGARD TO CERTAINTY, UNLIKE SOME CASES

11

WHEN WE ARRIVE AT THESE PHASES, THERE IS NO LINGERING DOUBT

12

AS TO WHAT THE

13

~~~~~i)rJ~/ EVIDENCE

~FENDANT

DID.

WE PRESENTED YOU A

CASE, THE

~

M~DER OF;A~~~tA

c_·, 'rC.l-1.. 'm"')~~'\ ii (.'t ( Cl.l.fV

HOWARD

14

WAS PROVED THROUGH

15

THROUGH EVIDENCE PRESENTED BY THE DEFENSE THERE IS

16

ABSOLUTELY NO DOUBT THAT THIS DEFENDANT KILLED THOSE TWO

17

YOUNG WOMEN.

18

DEFENDANT ADMITTED IT TO HIS OWN PSYCHOLOGIST, MR. HANEY, IN

19

THIS CASE.

CIRCUMSTANG~

EVIDENCE.

BUT WE NOW KNOW

THAT HE MURDERED THOSE TWO YOUNG WOMEN.

THE

20

21

22
23
24

25
26
27

28

ER 1090

Pet. App. 275

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 145 of 243

5185
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 39 of 72 Page ID #:8983

1
2

SO AS TO~HE MURDER OF TIFFANY FRIZZELL, AS TO
/J-~1 +etl1ot~
THE MURDER OF ~NTANL~ HOWARD, THERE IS NO DOUBT. ABSOLUTELY

3

NO DOUBT.

4

THINGS.

IT IS ABSOLUTELY CERTAIN THAT HE DID THOSE

5

WE KNOW THROUGH A SIMILAR ANALYSIS THAT THERE

6

IS NO DOUBT THAT WE CAN BE ABSOLUTELY AS CERTAIN THAT THE

7

DEFENDANT RAPED JUNE MARTINEZ.

8

HIS CONVICTION, AND WE HAVE AN ADMISSION THROUGH MR. HANEY

9

ONCE AGAIN.

10
!:§:
r

;:_
}1'-,-

:r·

"'-

"·

NOW,

T~RE

THE~~~£±~~

WE HAVE THE STIPULATION TO

ARE TWO OTHER ACTS OF VIOLENCE WHICH

11

INVOLVE

THREAT OF VIOLENCE WHICH WERE PRESENTED

12

TO YOU.

13

LOVEDA NEWMAN AND THE EVENT INVOLVING THE JANUARY 1ST, 1988

14

ESCAPE ATTEMPT FROM THE LA COUNTY JAIL.

AND THIS CONCERNED THE EVENT INVOLVING

15

NOW, WITH REGARD TO THOSE TWO EVENTS, YOU HAVE

16

TO DETERMINE DID THOSE THINGS OCCUR AND DID THE DEFENDANT

17

COMMIT THOSE ACTS BY PROOF BEYOND A REASONABLE DOUBT?

18

WELL, THERE WAS NO EVIDENCE TO DISPUTE THAT

19

THOSE TWO EVENTS OCCURRED.

20

THE UNCHALLENGED TESTIMONY THOSE TWO EVENTS BECOME CERTAIN

21

AND SHOULD BECOME CERTAIN IN YOUR MINDS AS WELL.

22

AND I SUBMIT TO YOU IN LIGHT OF

ALL OF THESE EVENTS, STARTING FROM THE MURDER

23

OF TIFFANY FRIZZELL THROUGH THIS EVIDENCE OF OTHER

24

ACT THAT I

25

WITH

26

HAD ABOUT THAT.

27
28

PR~NTED

TO YOU IN THE PENALTY PHASE IS

CRIMINAL~

£~8~~

C{l>...ro.

THE~

OF CERTAINTY.

THERE'S NO RESIDUAL DOUBT TO BE

AND YOU CAN TAKE THAT CERTAINTY AND PONDER THAT
AS YOU EXAMINE ALL OF THESE FACTORS THAT WERE PRESENTED TO

ER 1091

Pet. App. 276

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 146 of 243

5186
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 40 of 72 Page ID #:8984

1

YOU IN PENALTY PHASE.
IN ADDITION, WE HAVE THE ASPECT OF MORAL VALUE,

2
3

IF YOU WILL.

4
5

WHEN WE BEGAN THIS PENALTY PHASE AND~SENT THE
~ ¥"0. lJXt-'tt~YI (Qf;:J
PRESENTATION OF ANY OTHER EVIDENCE INREVATION, YOU HAD

6

SUFFICIENT EVIDENCE TO DETERMINE THAT THE DEATH PENALTY WAS

7.

WARRANTED FOR MARTIN KIPP.

8

9

FORGET THE REST OF THE AGGRAVATING EVIDENCE
JUST FOR A MOMENT.

BY VIRTUE OF YOU FINDING THAT THE

10

DEFENDANT HAD COMMITTED A FIRST-DEGREE MURDER AND BY FINDING

11

THAT THE SPECIAL CIRCUMSTANCE WAS TRUE, THE DEFENDANT FOR

12

THIS ACT ALONE WAS ELIGIBLE TO RECEIVE THE DEATH PENALTY.
SO FORGETTING ALL THE OTHER AGGRAVATING

13
14

EVIDENCE JUST FOR A MOMENT, LET'S CONSIDER THE MORAL OR

15

SYMPATHETIC VALUE OF EVERYTHING THAT THE DEFENSE PRESENTED

16

IN COMPARISON WITH THIS ONE RAPE, ROBBERY, MURDER.

17

AS CONTAINED IN THE JURY INSTRUCTIONS, THIS IS PART OF THE

18

ANALYSIS THAT YOU REMEMBER TO EMPLOY.

19

BECAUSE

DOES THE FACTS OF THE DEFENDANT'S BACKGROUND,

20

THE FACTS THAT ANY SYMPATHY YOU MIGHT FEEL FOR THE

21

DEFENDANT'S FAMILY OR FRIENDS, OUTWEIGH WHAT THE DEFENDANT

22

DID?

23

ABSOLUTELY CERTAIN OF.

24

AND WHAT THE DEFENDANT DID IS SOMETHING WE ARE
ABSOLUTELY CERTAIN.

DOES THE EVIDENCE THE DEFENSE PRESENTED

25

OUTWEIGH THAT, OR

26

COLD BLOODED ACT ON THE PART OF THE DEFENDANT OUTWEIGH ALL

27

OF THE MITIGATING EVIDENCE IN AND OF ITSELF?

28

DOES THIS ACT, THIS FURIOUS, INTENTIONAL,

I HAVE TO LEAVE THAT TO YOU TO DETERMINE

ER 1092

Pet. App. 277

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 147 of 243
5187
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 41 of 72 Page ID #:8985

1

COLLECTIVELY.

2

BUT THE POINT IS, THE DEATH PENALTY COULD BE

3

DEEMED APPROPRIATE FOR THAT ONE CRIMINAL MURDEROUS ACT

4

ALONE.

5

BUT YOU DON'T HA~ JUST THAT. YOU HAVE ADDITIONAL
tl../¥1 m v a+i oY\(fjJ;)
EVIDENCE IN A.Geft~T!OM-. WE HAVE THE BRUTAL RAPE OF

6

JUNE MARTINEZ.

7

JUNE MARTINEZ BARELY ESCAPED DEATH ON JUNE

8

14TH, 1981.

WE CONSIDER THIS ACT ALONG WITH THE RAPE,

9

ROBBERY AND MURDER OF TIFFANY FRIZZELL, HOW DOES THE DEFENSE

10

EVIDENCE COMPARE WITH THAT?

11

SYMPATHETIC VALUE OF WHAT THE DEFENSE PRESENTED OUTWEIGH

12

THESE TWO ACTS, OR DO WE FIND THIS EVIDENCE IN AGGREVATION

13

SUBSTANTIALLY OUTWEIGH THE MITIGATING EVIDENCE?

14

DOES THE MORAL OR

AND WE CAN GO ON DOWN THE LINE ADDING IN THE

15

FACTOR OF ATTEMPTED RAPE OF LOVEDA NEWMAN, THE ESCAPE FROM

16

LA COUNTY JAIL, AND LASTLY AND MOST

17

OF ANOTHER LIFE, THE TAKING OF

18

YOU TAKE ALL OF THIS EVIDENCE IN

19

WITH THE EVIDENCE PRESENTED IN MITIGATION, YOU HAVE TO

20

ASSIGN SOME MORAL VALUE SOME WEIGHT TO THE EVIDENCE IN

21

MITIGATION.

22

AND I

SUBMI~O

(A~(U !.kt'-hOh~

IM~TANTLY

THE TAKING

~=C!Lf;'
AN~ HOWARD~ LIFE.

~~~~~~t~ AND

WHEN

COMPARE IT

YOU, LADIES AND GENTLEMEN, THIS

23

EVIDENCE IN

24

IN MITIGATION.

25

TO YOU, BUT THE VALUE IS NOT SERVED TO DIMINISH WHAT THE

26

DEFENDANT DID.

27

SENSE AT ALL.

28

THE JURY INSTRUCTION AND IN DETERMINING THAT THE AGGRAVATING

~6

BVA~I~FAR

OUTWEIGHS ANY EVIDENCE PRESENTED

THERE IS VALUE TO WHAT THE DEFENSE PRESENTED

IT

DOES NOT SERVE TO DIMINISH THAT IN ONE

AND YOU ARE ENTIRELY JUSTIFIED IN EXAMINING

ER 1093

Pet. App. 278

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 148 of 243
Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 172 of 275 Page ID
5188
#:8047

1

FACTORS SUBSTANTIALLY OUTWEIGH .THE MITIGATING FACTORS IN

2

THIS CASE TO THE POINT THAT THE DEATH PENALTY IS WARRANTED.

3

SO, WE HAVE THIS SUB-THEME OF CERTAINTY OF WHAT

4

THE DEFENDANT DID.

WE HAVE THE SUB-THEME OF WHAT MORAL

5

VALUE ARE YOU TO ATTRIBUTE TO THE MITIGATING EVIDENCE

6

PRESENTED BY THE DEFENSE, AND THEN LASTLY, THE NOTION OF

7

REMORSE.

8

KNOW HE DID.

-

OF THE DEFENDANT BEING REMORSEFUL FOR WHAT YOU

9

THINGS OF WHICH WE ARE CERTAIN.
LET'S MOVE CHRONOLOGICALLY BACK TO ABOUT

10

JANUARY THE 6TH, 1984.

11

ON THAT DATE THE DEFENDANT SURRENDERED HIMSELF TO LAGUNA

12

BEACH POLICE DEPARTMENT AS A PAROLE VIOLATOR, AND HE WAS

13

ULTIMATELY ARRESTED FOR SOME WARRANTS THAT HE HAD.

14

WE KNOW BY WAY OF STIPULATION THAT

PERHAPS THE DEFENSE WILL ATTRIBUTE SOME SORT OF

15

SENSE OF REMORSE TO BE INFERRED BY THE DEFENDANT TURNING

16

HIMSELF IN.

17

PROPOSITION, AND WOULD NOT BE A PROPOSITION BECAUSE OF THE

18

SUBSEQUENT EVENTS.

I SUBMIT TO YOU THAT WOULD NOT ABOUT A

19
20

21
22
23
24
25
26

27
28

ER 1094

Pet. App. 279

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 149 of 243
5189
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 42 of 72 Page ID #:8986

TAKE JANUARY lOTH, 1984.

1

DEFENDANT

2

RICHARD HOOPER OF THE HUNTINGTON BEACH POLICE DEPARTMENT

3

HOMICIDE DIVISION TESTIFIED FOR YOU THAT HE INTERVIEWED THE

4

DEFENDANT.

5

HEARD THE TAPE.

6

CONVERSATION TRANSPIRED.

7

THE DEFENDANT WAIVED HIS MIRANDA RIGHTS, AND YOU
YOU HAVE THE TRANSCRIPT.

YOU KNOW WHAT

DEFENDANT HOOPER GAVE THE DEFENDANT EVERY

8

OPPORTUNITY TO TELL THE TRUTH.

9

ABOUT WHAT HAD HAPPENED WITH

EVERY~PORTUNITY

4tHa

~

~

HOWARD.

TO TALK

AND WHAT DID

10

THE DEFENDANT DO?

DID HE COME FORWARD AND ADMIT WHAT HE

11

DID?

THE DEFENDANT LIED.

12

BEEN WITH THIS GIRL.

13

I'VE NEVER BEEN IN HER CAR." BUT OTHER WITNESSES AND

14

FINGERPRINTS BELIED THE DEFENDANT'S STATEMENT ON THAT.

HE DID NOT.

15

HE SAID, "I'VE NEVER

I'VE NEVER BEEN IN CHARLIE'S CHILI.

SO WITH THE DEFENDANT, WAS THE DEFENDANT COMING

16

FORWARD OUT OF REMORSE WHEN HE SURRENDERED HIMSELF?

17

CIRCUMSTANCES DICTATE, NO.

18
19

DID THE DEFENDANT COME FORWARD AFTER HE RAPED
AND ROBBED AND MURDERED TIFFANY FRIZZELL?

20

I SUBMIT TO YOU THAT THE

HE DID

NOT.~

MOST··d~'1~~it'lje._

21

EXPRESSION OF THE DEFENDANT'S SENSE OF REMORSE IS CONTAINED

22

IN THE LETTER THAT YOU HAVE ALREADY RECEIVED IN EVIDENCE AT

23

THE TRIAL PHASE OF THIS CASE, THE SEPTEMBER 15TH, 1987,

24

LETTER.

25

WAS STATED IN THAT LETTER, BECAUSE THE LANGUAGE WAS ROUGH,

26

TO SAY THE LEAST.

27
28

AND I DON'T NEED TO RECITE FOR YOU PRECISELY WHAT

BUT THE IMPACT AND THE ESSENCE OF THAT LETTER
WAS, "WAS I SORRY?

WAS I SORRY?

ER 1095

NO.

ABSOLUTELY NOT."

Pet. App. 280

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 150 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 43 of 72 Page ID #:8987

HE TALKS ABOUT, IN EFFECT, "THOSE GIRLS

1

2

DESERVED TO DIE.

3

BECAUSE THOSE GIRLS DESERVED TO DIE."

4
5.

AND IT FELT GREAT.

YEAH, IT FELT GREAT

DOES THIS SOUND LIKE THE LANGUAGE OF
DOES THIS SOUND LIKE THE LANGUAGE OF REMORSE?

REPENTENCE?

6

WHEN YOU CONSIDER THE BOTTOM OF, I BELIEVE IT'S

7

PAGE 6 OF THAT LETTER, THE DEFENDANT WRITES, "WAS I SORRY?

8

NO.

9

II

YOU HAVE THAT LETTER AND THAT IS EXPRESS

10

STATEMENTS BY THE DEFENDANT OF HIS OWN FEELINGS OF REMORSE.

11

NOW, THE DEFENSE HAS SOUGHT TO COUNTER THAT BY

12

PRESENTING THE TESTIMONY OF MR. HANEY.

13

WEEK AGO MONDAY, ON JANUARY 16TH, 1989, MR. HANEY INTERVIEWS

14

THE DEFENDANT.

15

WAS ANGRY AND UPSET AT THE TIME I WROTE THAT LETTER." AND

16

THIS IS HOW MR. HANEY

17

PARTICULAR LETTER AS WELL.

18

THE IMPACT OF THE SEPTEMBER 15TH, LETTER.

19

AND IF YOU RECALL, A

AND OSTENSIBLY THE DEFENDANT TELLS HIM, "I

INTERPRET~HE

~

EVENTS SURROUNDING THAT

EFFORT TO MITIGATE, PERHAPS,

WELL, LADIES AND GENTLEMEN, THROUGH

20

DEVELOPMENTS YESTERDAY, AS WELL AS TO AN EXTENT LAST FRIDAY

21

MORNING, WE HAVE BEFORE YOU A SECOND LETTER NOW.

22

PERTINENT PART AT THIS TIME I'M GOING TO READ TO YOU SOME

23

LANGUAGE FROM THIS SECOND LETTER THAT WAS INTERCEPTED ON

24

SEPTEMBER 9TH, 1987, AT THE ORANGE COUNTY JAIL.

25

ASK YOU, DOES THE LANGUAGE OF THE DEFENDANT SEEM CONSISTENT

26

AT ALL WITH LANGUAGE YOU MIGHT EXPECT OF SOMEONE WHO WAS

27

REMORSEFUL OR REPENTANT?

28

AND IN

AND I WILL

PARDON MY LANGUAGE, BUT IT READS ON PAGE 6.

ER 1096

Pet. App. 281

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 151 of 243

5191
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 44 of 72 Page ID #:8988

"I'D RAPE AND SODOMIZE EVERY WOMAN BITCH DEPUTY

1

2

AND GOUGE THEIR EYES OUT.

3

INVALIDS.

4

HORROR.

5

ESCAPE, BECAUSE I'LL ASSOCIATE MYSELF WITH A TERRORIST GROUP

6

AND REALLY GO ON A SPREE.

7

DEPUTIES, MEN AND WOMEN ALIKE, AND I'D GOUGE EVERY ONE OF

8

THEIR,"

9

TO 500 KILLINGS OF THIS TYPE, I'D ALSO INCORPORATE SOME

BUT I WOULD LET THEM LIVE AS

YEAH, SATAN WILL LICK THEM ALL UP IN A TREDGE OF
THEY BETTER NOT EVER GIVEN ME THE OPPORTUNITY TO

I'D KILL EVERY DA AND HIS FAMILY,

EXCUSE ME, "FUCKING EYES OUT.

AFTER I GOT TO 400

10

NINJA-TYPE MURDERS BY POISON.

YEAH, I DON'T BELIEVE IN GOD

11

ANYMORE, BECAUSE THERE ISN'T ONE WHO HAS EVER HELPED ME.

12

BUT SATAN HAS HELPED ME REJUVENATE MY ENERGY IN A WORKING

13

MANNER.

14

THAT'S ALL I CAN SAY."

DON'T EVER UNDERESTIMATE MY INTENTIONS, BABE,

15

THE LANGUAGE OF SOMEONE WHO'S REMORSEFUL.

THE

16

LANGUAGE OF SOMEONE WHO'S REPENTANT.

17

THESE TWO LETTERS WITH THE LANGUAGE THE DEFENDANT USED IN

18

CONJUNCTION

19

PRETTY 09NSIST NOTION OF WHAT IS GOING ON IN THE DEFENDANT'S

20

MIND WITH REGARD TO REMORSE.

21

22

WITH.~T

Cnn 5iS-fe~"~

WHEN YOU CONSIDER

ONE 1988 ESCAPE ATTEMPT, YOU HAVE A

LADIES AND GENTLEMEN, I HAVE JUST A FEW
CONCLUDING REMARKS.

23

THUS FAR I HOPE MY REMARKS HAVE BEEN SOMEWHAT

24

HELPFUL, AT LEAST IN OFFERING SOME IDEA OF HOW TO ANALYZE

25

THE TYPE OF EVIDENCE YOU HAVE RECEIVED IN THIS PENALTY

26

PHASE.

27
28

THIS ASPECT OF THE CASE IS ONE, LIKE I STATED
EARLIER, THAT IS FROUGHT WITH EMOTION.

ER 1097

PERHAPS FOR YOU, BUT

Pet. App. 282

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 152 of 243

5192
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 45 of 72 Page ID #:8989
·J

1

CERTAINLY FOR US AS TRIAL ATTORNEYS.

2

BEST THIS MORNING TO WORK THROUGH THE LAW, TO WORK THROUGH

3

CERTAIN LARGER CONSIDERATIONS THAT YOU WILL FACE AS JURORS

4

IN MAKING THIS VERY IMPORTANT DECISION.

5
6

~ BUT, ULTIMATELY, WE COME DOWN TO THESE FEW
~
CeMCLun~ REMARKS. AND THIS IS WHAT I WOULD LIKE TO

7

EXPRESS TO YOU:

ecm\·,J·

8
9

10

IN THIS CASE, IN OPENINGS REMARKS BY MR. BRODEY
AT THE PENALTY PHASE, MR. BRODEY REMARKS ABOUT THE TRAGIC
JOURNEY OF THIS DEFENDANT MARTIN KIPP.

11
12

AND I HAVE DONE MY

I SUBMIT TO YOU, LADIES AND GENTLEMEN, THAT THE
REAL

~GEDY

~..Ytuse0dJ7

IN THIS CASE IS THAT PATH THAT MARTIN KIPP

13

~

14

LOVEDA NEWMAN AND ANTANYA HOWARD.

15

TRAGEDY LIES IN THIS CASE.

CROSSED THE LIVES OF JUNE MARTINEZ, TIFFANY FRIZZELL,
THAT IS WHERE THE REAL

16

17
18
19
20
21
22
23

24
25
26
27

28

ER 1098

Pet. App. 283

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 153 of 243
5193
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 46 of 72 Page ID #:8990

1

THE DEFENDANT LEFT IN HIS PATH TWO DEAD VICTIMS

2

AND TWO LIVING VICTIMS WHO WILL NEVER FORGET THE HORROR THAT

3

THE DEFENDANT PUT THEM THROUGH •

4

THE

@

DEFENDANT-~HIS

PATH, LADIES AND

THIS PATH FOR HIM.

GENTLEMEN.

6

TRAGEDY TO THE EXTENT THAT IT EXISTS IN THIS CASE BELONGS TO

7

THE DEFENDANT'S VICTIMS, AND NOT TO THE DEFENDANT.

8
9

EVENTS DID NOT

THE

5

IN THIS PHASE OF THE CASE THE DEFENSE ATTORNEYS
HAVE BROUGHT FORWARD MANY FRIENDS AND FAMILY MEMBERS OF THE

10

DEFENDANT TO TESTIFY OF THE MARTIN KIPP THAT THEY KNEW TO

11

APPEAL TO YOU OR YOUR SYMPATHY OR YOUR MERCY.

12

AND AS I LISTEN TO THESE WITNESSES TESTIFY,

13

FIRST AT LENGTH ABOUT JOHN KIPP, AND THEN MORE SPECIFICALLY

14

ABOUT THE DEFENDANT, AND AS I CONSIDERED THE FACT THAT FOR

15

MANY OF THESE PEOPLE THEY HAD NOT SEEN THE REAL MARTIN KIPP

16

FOR SOME YEARS, I THOUGHT OF THE FOLLOWING PARABLE.

17

STORY OUT OF TURN OF THE CENTURY ENGLAND.

18

THE STORY OF THE BENGAL TIGER.

IT'S A

AND IT'S KNOW AS

AND IN THE TURN OF THE CENTURY ENGLAND A

19
20

JOURNALIST WAS VISITING A ZOO IN LONDON.

21

CAGE WHERE BORE A SIGN THAT SAID, "BENGAL TIGER."

22

LOOKED IN THE CAGE HE SAW A TIGER RATHER SLEEPILY LOOKING

23

BACK AT HIM.

24

TIGER APPEARED TO ALMOST BE

25

THE TIGER WAS CLEANING HIS

OWN~AWS.

AND AS HE

THE

.;:s~m~~Ctrtt

AND AS THE JOURNALIST LOOKED INTO THE CAGE AND

26

LOOKED AT THIS TIGER A VOICE

27

"SIR, THAT IS NOT A REAL ""fiANJi3I:. TIGER."

28

AND HE WENT TO THE

W~~ARD

BEHIND HIM SAYING,

~~

AND THE JOURNALIST TURNED AND THERE WAS ANOTHER

ER 1099

Pet. App. 284

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 154 of 243

5194
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 47 of 72 Page ID #:8991

1

FELLOW WHO APPEARED TO BE DRESSED IN WHAT MIGHT BE DESCRIBED

2

AS SAFARI-TYPE CLOTHING.

3

SIR?

4

WHAT THE SIGN SAYS."

7

YOU MEAN,

A~GER?

THAT'S

AND THIS PERSON WHO IDENTIFIED HIMSELF AS A
HUNTE~AID,

"SIR, WHAT YOU ARE LOOKING AT IS NOT A REAL

-l~tfl~tV TIGER. "

AND THEY HAD A FRIENDLY WAGER, WHICH RESULTED

8

9

SAID~ _"WH~O

WHAT DO YOU MEAN THIS IS NOT

5

6

AND HE

IN THE JOURNALIST AND THE HUNTER GOING TO INDIA.

THEY

10

ARRIVED IN INDIA AND THEY LEFT THE CIVILIZED PORTIONS OF

11

INDIA AND BEGAN TO GO INTO THE JUNGLE AREA.

12

AND AS THEY MOVED THIS ONE HOT AFTERNOON INTO

13

THE JUNGLE, THE FOLIAGE WAS STEAMING, IT WAS HOT, THEY CAME

14

UPON A CLEARING.

15

HE STEPPED INTO THE CLEARING FROM THE OTHER SIDE OF THE

16

CLEARING HE HEARD THE LOW GROWL OF A TIGER.

17

WHERE

18

HAD·~ MUSCL~BUNCHED AS IF TO LEAP.

19

BURNING.

20

FANGS WERE OUT.

21

THE OTHER SIDE OF THE CLEARING TO WHERE THE HUNTER WAS.

22

AS HE RATHER SHAKILY APPROACHED THE HUNTER,

23

TH~~OISE

1+s~

TO HIM,

24

THE JOURNALIST WAS LEADING THE WAY, AND AS

WAS COMING FROM, HE SAW A TIGER.

"J:-+~

i~'S

11

AS HE LOOKED TO

CLAWS WERE DISTENDED.

THIS TIGER

IT'S EYES WERE

IT'S YELLOW TEETH AND

AND THE JOURNALIST RAN BACK TO THE COVER OF

T~HUNTER

Uev:9~l~

AND
SAID

SIR, NOW YOU HAVE SEEN A REAL ::fSA~L TIGER."
IN THIS PARTICULAR CASE THESE WITNESSES WHO

25

HAVE BEEN PROFFERED BY THE DEFENSE SPOKE OF A MARTIN KIPP

26

WHO WAS NO LONGER THE REAL MARTIN KIPP.

27

UPON THE REAL MARTIN KIPP.

28

KILLS.

YOU SIT IN JUDGMENT

THE MARTIN KIPP WHO RAPES, WHO

THE MARTIN KIPP WHO ONE CAN ONLY INFER WAS THE REAL

ER 1100

Pet. App. 285

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 155 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 48 of 72 Page ID #:8992

1

MARTIN KIPP THAT TIFFANY FRIZZELL AND .JOWARD SAW

2

JUST BEFORE THEY WERE RENDERED UNCONSCIOUS DUE TO THE

3

DEFENDANT'S STRANGLING THEM.

4

LADIES AND GENTLEMEN, THAT IS THE MARTIN KIPP

5

IN WHICH YOU SIT IN JUDGMENT UPON.

6

KIPP.

7

WHEN THE DEFENSE ASKS YOU TO HAVE MERCY UPON

8

MARTIN KIPP, THINK ABOUT THAT REAL MARTIN KIPP.

9

MARTIN KIPP WHO SHOWED NO MERCY TO HIS VICTIMS.

11

THE REAL

WHEN THE DEFENSE ASKS YOU TO HAVE SYMPATHY,

10

ATTRIBUTE WHAT MORAL WEIGHT YOU FEEL IS APPROPRIATE.
BUT I SUBMIT TO YOU IN LIGHT OF THE AGGRAVATING

12

~~

THAT IS THE REAL MARTIN

13

EVIDENCE IN THIS CASE,

14

DONE, IN LIGHT OF WHAT THIS

15

THE EVIDENCE IN

16

EVIDENCE IN MITIGATION THAT THERE'S ONLY ONE PENALTY THAT IS

17

PROPER UNDER THE LAW.

18
19

IN LIGHT OF WHAT THE DEFENDANT HAS
~

A;:~;:;~n,o; S~

1

MARTIN KIPP HAS DONE, THAT

SUBSTANTIALLY OUTWEIGHS THIS

AND THAT IS THE DEATH PENALTY.

I SUBMIT TO YOU VERY SHORTLY THE CASE.
LADIES AND -~~EMEN, YOU 1~
1
THE

JUJ[ftJ,

REPRESENT THE

20

~;;mtt;=~

21

YOUR VERDICT WILL BE SENDING A MESSAGE BACK TO THE COMMUNITY

22

OF WHAT YOU FEEL THE APPROPRIATE VERDICT IS IN THIS CASE.

23

MR. BRODEY:

24

THE COURT:

25
26
27
28

IT.

&-8t~Hici/l 0~

YOU,

THE COMMUNITY.

YOU BY

I'M GOING TO OBJECT TO THAT.
JUST MAKE A NOTATION.

I MADE A NOTE OF

THANK YOU.
GO AHEAD.
MR. HODGMAN:

IN CLOSING, I URGE TO YOU ON BEHALF OF

THE PEOPLE TO REMEMBER YOUR SOLEMN OATH AS JURORS.

ER 1101

I URGE

Pet. App. 286

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 156 of 243
Case 2:03-cv-08571-PSG Document 13-36 Filed 06/01/04 Page 49 of 72 Page ID #:8993

rnV\~_Iev.fhoLO>l'f {f}

~OGETHER

1

UPON YOU TO WORK CAREFULLY AND

2

TRY TO RESOLVE THIS VERY IMPORTANT ISSUE.

3

TO FOLLOW THE LAW AS YOU FEEL APPROPRIATE.

4

YOU THAT IN LIGHT OF THE EVIDENCE THAT HAS BEEN PRESENTED IN

5

THE PENALTY PHASE OF THIS CASE, THAT THERE IS ONLY ONE

6

PENALTY THAT IS WARRANTED.

7

AGGRAVATING EVIDENCE, AFTER ALL THE ANALYSIS IS DONE, SO

8

SUBSTANTIALLY OUTWEIGHS THE MITIGATING EVIDENCE THAT INDEED

9

ONLY THE DEATH PENALTY FOR THIS DEFENDANT IS APPROPRIATE.

10

AS YOU

I URGE UPON YOU
AND I URGE UPON

AND THAT IS BECAUSE THE

THIS DEFENDANT, THIS REAL

HAS

MARTI~KIPP,

52~1@

HIS~.

A~HE

11

MURDER IN HIS HEART, HAS SATAN THIS

12

THE LIFE 1 S BLOOD OF TIFFANY FRIZZELL AND 1rN'f':APi:1"A HOWARD ON

13

HIS HANDS.

14
15

FOR WHAT HE ~S DONE, AS EVIDENCED BY THIS
O...O't'il'("a 1I n-+-;(lY\ @J:1
EVIDENCE IN ~' ANY VERDICT OTHER THAN THE DEATH

16

PENALTY WOULD ABOUT AN ABSOLUTE INJUSTICE~

17

A-n+tt~.V.~

HAS

THANK YOU.

18
19
20

21
22
23
24

25

26
27
28

ER 1102

Pet. App. 287

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 199 of 243

Case 2:03-cv-08571-PSG Document 13-29 Filed 06/01/04 Page 270 of 280 Page --------,_
ID
#:7865

1

SUPERIOR COURT OF THE STATE OF CALIFORNIA

2

FOR THE COUNTY OF LOS ANGELES

3

DEPARTMENT

SOUTH "L" .

HON.

MICHAEL G. NOTT, JUDGE

4
5

THE PEOPLE OF THE STATE OF CALIFORNIA,

)
)

PLAINTIFF,

6

vs.

7

8

~

NO. A .02"ll286

)

'' . .

Fl L E11

MARTIN JAMES KIPP,
DEFENDANT.

9

)
)

)

M

1989

) JJ)..,,. 23 UJ\Uj~lf.R\\ ~

fRt\til\S.l.O~lN,.C~,..

10

·- .---· ·-

REPORTERS' DAILY TRAN~ttJ"f.;-T .

11

nEPUrf

t'lONDAY, JANUARY 23, 1989

12

.

13
14

APPEARANCES:
FOR THE PEOPLE:

15
16

17

IRA REINER
DISTRICT ATTORNEY
BY: WILLIAM HODGMAN, DEPUTY
18-709 CRIMINAL COURTS BUILDING
210 WEST TEMPLE STREET
LOS ANGELES, CALIFORNIA 90012
(213) 974-3611

18

FOR THE DEFENDANT:
19

JOHN YZURDIAGA, ESQ.
970 WEST 190TH STREET
SUITE 605

20

LOS ANGELES, CALIFORNIA

21

~

22

P8GE;

0 L

U M E 41

BRODEY & PRICE
BY: JEFFREY BRODEY, ESQ.
9777 WILSHIRE BOULEVARD
SUITE 900
BEVERLY HILLS, CALIFORNIA 90212

24

25

27
28

-AND-

5014_- 514S

23

26

90502

(213) 515-7633

{213) 277-8438

ORISINAL

VICKI FRASER, CSR #6737
CHRISTINA ARCHAMBEAU, CSR 13416
OFFICIAL REPORTERS

ER 1145

Pet. App. 288

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 200 of 243

Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 89 of 275 Page ID #:7964
5108

1

JURY INSTRUCTIONS

2

3

4

THE COURT:

5

"LADIES AND GENTLEMEN:

6

IT'S NOW

MY DUTY TO INSTRUCT YOU ON THE LAW.

7

8

9

IF ANY RULE OR DIRECTION OR IDEA
IS REPEATED OR STATED IN DIFFERENT WAYS

10

IN THESE INSTRUCTIONS, NO EMPHASIS IS

11

INTENDED AND YOU MUST NOT DRAW ANY

12

INFERENCE BECAUSE OF ITS REPETITION •

.

13

14

DO NOT SINGLE OUT ANY PARTICULAR

15

SENTENCE OR ANY INDIVIDUAL POINT OR

16

INSTRUCTION AND IGNORE THE OTHERS.

17

CONSIDER THE INSTRUCTIONS AS A WHOLE AND

18

EACH IN LIGHT OF ALL THE OTHERS.

19
20

THE ORDER IN WHICH THE

21

INSTRUCTIONS ARE GIVEN HAS NO

22

SIGNIFICANCE AS TO THEIR IMPORTANCE.

23

24

STATEMENTS MADE BY THE ATTORNEYS

25

DURING TRIAL ARE NOT EVIDENCE.

26

IF THE ATTORNEYS HAVE STIPULATED OR

27

AGREED TO A FACT, YOU MUST REGARD THAT

28

FACT AS CONCLUSIVELY BEING PROVED AS TO

ER 1146A

HOWEVER,

Pet. App. 289

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 201 of 243

Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 90 of 275 Page ID #:7965
5109

1

THE PARTY OR PARTIES MAKING THAT

2

STIPULATION.

3

IF AN OBJECTION WAS SUSTAINED TO A

4
5

QUESTION, DO NOT GUESS WHAT THE ANSWER

6

MIGHT HAVE BEEN.

7

THE REASON FOR THE OBJECTION.-

DO NOT SPECULATE AS TO

8

DO NOT ASSUME TO BE TRUE ANY

9
10

INSINUATION SUGGESTED BY A QUESTION THAT

11

WAS ASKED OF A WITNESS.

12

NOT EVIDENCE AND MAY BE CONSIDERED ONLY

13

AS IT ENABLES YOU TO UNDERSTAND AN

14

ANSWER.

5

A QUESTION IS

15

DO NOT CONSIDER FOR ANY PURPOSE

16

17

ANY OFFER OF EVIDENCE THAT WAS REJECTED

18

OR ANY EVIDENCE THAT WAS STRICKEN BY THE

19

COURT.

20

HEARD OF IT.

TREAT IT AS THOUGH YOU NEVER

21

22

YOU MUST DECIDE ALL QUESTIONS OF

23

FACT IN THIS CASE FROM THE EVIDENCE

24

RECEIVED IN THIS TRIAL AND NOT FROM ANY

25

OTHER SOURCE.

26

INDEPENDENT INVESTIGATION OF THE FACTS

27

OR THE LAW, OR CONSIDER OR DISCUSS FACTS

28

AS TO WHICH THERE IS NO EVIDENCE.

YOU MUST NOT MAKE ANY

ER 1146B

THIS

Pet. App. 290

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-5, Page 202 of 243

Case 2:03-cv-08571-PSG Document 13-30 Filed 06/01/04 Page 91 of 275 Page ID #:7966
5110

1

MEANS, FOR EXAMPLE, YOU MUST NOT ON YOUR

2

OWN VISIT THE SCENE, CONDUCT EXPERIMENTS

3

OR CONSULT REFERENCE WORKS OR OTHER

4

PERSONS FOR ADDITIONAL INFORMATION.

5
6

YOU MUST NOT DISCUSS THIS CASE
EXCEPT~A

7

WITH ANY OTHER PERSON,

8

JUROR, AND YOU MUST NOT DISCUSS THE CASE

9

WITH A FELLOW JUROR UNTIL THE CASE IS

10

FINALLY SUBMITTED TO YOU FOR DECISION,

11

AND THEN ONLY WHEN ALL JURORS ARE

12

PRESENT IN THE JURY ROOM •

.

FELLOW

13
14

15
16

17
18
19

20
21
22
23

24

25

26
27
28

ER 1147

Pet. App. 291

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 17 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 3 of 18 Page ID #:27138

ER 196

Pet. App. 292

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 18 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 4 of 18 Page ID #:27139

ER 197

Pet. App. 293

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 19 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 5 of 18 Page ID #:27140

ER 198

Pet. App. 294

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 20 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 6 of 18 Page ID #:27141

ER 199

Pet. App. 295

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 21 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 7 of 18 Page ID #:27142

ER 200

Pet. App. 296

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 22 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 8 of 18 Page ID #:27143

ER 201

Pet. App. 297

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 23 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 9 of 18 Page ID #:27144

ER 202

Pet. App. 298

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 24 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 10 of 18 Page ID #:27145

ER 203

Pet. App. 299

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 25 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 11 of 18 Page ID #:27146

ER 204

Pet. App. 300

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 26 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 12 of 18 Page ID #:27147

ER 205

Pet. App. 301

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 27 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 13 of 18 Page ID #:27148

ER 206

Pet. App. 302

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 28 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 14 of 18 Page ID #:27149

ER 207

Pet. App. 303

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 29 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 15 of 18 Page ID #:27150

ER 208

Pet. App. 304

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 30 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 16 of 18 Page ID #:27151

ER 209

Pet. App. 305

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 31 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 17 of 18 Page ID #:27152

ER 210

Pet. App. 306

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 32 of 246
Case 2:03-cv-08571-PSG Document 183-2 Filed 01/05/16 Page 18 of 18 Page ID #:27153

ER 211

Pet. App. 307

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 33 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 1 of 10 Page ID #:27154

ER 212

Pet. App. 308

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 34 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 2 of 10 Page ID #:27155

ER 213

Pet. App. 309

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 35 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 3 of 10 Page ID #:27156

ER 214

Pet. App. 310

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 36 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 4 of 10 Page ID #:27157

ER 215

Pet. App. 311

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 37 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 5 of 10 Page ID #:27158

ER 216

Pet. App. 312

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 38 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 6 of 10 Page ID #:27159

ER 217

Pet. App. 313

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 39 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 7 of 10 Page ID #:27160

ER 218

Pet. App. 314

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 40 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 8 of 10 Page ID #:27161

ER 219

Pet. App. 315

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 41 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 9 of 10 Page ID #:27162

ER 220

Pet. App. 316

Case: 15-99020, 10/06/2016, ID: 10152346, DktEntry: 12-2, Page 42 of 246
Case 2:03-cv-08571-PSG Document 183-3 Filed 01/05/16 Page 10 of 10 Page ID #:27163

ER 221

Pet. App. 317

